<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-143]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-143

 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2647/S. 1172

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2002, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                          Office of Compliance
                       U.S. Capitol Police Board
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations



         Available via the World Wide Web: http://www.access.gpo.gov/
                            congress/senate


                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
70-861                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    COMMITTEE ON APPROPRIATIONS \1\

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  RICHARD J. DURBIN, Illinois
                                     TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                        Terry Sauvain (Minority)

    \1\ Committee and subcommittee memberships--January 25 to June 6, 
2001.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.
                    COMMITTEE ON APPROPRIATIONS \2\

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                        Terry Sauvain (Minority)

    \2\ Committee and subcommittee memberships--June 6, 2001 to July 
10, 2001.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.

                                     
                            C O N T E N T S

                              ----------                              

                         Wednesday, May 2, 2001

                                                                   Page
Joint Economic Committee.........................................     1
Library of Congress..............................................     5
Joint Committee on Taxation......................................    37
Library of Congress--Continued...................................    55

                         Thursday, May 10, 2001

Government Printing Office.......................................    69
General Accounting Office........................................    89
Congressional Budget Office......................................   113

                        Wednesday, May 16, 2001

U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......   125
U.S. Capitol Police Board........................................   153
Office of Compliance.............................................   171

                         Tuesday, June 26, 2001

Architect of the Capitol.........................................   179
Material submitted subsequent to the hearings....................   253
  

 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         WEDNESDAY, MAY 2, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present: Senators Bennett and Durbin.

                        JOINT ECONOMIC COMMITTEE

STATEMENT OF HON. JIM SAXTON, U.S. REPRESENTATIVE FROM 
            NEW YORK, CHAIRMAN


             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT


    Senator Bennett. The subcommittee will come to order.
    We have a series of panels this morning on appropriations 
for the coming year for a variety of agencies that come under 
our jurisdiction. The first one is the Joint Economic 
Committee. We are happy to welcome Congressman Saxton here, who 
is the chairman of that committee. I have a particular interest 
in that committee because I am the vice chairman. So, naturally 
we want to see that it is well funded.
    Mr. Chairman, we are delighted to have you here. We note 
that your request is the same as last year's with the cost-of-
living increase being the only change from last year to this 
year. Ninety-five percent of the request is pay for personnel. 
It is a 3.3 percent increase over fiscal year 2000. We welcome 
you as chairman of the committee and welcome you here.
    I have no pearls of wisdom to share with you in advance, 
but Senator Durbin, as the ranking member, we are always glad 
to hear from you.
    Senator Durbin. Senator Bennett, if you are deferring 
pearls of wisdom, I will too.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, it is a pleasure to be back this year as a member of 
the Legislative Branch Subcommittee, and I am especially proud to serve 
as the Ranking Member of the Subcommittee for the 107th Congress.
    We have made major investments in recent years in the agencies 
under the Subcommittee's jurisdiction. Some of those investments, 
unfortunately, have been demanded by the times in which we live (such 
as the need for security enhancements for the Capitol complex), and 
other investments have been driven by our desire to appropriately 
preserve and maintain for future generations the treasures and 
artifacts of our Nation's history.
    As legislators, we make decisions every day that impact the lives 
of our constituents. We make choices which set the course of this great 
Nation. Many of our decisions are based on information statistical 
data, budget analyses, research and reports provided to us by the 
support agencies of the Legislative Branch, such as the Library of 
Congress, Congressional Research Service, General Accounting Office, 
Congressional Budget Office, the Joint Committee on Taxation, the Joint 
Economic Committee, and others. We rely on the accuracy of their data 
to guide us in our decision-making. And, while we ask for efficiency in 
their operations, we also recognize that these support agencies need to 
be provided sufficient funds to do their job well. I trust that we will 
be able to do that this year.
    Before we begin our first hearing this morning, I take this 
opportunity to commend you, Mr. Chairman, for the diligence and 
foresight you have exhibited as Chairman of the Subcommittee, and I 
very much look forward to working with you this year.

    Senator Bennett. Very good.
    Mr. Chairman, thank you for being here, and we look forward 
to hearing your comments.

                   JOINT ECONOMIC COMMITTEE RESEARCH

    Mr. Saxton. Let me just say at the outset I have a 
statement which I will just submit for the record. It is 
probably 4 or 5 minutes long, so we will just dispense with 
that.
    Let me just say that the Joint Economic Committee, as both 
you, Mr. Chairman, and Senator Durbin know, is an organization 
which looks at what is happening in the economy and relates it 
to various Federal policies that may be affecting the economy 
in one way or another.
    Recently we have spent a great deal of time looking at 
Federal Reserve policy, for obvious reasons. We have, in a 
sense, championed Fed policy over the last decade or so, 
recognizing that they did a great job in squeezing inflation 
out of the economy. When the Fed started to tighten a year or 
so ago, we looked at it again, but this time in a slightly more 
skeptical way and I communicated this to the Fed. We are glad 
to see that they have again turned the corner and are again 
pursuing policies of economic growth.
    As an example of the work that we do, I brought this Joint 
Economic Committee report entitled, Current Economic Conditions 
and Outlook, with me, which I will leave with you for the 
record, or for whatever purpose you think is important. It is a 
look at the current economic conditions, with many charts and 
graphs, which I like because it makes all of this economic talk 
much easier to understand. I will just share that with you and 
stand ready to answer any questions you may have.

                          PREPARED STATEMENTS

    Also, let me ask for consent to place Senator Jack Reed's 
statement in the record. He is the ranking member of the Joint 
Economic Committee.
    Senator Bennett. Without objection, it shall be placed in 
the record.
    [The statements follow:]

              Prepared Statement of Congressman Jim Saxton

    Mr. Chairman and Members of the Subcommittee, it is a pleasure to 
present my strong support for the fiscal year 2002 budget request of 
the Joint Economic Committee (JEC). During the 107th Congress, the 
Committee will have two productive years of hearings, studies, and 
reports on the important economic challenges facing our country. 
Naturally, I am pleased that the Committee's research has been well 
received, and our website has been designated as one of the three top 
committee websites on Capitol Hill by the nonpartisan Congressional 
Management Foundation.
    As we know, the Congress must have the capability to provide 
dependable information of high quality to its Members before important 
economic policy decisions are made. The Executive Branch has a number 
of agencies with sizable resources devoted to economic and statistical 
analysis, and Congress needs to have access to as much comparable but 
independent analysis as possible through entities such as the JEC. The 
budget of the JEC is insignificant compared to the offices for economic 
and statistics scattered throughout each agency of the Executive 
Branch. In short, as a co-equal branch of government, Congress needs 
the capability for independent economic analysis, even if it is on a 
much smaller scale than that of the Executive Branch.
    This need for economic analysis is especially obvious during 
periods of rapid economic change, as at the present time. The Committee 
is closely monitoring the various aspects of the economic slowdown, 
issuing several papers charting its course since the end of last year. 
The Committee will continue to work with the Bureau of Labor Statistics 
(BLS) in reviewing new employment and unemployment data through 
analysis and periodic hearings. The Committee will also continue to 
monitor the increasingly fragile international economic situation and 
make constructive contributions to policy in this area as well.
    The Committee has also focused on monetary policy over the last 18 
months, and I have suggested that there was a danger of over-tightening 
monetary policy that could result in an economic slowdown. 
Unfortunately, this economic slowdown, influenced by the stock market 
meltdown and energy problem, has become a serious problem.
    Another recent area of research has been focused on the area of 
personal saving and investment. The Committee's research has found that 
the current tax treatment of capital gains distributions to mutual fund 
investors unnecessarily triggers sizable tax payments even when the 
shares are not sold. This is identified as a major impediment to saving 
and investment by middle class households.
    Future research will focus on a variety of issues related to 
macroeconomic performance, taxation, debt management, and a variety of 
other issues.
    I appreciate the opportunity to appear before the Subcommittee 
today and would be glad to try to answer any questions that you might 
have.
                                 ______
                                 
                Prepared Statement of Senator Jack Reed

    Mr. Chairman and Members of the Subcommittee, I am submitting this 
statement to indicate my strong support for the fiscal year 2002 budget 
request of the Joint Economic Committee (JEC). The Committee fulfills 
an important function for the Congress by providing dependable and high 
quality information on the state of the economy and on the economic 
effects of alternative policy proposals. This information must be based 
on sound analysis that is both timely and keyed to the needs of the 
Congress. While the size and budget of the Committee are small compared 
to those of the many Executive Branch agencies that do such analyses 
for the Administration, the JEC provides Congress with an independent 
look at the economic issues that affect our nation and shape our 
policies. Through the Committee, members of Congress have access to 
economic analyses that are immediately relevant to the issues they must 
address.
    The role of the Committee is especially important when economic 
conditions are uncertain and subject to possible changes, as they are 
now. In this environment, fast turn-around analyses of the economic 
effects of specific policy proposals must be available to members if 
they are to make the best possible policy decisions. In addition, on-
going monitoring of the state of the economy is needed to allow members 
to gauge the need for new policy initiatives. Both the Republican and 
Democratic staffs of the Committee have plans to produce studies 
addressing these needs during the coming session of Congress. The 
Democratic staff of the Committee is also producing a Weekly Economic 
Digest, a brief summary of current economic data that highlights 
changing conditions as they occur. The Democratic members of the 
Committee will also continue to work with the Chairman and the Bureau 
of Labor Statistics (BLS) in monitoring new employment and unemployment 
data through analysis and periodic hearings.
    I would like to commend my colleague, Chairman Jim Saxton, for his 
strong leadership and defense of the Committee over the past several 
years. The need for the information and the analysis the Committee can 
provide is even greater now than it has been in the past. I would like 
to join with Chairman Saxton is urging you to approve this budget 
request.

    Senator Bennett. I must share with you, Mr. Chairman, a 
comment that I received from Alan Greenspan when I succeeded 
Connie Mack as the senior Republican on the Senate side on this 
committee. We talked about some of the things that we could do 
in the committee. One of the nice things about Chairman 
Greenspan is that he represents significant institutional 
memory in this town, and he said when Hubert Humphrey was the 
Chairman of the Joint Economic Committee, he made it look as if 
every other committee on Capitol Hill was irrelevant.
    I do not think necessarily this is a goal to which you 
aspire, but I share that with you to encourage you to be far-
reaching in the things you look at, and certainly to the degree 
you will allow me as vice chairman to act, I intend to look at 
a wide variety of things.
    I have talked with Jack Reed, and we intend our first 
hearing on the Senate side will be on energy policy because 
certainly energy is emerging as a major economic influence in 
the years ahead.
    But we appreciate what you are doing here. It maybe frees 
us up on the Senate side to be a little more free-ranging. We 
do hope that we can have the high tech summit before the JEC 
again this year, as we have done in the past 2 years, and we 
appreciate your support.
    I have nothing further. Senator Durbin, do you have any 
comments?
    Senator Durbin. No, Senator Bennett. Just by historic 
perspective, when I first started as an intern in the United 
States Senate in 1966, I worked for Senator Paul Douglas who 
was a proud member of the Joint Economic Committee. I have 
always felt that this committee is a great forum for 
congressional discussion of economic issues and analyses. I 
want to make sure it is well funded and we meet their 
resources. Good work. Happy to work with you.
    Mr. Saxton. Thank you.
    Senator Bennett. I had not realized you worked for Senator 
Douglas. Now I know the source of your somewhat interesting 
economic positions.
    Thank you very much, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Chairman.
    Senator Bennett. We appreciate that.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, THE LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES

    Senator Bennett. We now go to the Joint Committee on 
Taxation. Congressman Thomas, who is the chairman of that 
committee, has been detained. So, we will go directly then to 
the Library of Congress. We welcome Dr. James Billington.
    Dr. Billington, we welcome you. We also welcome Mr. 
Mulhollan, but we are going to get to you separately because 
you have your own jurisdiction under Dr. Billington. Dr. 
Billington, it is a delight to see you. We are always glad to 
have you here and look forward to hearing whatever it is you 
have to tell us.
    Dr. Billington. Thank you very much, Mr. Chairman. General 
Scott, the Deputy Librarian, and I appreciate----
    Senator Bennett. Yes, we should note for the record that 
the Deputy Librarian, General Scott, is accompanying Dr. 
Billington. I apologize.
    Dr. Billington. We appreciate the opportunity to appear 
before the subcommittee. I want to thank you and the committee 
sincerely for your continued support for the library.

                   COPYRIGHT OFFICE BUDGET ADJUSTMENT

    I would just note briefly at the beginning that the library 
is reducing by $2.7 million the budget request we originally 
submitted for the Copyright Office, and that is explained in my 
longer statement.

               MAJOR ELEMENTS OF LIBRARY'S BUDGET REQUEST

    Mr. Chairman, the four major elements of the Library's 
fiscal year 2002 budget request are, first of all, the 
mandatory pay and price level increase of $20 million. The 
Library's budget overwhelmingly funds people and technology, 
categories where costs increase each year because of mandated 
pay raises and inflationary price level increases. So, the $20 
million request is just to fund these inescapable mandatory 
price increases.
    The second element in the request is the digital futures 
increase of $18.8 million for fiscal year 2002, which is needed 
to support, first of all, the Congressional Research Service's 
delivery of policy analysis and research, which Mr. Mulhollan 
can explain in more detail; also the National Digital Library's 
continuing infrastructure requirements; and the Library's 
computer security infrastructure.
    Technology is, as you well know, going to define how we do 
business with our principal client, the Congress, for the 
foreseeable future, and the Library's digital futures budget 
request of $18.8 million is independent of, but is a 
prerequisite for the responsible use of the special 
appropriation last year of $99.8 million to lead a national 
strategic planning effort and help fund the cooperative efforts 
with others for long-term preservation of digital materials. 
But in the meantime, the Library's own digital infrastructure 
has to be adequately sustained.
    The third element in the budget is the needed increase of 
$11.8 million for collections access, preservation, and 
security. The Library's massive, multi-formatted collections 
remain the heart of the institution. All of these traditional 
artifactual collections continue to grow. We get 22,000 items a 
day, of which we keep between 8,000 and 10,000. This continues 
to grow, sometimes at accelerating rates throughout the world, 
and the Library must invest more in securing and preserving 
these primary assets.
    The increased fiscal year 2002 budget request will enable 
the Library to deacidify and thus prolong the life of books 
printed on deteriorating paper, test options for developing a 
paper-strengthening capability, clean and repair materials 
destined for remote storage, and begin realigning the multi-
million volume general collections when we have the opening of 
the first Fort Meade repository later this year so that all 
books are housed in optimal locations and in proper conditions. 
Finally, it enables, in particular, the American Folklife 
Center to reduce its very large arrearage while also launching 
a new project, unanimously approved in the last session of 
Congress, to develop a Veterans Oral History Program so that 
future generations will have access to the stories of Americans 
who served their country in our 20th century wars.
    The final element in our request reflects program 
reductions of $121.4 million. Several activities that were 
approved for fiscal year 2001 do not require additional funding 
in fiscal year 2002. The biggest by far, of course, is the 
special one-time appropriation of $99.8 million for the 
national digital information infrastructure and preservation 
program. The fiscal year 2001 budget provided multi-year 
funding for this important new congressional initiative which 
recognizes that the Library has to develop a national plan in 
order to be able to integrate new Internet digital materials 
into its historic mandate to preserve and provide access to the 
record of human experience.
    Because of the very large program reductions, the Library's 
budget request totals a decrease of $68.4 million or 13.4 
percent below the fiscal year 2001 total appropriation.

           ACQUISITION AND PRESERVATION OF DIGITAL MATERIALS

    At the start of this third millennium and the Library's 
third century, Mr. Chairman, the Library has to acquire, 
preserve, and ensure rights-protected access to a tidal wave of 
material that is often available only in digital form. This is 
playing an increasingly important role in the whole 
intellectual, commercial, and creative life of the United 
States. The amount of so-called ``born digital'' works that 
have already been lost is unknown, but it is very substantial. 
The average life of a Web page is only about 75 days. Given the 
immeasurable size, the uneven quality, and the short life span 
of much of the Web's content, the Library faces an 
extraordinary and quite unprecedented challenge in sorting and 
archiving what ought to be preserved. We must, as a result, 
develop a whole new range and type of partnerships and 
cooperative relationships if we are to continue fulfilling our 
basic library function in the new digital universe.
    In conformity with the Congress' recent special 
appropriation, the Library is in the process of formulating a 
national strategy for the life cycle management of digital 
materials and integrating that management into the national 
collection. We had our first meeting with our national 
technological advisory board yesterday. There is a great deal 
of enthusiasm and buy-in in the beginning of this process of 
developing a genuine national plan and beginning to implement 
it.
    The Library must also make sure that it has a digital 
infrastructure that can be scaled up in the future to support 
and sustain this kind of a cooperative national digital 
information strategy. Our digital futures increase is largely 
in three areas: first, developing a digital repository 
architecture that will preserve current and future digital 
assets acquired for the permanent universal collection in the 
new media; secondly, providing the basic technology 
infrastructure and support components that must be in place to 
enable the Library's program managers and specialists to retain 
and deliver a digital library using software, hardware, 
telecommunications, and technical supporting staff; and 
finally, providing access services that will sustain the 
Library's digital outreach to the Nation, which reached last 
year about 1 billion electronic transactions. So, this goes up 
geometrically and, we think, healthily, but it puts a 
tremendous strain on the Library's basic infrastructure.
    Mr. Chairman, librarians will be needed more than ever 
before as objective knowledge navigators amid the sea of 
unorganized, often highly undependable, and sometimes quite 
objectionable information that is increasingly inundating the 
Internet.
    Libraries will be needed to assure free public access for 
those who would otherwise be on the losing side of the digital 
divide, which is a reality, and also for those who might 
otherwise never learn to work both with the new information and 
with the old books. There is something very healthy about 
bringing the two together rather than keeping them separate. 
Libraries, like America itself, add the new without subtracting 
the old. That is a unique feature.
    Properly used, as we add the new electronic material into 
the old artifactual libraries, the Internet will help both 
scientifically to solve common problems that are shared by 
widely dispersed groups in fields like health, the environment, 
and so forth, and, at the same time, humanistically educate and 
inform our own people by sharing on-line materials that 
stimulate learning and communicate the distinctive cultural 
identities and histories and stories of different peoples.
    On behalf of the Library and its staff, I want to once 
again thank the Congress and the American people for the 
outpouring of support for the Library during its bicentennial 
celebration last year, in which we increasingly tried to focus 
on the future and on doing things that would lead us into the 
future.
    The library is entering a critical period when it must, in 
effect, superimpose a select library of digital materials on 
top of its undiminished needs to sustain a traditional 
artifactual library. Many parts of the world are just entering 
the print age, even as we all move into the Internet age, and 
those vital records have got to be sustained.
    We are not seeking appropriations for any new function. We 
are merely trying to sustain our historic core function of 
acquiring, preserving, and making accessible knowledge and 
information, which in various forms are now being increasingly 
generated and communicated in this radically new and rather 
impermanent medium.
    With congressional support of our fiscal year 2002 request, 
the Library will be able to continue its dedicated service to 
the work of Congress and to the creative life of the American 
people.

                          PREPARED STATEMENTS

    I hope, Mr. Chairman, that each of you have a chance to 
look at the packet of materials before you and also to log on 
and see what services are available to your staff and to 
millions of other Americans each and every day from the 
Congress' library. I had many occasions to say during the 
bicentennial year in a variety of formats that the Congress of 
the United States has been the greatest single patron of the 
Library in the history of the world. We thank you for that. We 
are conscious of our responsibilities to bring it into the 
digital age. We thank all of you and we will be glad to respond 
to any questions that you might have, Mr. Chairman.
    [The statements follow:]

               Prepared Statement of James H. Billington

    The Library celebrated its bicentennial in 2000 by focusing on the 
future. The Internet has added a new dimension to the Library's 
historic mission of sustaining and preserving a universal collection 
and making its resources useful to the Congress and the American 
people. The new digital communications offer this unique institution 
extraordinary opportunities to achieve new levels of service to the 
Congress for its legislative work and to citizens in search of 
knowledge in every Congressional District. The Library created for its 
bicentennial an on-line library of more than five million historically 
significant digital items that are now available free of charge on the 
Internet to people wherever they live. More than 120 million Americans 
now have personal Internet access, and 95 percent of K-12 schools and 
most public libraries can provide access for those who cannot afford 
personal computers. The Library of Congress received almost one billion 
electronic transactions in 2000.
    We deeply appreciate the Congress's approval of the Library's 
fiscal 2001 budget, including permanent status for the 84 positions 
that made possible our award-winning National Digital Library (NDL) 
Program. This action permits us to retain for our broadening digital 
future the innovative talents, technical expertise, and Library 
experience of those who will be able to help us face the massive 
challenges that lie ahead: incorporating digital material into our 
universal holdings, ensuring their long-term preservation, and making 
them accessible to the Congress and the nation. The Library, at the 
same time, must sustain its traditional artifactual collections (the 
amount of print materials also continues to grow worldwide) and move 
its services to the Congress and to the Copyright community rapidly 
into the electronic age. All this and more we must do with a staff 
considerably smaller than a decade ago.
    Our NDL efforts have won many awards and widespread praise. Joyce 
Valenza, a librarian at Springfield Township High School in 
Pennsylvania, states: ``I use the American Memory Web site to bring an 
immediacy to history that kids can't get from textbooks.'' Richard 
Geib, a history and English teacher at Milkin Community High School in 
Los Angeles, writes: ``I am a teacher who has found your site 
enormously helpful in presenting/building digital lectures for my 
students. I cannot remember the last time I derived such direct benefit 
from my tax dollars!''
    Building on such success, the Library launched on April 24, 2000, 
its two-hundredth birthday, a new Web site (AmericasLibrary.gov) 
designed to introduce children and families to American history. This 
site--which is recording more than eight million electronic hits each 
month--is being promoted by the first pro bono campaign for a library 
program ever conducted by the Advertising Council. With virtually all 
K-12 public schools now connected to the Internet, the Library is 
positioned to make a major contribution toward the nation's educational 
development and future productivity.
    The Library's main priority in the digital arena is to help the 
Congress and generations of researchers quickly gain access to relevant 
and verifiable information in digital formats, while ensuring that the 
rights of content creators and producers are respected. The exponential 
growth of the Internet is fostering an explosion of material that 
increasingly is produced only in digital formats. These so-called 
``born digital'' works are growing so rapidly that an international 
consulting firm, Accenture (formerly Andersen Consulting), predicts 
that the sale of e-books will reach $2.3 billion by 2005. The Library 
is facing the massive challenge of applying its traditional strengths 
of acquiring, preserving, describing, and making accessible knowledge 
and information to the rapidly growing but often ephemeral mass of 
material produced only in digital form. The Library must apply its 
unique experiences and resources for organizing knowledge and 
information with in-depth subject and language expertise to the 
unstructured and unfiltered world of the Internet if it is to continue 
informing and serving the Congress and the nation.
    As part of the Consolidated Appropriations Act, 2001, the Congress 
provided to the Library a special $99.8 million appropriation to 
develop a cooperative nationwide collection and preservation strategy 
for digital materials. In collaboration with other Federal and 
nonfederal entities, the Library is mandated to develop a phased 
implementation plan that will lead to a national strategy for a network 
of libraries and other organizations to share responsibilities for 
collecting, maintaining, and providing permanent access to digital 
materials. The plan will also develop, in concert with the Copyright 
Office, strategies for defining national policies and protocols for the 
long-term preservation of digital materials and for the technological 
infrastructure that will be required for the Library to play its key 
role in the collaborative national network.
    This new congressional direction recognizes that the Library must 
integrate the new Internet/digital medium into its historic mandate to 
preserve and provide access to the record of human experience. Of the 
total appropriated, $75 million is to be made available as this amount 
is matched by nonfederal donations, including in-kind contributions, 
through March 31, 2003.
    Two years ago, I commissioned an independent study by the National 
Academy of Sciences (NAS), a private, nonprofit science and technology 
research organization, to provide an outside assessment of our 
technology efforts and general advice on an information technology path 
for the Library in the next decade. Experts on the Computer and Science 
Telecommunication Board of the National Research Council of NAS 
produced in July 2000 their report, LC 21: A Digital Strategy for the 
Library of Congress. It suggested that the Library ``needs to be more 
proactive in bringing together stakeholders as partners in digital 
publishing and digital library research and development.'' The report 
called for the Library to assume leadership in many areas, such as 
supporting and promoting research and development in digital 
preservation, coordinating metadata standards for digital materials to 
extend and transform cooperative cataloging in the Internet context, 
and helping the U.S. library community work with electronic publishers 
and others to resolve the legal and technical questions that relate to 
digital works.
    The Library's fiscal 2002 budget recognizes the Library's special, 
new congressional mandate to develop a national digital infrastructure 
and preservation plan in collaboration with other Federal and 
nonfederal entities for the Congress and the nation. At the same time, 
the Library must continue to construct the digital-repository 
architecture and basic technology infrastructure that will enable us to 
preserve current and future digital assets--building on many of the NAS 
recommendations.
    The fiscal 2002 budget request contains four major elements. Before 
I explain those elements, I would like to notify the committee that the 
Library is withdrawing the Copyright Office's request of $2,688,109 and 
13 FTEs to accelerate the development of the Copyright Office's 
electronic registration, recordation, and deposit system (CORDS). Since 
the date the Library's fiscal 2002 budget was submitted to the 
Congress, the Copyright Office has received new information from its 
reengineering project team that points to the need to do further 
analysis of the Office's total systems requirements before any further 
acceleration of the CORDS systems is undertaken. We are also reducing 
the Copyright Office's use of receipts by the $1.1 million that was 
budgeted to fund a portion of the CORDS project. I ask that the 
Congress maintain the fees accumulated in the Copyright Office's no-
year receipt account (including the $1.1 million) for the inescapable 
and significant automation costs that we know will be necessary to fund 
the Office's electronic transformation in the future. The Register of 
Copyrights, Ms. Marybeth Peters, will elaborate further on this change 
and the critical need to maintain the no-year receipt account in her 
statement. The numbers contained in this statement have been adjusted 
to reflect the decision to withdraw the Copyright Office's request.
    Program Decreases ($121.4 million).--The Library's fiscal 2001 
budget provides no-year funds for several activities that do not 
require additional funding in fiscal 2002 and may or may not continue 
beyond fiscal 2001. Specifically, the National Digital Information 
Infrastructure and Preservation Program ($99.8 million), the 
establishment of a Center for Russian Leadership Development ($10 
million), three digital access projects ($10.6 million), and a phased 
reduction in the Integrated Library System ($1 million) are program 
decreases in fiscal 2002.
    Mandatory Pay and Price-level Increases ($20 million).--The 
Library's budget funds primarily people and technology--categories 
where costs increase each year because of mandated pay and inflationary 
price-level increases. Unless these increases are funded, existing 
programs must be cut. Funding our fiscal 2002 budget request for 
mandatory pay and price-level increases will enable the Library to 
sustain its basic, traditional services while addressing its 
inescapable digital future.
    Digital Futures Increases ($18.8 million).--The Library's digital 
futures budget request for fiscal 2002 covers support for the 
Congressional Research Service's conduct and delivery of policy 
analysis and research; the National Digital Library's continuing 
infrastructure requirements; and the Library's computer security 
infrastructure. Technology is going to define how we do business with 
our principal client, the Congress of the United States, for the 
foreseeable future. The Congressional Research Service (CRS) must have 
necessary policy expertise to assist the Congress as it considers laws 
affected by technology. The Director of CRS, Daniel Mulhollan, will 
elaborate further on this request in his statement.
    Collections Access, Preservation, and Security Increases ($11.8 
million).--The Library's massive multiformat collections are the heart 
of the institution. As these artifactual collections continue to grow, 
reflecting the unceasing creativity of American and other authors, the 
Library must continue to invest in securing and preserving these 
cultural records, our primary assets. The funds requested for 
collection care will enable the Library to deacidify books printed on 
deteriorating paper; test options for developing a paper-strengthening 
capability; clean and repair materials destined for remote storage; 
and, following the opening of the Ft. Meade repository this year, we 
will begin realigning the multimillion-volume general collections so 
that books are properly housed.
    The Library's budget request for fiscal year 2002--$442.7 million 
in net appropriations (as adjusted) and $34.7 million in authority to 
use receipts--supports the Library's mission to make its resources 
available and useful in the increasingly digital 21st century. This is 
a net decrease of $68.4 million or 13.4 percent below fiscal 2001 
($121.4 million in decreases less program increases of $51.6 million 
and receipts decreases of $1.4 million). A major part of the $51.6 
million in program increases ($20 million) is needed to fund mandatory 
pay raises (driven largely by the January 2002 pay raise of 4.6 
percent) and unavoidable price-level increases. The Library is 
requesting an increase of 108 full-time equivalent (FTE) positions--
from 4,099 to 4,207 FTEs. Even with such an increase, the Library would 
still have 342 fewer FTEs (or 7.5 percent less) than in fiscal 1992.

                     THE LIBRARY OF CONGRESS TODAY

    The core of the Library is its incomparable collections--and the 
specialists who interpret and share them. The Library's nearly 121 
million items include almost all languages and media through which 
knowledge and creativity are preserved and communicated.
    The Library has more than 27 million items in its print 
collections; 12 million photographs; 4 million maps, 2 million audio 
recordings; 800,000 motion pictures, including the earliest movies ever 
made; 4 million pieces of music; 54 million pages of personal papers 
and manuscripts, including those of 23 Presidents of the United States, 
as well as hundreds of thousands of scientific and government 
documents.
    New treasures are added each year. Notable acquisitions during 
fiscal 2000 include: nearly 100 additional old volumes to help 
reconstruct Thomas Jefferson's original library; a rare, complete and 
perfect Venetian map of 1559 describing the whole world; the maps drawn 
by Lafayette's cartographer; the papers of Philip Roth and Lucas Foss, 
the Kenneth Walker architectural drawings; the letters of Edna St. 
Vincent Millay; the first known map of Kentucky; the Coville 
Photography collection; a unique collection of Russian sheet music 
covers; and the film collection of Baron Walter de Mohrenschildt. 
During fiscal 2000, the Library also reached agreement on the regular, 
ongoing deposit of the archives of electronic journals published by the 
American Physical Society; continued its relationship with Bell &amp; 
Howell on cost-effective access to its digital archive of U.S. doctoral 
dissertations; and built on the existing gift agreement with the 
Internet Archive to select and acquire open-access Web resources of 
special interest to the Library--such as the Web sites of all U.S. 
Presidential candidates.
    Every workday, the Library's staff adds approximately 10,000 new 
items to the collections after organizing and cataloging them. The 
Library then finds ways to share them with the Congress and the 
nation--by assisting users in the Library's reading rooms, by providing 
on-line access across the nation, and by featuring the Library's 
collections in cultural programs.
    Major annual services include delivering more than 590,000 
congressional research responses and services, processing more than 
580,000 copyright claims, circulating more than 22 million audio and 
braille books and magazines free to blind and physically handicapped 
individuals all across America, and cataloging more than 250,000 books 
and serials that provide the nation's libraries with inexpensive 
bibliographic records and save them an estimated $268 million annually.
    The Library also provides free on-line access, via the Internet, to 
its automated information files, which contain more than 75 million 
records--to congressional offices, Federal agencies, libraries, and the 
public. The Library's Internet-based systems include major World Wide 
Web (www) services (e.g, Legislative Information System, THOMAS, 
(www.loc.gov), Global Legal Information Network, the Library of 
Congress On-line Public Access Catalog, at www.catalog.loc.gov), and 
various file transfer options.
    Library of Congress programs and activities are funded by four 
salaries and expenses (S&amp;E) appropriations supporting congressional 
services, national library services, copyright administration, services 
to blind and physically handicapped people, and management support. A 
separate appropriation funds furniture and furnishings.

                      DIGITAL FUTURES INITIATIVES

    The Library of Congress is bringing America's story--in all its 
variety--to everyone, whether at work, in their homes, in schools, or 
in libraries. The digital explosion has imposed on us a new mission-
critical workload and the need to expand our high-quality free on-line 
services to the Congress, K-12 education, and the American public. This 
task must be superimposed on our equally critical traditional services 
of acquiring, cataloging, preserving, serving, and storing artifactual 
materials. The Library is requesting $18.8 million and a 80-FTE 
increase to support the Digital Future, which consists of three 
components:
    National Digital Library (NDL).--The Library is requesting 
$14,582,963 and 58 FTEs to: (1) develop a digital-repository 
architecture to preserve current and future digital assets acquired as 
part of the Library's permanent universal collection ($2,718,895); (2) 
provide the basic technology infrastructure and support components that 
must be in place (software, hardware, telecommunications, and technical 
support staffing--$10,172,967) to enable the Library's program managers 
and specialists to retain and deliver a digital library; and (3) 
provide access services for sustaining the Library's digital outreach 
to the nation ($1,691,101). This request supports the Library's 
investment in the ongoing digital library program and infrastructure, 
which provides access to important educational content. This request 
will provide the resources to manage the full life cycle of digital 
materials housed at the Library of Congress.
    The Library's fiscal 2002 NDL budget request of $14,582,963 is 
independent of--but compliments the responsible use of the special 
appropriation of $99.8 million to lead a national strategic planning 
effort for long-term preservation of digital materials. The Library's 
experience in launching and delivering digital content and services to 
the Congress and the public will inform and help shape this program. 
But the Library's ability to do so depends on further support for its 
own inescapable needs. The Congress directed that only $4,989,000, of 
the $99.8 million special appropriation, may be initially spent for 
planning as well as for the acquisition and preservation of digital 
information that may otherwise vanish. The legislation calls for the 
Library to work jointly with other Federal and nonfederal entities to 
develop a phased and shared implementation plan to collect, maintain, 
and provide permanent access to digital materials. We are planning to 
build a national network of partners for collecting and preserving 
digital materials with the Library as the primary partner and 
facilitator of that process. After developing both the plan and the 
collaborative process with Federal and nonfederal partners, the Library 
must gain congressional approval of the implementation plan--at which 
time an additional $19,956,000 and $74,835,000 (with matching funding) 
would become available as specified in the legislation.
    The Library's internal resource requirements will ultimately be 
shaped by this collaborative process. We estimate that the plan will be 
completed in late 2001; but this request for $14.6 million is needed to 
position the Library for the heavy added responsibilities it will have 
to assume, both to sustain its already taxed existing services and to 
prepare the Library for the key role it will have to play in preserving 
``born digital'' materials.
    Congressional Research Service.--The Library is requesting 
$3,491,044 and 17 FTEs for CRS to support the research needs of the 
Congress. The request focuses on strengthening CRS's capacities to 
support the Congress in the new technology-dependent environment, which 
has significantly changed how the Congress works. CRS needs added 
resources to address serious and significant gaps in its capacity to 
analyze increasingly complex technology policy issues, to conduct 
collaborative research, and to enhance its ability to apply technology 
to work and communication processes.
    Computer Security.--The Library is requesting $686,088 and 5 FTEs 
to support the Library-wide Information Technology Services security 
program. The Library's on-line services represent a critical 
infrastructure for the operations of the legislative branch and the 
nation. The new age of Internet opportunities also brings with it 
vulnerabilities of the Library's automated systems to intrusion and 
destruction. The Library is addressing these vulnerabilities by 
implementing its Computer Security plan and needs these resources to 
ensure the protection of our information assets.

             COLLECTIONS ACCESS, PRESERVATION, AND SECURITY

    A primary mission of the Library is to provide access to, preserve, 
and secure its vast and largely irreplaceable artifactual collections. 
The Library is requesting $11.8 million and a 24-FTE increase for 
collections access, preservation, and security. Components of the 
increase are:
  --$3,205,500 to acquire motion picture and sound recording 
        equipment.--Several critical pieces of equipment that support 
        the Library's Motion Picture, Broadcasting and Recorded Sound 
        (MBRS) Division require replacement. The purchase of a Telecine 
        machine ($1,800,000) and two film processors ($385,000) is 
        critical given the lead time necessary to purchase, 
        manufacture, and install the equipment at the National Audio-
        Visual Conservation Center in Culpeper, Virginia, during its 
        construction. A new Telecine machine is desperately needed to 
        convert film to video formats and create access copies for use 
        by researchers including congressional offices and staff. The 
        Telecine transfer process is the only method for making films 
        in the Library's collections accessible to constituents for 
        research use. The Library's existing Telecine machine is more 
        than 16 years old and increasingly difficult and costly to keep 
        in operation.
  --$1,371,618 to support improved inventory management of the 
        collections.--Accomplishing inventory management of the 
        Library's books and bound periodicals is a cornerstone of the 
        Library's collections security plan. The Library of Congress 
        Integrated Library System (LC ILS) provides, for the first 
        time, the potential for effective tracking and inventory 
        control of all the Library's books and bound periodicals. The 
        essential next step is to conduct a physical inventory that 
        verifies the LC ILS item records with what is on the Library's 
        bookshelves. A physical inventory will assure that the LC ILS 
        item records that are available on-line accurately reflect what 
        the Library actually has on the shelf. The need to accomplish a 
        physical inventory has been cited in studies and audits for 
        many years. The Library's has consistently responded that the 
        LC ILS will at last provide a tool to support a comprehensive 
        inventory of the book collections. The Computer Science 
        Corporation, KPMG Peat Marwick, and the Library's own risk 
        assessments all highlight the lack of and need for the next 
        step: effective inventory control and tracking.
      Establishing an accurate base is critical to inventorying the 
        collections periodically, providing efficient internal and 
        external circulation, and measuring changes in the status of 
        items. This base consists of recording actual holdings and 
        other information contained on shelf-markers, or files such as 
        the ``negative shelflist'' maintained by the Library's 
        Collections Management Division. Effective inventory control 
        and tracking depend on including in the LC ILS database 
        physical location information, but this information can be 
        added to the LC ILS only if the Library has the human resources 
        necessary to input the data. The inventory process is both 
        urgent and lengthy, and the Library must begin and sustain this 
        effort as soon as possible, or it may never be able to validate 
        control over the collections.
  --$1,705,693 and 2 FTEs to support the second of five increments 
        required in our 30-year (one generation) mass deacidification 
        program.--A priority of the Library's preservation efforts is 
        deacidification of a significant portion of materials printed 
        on high-acid paper, which has dominated printing since the 
        middle of the 19th century. The Congress approved the first 
        increment of this critical program as part of the fiscal 2001 
        budget, and the Library requests a planned increase of 
        $1,705,693 and two FTEs to continue to scale up to $5.7 million 
        by fiscal year 2005. By 2005, the Library plans to have reached 
        the capacity to deacidify annually 300,000 books and 1,000,000 
        manuscript sheets.
  --$1,604,093 and 11 FTEs to support preventive conservation actions 
        for collection materials.--The Library is requesting funds for 
        a plan to preserve and protect the Library's most valuable 
        collections through cost-effective and efficient preservation 
        measures. The plan provides enhanced security and preservation 
        for collections through proper housing, stack maintenance, 
        handling, and shelving procedures. Implementation of this plan 
        would make possible additional monitoring of collection-storage 
        environments, additional preservation-quality housings to 
        stabilize select general and special collections, and 
        additional paper strengthening for too-brittle-to-serve 
        documents.
  --$996,596 to support the shifting of collections (includes $48,000 
        for equipment).--The Library is proposing a four-year program 
        that will realign collections with current reading room 
        locations and shift the remaining collections in the Thomas 
        Jefferson and John Adams buildings to take advantage of space 
        vacated by the transfer of collections to Fort Meade Module 1. 
        When Fort Meade Module 1 becomes operational in 2001, the 
        Library will be able to address its critical collections 
        storage space shortage on Capitol Hill. At present, more than 
        50,000 items are stacked on the floors throughout the decks, 
        with hundreds more being placed on the floor daily. Every day, 
        more than 1,200 new items arrive that must be accommodated in 
        the John Adams and the Thomas Jefferson building stacks. When 
        Fort Meade Module 1 is completed, the Library will begin 
        transferring 4,000 items per day from the John Adams and the 
        Thomas Jefferson buildings to Fort Meade, Maryland. Six months 
        after this transfer begins, the Library proposes to initiate a 
        four-year program to shift the collections remaining in the 
        John Adams and the Thomas Jefferson buildings to relieve 
        overcrowding and to serve better current and proposed reading 
        room locations. The project requires not only the direct 
        shifting of these collections, but also the integration of 
        significant quantities of material now on the floor and housed 
        in overflow areas. Approximately 16 million volumes will need 
        to be shifted, as well as the entire collection of microfilm 
        and microfiche. Although this program must be done according to 
        a specific logical sequence, it is imperative that it be done 
        as expeditiously as possible because the stacks are overcrowded 
        and much new material cannot now be properly accommodated.
  --$939,099 and 9 FTEs to support folklife heritage and access.--
        During fiscal 2000, the American Folklife Center (AFC) 
        developed a three-year strategic plan that addresses its core 
        mission. This plan was ratified by the AFC's Board of Trustees 
        at its spring 2000 meeting, and the Library's fiscal 2002 
        budget request responds to the goals and objectives that were 
        outlined and approved for the AFC. Additional resources would 
        increase documentation of unique American folk culture and the 
        processing and preservation of and public access to the 
        outstanding archival holdings of the AFC, which comprise more 
        than 1.5 million items.
      The Congress in October 2000 directed by unanimous vote (Public 
        Law 106-380) that the AFC establish an oral history program to 
        collect video and audio histories of veterans of our Armed 
        Forces who served during a period of war. The budget request 
        includes a modest request of $249,776 to begin developing the 
        nationwide partnership program called for in the authorizing 
        legislation. The Library is consulting with the congressional 
        sponsors, veterans, and with military service organizations to 
        develop appropriate partnerships, including the active 
        participation of Members of Congress. But at least this much 
        money is needed to embark upon this immense project.
  --$709,831 for improved physical control of the collections.--To 
        accomplish greater physical control, the Library proposes to 
        contract for security officers (contract guards) to permit 
        expanded security for three more reading rooms than are now 
        covered, to open two additional cloakrooms, and to establish 
        security at the Library's off-site collections storage site at 
        Fort Meade. All of these physical security steps are essential 
        elements of the Library's collections security plan.
  --$250,000 and 1 FTE to support the new National Recording 
        Preservation Act of 2000 (Public Law 106-474, approved November 
        9, 2000).--The Library is requesting $250,000 to establish the 
        new National Recording Registry and to implement the 
        comprehensive national sound recording preservation program. 
        The position is required to provide research and administrative 
        support for the new National Recording Preservation Board and 
        implement the national sound recording preservation program.

                              LAW LIBRARY

    The Law Library of Congress maintains the largest collection of 
legal materials in the world and also houses a unique body of lawyers 
trained in foreign legal systems to supply legal research and analysis, 
primarily for the Congress, on the laws of other nations, international 
law, and comparative law. More than 200 jurisdictions are covered by 
Law Library specialists, representing some 80 percent of the sovereign 
entities of the world that issue laws and regulations. The Law Library 
uses this talent to maintain and develop the breadth and depth of a 
demanding collection. In addition to the Congress, the U.S. Courts, and 
the executive branch, the legal community depends heavily on the Law 
Library's collections and the unique expertise of its foreign legal 
staff. The Law Library's staff of American-trained attorney-librarians 
plays a similarly critical role in providing reference services to the 
U.S. Congress whenever either chamber is in session (as mandated by 2 
U.S.C. Sec. 138).
    The Library is requesting a program increase of $1,030,388, 
primarily for expanding the use of contract support (in those areas 
where it has proven to be more cost-effective than hiring in-house 
staff) to improve the processing, access, and security of the Law 
Library collections, which now totals approximately one-eight of the 
Library's total book collection. The Law Library needs additional 
contract resources to process the average annual check-in of 150,000 
items a year and to maintain and make this unsurpassed collection 
accessible for meeting legal information needs of the Congress and the 
nation. The existing staff of eight technicians is inadequate to 
maintain services and make available a collection of 2.3 million 
volumes. Contractor support will provide the following essential 
collections maintenance activities: consistent shelf-reading (for 
collections in the book stacks, the Law Library reading room and five 
research directorate reference collections); prompt shelving of new 
acquisitions and reshelving of circulated items (more than 200,000 
annually); shifting of the collections; filing in various formats; 
annual review; weeding or reassignment of materials; and timely 
revision of affected LC ILS holdings records. In addition, contract 
funding is requested for coverage of the Law Library's microform 
collection during public service hours and to monitor increasing use of 
the foreign law research divisions' collections.

                            COPYRIGHT OFFICE

    The Library's Copyright Office promotes creativity and effective 
copyright protection--annually processing approximately 580,000 claims, 
of which more than 515,000 are registered for copyright. More than 
752,000 works were transferred to the Library during fiscal 2000, with 
an estimated value of $32 million. The Office also annually records 
approximately 18,500 documents with up to 400,000 titles and responds 
annually to more than 380,000 requests for information.
    The Library requests a decrease in the Copyright Office's 
Offsetting Collections Authority--from $23,500,000 to $21,880,000. The 
$1,620,000 decrease in Offsetting Collections Authority is based on 
projected annual registration receipts of $21,500,000 and the use of 
$380,000 from the Copyright Office no-year account.
    The Copyright Office no-year receipt account balance totals 
$4,289,000 as of September 30, 2000. Because registration receipts 
could be $2 million less than the authorized level ($23.5 million) 
during fiscal 2001, the no-year receipt account balance could drop to 
$2,289,000 as of September 30, 2001. The Copyright Office proposes that 
the no-year receipt account balance of $2,289,000 at the start of 
fiscal 2002 be used for information technology planning and development 
and to implement business process reengineering. The Library believes 
that the fees collected from the public that are in excess of current 
needs (i.e., the no-year account funds) should be retained for the 
significant automation improvements that will be essential to enhance 
service to the copyright community. The proposed receipts level of 
$21,880,000, is based upon the above projections and the retention of 
no-year funds for the future.
    The Copyright Office is in the process of assessing the current fee 
schedule to determine if fee adjustments are warranted in fiscal 2002. 
Even if the Office were to implement a fee increase on July 1, 2002, it 
would not now (as it did not in fiscal 1999) impact the year in which 
the change was effected (i.e., fiscal 2002).
    In fiscal 2000, the Copyright Office began a business process 
reengineering (BPR) project to study its major business processes. 
Using new technology, the Copyright Office is planning to improve 
customer service and enhance operational efficiency and security of the 
materials. The Copyright Office anticipates that major changes will be 
made over a period of several years after the study is completed later 
this year. The Library is requesting an increase of $644,000 to 
implement the BPR study, including $380,000 from Copyright Office no-
year funds and $264,000 from the furniture and furnishings 
appropriation.
    By implementing its collections security process of marking and 
tagging in a more cost-effective manner, the Copyright Office saved 
$620,000 in fiscal 2001. The Library will shortly forward a 
reprogramming request to the Committee to authorize permanently the use 
of these funds for the Copyright Office's information technology 
planning and development project. The approval of this reprogramming 
request is essential to the Copyright Office's efforts to improve 
automation and better provide public services.
    The Digital Millennium Copyright Act, ``DMCA,'' enacted at the end 
of the 105th Congress, gave the Copyright Office many new duties and 
responsibilities. The DCMA requires the Copyright Office to conduct a 
rulemaking every three years on exemptions that permit circumvention of 
technological access control measures in order to engage in 
noninfringing uses of copyrighted works. Two relatively narrow 
exemptions were granted on October 28, 2000, but at the conclusion of 
this process of conducting the rulemaking, I expressed several concerns 
that might warrant congressional consideration. The rapid changes in 
technology may require the rulemaking process to be conducted at 
intervals shorter than the triennial review enacted under the DMCA. In 
addition, I ask that the Congress address the further refinement of the 
appropriate criteria for assessing the harm to noninfringing uses in 
scholarly, academic, and library communities as well as guidance on the 
precise scope of the term ``class of works.''

   NATIONAL LIBRARY SERVICE FOR THE BLIND AND PHYSICALLY HANDICAPPED

    The Library administers a free national library program of braille 
and recorded materials for blind and physically handicapped persons 
through its National Library Service for the Blind and Physically 
Handicapped (NLS). Under a special provision of the U.S. copyright law 
and with the permission of authors and publishers of works not covered 
by the provision, NLS selects and produces full-length books and 
magazines in braille and on recorded disc and cassette. Reading 
materials are distributed to a cooperating network of regional and 
subregional (local, nonfederal) libraries where they are circulated to 
eligible borrowers. Reading materials and playback machines are sent to 
borrowers and returned to libraries by postage-free mail. Established 
by an act of Congress in 1931 to serve blind adults, the program was 
expanded in 1952 to include children, in 1962 to provide music 
materials, and again in 1966 to include individuals with other physical 
impairments that prevent the reading of standard print.
    The fiscal year 2002 budget maintains program services by funding 
mandatory pay and price level increases totaling $1,262,940. The budget 
also supports the exploration of alternative digital technological 
possibilities that would provide a less costly, more efficient, 
internationally acceptable, and user-friendly delivery system. Funding 
the fiscal year 2002 increase is necessary to ensure that all eligible 
individuals are provided appropriate reading materials.

                     LIBRARY BUILDINGS AND GROUNDS

    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested a capital budget of $10,105,000, an increase of $4,095,000. 
The AOC capital budget includes funding totaling $6,220,000 in 
appropriations for five projects that were requested by the Library.
    The largest Library-requested project, amounting to $5 million, is 
for the National Audio-Visual Conservation Center in Culpeper, 
Virginia. The Congress has approved the first two increments of the 
appropriations' share for the Center in fiscal 2000 and 2001 ($6.6 
million has already been appropriated). This fiscal 2002 budget request 
is the amount needed to build toward completing the Federal share of 
$16.5 million for renovating and equipping the facility. Assurance of 
the government support is critical in gaining the far larger amount (at 
least 75 percent of the total) that we are raising privately for this 
project.
    The four other Library-requested projects support the preservation 
of the Library's collections and space modifications in the James 
Madison Building. Library-requested projects, as well as AOC identified 
projects, are prioritized based on critical need and in accordance with 
both the strategic and the security plans of the Library.
    I urge the Committee to support the Architect's Library Buildings 
and Grounds budget, which is critical to the Library's mission.
    The Library is grateful for the decision by the Capitol 
Preservation Commission to authorize $700,000 for a design study of a 
tunnel between the Thomas Jefferson Building and the proposed Capitol 
Visitor Center. Since 1991, the Library has worked with Members of 
Congress and the Architect of the Capitol as an integral partner in the 
Visitor Center project. The Library offers unique resources for 
contributing to the mission of the Visitor Center through facilities 
that will permit sharing recorded performances from the world's largest 
collection of the performing arts and will showcase the unique role 
that the Congress has played in housing not just the mint record of 
American creativity but the personal papers of 23 American presidents 
and much of America's history in the Library's collections. The 
construction of a Visitor Center tunnel connecting the Capitol Building 
with the magnificent Thomas Jefferson Building provides direct access 
both (1) for the Congress to the Members' Room and the Jefferson 
Congressional Reading Room, and (2) for the public to the exhibition 
spaces in the building so beautifully restored by the Congress. The 
tunnel is a critical element of the project and should be approved for 
construction now rather than later.
    The Office of Compliance issued its Report on Fire Safety 
Inspections, Library of Congress Buildings, Conducted Under the 
Congressional Accountability Act on January 25, 2001, which was the 
culmination of a nearly 12-month fire and life safety inspection of 
Library of Congress buildings on Capitol Hill. This external audit, 
authorized by the Congressional Accountability Act, is a continuation 
of Office of Compliance inspection efforts that took place earlier at 
the U.S. Capitol, the U.S. Senate Office Buildings, and the U.S. House 
of Representatives Office Buildings. The fire safety issues that were 
identified in Library buildings are similar to those found in other 
Capitol Hill buildings. The Library of Congress is, without 
reservation, committed to conforming with fire and life safety 
regulations and, along with the Architect of the Capitol, is 
systematically addressing all the identified issues. While the 
condition of the fire system in Library buildings should be and will be 
improved, we are confident that the buildings are basically safe for 
Library staff and collections.

                        AUTHORIZING LEGISLATION

    The 106th Congress passed four important pieces of authorizing 
legislation that improve the Library's financial management and further 
support the Library's national mission.
    The Library of Congress Fiscal Operations Improvement Act of 2000, 
Public Law 106-481, represents a milestone in the Library's financial 
management. The bill creates three revolving funds to manage important 
elements of the Library's operations including services to Federal 
libraries (FEDLINK), research reports and studies for Federal entities 
(Federal Research Division), gift shop sales, photoduplication 
services, and duplication services associated with the National Audio-
Visual Conservation Center.
    The Congress also enacted the National Recording Preservation Act, 
Public Law 106-474, modeled on the highly successful National Film 
Preservation Act. Initial funding of $250,000 is requested as part of 
the fiscal 2002 budget. During fiscal 2001, the Library is proceeding 
to bring the Board into existence and establish a plan to produce a 
comprehensive survey of the sound preservation needs.
    Finally, the 106th Congress enacted two bills that make use of the 
collections and curatorial and staff expertise of the Library: Public 
Law 106-99, which authorizes the Library to prepare and publish a 
history of the House of Representatives, and Public Law 106-380, which 
creates an oral history archive for veterans in the American Folklife 
Center. The Library has published preliminary guidelines for the 
preparation of their oral histories on its Web site, but in fiscal 
2002, it will need to engage a project director to organize the 
national network of partner organizations that will be required to 
accomplish the very ambitious aims of this legislation, design and 
mount a Web site for the project, and begin processing the audiovisual 
histories that the Library will be receiving under the Act.
    The Library is also seeking a technical correction to the statute 
authorizing the revolving fund for duplication services, which would 
clarify the inclusion of film as well as audio and video duplication.

                 COOK CLASS ACTION DISCRIMINATION CASE

    The Library took another step forward to settle a longstanding 
class-action discrimination suit filed against it by Howard Cook and 
others in 1975. On January 18, 2001, District Judge Norma Holloway 
Johnson accepted the joint report of the Library and the Cook class 
action plaintiffs, which resolved the disputes related to a 1998 motion 
filed by plaintiffs alleging violations of the 1996 settlement 
agreement. The joint report includes a new Library hiring process to be 
used from March 1, 2001, through December 1, 2002, and a new 
statistical methodology to be used to report on the new hiring process. 
All other matters contained in the 1996 Settlement Agreement expired 
upon the court's January 18, 2001, order.

               CENTER FOR RUSSIAN LEADERSHIP DEVELOPMENT

    As part of the fiscal 2001 legislative branch appropriations bill, 
the Congress approved the establishment of the Center for Russian 
Leadership Development, a permanent center to provide emerging 
political leaders of Russia with firsthand exposure to the American 
free market economic system and the operation of the American 
democratic institutions. The Library's budget for fiscal years 2000 and 
2001 funded successful pilot programs that brought an unprecedented 
3,650 Russian political leaders to America. Because the center is not 
yet independently organized and will not be part of the Library's 
fiscal 2002 budget, the Library has included on behalf of the center 
(as an information item only) a $10 million request for the center's 
appropriated support. We anticipate that the center's board, when 
appointments to the Board have been made by the House, Senate, and 
Librarian of Congress, will submit an amended budget justification to 
the Congress.

                                SUMMARY

    ``Knowledge will forever govern ignorance,'' James Madison wrote in 
1822. ``And a people who mean to be their own governours, must arm 
themselves with the power which knowledge brings.'' In 1800, the 
Congress established a Congressional Library to help provide it with 
the information required to administer this questioning and expanding 
land. Thanks to the continuing vision and support of the Congress, its 
Library has expanded and become not only a resource for the Congress 
but also the de facto national library of the United States and one of 
the world's greatest intellectual and cultural resources.
    At the start of the third millennium and the Library's third 
century, the Library must acquire, preserve, and ensure rights-
protected access to ``born digital'' works that are playing an 
increasingly important role in the intellectual, commercial, and 
creative life of the United States. The amount of ``born digital'' 
works that have already been lost is unknown but substantial. The 
average life of a Web page is only about 75 days. Given the 
immeasurable size and short life span of much of the Web's content, the 
Library clearly faces a substantial challenge in both (1) defining the 
scope of its collecting responsibilities in this new world and (2) 
developing a whole new range of partnerships and cooperative 
relationships to continue fulfilling our central historic mission in 
the new digital universe. In conformity with the Congress's recent 
special appropriation, the Library's digital strategy will focus first 
on formulating an implementable national strategy for the life-cycle 
management of digital materials as part of the national collection. The 
Library must make sure that it has the digital infrastructure that can 
be scaled in the future to support and sustain the national digital 
information strategy that we will be cooperatively developing.
    Librarians will be needed more than ever before as objective 
knowledge navigators amid the sea of unorganized and often undependable 
information that is increasingly inundating the Internet. Libraries 
will be needed to assure free public access for those who would 
otherwise be on the losing side of the digital divide--and also for 
those who might otherwise never learn to work both with new information 
and with old books. Libraries, like America itself, add the new without 
subtracting the old. Properly used, the Internet will help (a) 
scientifically to solve common problems shared by widely dispersed 
groups in fields like health and the environment, and (b) 
humanistically to share on-line the materials that express the 
distinctive cultural identities of different peoples.
    On behalf of the Library and its staff, I thank the Congress and 
the American people for the outpouring of support for the Library of 
Congress during its bicentennial celebration. The Library celebrated 
its 200th anniversary last year with a wide array of programs and 
activities. A resolution by the Congress commended ``the Library of 
Congress and its employees, both past and present, on 200 years of 
service to the Congress and the Nation.'' A Presidential proclamation 
on April 21, 2000, stated that ``The Library of Congress is truly 
America's Library.'' Commemorative coins and a stamp were issued. There 
were privately funded bicentennial exhibitions, symposia, events, and 
publications. Almost 1,300 Local Legacies projects from all 50 states--
were registered by more than 400 Members of Congress documenting 
traditional community life. Many special donations were made to the 
collections; and the Library was given the largest single monetary gift 
in its history by Mr. John W. Kluge.
    The Library of Congress is entering a critical period when it must, 
in effect, superimpose a select library of digital materials onto its 
traditional artifactual library if it is to continue to be a responsive 
and dynamic force for the Congress and the nation. We are not seeking 
appropriations for any new function, but merely trying to sustain our 
historic core function of acquiring, preserving, and making accessible 
knowledge and information, which are now being generated and 
communicated in a radically new medium.
    There is a special need this year for the Law Library and the 
American Folklife Center. They will play important national roles but 
have been seriously depleted, having received no significant funding 
increases from the Congress for many years.
    With congressional support of our fiscal 2002 budget, the Library 
of Congress will continue its dedicated service to the work of the 
Congress and to the creative life of the American people.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to personally present for your consideration the fiscal 
year 2002 budget request for the Congressional Research Service.

                              OBSERVATIONS

    The rise of technology and the Information Age have fundamentally 
changed the way Congress works, from the nature of the public policy 
issues you debate, to the ways in which you conduct your work each day 
to the methods you and your staff use to communicate both within and 
outside of Capitol Hill.
    There are new issues before you. Technology is impacting virtually 
every public policy area that you consider. From privacy rights to 
taxation, you consider technology issues that are complex, 
interdisciplinary, highly specialized, rapidly changing, difficult to 
master expeditiously, and increasingly sophisticated. The 107th 
Congress is demonstrating continued intense interest in policy issues 
arising from the production and use of information technology. Members 
of the 106th Congress introduced hundreds of information technology 
bills and virtually every committee considered legislation related to 
some aspect of information technology. This is in marked contrast to 
over four years ago when Members of the 104th Congress introduced only 
several dozen information technology bills.
    Your day to day work has changed as well. You and your staff 
operate in an environment of intense immediacy. You need information 
today--tomorrow, next week, next month are too late. Given this 
environment, you have turned to technologies that will provide you with 
information as quickly and efficiently as possible. You expect to 
access information 24 hours a day, seven days a week from wherever you 
are, be it in your Capitol Hill offices, at home, in your districts, or 
overseas as a member of a congressional delegation. You and your staff 
have less time to read through books and journals to glean information 
you need; rather you more and more use the Web and the Internet for 
facts, figures, and targeted information that you can download, 
manipulate, and pass along.
    E-mail and the Internet have also revolutionized the way you 
communicate--among yourselves, with your staff, with your constituents, 
and with the hundreds of groups and organizations that you rely upon 
for information and insights, including CRS. This trend is particularly 
evident in your staff, who are increasingly technically savvy. For them 
(some have dubbed the e-generation) the ease and immediacy of e-mail is 
more conducive to their work style than voice mail and ``phone tag''.
    The research and analytical work we do in CRS to support your 
legislative responsibilities has also been changing. The complexity and 
inter-relatedness of many of the issues facing Congress require CRS 
staff to be able to work together on issues and share data and 
information. As research is shifting from a primarily paper-based world 
to a digitally-dominated universe, research methods are evolving. The 
nature of CRS research is changing: from individual research to team 
and Service-wide research; from a single discipline perspective to 
integrated, multi-disciplinary perspectives; from individual data and 
information owners to groups who own and share their research; from 
main-frame dominant applications to network-dependent applications; and 
from paper and microfiche to the Internet, the Web, and multi-media.
    What do these changes mean? They mean as Congress changes, so too 
must CRS. When Congress re-constituted CRS in the early 1970's, it did 
so with a vision of us as an extension of their own personal and 
committee staffs--a shared pool of staff that could work seamlessly 
alongside Members and staff to support the legislative work of the 
nation.
    We take seriously our statutory obligation to each Member and 
committee of Congress to provide you with the best analyses and 
information this country has to offer, and to do so in ways that meet 
your legislative needs and time frames.
    You expect CRS to keep pace with you, and your staff, in addressing 
information technology policy issues and in integrating new 
technologies into our work. Just as you are grappling with policy 
implications of complicated technology issues, so too do you expect CRS 
to be analyzing and studying these issues. Just as you are 
communicating through e-mail, so too do you expect CRS to communicate 
through e-mail. Just as you are utilizing web pages to gather and 
disseminate legislative information, so too do you expect CRS to have a 
strong web presence. And just as you and your staff go ``on-line'' to 
retrieve data and information directly from other sources, so too do 
you expect CRS to provide comprehensive access to data and analyses 
that you need.
    Given these observations, the bottom line for CRS is simple: if we 
cannot align our analytic, information and technology resources to work 
in the same way that you work, then we risk failing to meet our 
statutory obligations.

                     CHANGES MADE BY CRS TO ADJUST

    I would not be coming to you if we did not need help. Since I 
became Director in 1994, I have insisted that CRS' annual budget 
requests reflect the continuing fiscal constraints on Legislative 
Branch appropriations and the daunting task facing this Subcommittee in 
allocating scarce resources among many pressing needs. CRS has worked 
hard within exceedingly tight appropriations to not only maintain the 
quality of our work for the Congress but also to improve it. I believe 
we have done remarkably well given that funding for staff has been 
reduced by more than 117 positions, approximately fourteen percent, 
over the last nine years. This decrease is a result of our failure to 
obtain full funding for all ongoing mandatory expenditures. These 
circumstances have posed significant challenges to CRS and we have had 
to adjust our resources internally to accommodate them. Specifically, 
over the last several years:
  --We have shifted resources to meet the most urgent legislative needs 
        of Congress and to develop new tools for Congress, such as the 
        Legislative Information System and the CRS Web Site: by 
        reorganizing the Service to maximize staff flexibility; not 
        hiring production or technical support; not hiring any senior 
        level analysts; not back-filling certain positions; not hiring 
        key organizational support positions; and establishing, with 
        the cooperation of our labor organization, a program for 
        detailing staff to different positions.
  --We have used contract funds to help develop research capacity: to 
        support the Congress in addressing issues related to social 
        security, welfare and long-term care; to assess the information 
        needs of CRS research staff; and to meet short-term needs for 
        research assistance (e.g., actuarial expertise and 
        translations).
  --We have secured outside resources when appropriate: received funds 
        from the Robert Wood Johnson, Ewing Marion Kauffman and Henry 
        Luce foundations, among others, to help build capacity in 
        research areas and undertake special programs for Members; 
        partnered with schools of public policy for needed research; 
        and utilized volunteers and fellows to help build important 
        research capacities.
    These internal adjustments have been necessary, but they have not 
been easy. We have been forced to make Hobson choices regarding the 
allocation of our budget and staffing resources--choices that have 
pitted our analytic capacity against our information technology 
capacity. For example, in response to the impending retirement of 
nearly half of our staff by 2006, we have devoted significant resources 
to shoring up our analytic capacity. We are grateful for the support 
you provided to our succession initiative which enabled us to fill 
fifteen entry level analyst positions. In addition, we devoted forty-
one positions from the base for these succession efforts. I'm pleased 
to report that we have been very successful--we have experienced a 
retention rate of ninety-two percent for staff hired under this 
initiative. In addition, we have regularly updated our risk assessment 
staff survey, and continue to use this assessment in making all staff 
resource allocation decisions.
    Because we have had to focus resources on ensuring succession, 
however, we have been unable to build the technical capacity we need. 
This has forced our analysts and managers to explore and develop 
technology initiatives on their own as add-ons to their regular jobs. 
However, the Congress needs our analytic staff to devote their time 
developing and delivering original analysis, not learning how to be 
computer programmers or data administrators.
    We can no longer ``make do'' with home grown technology 
entrepreneurs. It is clear that we are beginning to lag behind in 
providing analytic support for information and technology policy issues 
and in integrating information technology efficiencies and capacities 
into our work.
    We are falling short in assisting you in critical new subject 
areas; in working with you in an integrated, secure, and robust 
technology-based environment that allows us to provide you with the 
analysis and information you need, where and when you need it; and in 
providing the technical tools that our researchers need--not ``bells 
and whistles'' but essential ``nuts and bolts''--to perform their work 
for the Congress. We must take action now or we will fall even further 
behind. That is what this budget request is all about. Our current 
resources are not enough to meet the new and increasing demands of 
policy making. We can no longer adjust our work environment to meet 
congressional needs. We must overhaul what we do and how we do it.

                             BUDGET REQUEST

    Our fiscal 2002 request is $81.1 million; this is an increase of 
$7.71 million over fiscal 2001. Approximately $4.22 million of this 
increase is needed to maintain our current services by funding 
mandatory cost-of-living and other pay and inflation increases on 
current operations. The balance, $3.49 million, is needed to (1) 
acquire capacity to better analyze complex information and technology 
policy issues and (2) equip ourselves with the leadership and technical 
staff, skills and tools necessary to address serious and significant 
gaps in the capacity to analyze complex technology policy issues, to 
conduct collaborative research, and to apply technology to work and 
communication processes.

                              EXPERT STAFF

    CRS does not have adequate staff expertise to provide high-level 
analysis on sophisticated information and technology policy issues. Nor 
can we ``home-grow'' this expertise. Policy areas such as cyber 
terrorism requires significantly different spheres of understanding 
than are needed for dealing with most traditional forms of terrorism. 
Privacy issues and potential solutions in a market-drive, internet 
setting are radically different than issues surrounding government 
information as addressed in the Privacy Act of 1974 and the Freedom of 
Information Act.
    We are asking for $580,000 to hire the five senior analysts who 
will provide high level expertise and Service-wide leadership on 
technology policy issues and implications as they affect various legal 
areas (such as privacy, fraud, intellectual property), government 
information policy, national security, telecommunications technologies, 
and economic issues of the technology and information industries. These 
resources will enable CRS to provide the Congress with a core of high 
level experts who will: lead and coordinate the Service's work on 
information and technology policy issues across disciplines; guide and 
mentor other CRS research staff at various grade levels, thereby 
building additional capacity in these critical research areas; create 
and lead Service-wide teams to address key congressional concerns; and 
develop innovative products and services to inform the Congress about 
information and technology policy issues.

 EQUIPPING THE CRS RESEARCH ENVIRONMENT TO ALIGN WITH HOW THE CONGRESS 
                                 WORKS

    If CRS is to continue to be an extension of congressional staff and 
the best public policy research organization that Congress needs and 
deserves, then we must acquire the high-level technical leadership and 
skills we require to enable us to build and maintain a secure and 
adaptable technology-based research environment. Such an environment is 
the critical underpinning of all of our research activities supporting 
Congress--it provides the blueprint for how all of CRS's systems, 
knowledge, and information can be shared, preserved, delivered, and 
made available to the Congress.
    We are also requesting 12 FTEs and $2.9 million in fiscal year 2002 
to begin equipping ourselves with the leadership and technical staff, 
skills, and tools we need to effectively and pro-actively use 
technology to support Congress as its working environment continues to 
accommodates technological change. The information technology 
investment that we are requesting you to support will enable CRS to 
make significant progress in improving interactive communications with 
Congress and your access to us and to our products as well as in 
transforming our research work to 21st century methods.
    More specifically, the funds requested will be used to: improve 
protection of confidential congressional information; provide secure 
access to CRS for district offices; support the delivery of innovative 
interactive products and services through the CRS web site; move 
innovative electronic research products (e.g., electronic briefing 
books, e coverage of current legislative issues) from pilot products 
into full-fledged products. This request will also support implementing 
on-line document creation and editing to facilitate team research 
projects such as the Electronic Briefing Books and our new Legislative 
Issues Service on the CRS web site; laying a foundation for managing 
CRS electronic data and information for as long as needed; developing 
new multi-user quantitative databases, and modifying and documenting 
existing databases that are at-risk due to inadequate documentation; 
and expanding our capacity for critically-needed electronic storage.
    Our current technical staff are not sufficient in number and do not 
have the requisite skills to undertake the kind of technology 
transformation needed. CRS must invest in hiring staff with the 
expertise to lead our efforts to implement the processes and 
technologies needed to ensure our accessibility to the Congress and to 
guarantee the reliability, accuracy, and timeliness of our services and 
products.

                               CONCLUSION

    In summary, this request does not propose funding tactical change; 
rather, it supports the strategic, mission-critical change necessary 
for CRS to continue fulfilling its statutory mandate as the key non-
partisan public policy research arm for Congress in the digital 
environment. It is not about coping with the future, it is about 
confronting the future that is already here and threatens to leave us 
in its wake. As the Congress is placing new and increasing reliance on 
information technologies so too must CRS. We at CRS have always aligned 
our work directly with your work--this is our mission; this is our 
mandate. To continue the strong tradition of service and reliability, 
CRS needs your help now. Again, I appreciate the opportunity to discuss 
CRS's future with you. We at CRS stand ready to assist you as you 
consider this request and the consequences and challenges it poses for 
the Service and the Congress.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the Copyright Office budget request for fiscal 
year 2002. We seek the funding necessary to permit the Copyright Office 
to administer the nation's copyright law and provide expert policy 
assistance to Congress and the Executive Branch so that the nation 
maintains a strong and effective copyright system--one that serves both 
owners and users of copyrighted works.
    I would like to note at the outset that our budget request has been 
revised to some extent from our original submission to take into 
account important planning and public service improvement activities in 
which we are now engaged. We are withdrawing the CORDS Full Large-Scale 
Production request which lowers our appropriations request for fiscal 
year 2002 by $2,621,185 and 13 FTEs.

Fiscal Year 2002 Request Summary
    To enable us to fully serve Congress and the American people, it is 
critical that the Office's net appropriation be increased from $9.2 
million to $12.8 million--$1 million less than the fiscal 1999 net 
appropriation of $13,771,000. We have growing policy support 
requirements to Congress and the Executive Branch, as well as a growing 
regulatory workload from passage of the Digital Millennium Copyright 
Act, that require adequate resources. The Office is requesting 
$12,836,815 in net appropriations and $21,880,000 in offsetting 
collections authority. This represents a $3,668,843 million net 
appropriation increase over the fiscal 2001 net appropriation of 
$9,167,972. The increase is needed to preserve the No-Year account from 
a further reduction and to fund $1,668,843 for mandatories and price 
level changes.
    The Copyright Office request for its Offsetting Collections 
Authority represents a decrease of $1,620,000 from $23,500,000 to 
$21,880,000. The decrease is based on projected annual revenue receipts 
of $21,500,000 and expending $380,000 from the Copyright Office No-Year 
account. The Copyright Office believes that the fees collected from the 
public that are in the No-Year account should be retained and 
reinvested into providing improved services for the copyright 
community. As such, we strongly urge the Congress to approve the 
retention of the No-Year account funds for BPR implementation and 
information technology improvements.
    Approximately two-thirds of the Copyright Office budget is funded 
by fee receipts, primarily fees paid for registering copyrighted works 
in the Office. In July 1999, we implemented a new fee schedule which 
raised our basic registration fee by 50 percent, from $20 to $30. This 
fee increase has resulted in fewer copyright registrations, which 
impacts our copyright system and the Library of Congress collections.
    The policy and regulatory functions of the Office--activities 
benefitting the nation as a whole instead of providing a specific 
service to an individual or organization--are funded by net 
appropriations. These activities include support to the Congress and 
Executive branch agencies, legal and regulatory work under the 
Copyright Act, and public education efforts.

Major Copyright Office Initiatives
    The Copyright Office has two very important, closely-aligned, 
initiatives now underway. Both initiatives--information technology 
planning and business process reengineering--will shape the Copyright 
Office's future and its service to the American people. Just as the 
copyright law has had to adjust to technological changes, our daily 
business operations and processes are challenged in similar ways.

            Information Technology
    We have begun a major reassessment and planning effort regarding 
our information technology (IT) systems. The Copyright Office relies on 
the collection, processing, storage and presentation of information to 
fulfill its duties under the U.S. Copyright Act. Information processing 
and products are critical in the registration of claims to copyright, 
the recordation of documents pertaining to copyrighted works, statutory 
licenses, and the Office's responsibilities as an agency of public 
record. Access to information is also the basis for the substantive 
policy and regulatory work the Office performs for the U.S. Congress 
and the executive branch.
    Currently, the Copyright Office has more than 20 separate 
information systems. For the most part, they have been developed 
separately and are not supportive of full information sharing and 
integration. Some rely on hardware that is aging and becoming 
increasingly vulnerable to failure.
    Two principal factors will shape Copyright Office IT planning in 
the next few years. First, in order to fully serve our customers, the 
Office needs to have its current public services available online to 
the greatest extent possible. Second, we will soon make a decision on 
the business process reengineering (BPR) option we will pursue and 
complete a BPR implementation plan this summer. This effort will result 
in significant changes to our current processes, organization, and 
facilities. In addition, the changes will rely heavily on the use of 
new technology, all of which will result in more effective and timely 
service to our customers.
    Our original direction on reengineering was to work within the 
confines of our existing IT structure. The results of our reengineering 
work have shown us that we need to accelerate the Office's use of new 
technology, not only for the processes impacted by reengineering, but 
for the entire Office. We need to undertake a fundamental 
transformation in our public services: from paper and hard-copy based 
processing to primarily electronic processing. Our processes must 
change from traditional manual capabilities to IT-enabled functions.
    This year, through our Copyright Office Electronic Registration, 
Recordation and Deposit System (CORDS), we will electronically receive 
about 30,000 digital works for registration. This is about 5 percent of 
our total registrations. Now we need to broaden our IT approach so that 
electronic receipt and processing becomes the primary way we register 
works. We will encourage that works submitted for registration be 
submitted online. Once they are submitted, we will use technology to a 
much greater extent than we have, to process them quickly and ensure a 
timely public record.
    This not only helps the Copyright Office provide better public 
services, but is also is a key component of the Library's digital 
strategy which will allow more digital works to be acquired for the 
Library's collections through copyright registration and through the 
mandatory deposit provisions of section 407 of the copyright law.
    Our newly-formed Copyright Office Information Systems Working Group 
has just begun its work. So that this critical initial planning can be 
completed and specific resource requirements identified, I am 
requesting a modification in our fiscal year 2002 request.
    Until we revise our overall IT strategy to respond to our new 
business processes, I believe we should not proceed with funding for 
the CORDS Full Large-Scale Production System, as requested in our 
original submission. We do need to maintain the CORDS system so that we 
can continue to provide an electronic registration option for those now 
using it and others who wish to. I expect that usage of the current 
CORDS system will increase in terms of the number of users and quantity 
and types of works registered. Yet, we do not want to accelerate 
further development of CORDS until we establish an overall electronic 
delivery of services strategy.
    I request that we proceed as follows:
  --Permanently reprogram $620,000 savings from Marking and Tagging in 
        fiscal year 2001 to Information Technology Planning and 
        Development. In the current fiscal year, these funds would be 
        used to conduct a requirements analysis which will provide us 
        with an IT strategy that: supports reengineering, redevelops 
        our aging systems and expands the electronic delivery of our 
        public services. (Our Marking and Tagging requirements will 
        continue to be met and security of materials will be one of the 
        principal objectives in the IT requirements analysis.)
  --Based on the completed requirements analysis, in fiscal year 2002 
        we will begin systems analysis, design and development work. A 
        multiple-award contract will be developed to rebuild and 
        integrate our information systems to meet our new requirements. 
        We plan to have this contract awarded by July 2002.
  --In fiscal year 2002, we will use the reprogrammed IT funds 
        ($620,000) for IT contract management and CORDS user support to 
        provide hands-on technical advisory assistance to our current 
        CORDS users.
    I very much appreciate your consideration of this modified request 
for next fiscal year. This shift in funding is critical to our being 
able to fully meet our statutory obligations and fully serve the 
American people in the future.

            Business Process Reengineering: Initial Implementation
    The second initiative involves our initial steps to carry out our 
Business Processing Reengineering Implementation Plan. The plan will be 
implemented in phases beginning in fiscal 2002. The Copyright Office 
No-Year account will fund the three-year implementation, except for 
furniture and furnishings.
    In fiscal 2000, the Copyright Office began the BPR project by 
awarding a contract to PriceWaterhouseCoopers, LLP to conduct a study 
of its business processes. At the same time, the Office appointed a 
senior Project Manager, who is an expert in Copyright Office 
procedures, to oversee the contract and lead the Office BPR team. The 
project focuses on six major business processes: registration of 
claims, recordation of documents, requests for information, acquisition 
of deposits, maintenance of our public records, and financial record 
keeping. Reengineering will accomplish the following objectives:
  --Improve operations and service that will achieve better processing 
        times and create timely public records;
  --Enhance operational efficiency through the use of new or 
        alternative technologies;
  --Contain the costs of registration, recordation and other services;
  --Strengthen security within the Copyright Office; and
  --Use staff and space more efficiently.
    In fiscal 2001, the Project Manager is leading a team of twelve 
Copyright Office staff and several PriceWaterhouseCoopers contractor 
staff to document the current environment, plan new processes, and 
develop an implementation plan. The Office plans to complete the study 
by June 2001.
    We are requesting authority to spend $380,000 from our No-Year 
account for human resource actions (e.g., re-writing position 
descriptions, performing job analyses) as well as staff training to 
retool the workforce. A contractor will be hired to perform space 
design, and some funds will be used for automation equipment and 
software.

The Copyright Office Mission
    The Copyright Office administers the copyright law and is the 
primary source of copyright expertise in the Federal Government. It 
provides expert assistance to Congress on intellectual property matters 
and advises Congress on anticipated changes in U.S. copyright law. It 
analyzes and assists in the drafting of copyright legislation and 
legislative reports, conducts and provides studies for Congress and 
offers advice to Congress on international matters, including 
compliance with multilateral agreements such as the TRIPS Agreement. 
The Office works with the State Department, the U.S. Trade 
Representative's Office, and the Patent and Trademark Office in 
providing technical expertise in negotiations for international 
intellectual property agreements; provides technical assistance to 
other countries in developing their own copyright laws; and through its 
International Copyright Institute and other international work, 
promotes worldwide understanding and cooperation in providing 
protection for intellectual property.
    The Copyright Office is also an office of central public record, a 
place where claims to copyright are registered and where documents 
relating to copyright may be recorded. The Copyright Office furnishes 
information about the provisions of the copyright law and the 
procedures for registration, explains the operations and practices of 
the Copyright Office, and makes available the public records of the 
Office. The Office also administers various compulsory licensing 
provisions of the law, which includes collecting and distributing 
royalties. Additionally, the Copyright Office and the Library of 
Congress administer the Copyright Arbitration Royalty Panels (CARP), 
which meet for limited times for the purpose of setting terms of 
certain licenses, adjusting rates and distributing royalties.
    Given its role as administrator of the copyright law, creator of a 
central public record of copyright ownership, technical adviser to 
Congress and government agencies, and a source of copyright information 
to the public, the Copyright Office has a direct and vital role in the 
development and resolution of intellectual property policy, legislation 
and information.

Copyright Industries--A Growing Force in The U.S. Economy
    Copyright is the segment of intellectual property law that protects 
the creative output of millions of composers, lyricists, painters, 
sculptors, photographers, authors, computer programs, graphic and 
performing artists, dramatists, motion picture producers and compilers. 
U.S. copyright industries accounted for about 5 percent of U.S. Gross 
Domestic Product (GDP), or over $450 billion in added economic value in 
1999. In the last twenty years, the core copyright industries' share of 
GDP grew more than twice as fast as the rest of the economy. Should 
this trend continue as expected, the economic impact of the copyright 
industries will become an even more significant part of the American 
economy, emphasizing the need for strong copyright protection, and 
bringing to the fore increasingly challenging issues with which the 
copyright system must deal.

Copyright Policy Challenges: Technological Change and the Digital 
        Environment
    Throughout the second half of the 20th century, the copyright law 
has had to adjust to a vast array of technological changes. The 
challenges to copyright posed by the convergence of today's computer 
and communications technologies are more serious and far-reaching than 
those posed by the technological developments of the past. The current 
technologies have the potential to impact every right in the copyright 
bundle.
    The increasing use and distribution of digital information raise 
significant issues regarding access to and security of copyrighted 
works. For works available in electronic form, there is often no limit 
to the number of people who can access a work simultaneously through 
the Internet and alter or modify them with ease. The Constitution 
provides for intellectual property protection with the goal of 
promoting public access to knowledge and innovation. The information 
infrastructure of the World Wide Web and other computer networks 
requires careful maintenance of the public good and private interest 
balance that has guided U.S. intellectual property laws over the past 
200 years.

Fiscal 2000 Accomplishments, Fiscal 2001 Focus and Fiscal 2002 Plans
            Policy Responsibilities Under the Digital Millennium 
                    Copyright Act
    A major focus of the Copyright Office's legislative efforts during 
fiscal 2000 and in fiscal 2001 continued to be the completion of tasks 
entrusted to us by Congress in the Digital Millennium Copyright Act 
(DMCA), Public Law 105-304. The DMCA placed several policy-related 
responsibilities on the Office, including specific studies and 
rulemakings.
    The DMCA made a number of amendments to Title 17, including the 
addition of Chapter 12 of the copyright statute, which address 
technological protection and management systems for copyrighted works. 
Section 1201(a)(1) makes it unlawful to circumvent a technological 
measure that effectively controls access to a copyrighted work. 
However, the prohibition against circumvention does not apply to users 
of a copyrighted work which is in a particular class of works, if those 
users are, or are likely to be in the succeeding 3-year period, 
adversely affected by the prohibition in their ability to make 
noninfringing uses of that particular class of works.
    The determination of what classes of works, if any, are subject to 
this exception is made by the Librarian of Congress on the 
recommendation of the Register of Copyrights, who conducts a rulemaking 
proceeding to identify any such classes of works. The initial 
rulemaking was begun in 1999. After consultation with the Assistant 
Secretary of Commerce for Communications and Information, the Register 
made her recommendation to the Librarian of Congress. He accepted the 
recommendation and published two classes of works subject to the 
exemption on October 27, 2000. Rulemaking proceedings are to be 
repeated every three years. The second rulemaking proceeding will 
commence in fiscal 2002.
    In the DMCA, Congress also asked the Copyright Office to study a 
number of important copyright issues. In May 2000, the Register and the 
Assistant Secretary of Commerce submitted a report on the effects of 
another exemption from the anti-circumvention provision in section 
1201(a) of 17 U.S.C. which permits circumvention under certain 
circumstances for good faith encryption research.
    This year we will complete a report for Congress examining the 
effects of the amendments made by Title 1 of the DMCA which are 
embodied in chapter 12 of Title 17 and the development of electronic 
commerce on the operation of sections 109 and 117 of the copyright law, 
and the relationship between existing and emerging technology and the 
operation of such sections. In addition, we are working closely with 
Congress on copyright issues related to distance education.

            International Issues
    In the international sphere, the Office continued to advise the 
United States Trade Representative and other executive branch agencies 
on international copyright matters. These efforts assure that foreign 
countries live up to their obligations under the World Trade 
Organization (WTO) Agreement on Trade-Related Aspects of Intellectual 
Property Rights (TRIPS) to provide adequate and effective intellectual 
property protection to U.S. rights holders. The Office also 
participated in the legal defense of provisions of the Copyright Act 
that were challenged in WTO dispute resolution proceedings under the 
TRIPS agreement.
    The Copyright Office was a key participant in the World 
Intellectual Property Organization's norm setting activities, 
especially its effort to conclude a new multilateral treaty to protect 
the interests of performers of audiovisual works (e.g., screen and 
television actors). We anticipate this effort will continue and that 
the Office will participate in new WIPO norm setting activities in the 
areas of folklore/traditional knowledge, protection of databases, and 
broadcasters' rights in fiscal 2001 and fiscal 2002.
    In early fiscal 2001, the Office's International Copyright 
Institute and the World Intellectual Property Organization (WIPO) held 
an International Symposium on the Effect of Technology on Copyright and 
Related Rights at the Copyright Office. Officials and copyright experts 
from 17 countries participated. The program focused on the effect of 
technology on copyright and related rights, as well as on copyright 
protection and legislation in the United States. In fiscal 2002, the 
Copyright Office anticipates conducting at least one similar 
international program.

            Copyright Arbitration Royalty Panel (CARP) Matters and 
                    Related Rulemakings
    In fiscal 2000, the Office initiated two CARP proceedings to 
resolve controversies concerning the distribution of the 1993-1997 
cable royalties and the 1995-1998 digital audio recording royalties. 
The CARP in the cable proceeding is scheduled to deliver its report in 
April. The CARP in the digital audio recording proceeding delivered its 
report to the Librarian for adoption. During fiscal 2001, CARPs are 
anticipated to determine rates and terms for the statutory license for 
digital transmission of performances of sound recordings by means of 
webcasting. Issues relating to the digital performance rights for sound 
recordings and musical compositions and to digital phonorecord 
deliveries of musical compositions will continue to occupy the Office 
during fiscal 2001 and fiscal 2002.

            Licensing Activities
    The Licensing Division administers the copyright law's compulsory 
licenses and statutory obligations. The Division records licensing 
documents and collects royalty fees from cable television operators for 
retransmitting television and radio broadcasts, from satellite carriers 
for retransmitting ``superstation'' and network signals, and from 
importers or manufacturers of digital audio recording equipment who 
distribute digital audio recorders and blank digital audio recording 
media in the United States. The Division serves as steward and trustee 
of the funds paid by the licensees, and invests the funds in interest-
bearing securities of the U.S. Treasury. The funds are disbursed to 
copyright owners, or to agents representing them, under the direction 
of the Register of Copyrights. During fiscal 2000 the Office collected 
$182,756,467 in royalty fees for compulsory licenses and distributed 
$367,824,476. The Licensing Division deducts its operating costs from 
these royalty fees rather than from appropriated funds.

            Registration, Recordation, and Cataloging Operations
    In fiscal 2000, the Office processed 588,498 claims, representing 
more than 800,000 works, and registered 515,612 of these claims. 
Throughput time was and continues to be a concern to the Copyright 
Office and the copyright community. A large backlog of copyright claims 
continued to exist and processing time for the issuance of registration 
certificates remained at approximately six to eight months.
    To address this backlog, the Examining Division continued to hire 
examiner staff, but examiner retirements and resignations left the 
division with a deficit of 11 examiners from its 1993 staffing level. 
We have begun an extensive backlog reduction effort in our Examining 
Division, which is already resulting in a significant decrease in the 
number of claims awaiting examination. This is an Office-wide 
imperative, and we are committed to significant progress this year.
    In other efforts, the Examining Division concentrated on several 
automation initiatives in fiscal 2000, including transferring examining 
practices to an online format for easier access, and creating an 
automated production verification system, aimed at providing management 
with accurate production statistics to aid in workflow strategy and 
planning.
    In fiscal 2000 the Cataloging Division recorded 18,894 documents 
covering hundreds of thousands of titles. The Division implemented a 
number of new initiatives to reduce the length of throughput time for 
cataloging registrations and recording documents, including a 
successful Backlog Reduction Project, which reduced the number of 
multiple titles in documents to be entered. Recordation throughput time 
improved to 14.4 weeks, well under the target of 24 weeks. The 
turnaround time for cataloging registrations was 10.9 weeks, slightly 
lower than the target of 12 weeks.

            Copyright Education
    The provision of information on copyright law and its application 
is a principal function of the Copyright Office. The demand for the 
information is growing, as the growth of the digital environment 
exposes more Americans to copyright issues in the course of their daily 
lives.
    In fiscal 2000, the Office responded to almost 400,000 information 
requests of which nearly 12,000 were via electronic mail. The use of 
our Website increased by 67 percent over the prior year. We expect this 
demand growth to continue and our efforts in this area to grow as well.

            Security Program
    The Copyright Office successfully completed several fiscal 2000 
scheduled action items in the Library's Security Plan. Among the items 
accomplished were: laser engraved ownership marking of compact disc and 
video cassette materials; secure transport of high-risk materials; and 
item bar code labeling and security tagging of book materials. In 
fiscal 2001, the Copyright Office will focus on continued improvements 
in physical security, inventory, and preservation controls.
    Copyright Office security initiatives planned for fiscal 2002 
include incorporating Item Level Tracking and Inventory Control as part 
of the Copyright Office reengineering plan, creating in-process records 
at the point-of-entry, installing electronic access control, and 
installing a closed-circuit video system in the Mail Center.
Copyright No-Year Account and Fee Projection for Fiscal Year 2002
    The ``No-Year'' account was established by the Technical Amendments 
Act, Public Law 105-80 and holds fees which have been paid by those who 
use Copyright Office services. We want to use the funds in the No-Year 
account to improve our public services to those who pay these fees. Our 
principal use of the No-Year account will be for Business Process 
Reengineering implementation and development of our information 
technology systems. We need to insure that adequate funds remain in the 
account for these critical public service improvements.
    The No-Year account balance at the end of the last fiscal year was 
$4,289,902. The Copyright Office does not expect to add any funds to 
the No-Year account this year. The Office could use up to $2 million 
from its No-Year account funds to make up the shortfall caused by the 
fiscal 2001 net appropriation reduction.

Status of Future Fee Adjustments
    The 1997 Technical Amendments Act gives the Register the authority 
to recommend copyright fees based on certain criteria, with Congress 
retaining the authority to disapprove a fee increase. In setting fees, 
the law directs the Register to conduct a study of costs for the 
service provided. Based on the study, and subject to congressional 
review, the Register is authorized to fix fees at a level not more than 
necessary to recover reasonable costs incurred for services plus a 
reasonable adjustment for inflation. Congress specifically mandated 
that the fees should also be ``fair and equitable and give due 
consideration to the objectives of the copyright system.'' These 
objectives include creating a comprehensive public record of copyright 
ownership and obtaining works for the use of the Library of Congress 
for its collections or its exchange programs.
    The Copyright Office went through an elaborate and extensive 
process in establishing the present fees, which became effective on 
July 1, 1999. This process included hiring two contractors to conduct a 
cost study and to provide expertise in the new ``Federal Managerial 
Cost Accounting Standards.'' Since raising fees each year would be 
costly and disruptive, we indicated that the current fees have a 
minimum duration of three years. This decision was widely publicized.
    The Office is now in the process of assessing the current fee 
schedule to determine if fee adjustments are warranted for fiscal 2002 
and expects that the long-term effect of the July 1999 fee increase 
will be similar to the experience of the 1991 increase, where claims 
dropped, then leveled off for the next three years. Even if the Office 
were to implement a fee increase on July 1, 2002, it would not impact 
the fiscal 2002 fee receipt projection since the new fees would be in 
place for just the last quarter of the fiscal year. Based on past 
experience, we would see a high incidence of ``short'' fees submitted 
in that quarter. Based on this historical evidence, the fiscal 2002 fee 
receipt forecast is the same as fiscal 2001. Based on the receipts 
received in the first half of this year, the Office may see a higher 
level of receipts for fiscal year 2001 than originally forecasted.

Conclusion
    The Copyright Office looks forward to working with Congress in 
addressing the significant copyright issues facing the United States 
both at home and abroad. Our two major initiatives for fiscal year 
2002--planning and developing our information technology systems and 
implementing recommendations for reengineering of the Copyright Office 
business processes--will be fully funded through our No-Year Account 
and existing resources. They will provide us with the technology and 
innovation necessary to continue to fulfill the Copyright Office's 
mission in the digital information environment.

    Senator Bennett. Thank you very much.
    I must apologize. I was derelict in that I have not 
formally welcomed Senator Durbin to the subcommittee and to his 
position as the ranking member. We enjoyed working with Senator 
Dorgan and then Senator Feinstein. You have more mobility on 
the Democratic side than we do on the Republican side.
    I have been here now ever since I have been on the 
Appropriations Committee, and looking at the age, health, and 
electoral prospects of all of the people senior to me on the 
Appropriations Committee, I think I will be here for quite some 
time to come.
    Senator Durbin, we are delighted to have you as the ranking 
member. Again, my apologies for not doing that right up front.
    Senator Durbin. It is not necessary. Thank you. I am glad 
to join you.
    On the Democratic side, we try to be more flexible.
    Maybe that is because we are number two and we are trying 
harder. But I am glad to be with you, Senator Bennett. I have 
enjoyed working with you on the floor and a lot of other 
issues, and I am sure we will have a good experience here.
    Senator Bennett. Very good.

         SPECIAL APPROPRIATION FOR THE NATIONAL DIGITAL PROGRAM

    Dr. Billington, when we did the $99.8 million--I am an old 
retailer, and I know there is a difference between $99.8 and 
$100 million--there was some concern in the Congress that that 
would become the new baseline and that you would just go up 
from there. You have now demonstrated that that was, in fact, a 
one-time spike and the new baseline is closer to $18 million to 
$20 million, something in that neighborhood, for the level 
funding for the digital activity that you are doing. At least, 
that is what it appears from these numbers.
    Is that a correct assumption, that from now on, the 
baseline for born digital material, now that you have taken the 
one-time step to put things in place, will be in the $20 
million area?
    Dr. Billington. I am not sure. I would have to do some 
mental arithmetic to say what the baseline is. We are asking 
for an increase over what we got last year, which was about a 
third of what we had requested for digital infrastructure. This 
request is $14.6 million.
    Of the nearly $100 million that was the one-time 
appropriation--we actually have access only to $5 million of 
that. The money has been appropriated, but we have access to $5 
million for the first stage in developing this national plan.
    Senator Bennett. I understand the reason for that is that 
the rest of the money is being held until matching private 
contributions can be raised.
    Dr. Billington. Well, no. The next stage is $20 million to 
begin implementing the national plan, and begin developing it 
as a distributed responsibility with the many partners that we 
will be engaging with. But we will come back to the committee 
with the plan which will be generated with the initial $5 
million. Then we will begin sharing and implementing 
responsibilities with $20 million. Then the $75 million has to 
be matched. That is where the match comes in.
    In the second phase, we will be trying to work out the 
exact procedures with a match and so forth. We began discussing 
that in an all-day meeting yesterday, which included members of 
the private sector and members of the other major repositories 
and other technical interests. So, we are on schedule with 
developing the national plan.

                DIGITAL FUTURES REQUEST AND BASE FUNDING

    What we are asking is the $14.6 million hike, if you like, 
in the base to sustain that, and that is to develop both the 
digital repository architecture that we will be able to scale 
up. That is $2.7 million, and then the basic technology 
infrastructure, which is $10.2 million, and then access 
services for sustaining the digital outreach, which is $1.7 
million. So, it is a 14.6 million hike in the base.
    Maybe General Scott can add to that.
    General Scott. In answer to the baseline for the budget, 
sir, about $27 million would be the baseline.
    Senator Bennett. That includes things other than the born 
digital, however. Or are you saying that the born digital 
increase in the baseline is $27 million?
    General Scott. Rather than take this off the top of my 
head, I would like to ask our Chief Financial Officer for a 
clarification of that number.
    Senator Bennett. Okay.
    General Scott. John?
    Senator Bennett. Please, give the recorder your full name 
and title.
    Mr. Webster. John Webster, Director of Financial Services.
    Mr. Chairman, the Congress approved funding for about $9 
million last year for 84 positions and some non-personals, and 
that funding sustained forward our national digital library 
effort that we had for a pilot effort of 5 years. So, we have 
that base of funds for 84 positions and some other non-
personals. Our request of $14.6 million would bring the base to 
about $24 million. Plus, we have a request for CRS this year to 
add to their base an additional $3.5 million for their 
technical capabilities. So, that in total would be 
approximately the amount that General Scott stated of about $27 
million.
    Senator Bennett. Thank you. I appreciate that breakdown.

                           COMPUTER SECURITY

    Dr. Billington, last year the Library's website was 
penetrated by some hackers. You will notice I am back on my 
hobby horse here, stemming from my Y2K days. But I am very 
concerned about critical infrastructure protection. We look at 
that not only in the Defense Department and in the banking 
community and so on, but I think a national treasure as 
important as the Library is one that we should pay attention 
to.
    Can you share with us information about any penetration or 
any damage that may have occurred and what steps you may be 
taking to prevent that in the future?
    Dr. Billington. Yes, sir. We have taken quite a number of 
steps, and there have not been any penetrations like there was 
the year before. But we have noticed a number of attempts and 
probes. We reassigned four people to work on computer security 
to keep up systematically with the growing number of attempts 
that continue. There have been a lot of attempts to penetrate, 
but no incidents of this kind. There is a whole list of things 
that we have done.
    Senator Bennett. Excuse me. What is your definition of a 
lot? You say there have been a lot of attempts. Is a lot more 
than 100, more than 1,000?
    Dr. Billington. It is steadily growing, but I am not sure I 
can give you an exact numerical reading on it. Don?
    Senator Bennett. I do not need an exact number, but are we 
in the hundreds or the thousands or the hundreds of thousands?
    General Scott. The Library's network, like all Government 
networks, experiences ongoing attempts at scans and intrusions, 
and we have mechanisms in place to monitor and report these 
attempts. The Library is the target of thousands of scans and 
probes per month, all of which must be treated as serious until 
proven otherwise. Many of these probes exhibit certain patterns 
of behavior that call for further investigation by skilled 
staff. Ultimately, the Library receives an average of three 
intrusion attempts per month that appear, from investigation, 
to have been serious attempts to exploit our network.
    Senator Bennett. But they have not successfully defaced the 
site.
    General Scott. No, they have not.
    Dr. Billington. We audited all the service systems and 
evaluated all the problems. We rebuilt all the servers that 
were potentially compromised. Then we reviewed and changed all 
accounts and passwords. There have been a lot of steps taken, 
and we deployed people to work on this. So, it is a continuing 
problem. I can give you a list of measures that we have taken. 
I do not know that you want me to read them all off.
    Senator Bennett. No. Why do you not just submit them for 
the record and we will put them in the hearing report.
    [The information follows:]

                           COMPUTER SECURITY

    The Library's network, like all government networks, 
experiences ongoing attempts at scans and intrusions, which we 
monitor and report to the appropriate authorities. Regarding 
technology security, work always remains to be done. No sooner 
does the information technology industry advance a new product 
for improving network security, than those who would seek to 
cause mischief or harm begin working to defeat the new product. 
The Library takes very seriously its computer security 
responsibilities. As a result of this critical responsibility, 
we redeployed resources (about four staff) to keep up with the 
growing number of attempts, but that is not enough to ensure 
ability to stay ahead of ``hackers''. Currently, networks with 
connectivity involving Internet, simply cannot be absolutely 
secure. The requested funds for additional staff responds to 
this growing need.
    In the interim, we have made significant progress 
implementing additional technology security systems, policies, 
and procedures since the THOMAS incident, as reflected in the 
following actions that we have completed: identified 
appropriate and additional network and computer security 
measures, and prioritized those measures for implementation 
based on criticality and resource availability; audited all 
Library server systems and evaluated all possible problems; 
rebuilt all servers that were potentially compromised; reviewed 
and changed all accounts and passwords on any servers for all 
users who had access to compromised servers; reviewed and 
refined restrictions implemented for public Internet access; 
implemented software to isolate publicly available servers to 
reduce the potential that an intruder could use one Library 
server to compromise another; hardened host-based security 
through elimination of unnecessary and/or particularly 
vulnerable services; implemented a system to identify and 
notify IT Security staff of unauthorized changes to operating 
system software or files; implemented a more secure method 
(Virtual Private Network, i.e., VPN) for providing Library 
staff and contractors with remote access to Library systems; 
implemented additional firewall systems; continued development 
of the Library's IT Security awareness program; and implemented 
an IT Security web site for staff.

    Dr. Billington. We also are completing an implementation of 
a private network to isolate CRS systems so that the 
confidentiality of the CRS services is getting particular 
attention within this general effort to keep ahead of this 
continuous guerilla warfare.
    Senator Bennett. My sense of things would be that people 
would not try to hack in for sensitive information because you 
are a library that has most of your information out there in 
the public domain anyway. But I can see some of the folks with 
whose activities I am familiar trying to hack in and deface the 
site, that is, leave usually a pornographic image so that some 
librarian in Peoria calls up the Library of Congress and it 
strikes somebody as being funny that instead of getting 
information about the Civil War, she gets a pornographic 
message or obscene message. Frankly, the people who do that are 
more sophisticated than we like to realize, but I think they 
get a bigger kick out of doing that at a Department of Defense 
location than the Library of Congress.
    Dr. Billington. More attention to this is part of the base 
request here that we are presenting to you because we realize 
this is a problem. It is not going to go away and it is going 
to increase, particularly as we become involved with 
partnership relationships as we develop the strategy for 
archiving this material.

                     CENTER FOR RUSSIAN LEADERSHIP

    Senator Bennett. There is no formal budget request for the 
Center for Russian Leadership Development. In past 
appropriations, this has moved out of this committee into 
others. Do you anticipate an additional request for that?
    Dr. Billington. Last year it was set up as an independent 
center in the legislative branch. We are still carrying the 
administrative support costs for the center in order to enable 
it to concentrate all its funds, as much as possible, directly 
on bringing over Russian leaders--it has brought nearly 4,000 
young Russians, and they have been from every political 
district of Russia. The program has been an extraordinary 
success.
    The independent board has not yet been fully constituted. 
We forwarded a fiscal year 2002 budget proposal as a courtesy 
to the committee, but it is not formally part of our budget. It 
has been mandated by the Congress to have a separate identity 
with a board and so forth. The Senate appointees are Senator 
Frist and Senator Levin, and we hope to have the full board 
appointed soon. Some four trustees are appointed by the 
leadership of the Senate and the House. I have four 
appointments. I also serve on the board. So, at the time when 
the board is appointed, we will schedule, hopefully, a late 
spring/early summer meeting, and we will approve the plans.
    But we have forwarded the $10 million fiscal year 2002 
budget request, which was identical to the preceding year, on 
behalf of the Center's board, and they will formally submit it 
once the board is fully constituted and has met.
    Senator Bennett. I just want, again, the record to show 
that I am very much in support of this. My contact with 
Russians indicates that this has produced a very significant 
benefit.
    Dr. Billington. It has been really quite amazing, Mr. 
Chairman. The average age is about 38 years old, and they come 
from 88 of the 89 regions--only in Chechnya were we unable to 
get anyone. They have been in almost all States and the 
District of Columbia. There has been a lot of congressional 
participation. We have had more than 100 members of the Duma. 
We have had families, in excess of what we need, volunteering 
to take them in. We have a wonderful cooperation from all kinds 
of groups. Utah was a particularly stunning success.
    Last year emphasized the rule of law. There were 103 judges 
from different parts of Russia among the 1,605 people that came 
over, about a quarter of the Duma, and members of the upper 
house, the Federative Council.
    Most of those people had never been to this country before, 
and to see how democracy and a market economy functions at the 
local level and how our nongovernmental organizations do so 
much of the work was all just a great revelation.
    I think it is the biggest program of this kind since the 
Marshall Plan, and the Congress really deserves enormous credit 
for having launched it. I think Geraldine Otremba, who runs it 
for us, has done a terrific job.
    But it is dependent on the volunteer activity of a great 
many groups, church groups. Rotary has been particularly 
strong. All kinds of other people, who have been doing this as 
individual Americans, have been reinforced and buttressed in 
their work of giving hospitality and a kind of brief but very 
intensive experience to a country that is struggling with a 
democracy. So, I really do commend the Congress for creating 
and sustaining this.
    It has been very inspiring to meet these people and hear 
the things they say. They have had 10 alumni meetings all over 
Russia, so they are even forming a kind of alumni network, 
which means that this is a continuing thing. The Russians hope 
to bring Americans back, and I think it has been a wonderful 
thing, in a sometimes difficult relationship, to have this kind 
of contact with the next generation.
    The average age is 38. Thirty-eight percent of them are 
women. That is something totally new in Russia. It is a whole 
new generation, a whole new perspective, and for the first 
time, I think something is happening from the bottom up and 
from the periphery, in a country where everything always 
happened from the top down. So, you have been encouraging, in a 
very cost effective manner, the future development of that 
country.
    Senator Bennett. Thank you.
    Senator Durbin.
    Senator Durbin. Yes. Thanks, Mr. Chairman.

                        AMERICAN FOLKLIFE CENTER

    I would like to add two letters to the record from our 
colleagues, Senator Daschle and Senator Tim Johnson.
    Senator Bennett. Without objection.
    [The letters follow:]
                              United States Senate,
                           Office of the Democratic Leader,
                                    Washington, DC, April 27, 2001.

The Honorable Richard J. Durbin,
United States Senate, Washington, D.C.
    Dear Dick: I am writing to express my wholehearted support for the 
budget request of the Library of Congress American Folklife Center 
(AFC).
    The collections of the American Folklife Center are the largest and 
most comprehensive ethnographic field collections in the world. The 
Center is responsible for much of the nation's most unique and valuable 
audio recordings, including the very first wax cylinder recordings of 
Native Americans (dating from 1890), the only sound recordings of ex-
slaves telling their life stories, and the recordings of folk cultural 
icons such as Woody Guthrie, LeadBelly, and Jelly Roll Morton. The 
Center has served my own state of South Dakota by preserving the songs 
and stories of the Sioux, as well as the pioneering European settlers. 
More importantly, copies of these recordings have been returned to the 
state of South Dakota and the Sioux tribe, and they exist as a sound 
portrait and oral record of South Dakota history.
    The Center is asking for a very modest, and long overdue, increase 
of $1 million to preserve and make accessible to the public the 
priceless sound recordings in their collections. This is essential to 
fulfill their congressional mandate to ``preserve and present American 
folklife.'' We must act now, or these recordings may be silenced 
forever.
    In addition, Congress approved a new law last year that directs the 
AFC to ``collect and preserve the oral histories of America's war 
veterans.'' This law, which allows the Library to lead in documenting 
and presenting these life stories for future generations, did not 
receive an appropriation. The Veterans' Oral History Program is one of 
the most exciting cultural heritage initiatives to come from Congress 
in recent years. The Center is asking for $250,000 to implement this 
program, which is part of its request for a $1 million increase.
    I urge you to join me in supporting the budget request of the 
American Folklife Center. Thank you for your consideration of this 
request.
            Sincerely,
                                               Tom Daschle,
                                              United States Senate.
                                 ______
                                 
                                      United States Senate,
                                    Washington, DC, April 30, 2001.

The Honorable Robert F. Bennett,
The Honorable Richard Durbin,
Subcommittee on the Legislative Branch, Senate Committee on 
        Appropriations, United States Senate, Washington, D.C.
    Dear Chairman Bennett and Senator Durbin: I respectfully request 
inclusion of the following project in the Subcommittee's appropriations 
for the Legislative Branch.

Folklife Center of the Library of Congress ($2 million)
    I would urge the Subcommittee to appropriate funds for the Folklife 
Center at $2 million. The current proposal is only $1 million. 
Unfortunately, this program has not received a funding increase in over 
twenty years. These additional funds would be used to process, 
preserve, and archive historic folklife materials, including the 
records of the Veterans Oral History Project.
    I appreciate the Subcommittee's attention to this important 
request. I look forward to working with you during deliberation on 
appropriations language.
            Sincerely,
                                               Tim Johnson,
                                              United States Senate.

    Senator Durbin. These letters are in support of the 
American Folklife Center, as well as the veterans oral history 
project. They speak for themselves, and I think that those are 
two good undertakings by the Library of Congress.
    Senator Voinovich and I in the Government Affairs Committee 
have had a series of hearings about the problems across the 
Federal Government in attracting and retaining the very best 
people. It appears that we are in constant competition with the 
private sector, which is no surprise, and that we have lost 
that competition many times. We have failed to attract the best 
and brightest to public service and may ultimately pay a price 
for that.

                 FEDERAL STUDENT LOAN REPAYMENT PROGRAM

    One of the things which we have discussed, in addition to 
identifying critical needs in personnel skills, is also trying 
to identify those things which would attract and keep good 
people at the Library of Congress and many other Federal 
agencies. One element, of course, is student loans. Young 
people come out of college with $50,000 or $100,000 in student 
loans and working for the Federal Government may not be as 
appealing as something that pays a little more.
    I wonder if you have run into this problem, as you talk 
about the new technical responsibilities at the Library of 
Congress, whether you have been able to find the people that 
you need, whether you need to have additional tools to reach 
out and recruit people or to retain them, and whether the 
forgiveness of student loans or the deferral of student loans 
has been something that you either considered or budgeted for.
    Dr. Billington. Well, Senator, I am really glad you brought 
that up because I do not think any administrative problem has 
been of as much concern to us as this need. We have a very 
talented staff, but particularly as we enter this new high tech 
area, we are not competitive with the private sector. There is 
a tremendous need to increase both the salary levels and the 
benefits. That is why the first thing I began with in my 
testimony is the mandatory pay level increases, how important 
they are.
    We have a special problem at the Library because we have a 
succession generation problem. The Library had a big increase 
in employees in the early post-war period and a lot of those 
people are nearing retirement age, more than half of our staff. 
So, succession planning has been tremendously important. It is 
particularly important for an institution like this because 
many of our employees have unique, one of a kind experience. 
The average service in the Library is quite long, and when you 
get a lot of people retiring at once or nearing retirement age, 
you have to have a rational succession plan. CRS has been 
working on this very effectively. The Library Services are 
doing the same thing.
    There are, of course, these other benefits. Congress was 
very helpful, when I requested it, picking up a site so that we 
could use that for a day-care center. There are a lot of very 
important things that are of concern to the staff, in addition 
to the straight monetary level, such as enabling people to get 
on-the-job training in these very unique kinds of jobs. This is 
a one-of-a-kind institution, and it is important to have a 
rational succession plan so that the institutional knowledge of 
individual employees, what is in their heads, gets passed on to 
the next generation.
    As far as this particular issue is concerned, we have been 
evaluating this new program on the student loans, and we have 
asked our payroll service provider, the National Finance 
Center, to add this capability to their system. If we can 
implement it in a cost effective manner, we would like to use 
loan repayments as another tool to attract and retain key 
employees. So, we commend you for this initiative.
    I would just say very emphatically that the business of 
knowledge navigation and the often invisible services that the 
Library of Congress renders to the entire library and 
information community is of such importance, that I cannot 
think of anything more important than to lift the levels of 
remuneration to a slightly higher level for our skilled 
personnel.
    Beyond succession planning, we really do not have a direct 
training budget. We have an internal university. We have a lot 
of other things that we are doing because of the skill levels 
that are needed. More and more you have to have both 
substantive knowledge and technical capability to perform in 
the new digital environment. We are in a real change mode, and 
when you are in a change mode, you require not only the ability 
to hire at a higher salary level, but also to train and retrain 
people. We have enormously talented people that need 
retraining.
    So, I really commend you and the other Senators for 
following this initiative because the Library of Congress does 
so many unique things.

                      STAFF QUALITY OF LIFE ISSUES

    Senator Durbin. Let me ask you, Dr. Billington, if I may. 
What efforts do you make among your 4,000 staff employees to 
gauge quality of life and quality of work elements that are 
important to them that would be an element in retention and 
even recruitment?
    Dr. Billington. I think I will let General Scott answer 
that.
    General Scott. Senator Durbin, we try very hard to balance 
how much we can help our employees to improve the quality of 
life. We participate in the Metro transit subsidy program and 
are currently working on a telecommuting pilot. We offer 
classes for people who are stuck in dead-end jobs so that they, 
too, have an opportunity to improve themselves and move up.
    With 70 percent of our budget devoted to personnel, this is 
a very difficult balancing act, but we continue to push as hard 
as we can to add more to the Metro subsidy, to encourage----
    Senator Durbin. Excuse me. Metro subsidy I am not familiar 
with.
    General Scott. That is the Government paying part of the 
costs of an employee's public transportation. That is a big 
issue because parking on Capitol Hill is at such a premium. We 
participate in the transit program as much as we can.
    Dr. Billington. We have put a lot into ergonomics because 
part of the transition into the new digital environment means a 
lot of people are working in unnatural positions and require 
some different kinds of furniture. We discuss these matters 
with the unions and with others. Certainly, quality of life is 
a very important component of what we are trying to do.
    Senator Durbin. Thank you.
    As I am on the subcommittee a little longer, I will come to 
understand the agency a little more and exactly what you do. 
But I am always impressed with the Library of Congress and the 
work you do.
    Thank you, Mr. Chairman.
    Senator Bennett. Thank you.
    Mr. Mulhollan, we would normally go to you, but Congressman 
Thomas has to manage a bill on the floor at 11 o'clock and he 
is in the Leader's office and is on his way down. If I could, 
could I get you to hold while we listen to Congressman Thomas?
    Mr. Mulhollan. I am most pleased to do so.
    Senator Bennett. Thank you.

                         CAPITOL POLICE MERGER

    Dr. Billington, thank you very much. We will have some 
further discussions with you about some other issues. Dr. 
Billington and I have had a conversation about the Capitol 
Police, and as that moves forward, he has some suggestions that 
I think are very valid as to what should be done with respect 
to the skills required by the Library police.
    We on this subcommittee pushed last year for a 
consolidation of the police forces on Capitol Hill. We have the 
Capitol Police. We have the Government Printing Office Police. 
We have the Library of Congress Police, and we have the Supreme 
Court Police. There seems to be a lot of overlapping 
jurisdiction here.
    But Dr. Billington, while generally in support of the idea 
of consolidation into a single police force, has raised some 
appropriate questions about special training and special 
requirements and his needs as the Librarian to have some degree 
of control and input over the people who support him. As we get 
farther down the road with that, if we decide to go forward 
with that, we will be in touch with you. We ran afoul of the 
House last year.
    We should recognize for the record that Marybeth Peters, 
Register of Copyrights and Frank Kurt Cylke, Director of the 
National Library Service for the Blind and Physically 
Handicapped are also here.
    So, with that, Congressman Thomas is on his way down. Thank 
you. We will dismiss you, and as soon as Congressman Thomas 
appears, we will go back to the Joint Committee on Taxation.

                      JOINT COMMITTEE ON TAXATION

STATEMENT OF HON. WILLIAM M. THOMAS, U.S. 
            REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN
ACCOMPANIED BY LINDY L. PAULL, CHIEF OF STAFF

    Senator Bennett. Our next witness is Chairman Bill Thomas. 
We welcome you. He is the chairman of the Joint Committee on 
Taxation in the 107th Congress.
    The committee has requested $6.7 million for fiscal year 
2002, which is a 4.9 percent increase. I understand the 
increase is solely attributable to increased personnel costs 
due to COLA's, and there is a 1 percent meritorious pay 
increase included.
    Chairman Thomas, we are honored to have you here. We look 
forward to your testimony. We appreciate, given the pressures 
that you are under with all the other things you have to do, 
that you could take some time for us.
    Mr. Thomas. Thank you very much, Mr. Chairman. I would ask 
unanimous consent that my written statement be made a part of 
the record.
    Senator Bennett. Without objection.
    [The statement follows:]

                Prepared Statement of William M. Thomas

    Mr. Chairman and members of the Subcommittee, it is my honor to 
appear before the Subcommittee today to present the written testimony 
of the Joint Committee on Taxation (``Joint Committee'') with respect 
to the fiscal year 2002 appropriation request for the Joint Committee.
    Mr. Chairman, the request of the Joint Committee represents the 
minimum amount necessary to fund the operations of the Joint Committee 
during fiscal year 2002. The following summarizes the main components 
to the Joint Committee's request.
  --The Joint Committee is requesting an increase of $317,000 for 
        fiscal year 2002 to cover cost-of-living adjustments and a 1-
        percent meritorious increase in personnel compensation 
        expenses.
  --The Joint Committee is requesting $200,000 for an additional study 
        on the simplification of the Federal tax system. Under section 
        8022(3)(B) of the Internal Revenue Code of 1986, subject to 
        amounts being specifically appropriated for this purpose, the 
        Joint Committee is required to report at least once each 
        Congress to the Senate Committee on Finance and the House 
        Committee on Ways and Means on the overall state of the Federal 
        tax system, together with recommendations with respect to 
        possible simplification proposals and other matters relating to 
        the administration of the Federal tax system. The Joint 
        Committee released its first report on this subject in late 
        April and copies of the report have been made available to the 
        members of the Subcommittee.
  --The Joint Committee is requesting no increase in nonpersonnel 
        expenses for fiscal year 2002.
    The following discussion provides (1) detailed information on the 
Joint Committee appropriation request for fiscal year 2002, (2) a 
review of Joint Committee operations during calendar year 2000, and (3) 
a description of the anticipated workload of the Joint Committee during 
calendar year 2001.

           SUMMARY OF FISCAL YEAR 2002 APPROPRIATION REQUEST

    The following table summarizes the Joint Committee's appropriation 
request for fiscal year 2002 relative to the fiscal year 2001 
appropriation.

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                               2001            2002
------------------------------------------------------------------------
Personnel Costs:
    Personnel compensation..............      $5,856,000      $6,173,000
    Transit benefits....................           2,000           2,000
Nonpersonnel Funding:
    Travel..............................          12,000          12,000
    Rent, communications, and utilities.          30,000          30,000
    Printing............................             500             500
    Other services......................          98,500          98,500
    Supplies and materials..............         154,000         154,000
    Equipment...........................         263,000         263,000
Funding for Joint Committee               ..............         200,000
 simplification study...................
    Total fiscal year 2001 appropriation   \1\ 6,416,000  ..............
    Total fiscal year 2002 request......  ..............       6,933,000
------------------------------------------------------------------------
\1\ After reduction for rescission amount of $14,000.

           DETAILS OF FISCAL YEAR 2002 APPROPRIATION REQUEST

Personnel expenses

            Details of appropriation request
    The $317,000 increase in the Joint Committee's appropriation for 
fiscal year 2002 relative to fiscal year 2001 is attributable solely to 
increased personnel costs. This increase is attributable to the 
following amounts, which have been calculated pursuant to information 
supplied by the House Office of Finance:
    Fiscal year 2001 cost-of-living adjustment annualized.--The Joint 
Committee requests $54,000 to fund 3 months of the 3.7 percent cost-of-
living adjustment for calendar year 2001.
    Fiscal year 2002 cost-of-living adjustment annualized.--The Joint 
Committee requests $204,000 to fund 9 months of the projected cost-of-
living adjustment for calendar year 2002.
    Meritorious increases.--The Joint Committee requests $59,000 for 1-
percent meritorious increases for fiscal year 2002.

            Need for adequate funding for personnel expenses
    The funding of adequate amounts for personnel costs is critical to 
the continued ability of the Joint Committee to attract and retain 
qualified professional staff.
    Joint Committee professional staff include tax lawyers, certified 
public accountants, Ph.D. economists, and highly trained computer 
specialists. In order to provide the highly technical services required 
by Joint Committee lawyers and certified public accountants, the Joint 
Committee generally requires such professionals to have a minimum of 3-
4 years of private practice or comparable experience. It is becoming 
increasingly difficult to attract such individuals to public service 
and retain them for significant periods given the disparity between 
private sector salaries and the salaries the Joint Committee can pay.
    A similar problem arises with Joint Committee staff economists. The 
Joint Committee typically hires economists who are just completing 
their Ph.D. programs. It generally takes an entry-level economist 2-3 
years of training to become proficient in the unique skills required to 
prepare revenue estimates for proposed tax legislation. Once this 
training period is complete, these economists have highly marketable 
skills and the accounting firms that attempt to duplicate the work of 
the Joint Committee offer significant salary increases to lure Joint 
Committee economists to the private sector.
    At this time, the Joint Committee is actively recruiting to fill 
open staff positions that have resulted from staff attrition during the 
last Congress. However, unless adequate amounts are funded for 
personnel expenses for fiscal year 2002, the Joint Committee will not 
be able to fill all of its open positions. Failure to fill open 
positions may result in a reduced level of service to the Congress.

Nonpersonnel expenses

            In general
    The Joint Committee is requesting no increase in nonpersonnel 
expenses for fiscal year 2002.

            Travel
    The Joint Committee requests $12,000 for travel during fiscal year 
2002. This amount will be used to pay travel expenses of (1) job 
applicants, (2) Joint Committee consultants, and (3) Joint Committee 
staff attending educational conferences.

            Rent, communications, and utilities
    The Joint Committee requests $30,000 for fiscal year 2002 to cover 
anticipated expenses for communications and utilities.

            Printing
    The Joint Committee requests the nominal amount of $500 to cover 
anticipated printing expenses for fiscal year 2002.

            Other services
    The Joint Committee requests $98,500 for other services for fiscal 
year 2002. This category represents a substantial portion of the Joint 
Committee's nonpersonnel expenses. The Joint Committee utilizes 
consultants and other service providers to perform functions that the 
Joint Committee staff does not have the time or expertise to perform. 
For example, the needs of the Members for immediate responses to 
requests for revenue estimates and the substantial volume of requests 
that the Joint Committee staff receives each year places limitations on 
the ability of the Joint Committee staff to perform certain work, such 
as the manipulation of new data sets, that improves the quality of 
Joint Committee revenue estimates. The Joint Committee staff has found 
that it is more cost efficient to contract some of this work to outside 
consultants.

            Supplies and materials
    The Joint Committee requests $154,000 for supplies and materials 
for fiscal year 2002. The largest expense in this category is a 
projected $120,000 for subscriptions and publications to keep up with 
current developments in tax law.

            Equipment
    The Joint Committee requests $263,000 for equipment for fiscal year 
2002. The Joint Committee staff anticipates expending approximately 
$130,000 for replacement of network servers and software and storage 
upgrades for the Joint Committee's electronic tracking system. The 
Joint Committee tracking system is a software program that became fully 
operational in 2000. This software package enables the paperless 
processing and tracking of all Member requests and has resulted in 
significant time and cost savings. In addition, Xerox maintenance and 
usage costs are projected to be approximately $50,000 and hardware and 
software maintenance are projected to be approximately $80,000.

Supplemental request to fund additional study on tax simplification
    The Joint Committee is requesting that the Subcommittee appropriate 
$200,000 for an additional study for fiscal year 2002. Under section 
8022(3)(B) of the Internal Revenue Code of 1986, subject to amounts 
being specifically appropriated for this purpose, the Joint Committee 
is required to report at least once each Congress to the Senate 
Committee on Finance and the House Committee on Ways and Means on the 
overall state of the Federal tax system, together with recommendations 
with respect to possible simplification proposals and other matters 
relating to the administration of the Federal tax system. The Joint 
Committee submitted its first simplification report in late April 2001.

 REVIEW OF JOINT COMMITTEE ON TAXATION OPERATIONS DURING CALENDAR YEAR 
                                  2000

In general
    Attachments A through E provide a summary of the activity of the 
Joint Committee staff for calendar year 2000. The attachments include 
the following information:
    (1) Attachment A--information relating to the legislative tax 
reports (Committee and Conference Reports) drafted by Joint Committee 
staff for the revenue-related legislation considered by the House 
Committee on Ways and Means and/or the Senate Committee on Finance;
    (2) Attachment B--a listing of all documents published by the Joint 
Committee staff during calendar year 2000;
    (3) Attachment C--a graph showing the number of written requests 
received by the Joint Committee from Members of Congress for revenue 
estimates and other assistance during the period 1986 through 2000;
    (4) Attachment D--a table providing information on revenue estimate 
requests and Joint Committee staff responses to various categories of 
requesting Members for 2000; and
    (5) Attachment E--information relating to the Joint Committee 
staff's statutorily mandated duty to review large income tax refunds.

Tax legislative reports
    The Joint Committee staff prepared 21 Committee and Conference 
reports relating to tax legislation considered by the Congress in 2000 
and provided assistance on one trade Committee report. A complete 
listing of these reports is included at Attachment A.

Joint Committee staff publications
    In addition to its work on committee and conference reports, the 
Joint Committee staff published 117 documents during 2000, including 
pamphlets and other documents prepared for committee hearings and 
markups and conference action (see Attachment B). All Joint Committee 
staff publications are accessible from the Joint Committee's web page 
(http://www.house.gov/jct).

Revenue estimates and related analysis
    Attachments C and D show data relating to the Joint Committee 
staff's revenue estimating activity. Attachment C shows the number of 
revenue estimate requests received by the Joint Committee staff each 
year from 1986 through 2000.
    Attachment D also shows information on revenue estimate requests 
and Joint Committee staff responses to various categories of Members 
requesting revenue estimates for 2000. The Joint Committee staff is 
cognizant of its responsibility to provide service to all Members who 
request it and monitors its response rates to ensure that the Joint 
Committee staff responds to non-tax-writing Committee Members as well 
as the tax-writing Committee Members.
    The Joint Committee staff's new tracking system has transitioned 
the Joint Committee staff from a paper-based and time consuming system 
for processing Member requests to a paperless system that allows the 
Joint Committee staff to process and monitor all Member requests 
electronically from the time a request is received until the final 
response is delivered to the requesting Member. This upgraded system 
has significantly improved the efficiency of the Joint Committee staff 
in responding to Member requests. The time required to process reviews 
of draft Joint Committee responses to Member requests has been reduced 
from several days to several hours.
    In addition, this upgraded database system maintains a complete 
electronic record of each request received from a Member of Congress 
and enables real time tracking of the status of each such request.
    The Joint Committee staff continues its work on an ongoing project 
to develop a model to measure the short- and long-term effects on the 
economy of major tax legislation. The major challenge of this work is 
developing a computer model that can analyze several variations of a 
tax proposal without major reprogramming. Without this capability, a 
macroeconomic model will not produce reliable estimates when the 
elements of major tax proposals change during the legislative process. 
Later in 2001, the Joint Committee staff expects to be able to begin 
producing comparative analysis of the long-term growth effects of major 
tax proposals and to provide macroeconomic information with revenue 
estimates for major tax proposals.

JCT staff studies, investigations, and refund review
            Studies and investigations
    In 2000, the Joint Committee staff published an 899-page study of 
the present-law taxpayer confidentiality and disclosure provisions as 
required by section 3802 of the IRS Restructuring and Reform Act of 
1998. This three-volume study included legislative recommendations of 
the Joint Committee staff with respect to the general disclosure 
provisions of present law and with respect to disclosure provisions 
relating to tax-exempt organizations.
    During 2000, the Joint Committee staff completed its investigation 
of whether the IRS selection of tax-exempt organizations (described in 
Code sections 501(c)(3) and 501(c)(4)) and individuals associated with 
such organizations for audit has been politically motivated, including 
an analysis of the selection of such tax-exempt organizations for audit 
for reasons related to their alleged political or lobbying activities. 
The Joint Committee's 163-page report on this investigation was 
released in March 2000. This investigation, which was requested by the 
Chairman, Vice Chairman, and two ranking Members of the Joint 
Committee, represents an important exercise of the Joint Committee's 
statutorily prescribed duty of oversight of the administration of the 
Federal tax system.
    During 2000, the Joint Committee staff organized the annual joint 
hearing on the strategic plans and budget of the IRS, as mandated by 
the IRS Restructuring and Reform Act of 1998. This annual joint hearing 
of the six Congressional committees with jurisdiction over the IRS will 
continue through 2003.
    The Joint Committee staff continued in 2000 a study of the overall 
state of the Federal tax system, as mandated by the IRS Restructuring 
and Reform Act of 1998. The Joint Committee staff released its report 
on this study in late April of this year. As part of the study, the 
Joint Committee staff has convened two advisory groups, one consisting 
of individuals who formerly served in major tax policy positions in the 
Executive or Legislative branch and the other consisting of noted tax 
academics. The Joint Committee staff conducted several meetings with 
these advisors to elicit input on possible simplification 
recommendations. The Joint Committee staff reviewed the simplification 
recommendations that have been made by professional organizations, such 
as the American Institute of Certified Public Accountants, the Business 
Roundtable, the Tax Executives Institute, and the Tax Section of the 
American Bar Association. The General Accounting Office and the 
Congressional Research Service were also asked to perform work in 
connection with this study.

            Refund review
    An ongoing, statutorily mandated function of the Joint Committee is 
the review of IRS refunds or credits of income tax, estate and gift 
tax, or any tax on public charities, foundations, pension plans, or 
real estate investment trusts in excess of $1 million. The Joint 
Committee staff reviews and reports on such refund cases and makes 
comments or recommendations with respect to the proposed refund case to 
the IRS. Attachment E contains information concerning the Joint 
Committee staff refund review work. During fiscal year 2000, the Joint 
Committee refund staff reviewed 664 cases involving $5.55 billion in 
proposed refunds and 64 large deficiency cases. The Joint Committee 
staff raised concerns in 47 refund cases. Errors identified by the 
Joint Committee staff produced a net reduction in refunds of $11.7 
million in fiscal year 2000. The average annual reduction in refunds 
for the last 10 years is $11.9 million.
    In the Community Renewal Tax Relief Act of 2000, the Joint 
Committee refund review threshold was increased to $2 million, 
effective on December 22, 2000. The Joint Committee requested this 
increase because the number of refunds in excess of $1 million was 
increasing and the Joint Committee felt that a refund review threshold 
of $2 million would permit adequate oversight of the handling of large 
refund cases by the IRS. In addition, the increase in the threshold 
allowed the Joint Committee to avoid an increase in staffing of the 
refund review function.

 ANTICIPATED WORKLOAD OF THE JOINT COMMITTEE ON TAXATION FOR CALENDAR 
                               YEAR 2001

    During 2001, the Joint Committee expects an increase in workload 
over 2000. The Joint Committee staff will provide support to the 
Congress and the tax-writing committees as broad-based and other tax 
relief proposals, including President Bush's tax cut plan, are 
considered by the Congress. In addition, the Joint Committee 
anticipates that the Congress will consider legislation to extend 
various expiring tax provisions and to reform the laws relating to IRAs 
and employer-provided retirement plans. As part of the legislative 
process, the Joint Committee staff will (1) develop legislative 
proposals, (2) assist in the drafting of such proposals, (3) provide 
revenue estimates for numerous legislative options and amendments, (4) 
prepare markup documents and committee reports, and (5) provide 
additional economic analysis to the Members.
    In addition to this anticipated legislative activity, the Joint 
Committee staff will continue to satisfy its responsibilities under the 
IRS Restructuring and Reform Act of 1998.
    Thus, the Joint Committee staff will: (1) prepare a complexity 
analysis for inclusion in Committee and Conference reports for all 
revenue legislation; (2) organize the joint review in 2001 relating to 
the operations of the Internal Revenue Service and prepare materials 
for the use of the Congress in connection with the review; and (3) 
complete work on a comprehensive study relating to the complexity of 
the present-law tax system.
    The Joint Committee will continue to satisfy its statutory 
responsibility to review large refund cases submitted to it by the IRS.
    The Joint Committee staff expects to assist the Senate Committee on 
Foreign Relations with respect to its work to review proposed tax 
treaties.
    The Joint Committee staff anticipates that requests from Members 
for revenue estimates for proposed legislation will increase in 2001, 
relative to 2000. In addition, the Joint Committee staff will continue 
to work to develop a macroeconomic model that will provide information 
on the possible effects on the economy of major tax legislation.

                                SUMMARY

    Mr. Chairman, the Joint Committee has a reputation for providing 
timely, high quality service to the Congress with respect to proposed 
revenue legislation. However, the highly technical nature of the Joint 
Committee's work makes it imperative that the Joint Committee be able 
to hire and retain qualified tax professionals. If the Joint 
Committee's appropriation request is not approved, the Joint Committee 
will not have adequate resources to fill all of its open staff 
positions.
    I respectfully request that the Subcommittee approve the 
appropriation request of the Joint Committee on Taxation for fiscal 
year 2002. This request is the minimum amount necessary to fund the 
operations of the Joint Committee during fiscal year 2002. If the 
requested funding is not provided, difficult decisions will be required 
concerning what staff activities can and should be funded.

   Attachment A.--Committee and Conference Reports Prepared by Joint 
         Committee on Taxation Staff During Calendar Year 2000

House Committee on Ways and Means
    106-493--Marriage Tax Penalty Relief Act Of 2000; February 7, 2000.
    106-546--Education Savings and School Excellence Act of 2000; March 
24, 2000.
    106-566--Taxpayer Bill of Rights 2000; April 10, 2000.
    106-631--Repeal Of Federal Communications Excise Tax; May 22, 2000.
    106-651--Death Tax Elimination Act Of 2000; June 6, 2000.
    106-702--Full And Fair Political Activity Disclosure Act Of 2000; 
June 27, 2000.
    106-753--Comprehensive Retirement Security And Pension Reform Act 
of 2000; July 17, 2000.
    106-777--Railroad Retirement and Survivors' Improvement Act of 
2000; July 26, 2000.
    106-780--Social Security Benefits Tax Relief Act of 2000; July 24, 
2000.
    106-845--FSC Repeal And Extraterritorial Income Exclusion Act Of 
2000; September 13, 2000.
    106-862--Debt Relief Lock-box Reconciliation Act For Fiscal Year 
2001; September 18, 2000.

Senate Committee on Finance
    106-253--Marriage Tax Relief Act of 2000; April 4, 2000.
    106-328--Repeal of Federal Communications Excise Tax; July 5, 2000.
    106-329--Marriage Tax Relief Reconciliation Act of 2000; July 5, 
2000.
    106-411--Retirement Security and Savings Act of 2000; September 13, 
2000.
    106-416--FSC Repeal And Extraterritorial Income Exclusion Act Of 
2000; September 20, 2000.
    106-475--Railroad Retirement And Survivors' Improvement Act of 
2000; October 3, 2000.

Conference Committee Reports
    106-606--Trade And Development Act Of 2000; May 4, 2000.
    106-765--Marriage Tax Relief Reconciliation Act of 2000; July 19, 
2000.
    106-1004--Enactment Of Certain Small Business, Health, Tax, And 
Minimum Wage Provisions; October 26, 2000.
    106-1033--Community Renewal Tax Relief Act Of 2000; December 15, 
2000.

  Attachment B.--Publications Prepared by Joint Committee on Taxation 
                    Staff During Calendar Year 2000

                            JCS-00 DOCUMENTS

    JCS-1-00--Study Of Present-Law Taxpayer Confidentiality And 
Disclosure Provisions As Required By Section 3802 Of The Internal 
Revenue Service Restructuring And Reform Act Of 1998--Volume I: Study 
Of General Disclosure Provisions; Volume II: Study Of Disclosure 
Provisions Relating To Tax-Exempt Organizations; Volume III: Public 
Comments And General Accounting Office Reports. January 28, 2000
    JCS-2-00--Description Of Revenue Provisions Contained In The 
President's Fiscal Year 2001 Budget Proposal. March 6, 2000
    JCS-3-00--Report Of Investigation Of Allegations Relating To 
Internal Revenue Service Handling Of Tax-Exempt Organization Matters. 
March 2000
    JCS-4-00--Joint Review Of The Strategic Plans And Budget Of The 
Internal Revenue Service, 2000. May 3, 2000

                            JCX-00 DOCUMENTS

    JCX-1-00--Background Information Relating To The Joint Committee On 
Taxation. January 12, 2000
    JCX-2-00--Testimony Of The Staff Of The Joint Committee On Taxation 
Concerning Tax Penalties And Interest Before The Subcommittee On 
Oversight Of The House Committee On Ways And Means. January 27, 2000
    JCX-3-00--Description Of The Marriage Tax Penalty Relief Act Of 
2000. January 31, 2000
    JCX-4-00--Estimated Revenue Effects Of The Chairman's Mark Of The 
``Marriage Tax Penalty Relief Act Of 2000,'' Scheduled For Markup By 
The Committee On Ways And Means Of February 2, 2000. January 31, 2000
    JCX-5-00--Estimated Revenue Effects Of The Chairman's Mark Of The 
``Marriage Tax Penalty Relief Act Of 2000,'' Scheduled For Markup By 
The Committee On Ways And Means Of February 2, 2000. February 1, 2000
    JCX-6-00--Description Of An Amendment In The Nature Of A Substitute 
To The Provisions Of H.R. 6. February 1, 2000
    JCX-7-00--Distributional Effects Of The Chairman's Amendment In The 
Nature Of A Substitute Relating To The ``Marriage Tax Penalty Relief 
Act Of 2000''. February 1, 2000
    JCX-8-00--Comparison Of Federal Tax Liabilities Under Present Law 
And Under The Chairman Modified Amendment In The Nature Of A Substitute 
Relating To The ``Marriage Tax Penalty Relief Act Of 2000'' For 
Hypothetical Married Couples. February 2, 2000
    JCX-9-00--Description Of Additional Modifications To The Chairman's 
Amendment In The Nature Of A Substitute To The Provisions Of H.R. 6. 
February 2, 2000
    JCX-10-00--Estimated Revenue Effects Of The Chairman's Modified 
Amendment In The Nature Of A Substitute To The ``Marriage Tax Penalty 
Relief Act Of 2000,'' Scheduled For Markup By The Committee On Ways And 
Means On February 2, 2000. February 2, 2000
    JCX-11-00--Estimated Revenue Effects Of The Chairman's Modified 
Amendment In The Nature Of A Substitute To The ``Marriage Tax Penalty 
Relief Act Of 2000,'' Scheduled For Markup By The Committee On Ways And 
Means On February 2, 2000. February 2, 2000
    JCX-12-00--Distributional Effects Of The Chairman's Modified 
Amendment In The Nature Of A Substitute Relating To The ``Marriage Tax 
Penalty Relief Act Of 2000''. February 2, 2000
    JCX-13-00--Summary Of Tax Provisions Contained In The President's 
Fiscal Year 2001 Budget Proposal. February 7, 2000
    JCX-14-00--Estimated Revenue Effects Of The Revenue Provisions 
Contained In H.R. 833, The ``Bankruptcy Reform Act Of 2000, As Passed 
By The Senate. February 24, 2000
    JCX-15-00--Overview Of Issues Relating To The Modification Of The 
Installment Sales Rules By The Ticket To Work And Work Incentives 
Improvement Act Of 1999 Scheduled for a Hearing Before the Subcommittee 
on Oversight of the House Committee on Ways and Means on February 29, 
2000. February 28, 2000
    JCX-16-00--Comparison Of Revenue Provisions In H.R. 434 As Passed 
By The House And The Senate. March 1, 2000
    JCX-17-00R--Comparison Of The Estimated Revenue Effects Of The 
Revenue Provisions Contained in H.R. 434, As Passed By The House And 
The Senate. March 1, 2000
    JCX-18-00--Updated Comparison Of Revenue Provisions In H.R. 2990 As 
Passed By The House And The Senate. March 2, 2000
    JCX-19-00R--Comparison Of The Estimated Revenue Effects Of H.R. 
2990 As Passed By The House And The Senate. March 2, 2000
    JCX-20-00--Estimated Budget Effects Of The Revenue Provisions 
Contained in The President's Fiscal Year 2001 Budget Proposal. March 6, 
2000
    JCX-21-00--Summary Of Provisions Contained In The Small Business 
Tax Fairness Act Of 2000. March 6, 2000
    JCX-22-00--Comparison Of Joint Committee Staff And Treasury 
Recommendations Relating To Interest And Penalty Provisions Of The 
Internal Revenue Code Scheduled for a Public Hearing Before the Senate 
Committee on Finance on March 8, 2000. March 7, 2000
    JCX-23-00--Testimony Of The Staff Of The Joint Committee On 
Taxation Concerning Interest And Penalties And Corporate Tax Shelters 
Before The Senate Committee On Finance. March 7, 2000
    JCX-24-00--Appendix To JCX-23-00--NIPA And Federal Income Tax 
Receipts Data. March 7, 2000
    JCX-25-00--Comparison Of Recommendations Relating To Corporate Tax 
Shelters Made By The Department Of Treasury And The Staff Of The Joint 
Committee On Taxation Scheduled for a Public Hearing Before the Senate 
Committee on Finance on March 8, 2000. March 7, 2000
    JCX-26-00--Estimated Budget Effects Of H.R. 3832, The ``Small 
Business Tax Fairness Act Of 2000'' (5-year estimates). March 8, 2000
    JCX-27-00--Estimated Budget Effects Of H.R. 3832, The ``Small 
Business Tax Fairness Act Of 2000'' (10-year estimates). March 10, 2000
    JCX-28-00--Estimated Revenue Effects Of S. 1134, The ``Affordable 
Education Act Of 2000,'' As Passed By The Senate. March 14, 2000
    JCX-29-00--Present Law And Proposals Relating To Tax Incentives For 
Economically Distressed Areas Scheduled for a Hearing Before the 
Subcommittee on Oversight of the House Committee on Ways and Means on 
March 21, 2000. March 20, 2000
    JCX-30-00--Description Of H.R. 7 (The ``Education Savings And 
School Excellence Act Of 1999'') Scheduled for Markup by the House 
Committee on Ways and Means. March 21, 2000
    JCX-31-00--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Of H.R. 7. March 22, 2000
    JCX-32-00--Estimated Revenue Effects Of A Chairman's Amendment In 
The Nature Of A Substitute To H.R. 7, The ``Education Savings And 
School Excellence Act Of 1999'' Scheduled For Markup By The Committee 
On Ways And Means On March 22, 2000 (10-year numbers). March 22, 2000
    JCX-33-00--Estimated Revenue Effects Of A Chairman's Amendment In 
The Nature Of A Substitute To H.R. 7, The ``Education Savings And 
School Excellence Act Of 1999'' Scheduled For Markup By The Committee 
On Ways And Means On March 22, 2000 (5-year numbers). March 22, 2000
    JCX-34-00--Description Of A Chairman's Mark Of The Marriage Tax 
Relief Act Of 2000 Scheduled for Markup by the Senate Committee on 
Finance on March 30, 2000. March 28, 2000
    JCX-35-00--Estimated Revenue Effects Of A Chairman's Mark Of The 
``Marriage Tax Relief Act Of 2000,'' Scheduled For Markup By The 
Committee On Finance On March 30, 2000. March 28, 2000
    JCX-36-00--Comparison Of Federal Tax Liabilities Under Present Law 
And Under The Chairman's Mark Of The ``Marriage Tax Relief Act Of 
2000,'' Scheduled For Markup By The Committee On Finance On March 30, 
2000, For Hypothetical Married Couples. March 28, 2000
    JCX-37-00--Distributional Effects Of A Chairman's Mark Of The 
``Marriage Tax Relief Act Of 2000,'' Scheduled For Markup By The 
Committee On Finance On March 30, 2000. March 28, 2000
    JCX-38-00--Estimated Revenue Effects Of A Modification To The 
Chairman's Mark Of The ``Marriage Tax Relief Act Of 2000,'' Scheduled 
For Markup By The Committee On Finance On March 30, 2000. March 30, 
2000
    JCX-39-00--Description Of Modification To The Chairman's Mark. 
March 30, 2000
    JCX-40-00--Distributional Effects Of A Modification To The 
Chairman's Mark Of The ``Marriage Tax Relief Act Of 2000,'' Scheduled 
For Markup By The Committee On Finance On March 30, 2000. March 30, 
2000
    JCX-41-00--Comparison Of Federal Tax Liabilities Under Present Law 
And Under A Modification To The Chairman's Mark Of The ``Marriage Tax 
Relief Act Of 2000,'' Scheduled For Markup By The Committee On Finance 
On March 30, 2000, For Hypothetical Married Couples. March 30, 2000
    JCX-42-00--Description Of The ``Taxpayer Bill Of Rights 2000'' 
Scheduled for Markup by the House Committee on Ways and Means on April 
5, 2000. April 3, 2000
    JCX-43-00--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Of The ``Taxpayer Bill Of Rights 2000''. 
April 4, 2000
    JCX-44-00--Estimated Revenue Effects Of A Chairman's Amendment In 
The Nature Of A Substitute To The ``Taxpayer Bill Of Rights 2000,'' 
Scheduled For Markup By The Committee On Ways And Means On April 5, 
2000. April 4, 2000
    JCX-45-00--Distribution Of Certain Tax Liabilities By Income Class 
For Calendar Year 2000. April 11, 2000
    JCX-46-00--Report Of The Joint Committee On Taxation Relating To 
The Internal Revenue Service As Required By The IRS Reform And 
Restructuring Act Of 1999. April 28, 2000
    JCX-47-00--Description Of H.R. 3916 (Repeal Of The Federal 
Communications Excise Tax). May 15, 2000
    JCX-48-00--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Of H.R. 3916. May 16, 2000
    JCX-49-00--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 3916 For Markup By The Committee On 
Ways And Means On May 17, 2000. May 16, 2000
    JCX-50-00--Distributional Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 3916 (Repeal Of The Federal 
Communications Excise Tax) For Markup By The Committee On Ways And 
Means On May 17, 2000. May 16, 2000
    JCX-51-00--Description Of ``The Death Tax Elimination Act Of 2000'' 
(H.R. 8) Scheduled for Markup by the House Committee on Ways and Means 
on May 25, 2000. May 23, 2000
    JCX-52-00--Description Of Chairman Archer's Amendment In The Nature 
Of A Substitute To ``The Death Tax Elimination Act Of 2000'' (H.R. 8) 
Scheduled for Markup by the House Committee on Ways and Means on May 
25, 2000. May 23, 2000
    JCX-53-00--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To The ``Death Tax Elimination Act Of 
2000,'' Scheduled For Markup By The Committee On Ways And Means On May 
25, 2000. May 25, 2000
    JCX-54-00--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 1999. May 
26, 2000
    JCX-55-00--Description Of The ``Debt Reduction Reconciliation Act 
Of 2000'' Scheduled for Markup by the House Committee on Ways and Means 
on June 8, 2000. June 6, 2000
    JCX-56-00--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Of The ``Debt Reduction Reconciliation Act 
Of 2000''. June 8, 2000
    JCX-57-00--Description Of H.R. 3916 (Repeal Of The Federal 
Communications Excise Tax). June 12, 2000
    JCX-58-00--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 3916 For Markup By The Committee On 
Finance On June 14, 2000. June 13, 2000
    JCX-59-00--Overview Of Present-Law Rules And Description Of Certain 
Proposals Relating To Disclosure Of Information By Tax-Exempt 
Organizations With Respect To Political Activities Scheduled for a 
Hearing before the Subcommittee on Oversight of the House Committee on 
Ways and Means. June 19, 2000
    JCX-60-00--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Subcommittee On Oversight Of The House Committee On 
Ways And Means June 20, 2000. June 20, 2000
    JCX-61-00--Description Of H.R. ______ (The ``Full And Fair 
Political Activity Disclosure Act Of 2000'') Scheduled for a Markup 
Before the House Committee on Ways and Means on June 22, 2000. June 21, 
2000
    JCX-62-00--(Skipped)
    JCX-63-00--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Of H.R. 4717 (The ``Full And Fair 
Political Activity Disclosure Act Of 2000''). June 22, 2000
    JCX-64-00--Description Of A Chairman's Mark Of The Marriage Tax 
Relief Reconciliation Act Of 2000 Scheduled for Markup by the Senate 
Committee on Finance on June 28, 2000. June 26, 2000
    JCX-65-00--Estimated Revenue Effects Of The ``Marriage Tax Relief 
Reconciliation Act Of 2000,'' As Reported By The Committee On Finance 
On June 28, 2000. June 30, 2000
    JCX-66-00--Distributional Effects Of The ``Marriage Tax Relief 
Reconciliation Act Of 2000,'' As Reported By The Committee On Finance 
On June 28, 2000. June 30, 2000
    JCX-67-00--Technical Explanation Of The Marriage Tax Penalty Relief 
Reconciliation Act Of 2000 (H.R. 4810). July 11, 2000
    JCX-68-00--Summary Of The ``Comprehensive Retirement Security And 
Pension Reform Act''. July 11, 2000
    JCX-69-00--Description Of The ``Comprehensive Retirement Security 
And Pension Reform Act'' Scheduled for Markup by the House Committee on 
Ways and Means on July 13, 2000. July 11, 2000
    JCX-70-00--Estimated Revenue Effects Of The ``Comprehensive 
Retirement Security And Pension Reform Act'' Scheduled For Markup By 
The Committee On Ways And Means On July 13, 2000. July 11, 2000
    JCX-71-00--Description Of Chairman Archer's Amendment In The Nature 
Of A Substitute To H.R. 4843, The ``Comprehensive Retirement Security 
And Pension Reform Act''. July 13, 2000
    JCX-72-00--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 4843, The ``Comprehensive Retirement 
Security And Pension Reform Act'' Scheduled For Markup By The Committee 
On Ways And Means On July 13, 2000. July 13, 2000
    JCX-73-00--Description Of The Social Security Benefits Tax Relief 
Act Of 2000 (H.R. 4865). July 17, 2000
    JCX-74-00R--Description Of The Railroad Retirement And Survivors' 
Improvement Act Of 2000 (H.R. 4844). July 24, 2000
    JCX-75-00--Estimated Revenue Effects Of The ``Social Security 
Benefits Tax Relief Act Of 2000,'' Scheduled For Markup By The 
Committee On Ways And Means On July 19, 2000. July 18, 2000
    JCX-76-00--Technical Explanation Of H.R. 4866 The ``Debt Relief 
Reconciliation Act For Fiscal Year 2001''. July 18, 2000
    JCX-77-00--Description Of Chairman Archer's Amendment In The Nature 
Of A Substitute To H.R. 4865, The ``Social Security Benefits Tax Relief 
Act Of 2000''. July 18, 2000
    JCX-78-00R--Description Of Chairman Archer's Amendment In The 
Nature Of A Substitute To H.R. 4844, The ``Railroad Retirement And 
Survivors' Improvement Act Of 2000''. July 24, 2000
    JCX-79-00--Estimated Revenue Effects Of The Conference Agreement 
For H.R. 4810, The ``Marriage Tax Relief Reconciliation Act Of 2000''. 
July 19, 2000
    JCX-80-00--Distributional Effects Of The Conference Agreement For 
H.R. 4810, The ``Marriage Tax Relief Reconciliation Act Of 2000''. July 
20, 2000
    JCX-81-00--Comparison Of Federal Tax Liabilities Under Present Law 
And Under The Conference Agreement For H.R. 4810, The ``Marriage Tax 
Relief Reconciliation Act Of 2000,'' For Hypothetical Married Couples. 
July 20, 2000
    JCX-82-00--Summary Of Provisions Included In The Conference 
Agreement For The ``Marriage Tax Relief Reconciliation Act Of 2000'' 
(H.R. 4810). July 20, 2000
    JCX-83-00--Overview Of Selected Federal Income Tax Provisions 
Relating To Transportation Infrastructure Scheduled for a Hearing 
Before the Subcommittee on Oversight of the House Committee on Ways and 
Means on July 25, 2000. July 21, 2000
    JCX-84-00--Present Law And Description Of Proposals Relating To 
Federal Income Tax Provisions That Impact Energy, Fuel, And Land Use 
Conservation And Preservation Scheduled for a Hearing Before the 
Subcommittee on Taxation and IRS Oversight of the Senate Committee on 
Finance on July 25, 2000. July 24, 2000
    JCX-85-00--Technical Explanation Of The Tax Provisions In H.R. 4923 
The ``Community Renewal And New Markets Act Of 2000''. July 25, 2000
    JCX-86-00--Estimated Revenue Effects Of H.R. 4923, The ``Community 
Renewal And New Markets Act Of 2000''. July 25, 2000
    JCX-87-00--Description Of H.R. ______ (The ``FSC Repeal And 
Extraterritorial Income Exclusion Act Of 2000'') Scheduled for Markup 
by the House Committee On Ways And Means on July 27, 2000. July 27, 
2000
    JCX-88-00--Estimated Revenue Effects Of H.R. 4986, The ``FSC 
Repleal And Extraterritorial Income Exclusion Act Of 2000,'' Scheduled 
For Markup By The Committee On Ways And Means On July 27, 2000. July 
27, 2000
    JCX-89-00--Description Of The Chairman's Mark Of The ``Retirement 
Security And Savings Act Of 2000'' Scheduled for Markup by the Senate 
Committee on Finance on September 7, 2000. September 5, 2000
    JCX-90-00--Description Of The Chairman's Mark Of The ``Retired Coal 
Miners Health Benefit Security Act'' Scheduled for Markup by the Senate 
Committee on Finance on September 7, 2000. September 5, 2000
    JCX-91-00--Estimated Revenue Effects Of The Chairman's Mark Of The 
``Retirement Security And Savings Act Of 2000,'' Including 
Congressional Budget Act Sunset For Years After December 31, 2004, 
Scheduled For Markup By The Committee On Finance On September 7, 2000. 
September 6, 2000
    JCX-92-00--Description Of Modification To The Chairman's Mark Of 
The ``Retirement Security And Savings Act Of 2000''. September 7, 2000
    JCX-93-00--Estimated Revenue Effects Of A Modification To The 
Chairman's Mark Of The ``Retirement Security And Savings Act Of 2000,'' 
Including Congressional Budget Act Sunset For Years After December 31, 
2004, Scheduled For Markup By The Committee On Finance On September 7, 
2000. September 7, 2000
    JCX-94-00--Estimated Revenue Effects Of H.R. 1102, The ``Retirement 
Security And Savings Act Of 2000,'' Including Congressional Budget Act 
Sunset For Years After December 31, 2004, As Ordered Reported By The 
Committee On Finance On September 7, 2000. September 8, 2000
    JCX-95-00--Description of H.R. ______, the ``Debt Relief Lock-Box 
Reconciliation Act for Fiscal Year 2001'' Scheduled for a Markup Before 
the House Committee on Ways and Means On September 14, 2000. September 
13, 2000
    JCX-96-00--Description of an Amendment in the Nature of a 
Substitute to the Provisions of H.R. 5173, the ``Debt Relief Lock-Box 
Reconciliation Act for Fiscal Year 2001''. September 14, 2000
    JCX-97-00--Description Of H.R. 4986 (The ``FSC Repeal And 
Extraterritorial Income Exclusion Act Of 2000'') Scheduled for Markup 
by the Senate Committee on Finance on September 19, 2000. September 15, 
2000
    JCX-98-00--Estimated Revenue Effects Of H.R. 4986, The ``FSC Repeal 
And Extraterritorial Income Exclusion Act Of 2000,'' As Passed By The 
House Of Representatives And Scheduled For Markup By The Committee On 
Finance On September 19, 2000. September 15, 2000
    JCX-99-00--Description Of Community Renewal And New Markets Act Of 
2000 Scheduled for Markup by the Senate Committee on Finance on 
September 20, 2000. September 18, 2000
    JCX-100-00--Estimated Revenue Effects Of A Chairman's Mark Of The 
``Community Renewal And New Markets Act Of 2000,'' Scheduled For Markup 
By The Committee On Finance On September 20, 2000. September 19, 2000
    JCX-101-00--Description Of A Chairman's Mark Of The ``Railroad 
Retirement And Survivors' Improvement Act Of 2000'' (H.R. 4844). 
September 25, 2000
    JCX-102-00--Description Of Chairman Roth's Amendment To The 
Chairman's Mark Of The ``Railroad Retirement And Survivors' Improvement 
Act Of 2000'' (H.R. 4844). September 26, 2000
    JCX-103-00--Description Of Proposed Modifications To The Chairman's 
Mark Of ``The Community Renewal And New Markets Act Of 2000'' Scheduled 
for Markup before the Senate Committee on Finance on September 27, 
2000. September 27, 2000
    JCX-104-00--Estimated Revenue Effects Of A Modification To The 
Chairman's Mark Of The ``Community Renewal And New Markets Act Of 
2000,'' Scheduled For Markup By The Committee On Finance On September 
27, 2000. September 27, 2000
    JCX-105-00--Technical Explanation Of S. 3152, The ``Community 
Renewal And New Markets Act Of 2000''. October 3, 2000
    JCX-106-00--Estimated Revenue Effects Of S. 3152, The ``Community 
Renewal And New Markets Act Of 2000''. October 5, 2000
    JCX-107-00--Overview Of Federal Income Tax Provisions Relating To 
Employee Stock Options Scheduled for a Hearing Before the Subcommittee 
on Oversight of the House Committee on Ways and Means on October 12, 
2000. October 10, 2000
    JCX-108-00--Technical Explanation Of The Tax Provisions Of H.R. 
4541, The ``Commodity Futures Modernization Act Of 2000''. October 19, 
2000
    JCX-109-00--Estimated Revenue Effects Of The ``Taxpayer Relief Act 
Of 2000''. October 26, 2000
    JCX-110-00--Summary Of Provisions Contained In H.R. 5542, The 
``Taxpayer Relief Act Of 2000,'' As Incorporated By Reference In The 
Conference Agreement For H.R. 2614. October 31, 2000
    JCX-111-00--Technical Explanation Of The Senate Amendment To H.R. 
4986, The ``FSC Repeal And Extraterritorial Income Exclusion Act Of 
2000''. November 1, 2000
    JCX-112-00--Summary Of Provisions Contained In H.R. 5662, The 
``Community Renewal Tax Relief Act Of 2000''. December 15, 2000
    JCX-113-00--Estimated Revenue Effects Of H.R. 5662, The ``Community 
Renewal Tax Relief Act Of 2000''. December 15, 2000

Attachment C.--Joint Committee on Taxation revenue estimate requests

        Calendar year                                    No. of requests

1986..............................................................   474
1987..............................................................   420
1988..............................................................   900
1989.............................................................. 1,290
1990.............................................................. 1,286
1991.............................................................. 1,461
1992.............................................................. 2,350
1993.............................................................. 2,380
1994.............................................................. 1,259
1995.............................................................. 2,278
1996.............................................................. 1,792
1997.............................................................. 2,079
1998.............................................................. 2,729
1999.............................................................. 4,150
2000.............................................................. 2,798

    ATTACHMENT D.--2ND SESSION OF THE 106TH CONGRESS REQUEST DATA \1\
------------------------------------------------------------------------
                               Requests   Requests   Requests   Percent
         Requestors            Received   Pending     Closed     Closed
------------------------------------------------------------------------
Ways and Means Committee:
    Republicans.............        657        165        492       74.9
    Democrats...............        311         75        236       75.9
Senate Finance Committee:
    Republicans.............        541         82        459       84.8
    Democrats...............        608        128        480       78.9
Non-Ways and Means
 Committee:
    Republicans.............        142         52         90       63.4
    Democrats/Independent...         82         38         44       53.7
Non-Senate Finance
 Committee:
    Republicans.............        195         69        126       64.6
    Democrats...............        228        123        105       46.1
Others......................         34          6         28       82.4
                             -------------------------------------------
      Total.................      2,798        738      2,060       73.6
------------------------------------------------------------------------
\1\ Totals include both revenue and non-revenue requests as of December
  1, 2000.

                       Attachment E.--Memorandum
                                                 November 29, 2000.
To: Chief of Staff, Joint Committee on Taxation
From: Senior Refund Counsel
Subject: Refund Section--Operations Report October 1, 1999 through 
    September 30, 2000

    This is a report on the more significant developments in this 
Office during this period.

                                SUMMARY

    Volume.--Refund Cases--664 reports were received during this 
period. The total dollar amount of refunds was $5,553,862,865.

----------------------------------------------------------------------------------------------------------------
                        Reports received                          1996      1997    1998 \1\    1999      2000
----------------------------------------------------------------------------------------------------------------
Examination Division..........................................       375       457       334       449       550
Appeals Division..............................................       101       124        92       108        99
Department of Justice.........................................        25        18        12        15        10
Chief Counsel.................................................         5         3         1         5         5
                                                               -------------------------------------------------
      Total...................................................       506       602       439       577       664
                                                               =================================================
Concerns......................................................        88        84        55        61        47
----------------------------------------------------------------------------------------------------------------
\1\ 1998 was based on a short nine-month period, i.e., January 1, 1998 through September 30, 1998.

    Post Review.--The Service reports 64 large deficiency cases to us 
on an annual basis.
    Other Action.--We discussed various issues with the Treasury 
Department and Internal Revenue Service personnel, and forwarded one 
item for legislative clarification.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in fiscal year 2000 and prior years, and 
settled in fiscal year 2000 produced a net reduction in refunds of 
$11.7 million. The average annual reduction for the last ten years is 
$11.9 million. Such corrections also reduced ATNOLCFs $43 million.
    We hope that we are satisfactorily accomplishing our assigned 
portion of the Committee's mission and meeting your expectations. We 
look forward to a productive, challenging year.

                         EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SECTION 6405
                                [From October 1, 1999 through September 30, 2000]
----------------------------------------------------------------------------------------------------------------
                                               No. of               Cumulative
                   Month                       cases    Cumulative    monthly   Dollar receipts     Cumulative
                                              received     total      average                    dollar receipts
----------------------------------------------------------------------------------------------------------------
October....................................         43          43          43     $273,883,465     $273,883,465
November...................................         49          92          46      442,981,593      716,865,058
December...................................         46         138          46      516,059,644    1,232,924,702
January....................................         38         176          44      399,902,828    1,632,827,530
February...................................         71         247          49      543,155,183    2,175,982,713
March......................................         71         318          53      467,745,132    2,643,727,845
April......................................         57         375          54      217,669,564    2,861,397,409
May........................................         64         439          55      508,390,289    3,369,787,698
June.......................................         49         488          54      545,949,472    3,915,737,170
July.......................................         62         550          55      643,078,935    4,558,816,105
August.....................................         83         633          58      782,682,565    5,341,498,670
September..................................         31         664          55      212,364,195    5,553,862,865
----------------------------------------------------------------------------------------------------------------


          EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED BY TYPES OF TAXPAYER AND SOURCE--FISCAL YEAR 2000
----------------------------------------------------------------------------------------------------------------
                                            Amount    Percent                                  Amount    Percent
----------------------------------------------------------------------------------------------------------------
            TYPES OF TAXPAYERS                                        SOURCE OF REPORTS
Individuals..............................        27       4.1   Examination.................       550      82.8
Estates..................................        22       3.3   Appeals.....................        99      14.9
Trusts...................................         4        .6   Justice.....................        10       1.5
Corporations.............................       611      92.0   Tax Court...................         5        .8
                                          ---------------------                              -------------------
      Total..............................       664     100.0         Total.................       664     100.0
----------------------------------------------------------------------------------------------------------------


           EXHIBIT III.--JOINT COMMITTEE MONTHLY RECEIPTS--REFUND REPORTS FROM EXAMINATION AND APPEALS
                                [From October 1, 1999 through September 30, 2000]
----------------------------------------------------------------------------------------------------------------
                              Month                               Examination  Cumulative   Appeals   Cumulative
----------------------------------------------------------------------------------------------------------------
October.........................................................          37           37          6           6
November........................................................          47           84          2           8
December........................................................          37          121          8          16
January.........................................................          26          147         11          27
February........................................................          63          210          6          33
March...........................................................          60          270          9          42
April...........................................................          46          316         11          53
May.............................................................          55          371          8          61
June............................................................          39          410         10          71
July............................................................          48          458         10          81
August..........................................................          70          528          9          90
September.......................................................          22          550          9          99
----------------------------------------------------------------------------------------------------------------

               ORAL STATEMENT OF CONGRESSMAN BILL THOMAS

    Mr. Thomas. You are correct. There is an additional 
$200,000 that should be on top of the numbers that you 
indicated to continue the Joint Committee study on tax 
simplification. We recently published a three-volume study on 
this subject.
    To a certain extent, it is a little bit like self-evident 
areas. However, it is very helpful if not on the major 
portions--and I believe the Joint Committee's statement of the 
desirability of repealing the alternative minimum tax both for 
individuals and corporations would be considered major--but 
when you look at the more than 50 other very specific points, 
especially on funding mechanisms, which could be simplified in 
almost a technical way, it would greatly clarify the Code.
    There are more fundamental ways to clarify the Code, but 
the study that is ongoing is very helpful in pinpointing areas 
where, on a bipartisan basis, we can move without a lot of 
difficulty. So, that study is required, and I have found it, 
especially at the beginning of my chairmanship, very helpful to 
help me focus on portions of the Code.
    The money is not for additional personnel. Save for a half 
a person, the staffing of the Joint Committee is the same as it 
was in 1980. The point that I want to make is that, given the 
changes, both in terms of support and, frankly, the work 
commitment of the staff of the Joint Committee, the 
productivity is so much higher, driven in part by the revenue 
estimate requests.
    The Congress of 1980, for some reason, did not submit their 
requests like the Congress of today. I think it is, in part, a 
change in the makeup of the Members. At one point, there was a 
degree of seniority felt as a screening test to ask the Joint 
Committee for a revenue estimate. When you look at the number 
of requests, just to give you a feel for what has happened, 
only since 1986, from 474 to a peak of 4,150. That is just the 
sheer number of requests coming in. There was a slight dip, but 
it has gone back up.
    I am very sensitive to the fact that this is a joint 
committee. So, I had to run some numbers on the number of 
requests of both Republicans and Democrats from the Ways and 
Means Committee. That was 968 requests for the second session 
of the 106th Congress. And from the Senate Finance Committee, 
Republicans and Democrats, it was 1,149 requests. So, we have a 
fairly decent balance.
    From non-Ways and Means Members, both Democrats and 
Republicans in the House, it was 324 requests. From non-Finance 
Committee Republicans and Democrats in the Senate, it was 423, 
for a total of almost 2,800 requests in the second session.
    When you get that many requests, there is a degree of, if 
not complete, at least partial, duplication so that answering 
one allows you to fairly rapidly turn over answering another. 
But when you go from 400 for the total to almost 3,000, that 
clearly says, when you have not increased your personnel, you 
are getting significant work out of those individuals. That is 
why we have requested a cost-of-living adjustment with a 
meritorious increase. We try to time the meritorious increase 
toward the end of the session when the clock is running 
literally all day and all night.
    It is a little stimulus to get stuff done when we need it.
    So, although there are areas of contention about the Joint 
Committee, including the estimates that it makes, the manner in 
which it makes them, and the conditions under which it makes 
them, I believe over this session and the next session of the 
107th Congress, we will be making changes that will satisfy the 
concern about the now age-old argument between static and 
dynamic scoring to a certain extent. Not that we would create a 
model which would allow us to look at the world fundamentally 
differently, but that we begin to realize that any number has 
shades to it. To the degree we can begin to get a bit more 
sophisticated in the way we view the numbers, I think it will 
create an atmosphere which will allow us to come together a 
little easier than a single hard and fast number with no 
options.
    With that, Mr. Chairman, I would just thank you and urge 
you, based upon what I consider to be the reasonableness of the 
request, to fund the Joint Committee at the requested level.

                               FORECASTS

    Senator Bennett. Thank you. That is very helpful and, 
frankly, very encouraging. One of the most frustrating things 
for me, coming into the Senate, as I do at the end of a 
business career, instead of coming into the Senate as a young 
man, the way some of my colleagues did--I have learned in the 
business world that forecasts are always fraught with problems. 
As I say, one of the most frustrating things for me was to come 
here and have people stand up and say, this number, this number 
1 year out, 5 years out, 10 years out, and so on. I said, wait 
a minute. Nobody knows that. Nobody can be that certain.
    I have been around here long enough that the anger seems to 
have died down a little, and that may not be good.
    But it is very helpful to have you talk about this kind of 
study and this kind of willingness to accept a flexibility and 
say we are talking about a range rather than a single number 
and there are possibilities here. I applaud the indication that 
you are doing this on a bipartisan basis so that it will not be 
ideologically attacked.
    Mr. Thomas. If I can respond. The closer we are to the 
current date, if you are dealing with ranges, the narrower the 
range. The key point here would be that as we get into these--
the House deals with 5-year numbers; the Senate chooses to deal 
with 10-year numbers--that you would like to indicate to people 
that the range continues to open up so that, although you are 
attempting certainty, the certainty is that you are uncertain.
    I agree with you. Even if the shaded number is not an 
official number and a single number is, it begins to show, I 
think, an appreciation for our real-worldness which can only 
enhance our ability to make projections with the understanding 
that we are doing it humbly, rather than boldly with certainty.
    Senator Bennett. Senator Durbin.
    Senator Durbin. Two comments and one question.
    First, Alan Greenspan is widely recognized as the wisest 
man in all Christendom when it comes to the economy, and 8 
months ago, he was raising interest rates.
    Senator Bennett. You are excluding the Muslim world?
    Senator Durbin. I guess I should never get that close to 
religion in Government. But the point I am trying to make is 
that projections are difficult in this business, and some of 
us, when we look at projections of surpluses 5 and 10 years 
from now, think it is almost laughable to guess where America 
is going to be. I hope the optimistic projections are all 
right, but time will tell.

                           TAX SIMPLIFICATION

    I would like to make a suggestion on tax simplification. I 
think this is very basic. It will create a political force for 
simplification which will be overwhelming. And that would be to 
require every Member of Congress to prepare their own personal 
income tax returns.
    Mr. Thomas. I agree. I do that myself. I have done it ever 
since I have come in.
    Senator Durbin. I have done it too.
    Mr. Thomas. Done it too, or did you do it? Do you do it?
    Senator Durbin. Well, here is what I did.
    Mr. Thomas. Did you do it this year?
    Senator Durbin. I did it this year, and thank God I sent it 
to a bookkeeper to look at; who corrected my mistakes.
    The point I am making is I think a little personal 
experience with tax forms helps us to appreciate what a lot of 
people go through.
    Mr. Thomas. Especially with the availability of computer 
programs which help you with the accuracy of your math. I did 
it this time only because there was some property that had been 
my parents, and so it required me to go to a new form and work 
through that form.
    Senator Durbin. That is always exciting.
    Mr. Thomas. As you know, most of us have a fairly boring 
tax picture once you get in office because you do not want to 
be accused of doing things, so you get rid of all of those.
    This required me to deal with it slightly differently, and 
frankly, I had to sit down and go back, read the material for 
preparation, read it twice and get a comfort level, then go to 
the help portion and continually ask questions as I was trying 
to fill out the form, your point obviously being well taken. It 
gives you a new appreciation for what I consider a fairly 
simple form and the difficulty in getting it right, which I 
hope I did.
    Senator Durbin. Well, I was glad to have somebody look over 
my shoulder, and I was also glad to be able to call the 800 
number at the Internal Revenue Service and get answers to 
questions. People were extremely courteous and very responsive. 
I think they did a good job.

               REVENUE ESTIMATES FOR PRESIDENT'S TAX PLAN

    My question to you is, are the revenue estimates for the 
President's tax plan going to be forthcoming from the Joint 
Committee?
    Ms. Paull. Yes. They are in review right now. I have been 
out sick for a couple of days, but any day now they will be 
out.
    Senator Durbin. Good. That is all I have. Thanks.
    Senator Bennett. Thank you.
    I gave up doing my own as soon as I was introduced to that 
wondrous document called the K-1, and that became impenetrable 
to me. I finally decided to turn this over to a professional. 
As long as I was dealing with the W-2, I was just fine.
    Mr. Thomas. If we traded resources, I would gladly go to a 
tax preparer.
    Senator Bennett. I will not comment on that.
    Thank you very much, sir. We appreciate your being here and 
your support of this appropriations request. I think you are 
comfortable that you will get it.
    Mr. Thomas. I also just want to caution you that you can 
only hold the number at 66 for so long and you can only get 
productivity out of the same number for so long, and if the 
requests continue to go up, it is a function of additional 
people and more money. We are struggling with other budget 
numbers. I would hope folks would see this as not only 
appropriate but extremely reasonable for the work product that 
we get out of these people. They are very talented, but more 
importantly, they are very dedicated.
    Senator Bennett. Yes. Thank you for the warning.

                     LIBRARY OF CONGRESS--Continued

    Senator Bennett. We will now go to the Congressional 
Research Service. Again, Mr. Mulhollan, we appreciate your 
courtesy in allowing us to go out of order in that way.
    Mr. Mulhollan. Thank you, Mr. Chairman.
    Senator Bennett. The budget request is $7.7 million over 
the amounts appropriated last year. Half of this increase, I 
understand, is for maintaining current services, including the 
funding of the cost-of-living increases. The balance is to hire 
additional staff and to acquire capability that would come from 
the additional staff. We look forward to your statement and 
your explanation of what this additional staff would do.
    Mr. Mulhollan. Thank you, Mr. Chairman, Senator Durbin. I 
really appreciate the opportunity to be here before you to 
present CRS' budget request for 2002.
    I ask that my printed statement be a part of the record.
    Senator Bennett. Without objection.
    Mr. Mulhollan. The rise of technology and the Information 
Age have fundamentally changed the way Congress works, from the 
nature of the public policy issues you debate, to the ways in 
which you conduct your daily work, to the methods you and your 
staff use to communicate, both within Capitol Hill and outside 
of Capitol Hill. At the same time, the nature of CRS research 
is changing as well from a primarily paper-based world to a 
digitally dominated universe.
    What do these changes mean? They mean as Congress changes, 
so must CRS.
    CRS is falling short in assisting you in critical new 
subject areas and working with you in an integrated, secure, 
and robust technology-based environment that allows us to 
provide you with the analysis and information you need where 
you need it, when you need it, and in providing the technical 
tools that our researchers need to perform their work for the 
Congress.
    Our current resources are not enough to meet the new and 
increasing demands of policy making. Our budget request is 
designed to take action now before we fall even further behind.
    There are two components to our request. One is to maintain 
our current services by funding mandatory cost-of-living and 
pay, just as you said, Mr. Chairman, and the balance is needed 
to acquire capacity to better analyze complex information and 
technology policy issues and to equip ourselves with the 
leadership, technical staff, skills, and tools necessary to 
address serious and significant gaps in capacity to analyze 
complex technology policy issues, and to conduct collaborative 
research and to apply technology to work and communication 
processes.
    Specifically our plan is to hire five senior analysts to 
provide high level expertise and service-wide leadership on 
technology policy issues and to begin equipping ourselves with 
the leadership and technical staff and tools we need to use 
technology effectively and proactively to support the Congress.
    Our request does not propose funding tactical change. 
Rather, it supports the strategic, mission-critical change 
necessary for the service to continue fulfilling its statutory 
mandate as the key nonpartisan public policy research arm of 
the U.S. Congress in a digital environment. It is not about 
coping with the future; it is about confronting the future that 
is already here and threatens to leave us in its wake.
    As the Congress is placing new and increasing reliance on 
information technologies, so too must CRS. We have always 
aligned our work with your work. That is our mission. That is 
our mandate. To continue the strong condition of service and 
reliability, CRS needs your help.
    Thank you.
    Senator Bennett. Thank you very much.

                          INFORMATION REQUESTS

    Do you have statistics similar to those we have just seen 
about requests from Congress?
    Mr. Mulhollan. Yes, sir. In total, we respond to 600,000 
requests a year.
    Senator Bennett. And is the trend upward?
    Mr. Mulhollan. It is upward, but it has changed. It is a 
slightly upward number, but what is really changing is the 
access to the Web. The staff and Members are increasingly going 
to the Web for information, and we are learning how to do a 
better job in being responsive to Members, anticipating 
questions and having more interaction. Many web products have 
the name of the analyst and their phone number and their 
subject expertise so that they can provide more follow-up 
information. Also, if the request does not have to be answered 
within 24 hours, you can place that request now on our website, 
because we have gotten the security necessary for that.
    And a particular new initiative is in the center part, the 
most valuable real estate on the website. We focus on the major 
145 issues that are coming up this session in the most pointed 
way, in the most up-to-date manner and keep them up-to-date as 
those issues change. So, as the subcommittee moves to the full 
committee on action, we are taking that into account.
    Senator Bennett. So, let me understand. If my staff has an 
issue that they want help from CRS, in today's world the first 
thing they would do is not pick up the phone, but rather call 
up an appropriate Web page.
    Mr. Mulhollan. They will call up the CRS website.
    Senator Bennett. And they might get the information 
entirely off the website and never talk to one of your 
analysts?
    Mr. Mulhollan. That is correct.

                              PRODUCTIVITY

    Senator Bennett. Are you showing any increased productivity 
in terms, therefore, as a result of analysts' ability to off-
load routine activity onto the Web and be more available for 
more specific kinds of things, or is that just a dream?
    Mr. Mulhollan. No, it is not a dream. It is happening in a 
number of areas. First of all, since 1992 CRS has 117.4 less 
staff and roughly the same number of requests.
    Senator Bennett. 1992?
    Mr. Mulhollan. From 1992, it has been 117, a 14.1 percent 
reduction.
    Secondly, what we have been able to do--I will give you an 
example. We have an electronic briefing book on campaign 
finance. What we have been able to do, as a result of that, is 
provide our two lead analysts, Page Whittaker, an attorney with 
our American Law Division, and Joe Cantor, an analyst in our 
Government and Finance Division, with tools to manage their 
workload for one-on-one conversations because they were able to 
direct, during the debate, many of the calls coming in to the 
website so that they could focus those questions that they had 
not either anticipated or had already responded to earlier on.
    We look at every CRS report that we do as a workload 
manager. So, for instance, if I do an analysis for you on a 
directed memorandum, of which we did 1,000 last year, and one 
for Senator Durbin, I am looking back and saying, we are 
getting questions on roughly the same issue. If I do a report, 
I can manage 85 percent of the requests coming in so that I can 
focus my attention on those 15 percent that are more targeted, 
when someone has a specific amendment or there is a regional or 
other focused concern.

                   CHANGING NATURE OF THE WORK OF CRS

    Senator Bennett. This is not an appropriate question for 
this particular appropriation, but I will take the opportunity 
to ask it anyway. It occurs to me when I served on a Senate 
staff, the Senators felt newly liberated because they had come 
out of what was then called the Old Senate Office Building with 
the creation of the new Senate Office Building. So, Senators 
had come from three rooms to five rooms and naturally filled 
the five rooms with extra staff. Now I have 10 rooms, plus 
whatever I can steal by virtue of committee assignment.
    Completely out of the blue, but do you have a sense that 
the proliferation of staff among Members of Congress has 
increased the demands on CRS or decreased?
    Mr. Mulhollan. Well, first, if you recall, there was a 15 
percent reduction in the Senate and Senate committee staff not 
too long ago.
    Senator Bennett. Yes, I was part of that.
    Mr. Mulhollan. My sense is actually that the way the work 
is changing reflects the challenges that you face in the body. 
Our request emphasizes our need for expertise to deal with the 
impact of new information industries and the way they impact 
other subject policy areas. You reduced staff resources but the 
issues require greater expertise and examination of complex 
data--and these are issues that greatly affect people's lives. 
For example, Congress will soon have to reauthorize Temporary 
Assistance for Needy Families (TANF). And of course there are 
other issues, such as the dairy concerns in the Farm Bill, 
which are highly complex and require specialized knowledge. On 
the other hand, there is less specialization in the Senate, and 
I think that trend in part is a result of the demands of 
campaign financing and the need to have more diverse sources of 
funding. In addition, I think it is also affected by the impact 
of the greater economic diversity taking place within the 
States, and so you are less apt to have homogeneity of 
industries within a State. Therefore my sense is--I have been 
here for 31 years--that in fact Members of the Senate have to 
pay attention to more issues than they have in the past, and 
that the tradition of Senator specialization in a particular 
cluster of issues has been in decline. There are simply more 
issues you have to pay attention to. There may be other factors 
contributing to the development I have not thought of.
    Senator Bennett. I have that same sense. I appreciate that.

                            SECURITY ISSUES

    What is the status of the program to provide Members' 
district offices with secure access to CRS?
    Mr. Mulhollan. I'll provide some information for the 
record.
    [The information follows:]

 Availability of and Access to the CRS Web Site by Congressional State 
                          and District Offices

    Congressional state and district offices currently have full access 
to the Congressional Research Service (CRS) Web site. The security of 
the site is provided by the Capitol Hill-wide network (CAPNET), to 
which all congressional offices have direct access. The site 
(www.crs.gov) not only provides these offices with up-to-date analysis 
and research on current legislative issues, but also makes available to 
them sources that may be of particular value to state and district 
offices, such as:
  --resources related to the CRS District/State Staff Institute (a 
        regular CRS seminar on matters of interest to these offices);
  --information on federal grants and non-financial assistance;
  --the ``In the Mailbag'' page; designed to direct and inform offices 
        on issues about which they are receiving constituent inquiries 
        and mass mailings; and
  --online sources to supplement state and district office reference 
        collections.
    Information security has always been a critical tenet of any 
communication between CRS and congressional offices, whether on the 
Capitol Hill campus or in state and district offices. Electronic 
communication links to state and district offices that are not in 
physical proximity to the Service are particularly important. The 
fiscal year 2002 CRS budget submission has several components that will 
enhance the Service's ability to provide secure electronic services to 
all congressional offices: additional technical staff for the Service, 
a Web server cluster which will host the CRS Web presence for the 
Congress, and contract funds specifically earmarked for (1) overall 
system security, and (2) development and deployment, with a security 
focus, of needed hardware and software. Specific impacts include:
  --Enhancement of the current Web-based CRS inquiry system. 
        Congressional staff may now place requests for CRS services 
        electronically, 24 hours a day, using a secure Web-based 
        interface on the CRS Web site. This is especially useful for 
        state and district offices not operating in the eastern time 
        zone and who consequently have business hours that extend 
        beyond those of Washington, DC.
  --Ability to explore approaches to providing secure remote access--
        such as virtual private network technology (VPN)--to CRS 
        services from state and district offices, (as well as to 
        Members and staff who, due to travel or other responsibilities, 
        cannot access the CRS Web site through the standard CAPNET 
        connections).
  --Employment of technologies to enhance the reliability and security 
        of materials provided directly to the Congress and through the 
        Congress, to constituents (often interacting with Members 
        through their state and district offices).
  --Enhanced security of e-mail between CRS and congressional Capitol 
        Hill, state, and district offices by exploring a variety of 
        secure enhancements to e-mail communications, including 
        encryption, Web-based e-mail using VPN technology, and other 
        options.
  --Improvement of the reliability and security of the CRS Web presence 
        for the Congress to assure that operations will not be 
        interrupted if systems failures or disasters were to occur.

    Mr. Mulhollan. The budget request will help us towards that 
end. One of the benefits for CRS that helps us on computer 
security is that we have a sole client. That is you. So, 
whereas in the Library of Congress, the security challenges are 
of a different nature, inasmuch as they have such a public 
role, for the Congressional Research Service our budget request 
seeks to ensure the security of our systems from any public 
access.
    Four years ago, we had the National Security Agency help us 
conduct our first whole review of computer security, and it was 
extremely sobering. We have private organizations continuing to 
examine this and worked very closely with the Library on a 
number of those issues. But we have a long way to go. But this 
request will help us to maintain security between State and 
district offices and ourselves.
    Senator Bennett. When you say it was sobering, go a little 
further down that. What is the source of the threat? Again, is 
it hackers wanting to deface the site or is it somebody trying 
to interfere?
    Mr. Mulhollan. I think it is all of the above. Part of it, 
you have to realize that, of course, when you have someone who 
is mischievous as opposed to someone who is malevolent, that 
when you are dealing with the drafting and the consideration of 
the Nation's laws, that there are a whole host of 
considerations we take in account and those who would want to 
cause harm in varying degrees. We could be embarrassed if 
someone wanted to just change the numbers in a memorandum being 
sent to you.
    But I think also because CRS stands for the principle of 
extension of staff, confidentiality is paramount. Right now 
there has been demand in the Senate, for electronic 
communication, and Senators will say, well, I will take 
responsibility to send something to them. I still say no, 
because the fact is that though there may be a momentary 
embarrassment if a certain type of request a Senator asks would 
be made public, it would devastate the reputation of CRS 
because we must be certain that our reputation remains 
inviolate, that no one ever knows what we are asked by our 
client. Any damage to our reputation would be permanent. So, 
that is an absolute. We are working very hard on security of 
those communications between ourselves and you.
    [The information follows:]

                    CRS Computer Security Incidents

    The following describes computer security incidents that have 
occurred within the past year that have either directly, or indirectly 
affected CRS.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    This graph shows the number of malicious code email attachments 
that were intercepted and removed by Guinevere (an e-mail filter 
program that eliminates many viruses and other potentially dangerous 
programs) software before they could enter the CRS network. The total 
count for instances of malicious code (dangerous programs) prevented 
from entering CRS between August 2000 and March 2001 is 1,059. The 
spike during January may be interpreted as a holiday effect, where 
friends unknowingly send each other email greetings with malicious code 
attachments.
    Since January 2000, there have been several other documented 
security incidents that either directly, or indirectly involve CRS:

January 16, 2000................................  The Library of Congress (LOC) Web site was hacked. The Thomas Web pages were altered by a hacker group
                                                   calling themselves ``Lamer's Team''. The news story can be found at http://dailynews.yahoo.com. The
                                                   hackers gained access to 3 hosts, however there was no report that the hackers gained access to ISIS
                                                   files on the SP-13 Web host.
February 4, 2000................................  An external Web device scanned the LOC network, specifically targeting CRS servers. (A ``scan''
                                                   through the Internet is an attempt by a hacker to find a computer that has any type of vulnerability
                                                   known to the hacker, for example, a Trojan Horse. A Trojan Horse is program that can be secretly
                                                   installed on a PC or a server. If a hacker finds and triggers a Trojan Horse program, it can open a
                                                   back door that the hacker can use to take control of the computer.) In this case, the LOC agency
                                                   firewall successfully blocked these attempted scans.
February 25, 2000...............................  An external Web server scanned the LOC network a second time, specifically targeting several CRS
                                                   servers. This second scan was successfully blocked by the LOC agency firewall, but it was worrisome
                                                   because it indicated that a hacker may be in the process of becoming familiar with part of the LOC
                                                   network internals.
March 6, 2000...................................  A Trojan Horse program was identified and purged from an email message sent to a CRS user. This Trojan
                                                   Horse program, called ``PWSteal.TrojanB'' reportedly was designed to send out password information to
                                                   a 3rd party.
March 23, 2000..................................  A CRS user was singled out as the target for a scan from outside the agency. Investigation showed that
                                                   this was the possible result of the CRS user previously visiting a hacker Web site, which may have
                                                   then targeted his machine for scanning. The LOC agency firewall blocked the attempted scan.
May 4, 2000.....................................  The LOVE-BUG virus was distributed worldwide. CRS immediately updated its Norton Anti-Virus software,
                                                   which was quickly distributed to all CRS desktops. There were no reports of CRS being affected by the
                                                   LOVE-BUG virus.
July 12, 2000...................................  The CRS portion of the LOC network was targeted by scans coming from the ``Iwon'' Web site. This Web
                                                   site offers games and amusements, and may also target visitors for future scans after attempting to
                                                   plant a Trojan Horse on the user's PC. The LOC agency firewall blocked the attempted scans.
October 4, 2000.................................  A CRS user received network traffic that was illogical to the agency firewall, which then tripped an
                                                   alarm for the agency firewall administrator. The agency firewall blocked this suspicious traffic to
                                                   the CRS user's desktop. Analysis showed the CRS user was receiving messages from a Web site that had
                                                   been substituted for the original Web site the user visited. Some Web sites have the ability to shift
                                                   a user from one site to another, without the user knowing that this is happening. Sometimes this
                                                   switching is valid, but it must be implemented correctly to avoid alarms. This Web site switch has
                                                   the potential to be a security problem, if the substituted Web site is owned by a hacker.
October 14, 2000................................  ITS announced that it will periodically scan the LOC network to try to identify any PCs that have
                                                   Trojan Horses.
April 26-May 3, 2001............................  The LOC network was the target of a prolonged series of scans coming from Linux servers located in
                                                   many different parts of the world. The firewall administrator identified 65 Linux servers that
                                                   apparently were taken over by hacker code, and directed to scan the LOC agency. The LOC firewall
                                                   administrator notified many of the Web masters for the Linux servers, who immediately disconnected
                                                   their compromised machines for rebuilding. Some of the Linux server administrators could not be
                                                   contacted. Because these scans were from a fixed group of servers, were 5 or 6 days duration, and
                                                   were directed in a systematic pattern of scans, it may be considered an attack. CRS network addresses
                                                   may have been targeted specifically. However, CRS' network was not compromised.
May 14, 2001....................................  A CRS network address (in this case a specific PC in CRS) was the target of a series of network scans
                                                   that lasted from May 3 to May 14. The scan repeatedly sought a response from network ports 2583 and
                                                   5742, which are well known ports associated with Trojan Horse programs. The majority of the computers
                                                   sending the scans were located in Brazil, with several also located in other nations. The agency
                                                   firewall blocked these attempted scans, so the CRS network was not compromised.


    CRS has identified two approaches to address these attacks, 
especially the April 26-May 3rd and May 14th incidents:
  --(1) CRS regularly applies operating system patches and updates to 
        all its servers. CRS is currently instituting a process of 
        tracking and documenting all such updates as they are 
        accomplished.
  --(2) An intruder detection system (IDS) should be implemented in CRS 
        to continuously scan all server logs and alert administrators 
        to suspicious activities. This security component is part of 
        the 2002 CRS budget request.

    Senator Bennett. Senator Durbin.

                              CRS WORKLOAD

    Senator Durbin. Interesting. We just had the Joint 
Committee on Taxation talk about 66 employees and 3,000 
requests. You have 713 employees and 600,000 requests. Quite an 
increase in order of magnitude here. But I also notice that 92 
percent of your requests are answered the same day.
    Mr. Mulhollan. That is correct.
    Senator Durbin. We may be comparing apples and oranges here 
between what is expected of each source of information. But can 
you give us an idea, when you talk about the workload that your 
people are facing, if we are talking about 600,000 requests in 
the course of a year and so many are answered the same day, are 
some of these routine requests for information?
    Mr. Mulhollan. Well, you have to remember a good portion of 
those requests--and I will submit the data for the record--are 
those that are hits on the website. Someone can spend literally 
4 hours on the website doing a number of things.
    For instance, I was talking to a staff person for a 
Senator, and they were very complimentary of the website 
because they are able to take text off the web product to help 
on a statement and use it to provide background on an issue. 
The web material can be downloaded into word processing 
programs and thus enable congressional staff to use the website 
literally as an extension of staff.
    So, in one instance you or your staff can go to the CRS 
website to use our analysis of public policy issues. This is 
one efficient way for you to get your answers. That is our 
business plan and that in fact is what is happening I believe 
here.
    But at the same time, I can have one colleague working 3 
months on one particular long-term report.
    I would be happy to provide you the data of how that breaks 
down. Of that 8 percent, that is still dealing with 57,000 
requests that are answered differently as well within 24 hours.
    But a great deal of the importance of the use of CRS is for 
you to talk to the expert. It can be a simple phone call or 
having him come over and brief you for what time you have, 15 
minutes or an hour. That is within the same day. But at the 
same time, you have had the expert available to you when you 
want it.
    [The information follows:]

                 CRS On-Demand Support for the Congress

    CRS provides on-demand support for the Congress across the full 
range of policy issues. Congress places a premium on immediate access 
to authoritative information and high-level expertise and CRS endeavors 
to meet these needs through a variety of well-developed and highly 
effective planning activities and work practices.

The nature of CRS ``same-day'' services
    The following characterizations of significant classes of ``same-
day'' interactions between Congress and CRS demonstrate the nature of 
congressional access to information and analytical expertise from CRS 
as well as our responsiveness to the needs of the Congress.
  --About half the congressional requests placed with CRS subject 
        experts are made by direct telephone contact from congressional 
        staff to specific CRS experts.
        Typically, such contacts entail immediate consultation to 
            assist staff with work in progress, to provide perspectives 
            and information relating to breaking events or supporting 
            last-minute meetings, and to assist with impending 
            legislative actions including, for example, procedural and 
            substantive consultations on floor amendments.
  --Forty percent of roughly 2,000 in-person briefings CRS experts 
        conduct annually for Members and staff are carried out on the 
        same day they were requested and many of the remaining are 
        carried out within 24 hours.
        Briefings provide obvious benefits to both parties in the 
            context of the need for immediate assistance. These include 
            direct interaction, easy integration of documentation into 
            discussions, and the ability to expand the number of 
            participants which often results in participation of CRS 
            experts representing different disciplines.
  --Member and staff attendance at more than 300 CRS seminars, 
        institutes and training sessions is an important same-day CRS 
        service.
        Historically, a little over one-half of those registering for 
            events actually attend, making the ultimate decision about 
            whether or not to attend on the day of the event. This 
            pattern, along with multiple registration dates for each 
            event, supports the CRS convention of regarding attendance 
            as same-day service for the approximately 10,000 attendees 
            at sessions conducted for new Members, quarterly reviews on 
            the economy, public policy institutes, and institutes on 
            legislative processes and procedures, among others.
  --Congressional use of CRS electronic resources, another same-day CRS 
        service, is essential to providing focused, authoritative and 
        timely support to meet a large volume of daily needs across 
        many policy areas.
        CRS uses the convention of counting congressional use of its 
            electronic services as same-day delivery of services to 
            capture and emphasize the congressional experience in 
            obtaining assistance. CRS made major advances in providing 
            electronic services to the Congress early this year with 
            the release of a totally redesigned CRS Web Site featuring 
            an initial version of a menu-based approach to key CRS 
            products on current legislative issues. Other electronic 
            services include CRS Electronic Briefing Books, CRS 
            products relating to the weekly House and Senate floor 
            agenda, automated searching of all CRS products, and online 
            access the Constitution Annotated which is prepared in CRS.

Preparations underlying ``same-day'' services
    Preparations underlying same-day interactions between the Congress 
and CRS are resource intensive, time-consuming and analytically 
challenging. With extremely rare exception, these preparations are not 
reflected in response time data.
    CRS researchers prepare about 1,000 new CRS reports and issue 
briefs annually. Each of these products, by design, is intended to meet 
known and anticipated needs of a number of Members and staff. With only 
an occasional exception, this kind of work is not represented in 
response time data. Yet this work supports a large volume of 
congressional needs, typically on an immediate basis, as demonstrated 
by distribution of over 700,000 copies of such products annually.
    Generally, CRS information specialists and policy experts must 
accrue information, develop analytical frameworks and arrive at 
insights through ongoing processes to be able to meet a variety of 
congressional needs when they arise. Thus, CRS energy experts must be 
positioned to respond to substantive policy questions about the 
Administration energy proposal upon its release and, in some cases, 
even before its release because of the availability of and 
congressional interest in preliminary information. CRS experts face 
similar requirements across the full array of policy areas including 
Medicare coverage of prescription drugs for the elderly, military base 
closures, flexibility and accountability in Federal education programs, 
campaign finance reform, narcotics control, United States-China 
relations, stem cell research, marriage neutrality and the Federal 
income tax, fast-track for trade implementing legislation, patients' 
rights, etc.
    Again, through a variety of well-developed and highly effective 
planning activities and work practices CRS strives to meet 
congressional needs for immediate access to authoritative information 
and high-level expertise on the full range of policy issues. As recent 
significant enhancements to the CRS Web Site services indicate, efforts 
in this direction are also continuing.

                                         CONGRESSIONAL RESEARCH SERVICE
           [Summary of Completed Requests and Services Provided--Fiscal Year 2000 (All Four Quarters)]
----------------------------------------------------------------------------------------------------------------
                                                                 Detail of Requests and Services
                                               -----------------------------------------------------------------
                                                                                           Reference
                                      Total       Analysis,       Cited       Seminar,      Center    Client Use
       Requester Category         Requests and  Information,  Material and   Institute,     Direct      of CRS
                                  Services \1\  and Research   CRS Product  and Training   Requests   Electronic
                                                Requests \2\  Requests \2\  Participants   and Self    Services
                                                                                            Service
----------------------------------------------------------------------------------------------------------------
Total, All Requesters \3\.......      597,546        93,874        29,954         9,654       56,576     407,488
                                 ===============================================================================
House, Total....................      353,388        61,764        20,329         5,739       33,053     232,503
    Members.....................       99,310        51,228        18,526         4,883       24,673          NA
    Committees..................       21,575        10,536         1,803           856        8,380          NA
    Automated (not specified)         232,503            NA            NA            NA           NA     232,503
     \4\........................
                                 ===============================================================================
Senate, Total...................      234,634        31,087         8,466         3,738       23,202     168,141
    Members.....................       53,516        23,690         7,288         3,127       19,411          NA
    Committees..................       12,977         7,397         1,178           611        3,791          NA
    Automated (not specified)         168,141            NA            NA            NA           NA     168,141
     \4\........................
                                 ===============================================================================
Joint...........................        1,194           653           217            41          283     ( \5\ )
Congressional Support Agencies..        7,332           370           288           136           38       6,500
Not Specified \6\...............          998            NA           654            NA           NA         344
----------------------------------------------------------------------------------------------------------------
\1\ 78 percent of Total Requests and Services are immediate services by definition; this includes the following:
  Reference Center Direct Requests and Self-Service, Product Distribution Center walk-ins, and Client Use of CRS
  Electronic Services.
\2\ Analysis, Information, and Research Requests and Cited Material and CRS Product Requests no longer include
  Reference Center Direct Requests, effective fiscal year 1996.
\3\ During fiscal year 2000, CRS provided services to all Members and all Committees; committee data include
  party organizations; House and Senate combined totals sorted by client category: Members:152,826; Committees:
  35,746; House and Senate Automated: 400,644.
\4\ Sign-ons to CRS electronic files (CRS Web), though identified by House or Senate, are not identified by
  Member or Committee.
\5\ Joint committee electronic services are included in either House or Senate figures, depending on telephone
  location.
\6\ Stats Line calls, Fax-on-Demand, and some cited product requests of the Product Distribution Center cannot
  be identified by client category.

    Senator Durbin. We had a conversation about this in my 
office. It came up earlier with the Library of Congress. One of 
the elements in your request is for additional technically 
skilled personnel. I have asked what kind of incentives are 
being used, including student loan forgiveness and deferral and 
bonuses. Do you anticipate including that as one of your 
incentives?

                       INCENTIVES FOR RECRUITMENT

    Mr. Mulhollan. We are, in fact, looking at the student loan 
program, working particularly with the Library of Congress' 
general counsel and with our own graduate recruits. We have 
brought in, I think, between 50 and 60 grad recruits coming in 
fresh from the schools. We had, 2 years ago, the Maxwell School 
of Syracuse do a study on recruitment. What are the factors 
involved in bringing people in? One of the challenges I have 
mentioned before is the question, first and foremost, of public 
service. But secondly, it is not as much money, though that is 
important, as the interest in the job. What CRS offers is in 
fact that you are helping Congress work and write the laws of 
the Nation. That is the kind of person we want to come in here, 
and that is the kind of persons that we have on staff and are 
currently working for you. If you can get that motivation and 
that inspiration which you provide, then the other things are 
important, but not nearly important as that motivation.

                           TUITION ASSISTANCE

    My understanding right now of the OPM guidelines with 
regard to tuition assistance is they use it as almost like a 
hiring bonus. First, for retention, and secondly, if they can 
provide unique skills. If I have 10 applications, a Ph.D. in 
field biology, I may not say that that one student's skills are 
unique. We are examining what options can be. I would be happy 
to work with you to get more flexibility for helping students, 
particularly those who have these graduate education debts.
    Now, for instance, the JFK School offers a certain 
percentage of their tuition to be placed aside, to be forgiven, 
if they work in public service I believe. I think that that 
sort of thing could be encouraged in schools because they found 
the problem that more and more of their students were not going 
into public service, and that a third went to the private 
sector, a third into the nonprofit sector. That is a couple-
year-old data. But programs like that, working with what we can 
also do in here, I think would be extremely helpful and 
appreciated.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Bennett. Thank you very much, Mr. Mulhollan. We 
appreciate your testimony and we appreciate the service you 
render to the Congress.
    Mr. Mulhollan. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard J. Durbin

    Question. Dr. Billington, I would like to congratulate you and the 
Library for reaching the bicentennial goal of making available on-line 
more than five million historically significant digital items. These 
digital materials will help improve the teaching of American history 
and other subjects throughout the country.
    Does the Library's fiscal 2002 budget provide funding for making 
available more digital content?
    Answer. Yes, the existing fiscal 2001 base includes funding that 
will continue to add content. The fiscal 2001 base funds for the 
National Digital Library total $8,458,715, which includes resources to 
add content. No new funds are included in the request for content.
    Question. The Office of Compliance issued a fire safety report 
earlier this year regarding the Library's buildings. Following the 
report, several citations were issued both to the Library and to the 
Architect of the Capitol.
    How does the Library plan to address these fire safety citations? 
Do you believe that the Library's collections are safe?
    Answer. The fire safety report identified problems similar to those 
identified in the Capitol and other congressional office buildings. The 
Library's staff and collections are not in eminent danger; the media 
characterization of the buildings as ``fire traps'' is an exaggeration.
    The Library implemented a plan that corrects all of the issues 
identified as our responsibility. About 75 percent of the items 
identified by Office of Compliance fall under the Architect's area of 
responsibility (1,773 items are under the Architect's purview and 503 
are the Library's responsibility). Items that fall under the Library's 
responsibility involve issues such as improper storage and blocked 
doors--items which are symptoms of overcrowding--and which the 
additional space at Fort Meade and Culpeper will help to reduce. By 
April 24, 2001, the Library had corrected 92 percent (463) of the 
issues under our purview, and we are working with the Architect to 
ensure the quickest and best possible resolution of remaining issues.
    Question. The Library celebrated its bicentennial last year with a 
number of successful events and projects. Dr. Billington, you indicated 
that the purpose was not just to celebrate the past but to point toward 
the future.
    What elements of the Library's bicentennial celebration were the 
most important for the future of the Library?
    Answer. The Library's Bicentennial's highly successful Gifts to the 
Nation program had two facets: first, the Library's gift was the 
National Digital Library which digitized 5,000,000 items for the 
American people to access and enjoy; and second, the Library brought in 
donations and treasures from public. The largest single gift was from 
the Kluge Foundation--$60 million to establish a scholarly center and a 
$1 million prize in Human Sciences. Other gifts include: Harry A. 
Blackmun's papers; the first American Haggadah; a letter of 
Beethoven's; a Persian celestial globe; a survey of land in Frederick 
County, Virginia, signed by George Washington; and James E. Hinton's 
1960's Civil Rights photographs. In addition, 82 nations of world 
presented over 1,000 publications--many of them rare or limited edition 
items--for ``International Gifts to the Nation Project''.
    The Local Legacies Project is a significant and far-reaching 
program which involved the Congress, individuals, libraries, and local 
organizations throughout nation in celebration of America's richly 
diverse culture. Local Legacies teams documented creative arts, crafts, 
and customs representing traditional community life: signature events 
such as festivals and parades; how communities observe local and 
national historical events; and sites and occupations that defined a 
community's life. Seventy-seven percent of the Congress--412 of the 535 
Members--registered nearly 1,300 Local Legacies projects from every 
state, trust, territory, and the District of Columbia. Four thousand 
Americans provided 46,000 photographs, written reports, sound and video 
recordings, newspaper clippings, posters, and other materials as part 
of their projects. Almost 1,000 projects received and are currently in 
the process of being included in the American Folklife Center's 
collection. A century's end time-capsule, the scenes, sights, and 
events of everyday America featured in these projects are a testament 
to the uniqueness of our nation and to the pride of its citizens in 
their heritage. In appreciation for the contributions of Local Legacies 
participants, three days of special tours and opportunities to meet 
with Library staff were scheduled in late May. In addition, a festive 
reception was held in the Great Hall, attended by two thousand 
participants and Members. A sampling of Local Legacies photographs and 
project descriptions is available on the Bicentennial Web site 
(www.loc.gov/bicentennial/) and fund-raising continues for resources 
needed to digitize and put on-line a more complete selection of project 
materials.
    Question. Congress approved $1.2 million in the fiscal year 2001 
budget to start a 30-year mass deacidification project. I understand 
the goal of this project is to save approximately 8.5 million books as 
well as millions of manuscript sheets.
    What is the status of this project? What are your plans for fiscal 
year 2002?
    Answer. The Library has a very successful Mass Deacidification 
Program. To date, we have deacidified over 340,000 books. The current 
plan calls for deacidifying at least 100,000 books in fiscal 2001, with 
that number increasing to 150,000 books in fiscal 2002. The plan also 
includes deacidifying over 1,000,000 sheets of manuscript annually.
    Question. The American Folklife Center has a backlog of more than 
700,000 unprocessed items, including thousands of items documenting 
community culture from every state in the country as part of the Local 
Legacies project.
    How does the Library plan to address the processing of this 
backlog?
    Answer. The American Folklife Center's Folk Archive was established 
in 1928. There were 167,139 items included in original 1989 arrearage 
which built up over time due to insufficient staffing. Recent special 
projects, such as the ``Local Legacies'', have resulted in large 
amounts of materials being received by the Center in a relatively short 
period of time. The Library's fiscal 2002 budget request includes 
funding for five new archival positions, to achieve a full archival 
staff that is expected to process approximately 80,000 items per year.
    The additional staff will not eliminate completely the backlog; 
some level of arrearage will remain constant as new collections arrive 
and others are processed. The additional staff will reduce and manage 
the backlog. In particular, the staff will enable the Center to keep 
abreast of backlog by reducing the time between acquisition and public 
access to six to eight months, which is a reasonable delay. Without the 
requested funding for the additional staff, unprocessed items could 
double to approximately 1.5 million items.
    Question. Dr. Billington, in October 2000, Congress approved an 
oral history program to collect video and audio histories of veterans 
of our Armed Forces who served during a period of war. The Library's 
fiscal year 2002 budget request includes an increase of $249,776 to 
begin developing the nationwide partnership program called for in the 
authorizing legislation.
    What steps is the Library taking to implement this program?
    Answer. The Veterans Oral History Act passed unanimously in both 
Houses, included authorization to spend $250,000 in first year. The 
Library's fiscal 2002 request includes $250,000 ``seed money'' that 
will allow the Center to hire nine essential staff positions to 
establish the congressionally mandated Veterans History Project and to 
fulfill the Center's core mission to preserve and protect our priceless 
heritage of grassroots American cultural life by: beginning 
construction on the project database; printing and disseminating a 
``Collectors Kit''; and convening experts and partner organizations. 
Right now, fifteen hundred World War II veterans die every day--we 
cannot wait any longer. The Library will also be raising private money 
to support this Congressional initiative, but we need a financial 
commitment from Congress to encourage private donations.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson

    Question. As a new member of the Subcommittee, I look forward to 
working with Chairman Bennett and Ranking Member Durbin to learn more 
about the important provisions of the Legislative Branch. As we all 
know, an integral part of the Library's mission is to catalog the rich 
contributions made by American authors and innovators. The American 
Folklife Center expands that to the documentation of contributions to 
the rich tapestry of Americana made by everyday Americans in their 
daily living. For instance, the Center has worked in my state of South 
Dakota to preserve the pow-wows of Native Americans, which are 
currently recorded on fragile wax cylinders. For the past twenty years, 
the Folklife Center has received a static level of funding of $1 
million. Last year, Congress added the Veterans' Oral History Project 
to the work done by the Folklife Center.
    What impact does this new mandate have on the Center and its 
financial ability to carry out its other archival and documentary 
functions?
    Answer. The Veterans' Oral History Project (now named the Veterans 
History Project) will have an enormous impact upon the small staff and 
limited resources of the American Folklife Center. This large and 
ambitious project was mandated through Public Law 106-380, passed 
unanimously by both Houses of Congress last fall. The project has been 
greeted enthusiastically by veterans organizations, oral historians, 
folklorists, and private citizens around the country. The potential 
partners for this project together have a member base of over 10 
million possible participants, representing an enormous grassroots 
interest. The Veterans History Project includes both programmatic 
activities of outreach, education, and coordination, as well as 
collection-building activities such as preservation, processing, 
storage, and reference. Already, Folklife Center staff have been 
assigned to planning for this national project, and preparations are 
underway for handling the important historical materials that will be 
created and deposited at the Center. In addition, the Center has 
recently received several other outstanding grassroots collections of 
enormous size (the Local Legacies Project Collection; the International 
Storytelling Center Archive; and the archives of the National Council 
for the Traditional Arts and the National Heritage Fellows of the 
National Endowment for the Arts). These new and important collections 
have stretched the Center's limited resources and staffing beyond 
capacity. The Center's fiscal 2002 request will allow us to hire nine 
essential staff positions to establish the congressionally mandated 
Veterans History Project and to fulfill the Center's core mission to 
preserve and protect our priceless heritage of grassroots American 
cultural life.

                          SUBCOMMITTEE RECESS

    Senator Bennett. The subcommittee is recessed.
    [Whereupon, at 11:22 a.m., Wednesday, May 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         THURSDAY, MAY 10, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present. Senator Bennett.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL F. DiMARIO, PUBLIC PRINTER
ACCOMPANIED BY:
        ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
        FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
        CHARLES C. COOK, SUPERINTENDENT, CONGRESSIONAL PRINTING 
            MANAGEMENT DIVISION
        WILLIAM M. GUY, BUDGET OFFICER
        ANDREW M. SHERMAN, DIRECTOR, CONGRESSIONAL AND PUBLIC AFFAIRS

             OPENING STATEMENT OF Senator ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order. I'm 
informed that Senator Durbin and Senator Johnson may not be 
able to join us because of unavoidable conflicts this morning. 
We hope that they can, but we will go ahead. And, without 
objection, their statements for the record will be included in 
today's hearing, and any questions they have for the witnesses 
will be submitted to you in writing if they don't show. We ask 
that you respond accordingly. Thank you.
    Now, we welcome Michael DiMario, the Public Printer. And I 
understand that, Mr. DiMario, you have Robert Mansker, Deputy 
Public Printer--these are familiar faces--Francis Buckley, 
Superintendent of Documents, Charles Cook, Superintendent of 
Congressional Printing Management Division, and William Guy, 
the GPO's Budget Officer.
    Mr. DiMario. And I also brought with me Andrew Sherman, the 
Director of our Congressional and Public Affairs Office.
    Senator Bennett. Okay, very good. Now, for fiscal year 
2002, the Government Printing Office is requesting a total of 
$126.5 million, which breaks down to $90.9 million for the 
Congressional Printing and Binding Appropriation, $29.6 million 
for salaries and expenses, $6 million for the revolving fund, a 
total increase of $27.3 million, or 27.6 percent, over fiscal 
year 2001. This is a substantial increase over what was 
appropriated for the year 2001. A majority of it is within one 
account, the Congressional Printing and Binding Appropriation. 
And some will be surprised by a 27-percent increase, and I 
expect you will address that and talk to us about it.
    So, Mr. DiMario, with that, let us hear from you. And 
again, welcome to the committee.

                 OPENING REMARKS OF MICHAEL F. DIMARIO

    Mr. DiMario. Thank you, Mr. Chairman and members of the 
subcommittee. It's a pleasure to appear before you to present 
the request of the Government Printing Office for 
appropriations for fiscal year 2002.
    As you have noted, with me are the Deputy Public Printer, 
Bob Mansker, Francis Buckley, the Superintendent of Documents, 
Bill Guy, our Budget Officer, Charlie Cook, the Superintendent 
of Congressional Printing Management, and Andrew Sherman, the 
Director of Congressional and Public Affairs.
    With your permission, I will briefly summarize my prepared 
statement, which has been submitted for the record.
    Senator Bennett. Please do.
    Mr. DiMario. As you've indicated, for fiscal year 2002, 
we're requesting a total of $126.5 million. This includes $90.9 
million for the Congressional Printing and Binding 
Appropriation, $29.6 million for the Salaries and Expenses 
Appropriation of the Superintendent of Documents, and $6 
million for GPO's revolving fund, principally to replace our 
aging air-conditioning system. Our requested increase, while 
more than the President's targeted four-percent increase for 
fiscal year 2002, is primarily to ensure that enough 
Congressional Printing and Binding funds are available to cover 
congressional work. The requested increase includes $9.9 
million to fund a prior year's shortfall and a $9.5 million 
adjustment to ensure that sufficient funding is available for 
fiscal year 2002. Otherwise, we project that congressional 
printing costs for fiscal year 2002 will increase by about 
$200,000 over fiscal year 2001.
    For the Salaries and Expenses Appropriation, we are asking 
for a modest increase to fund eight additional staff in our 
Cataloging and Indexing and Federal Depository Library 
Programs, and for electronic information service improvements. 
At the direction of the conferees on the fiscal year 2001 
Legislative Branch Appropriations Act, we have advised 
depository libraries that online formats are now the primary 
means of dissemination in the program. We are continuing to 
transition the publications made available to depository 
libraries to electronic formats as quickly as we can without 
jeopardizing public access to titles for which there are no 
dependable electronic equivalents.
    We are asking for $6 million to replace our air-
conditioning system. This project was recommended last year in 
an energy audit of GPO conducted by the GAO at the request of 
the Joint Committee on Printing. The audit said GPO is in 
urgent need of upgrading its air-conditioning system, which 
consists of chillers that have outlived their useful lives and 
are leaking coolants containing CFCs that are harmful to the 
environment and which can no longer be legally manufactured. 
They are energy inefficient and are at high risk of failure. 
GAO also recommended that we install more energy-efficient 
lighting throughout GPO.
    We are seeking a direct appropriation to finance these 
projects. Otherwise, they will have to be financed through the 
revolving fund, which will require us to reimburse the fund 
through rate adjustments. The installation of our air-
conditioning system in the early 1970s was funded by direct 
appropriations. As you will recall, the Senate included funding 
for this system in its recommendation for GPO for fiscal year 
2000.
    Finally, we're seeking two legislative changes. The first 
is a 3-year extension of our current retirement-incentive 
authority, which includes early-out and buyout authority. We 
have had this authority since fiscal year 1999, and it will 
expire at the end of this fiscal year. We have utilized the 
early-out authority to effect 71 retirements achieving a 
savings of more than $3.5 million.
    We have not used the buyout authority to date, but the 
ongoing downward trend in document sales due to the Internet is 
causing continuing losses in our self-financing sales program. 
We may need this authority in the future to adjust the sales 
workforce levels to a more appropriate size.
    The second change we are seeking is an adjustment to the 
statutory pay for the Public Printer and the Deputy Public 
Printer to restore parity with other legislative branch agency 
heads and deputies. As an appointee of the previous 
administration, I make this request not for myself, but for the 
interest of future GPO leaders.
    Mr. Chairman, I appreciate the opportunity to have worked 
with you over the past several years. Your leadership and 
guidance have been invaluable to GPO, and I personally have 
always appreciated the courtesy you have shown me in my 
dealings with you.

                           PREPARED STATEMENT

    This concludes my statement, and I will be pleased to 
answer any questions you may have.
    [The statement follows:]

                Prepared Statement of Michael F. DiMario

    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here this morning to present the results of Government Printing Office 
(GPO) operations for the past year and to request appropriations for 
fiscal year 2002.

                            RESULTS OF 2000

    GPO began the fiscal year with its second consecutive annual 
designation as the Nation's leading in-plant printing operation, a 
tribute to the continuing efforts and dedication of its skilled 
workforce. Noting that 2000 marked GPO's 139th year, the December 1999 
issue of In-Plant Graphics magazine reported that ``GPO has drastically 
changed itself over the past few years from a strictly ink-on-paper 
provider to a high-tech digital data delivery organization.'' We earned 
our third consecutive designation as the Nation's leading in-plant in 
the December 2000 issue of In-Plant Graphics. In between these two 
designations, GPO engaged in a number of high-tech online and print 
activities that supported Congress and Federal agencies, and which 
helped keep America informed.
    Improving public access to electronic Government information was a 
major focus of our activities in 2000. By arrangement with the U.S. 
District Court for the District of Columbia, GPO was the outlet for all 
documents issued by the Court during the Microsoft case in both online 
and print formats. GPO provided technical support and hosting 
technology for the Supreme Court's new Web site, which later in the 
year was the focus of intense public scrutiny with the release of the 
Court's decisions in the Florida election case. Following the direction 
of the conferees on the fiscal year 2001 Legislative Branch 
Appropriations bill, we set new policies for accelerating the 
transition of GPO's Federal Depository Library Program to an 
increasingly online basis--a transition that has been underway since 
1996. Earlier this year, GPO Access, our Internet information service 
(www.gpo.gov/gpoaccess), was used to release the President's budget 
documents for fiscal year 2002.
    GPO also launched new partnerships with the Department of Energy 
and the National Library of Medicine to create new online links to 
scientific and technical as well as medical information, and continued 
talks with legislative, executive, judicial branch agencies toward the 
development of effective strategies for ensuring permanent public 
access in this electronic age. Technology improvements included 
installing a new T3 fiber optic Internet connection to handle the 
increased demand for public access to Government information on GPO 
Access, and investigation of public key infrastructure (PKI) technology 
to enhance security. Currently, GPO Access is being used by the public 
each month to retrieve about 30 million documents published by all 
three branches of the Government.
    GPO's printing functions had a strong year in 2000. We continued to 
support Congress with the daily production--in both print and 
electronic formats--of the Congressional Record as well as the bills, 
reports, hearings, and other documents needed by the legislative 
process. Daily production of essential executive publications such as 
the Federal Register, Code of Federal Regulations, passports, and other 
items continued as well. Our printing procurement program was a major 
participant in Census 2000, placing more than 80 contracts worth more 
than $65 million with dozens of private sector printing contractors 
across 17 states for the forms and other materials needed in the 
conduct of Nation's decennial headcount.
    During the year, we worked closely with the Joint Congressional 
Committee on the Inauguration to prepare the programs, tickets, and 
other materials needed for the inaugural ceremony in January 2001, and 
on behalf of the Senate Committee on Governmental Affairs we produced 
the 2000 edition of U.S. Government Policy and Supporting Positions--
the so-called ``Plum Book''--that draws a great deal of attention with 
the change of Administrations. We also revised and published a new 
edition of the GPO Style Manual, meeting public demand for this widely-
used document.
    GPO received an ``unqualified opinion'' on its financial statements 
for fiscal year 2000 following a comprehensive, independent audit of 
its financial operations by KPMG LLP. This is the highest level of 
assurance that an audit firm can give on an organization's financial 
statements. Fiscal year 2000 was the fourth consecutive year that we 
have received such an opinion since an annual audit requirement for GPO 
was enacted by Congress in 1996.
    Our financial statements reflect that GPO completed fiscal year 
2000 with a consolidated under-recovery of $115,000 on total revenues 
of $807.5 million, a margin of about one-one hundredth of 1 percent, a 
significant improvement over the previous year. GPO undertook a major 
cost-reduction effort in 2000 with the consolidation of warehouse 
facilities for publications and paper, a move that will save more than 
$5 million over the next 5 years. Staffing levels also continued to 
decline through attrition, falling by 121 full-time equivalents (FTE's) 
during the year.
    After eight years of service as Public Printer, I am pleased to 
report that GPO has come a long way over the past decade, successfully 
transitioning itself from a conventional printing and hard-copy 
distribution facility staffed by nearly 5,000 employees to a ``high-
tech digital data delivery organization'' with 3,100 staff serving 
Congress, Federal agencies, the courts, and the public. Along the way, 
we developed one of the Government's early online dissemination 
efforts, GPO Access, into a comprehensive service that today links 
millions of Americans in their offices, homes, schools, and libraries 
with information provided by all three branches of their Federal 
Government.
    GPO's traditional operations have changed, too. An independent 
management review by Booz-Allen &amp; Hamilton, Inc. in 1998 found that GPO 
``effectively satisfies its priority congressional customers and meets 
the variable demands and outputs requested by Congress,'' provides a 
printing procurement service that customer agencies view as ``an 
example of `government at its best,' '' and successfully meets 
Government and public expectations for electronic information 
dissemination. The scope of the transition at GPO over the past ten 
years has marked the 1990's as perhaps the single most dramatic decade 
of change in this agency's history.
    However, the successes of the past decade have come at a price. 
There has been an ongoing decline in GPO's sales of publications, due 
principally to the increasing availability of titles on the Internet. 
GPO had proposed a consolidation of the Government's publications 
dissemination functions in 1999 for economy purposes, but in the 
absence of any action on that proposal we have been compelled to begin 
downsizing actions for our sales program. In another area, decade-long 
employment reductions have forced GPO's employees to do more with less, 
and many critical areas are now operating understaffed. Increased 
recruitment, training, and associated measures will be necessary in the 
coming years to ensure the continued strength of GPO's workforce.
    Finally, while the drive to make more Government publications 
available electronically has benefited millions, it has also raised new 
issues with respect to security, authenticity, permanence, and equity 
that have yet to be resolved. Addressing these will require the 
effective use of technology, the development of innovative partnerships 
with both Government and non-governmental organizations, and broad 
consultation and cooperation with Congress, Federal agencies, and the 
public. Fortunately, these are strategies that GPO has already begun 
deploying based on our commitment to ``Keeping America Informed.'' We 
look forward to continuing to serve Congress, Federal agencies, and the 
public.

             GPO'S FISCAL YEAR 2002 APPROPRIATIONS REQUEST

    For fiscal year 2002, the Government Printing Office (GPO) is 
requesting a total of $126.5 million: $90.9 million for the 
Congressional Printing and Binding Appropriation, $29.6 million for the 
Salaries and Expenses Appropriation of the Superintendent of Documents, 
and $6 million for GPO's revolving fund, to remain available until 
expended, for the replacement of our air-conditioning system.
    Our request represents an increase of $27.3 million, or 27.6 
percent, over the amount approved for fiscal year 2001 (net of the 0.22 
percent rescission for all programs covered by the Legislative Branch 
Appropriations Act for Fiscal Year 2001). While in excess of the 
President's targeted 4 percent increase for fiscal year 2002, our 
requested increase is primarily to ensure that sufficient Congressional 
Printing and Binding funds are available to cover work charged against 
that appropriation. The requested increase includes $9.9 million for 
Congressional Printing and Binding to fund a prior year (fiscal year 
2000) shortfall in that appropriation, and a $9.5 million adjustment to 
the fiscal year 2001 base to ensure that sufficient funding is 
available for fiscal year 2002. The requested increase also includes $6 
million for air conditioning and lighting improvements that were 
recommended last year in an energy audit of GPO conducted by the 
General Accounting Office at the request of the Joint Committee on 
Printing. The balance of the requested increase, or $1.9 million, is 
for projected price level and workload increases.
    Congressional Printing and Binding Appropriation.--The 
Congressional Printing and Binding Appropriation covers the costs of 
congressional printing such as the Congressional Record, bills, 
reports, hearings, documents, and other products. It is critical to the 
maintenance and operation of our in-plant capacity, which is structured 
to serve Congress's information product needs. This appropriation also 
covers database preparation work on congressional publications 
disseminated online via GPO Access.
    Salaries and Expenses Appropriation of the Superintendent of 
Documents.--The Superintendent of Documents Salaries and Expenses 
Appropriation pays for those documents distribution programs and 
related functions mandated by law. The majority of the appropriation is 
for the Federal Depository Library Program (FDLP), under which 
congressional and other Government publications and information 
products are disseminated to more than 1,300 academic, public, Federal, 
law and other libraries nationwide where they are available for the 
free use of the public. While some of the funding for the FDLP is for 
salaries and benefits, most is for printing and disseminating 
publications (including publications in CD-ROM and online formats, 
which are now the majority of items in the program) to depository 
libraries. Related statutory functions covered by this appropriation 
are cataloging and indexing, by-law distribution, and the international 
exchange distribution of U.S. Government publications. Finally, through 
the FDLP, this appropriation provides the majority of funding for the 
operation of GPO Access. GPO's other major documents distribution 
functions--the sales program and agency distribution services--are 
funded by revenues earned and receive no appropriated funds.

            CONGRESSIONAL PRINTING AND BINDING APPROPRIATION

    Our request for $90.9 million for the Congressional Printing and 
Binding Appropriation consists of two primary components: funding to 
cover Congress's estimated printing requirements for fiscal year 2002, 
and funding to cover a prior year shortfall in this appropriation. The 
shortfall occurred in fiscal year 2000.

                              [In millions]

                                                               Estimated
        Category                                             Requirement

Estimated Fiscal Year 2002 Requirements:
    Committee hearings............................................ $21.0
    Congressional Record (including the online Record, the Index, 
      and the bound Record).......................................  19.3
    Miscellaneous Printing and Binding (including letterheads, 
      envelopes, blank paper, and other products).................  13.1
    Bills, resolutions, amendments................................   8.0
    Documents.....................................................   4.2
    Committee Reports.............................................   3.9
    Miscellaneous Publications (including the Congressional 
      Directory and serial sets)..................................   3.8
    Business and Committee Calendars..............................   3.0
    Details to Congress...........................................   2.0
    Committee Prints..............................................   1.7
    Document Envelopes and Franks.................................   1.0
                                                                  ______
      Subtotal....................................................  81.0
                        =================================================================
                        ________________________________________________
Fiscal Year 2000 Shortfall........................................   9.9
                        =================================================================
                        ________________________________________________
      Total.......................................................  90.9

    Fiscal Year 2002 Estimated Requirements.--We estimate that 
Congress's printing requirements for fiscal year 2002 will be 
comparable to those for fiscal year 2001: $81 million for fiscal year 
2002 compared with $80.8 million for fiscal year 2001. We project an 
increase in the cost of congressional printing of about 4 percent due 
to projected contractual wage increases as well as higher costs for 
materials and supplies. However, we anticipate that these cost 
increases, as well as projected workload increases for some product 
categories (business and committee calendars; bills, resolutions and 
amendments; committee reports; documents; and hearings), will be 
substantially offset by workload decreases in other product categories, 
including miscellaneous publications (primarily because the printing of 
the U.S. Code will be charged to fiscal year 2001), miscellaneous 
printing and binding, and committee prints. The net increase for price 
level changes and workload for fiscal year 2002 will be approximately 
$200,000.
    In order to fully fund the estimated work for fiscal year 2002, it 
has been necessary for us to adjust the current year (fiscal year 2001) 
base by approximately $9.5 million. This adjustment reflects the 
difference between the amount appropriated for the current year ($71.3 
million) and the amount of work we anticipate that Congress will 
actually require ($80.8 million). While a shortfall in the 
Congressional Printing and Binding Appropriation for fiscal year 2001 
is projected to occur, we are not requesting funding to cover it in 
this appropriation request. We will make that request in the 
appropriation for fiscal year 2003, because we will not know the exact 
amount of the shortfall until after fiscal year 2001 closes out.
    Fiscal Year 2000 Shortfall.--GPO's Congressional Printing and 
Binding Appropriation covers the costs of the information products and 
services required by Congress itself. GPO can charge against this 
appropriation only when Congress orders work from us. We charge what it 
costs us to perform the work. The amount of the Congressional Printing 
and Binding Appropriation is based on GPO's best estimates of how much 
work Congress is likely to order, according to prior experience and 
anticipated changes in costs and projected workload.
    While GPO makes every effort to develop accurate estimates for the 
appropriation, sometimes the amount of work Congress orders varies from 
the estimate. The attached chart compares actual workload to 
appropriated amounts for the past 5 fiscal years. Variances between 
actual and appropriated funding occur for a variety of reasons: 
sometimes Congress operates on a reduced legislative schedule as the 
result of unanticipated circumstances, or sometimes there is an 
unforeseen increase in legislative printing requirements, as during the 
impeachment proceedings in early fiscal year 1999.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    Variances mean that GPO may end up providing more or less work and 
charging more or less against the appropriation than was provided, 
resulting in either a shortfall or unused funds. In cases where more 
work is ordered than is funded, legislative language under the 
Congressional Printing and Binding Appropriation authorizes us to 
charge our current year appropriation for prior year obligations. Thus, 
we have been charging the overflow of congressional work ordered in 
fiscal year 2000--for which fiscal year 2000 funds have run out--
against fiscal year 2001 funds. This appropriations language was 
recommended by the General Accounting Office to provide for the 
uninterrupted flow of work by GPO for Congress. However, if this 
shortfall situation were allowed to continue, we would eventually 
exhaust our current year appropriation in order to pay for prior year 
work. To prevent this, we seek a restoration of the funds equal to the 
shortfall through subsequent appropriations. In cases where Congress 
orders less work than we estimated, the funds lapse to the Treasury 
after remaining available for work charged to the specific year for 
which they were appropriated, for a period of five years.
    Congress addressed the shortfall problem in part last year. In the 
Legislative Branch Appropriations Act for Fiscal Year 2001, we were 
authorized to transfer available unused funds from up to five prior 
years to the current year to help offset any shortfall in our 
appropriations, with the approval of the Appropriations Committees. We 
applied for this approval in January 2001 but have not received a final 
answer. If the transfer is approved, we will be able to use excess 
funds from prior years to eliminate a substantial part of the 
shortfalls that have accumulated since fiscal year 1996. However, the 
transfer will still leave $9.9 million in the shortfall for fiscal year 
2000 uncovered. As a result, we are seeking a restoration of that 
amount to our revolving fund.

                  SALARIES AND EXPENSES APPROPRIATION

    The programs covered by our request of $29.6 million for the 
Salaries and Expenses Appropriation of the Superintendent of Documents 
are as follows:

                              [In millions]

                                                               Estimated
        Program                                             Requirements

Federal Depository Library Program................................ $24.2
Cataloging and Indexing Program...................................   4.3
International Exchange Program....................................    .7
By-Law Distribution Program.......................................    .4
                                                                  ______
      Total.......................................................  29.6

    Mandatory pay increases and price level changes represent $835,000 
of the total requested increase. Mandatory pay increases account for 
$439,000 of this amount. We are requesting $396,000 to cover price 
level changes at the anticipated rate of inflation of approximately 2 
percent.
    An increase of $644,000 over the current year base is requested for 
workload changes. We are requesting 8 additional staff under this 
appropriation: 6 in the Cataloging and Indexing program to provide 
necessary additional support in discovering and cataloging online 
Government information as well as modernizing the cataloging system, 
and 2 to work with the FDLP's Electronic Collection. We also need 
increased funds for equipment and services to enhance our data 
archiving capabilities and refresh essential legislative and regulatory 
online files. These new costs will be substantially offset by projected 
decreases in funding for depository and international exchange printing 
due to the continuing migration of formats to electronic dissemination, 
and by associated reductions in contractual mail transportation 
(currently performed through UPS Ground).
    We are also requesting an increase of $267,000 in depreciation due 
to an increase in asset acquisitions, primarily automated information 
systems in support of the FDLP.
    Transition to More Electronic Dissemination.--The transition to a 
more electronic FDLP is continuing, as projected in the Study to 
Identify Measures Necessary for a Successful Transition to a More 
Electronic Federal Depository Library Program (June 1996) (as required 
by Congress in the Legislative Appropriations Act for Fiscal Year 
1996). Throughout fiscal year 2000, staff of GPO's Library Programs 
Service (LPS), which manages the FDLP, searched the Web for online 
versions of Government publications for inclusion in the FDLP 
Electronic Collection. As a result, 53 percent of the 61,155 new FDLP 
titles made available during fiscal year 2000 were disseminated 
electronically. In January 2000, GPO began its own electronic archive 
to assure permanent public access to those agency products disseminated 
solely online from agency Web sites. To date in fiscal year 2001, 62 
percent of the new titles available to the public through the FDLP have 
been online. Through its electronic information dissemination 
component, the FDLP now delivers more content to users than ever 
before.
    Last year, the conferees on H.R. 4516, the Legislative Branch 
Appropriations Act for Fiscal Year 2001, directed that ``emphasis 
should be on streamlining the distribution of traditional copies of 
publications which may include providing online access and less 
expensive electronic formats.'' GPO responded to that direction 
immediately. In August 2000, the Superintendent of Documents wrote to 
the directors of all Federal depository libraries, advising them that 
online information would be the primary means of dissemination for the 
FDLP, and that most publications would be disseminated solely online. 
In October 2000, at the beginning of fiscal year 2001, GPO amended over 
100 agency term printing contracts to eliminate the requirement for 
paper copies for FDLP distribution. In January 2001, the Superintendent 
of Documents issued policy guidance (produced with library community 
input) to assist GPO staff in determining which products should be 
disseminated solely online.
    GAO Study.--The conferees on H.R. 4516 also directed the General 
Accounting Office (GAO) to conduct a ``comprehensive study on the 
impact of providing documents to the public solely in electronic 
format,'' and to evaluate the feasibility of transferring the FDLP to 
the Library of Congress (LC). The study was published recently by the 
GAO as Information Dissemination: Electronic Dissemination of 
Government Publications (GAO-01-428). I provided comments on the draft 
report and transmitted copies of those comments to the Chairman and 
Members of this Subcommittee as well as other Members of the House and 
Senate.
    As I stated in my comments, the day is coming when Federal 
Government information may be made available to the public solely in 
electronic format, but that day is not here yet nor is it likely to 
appear in the foreseeable future. Apart from the fact that large 
amounts of Federal information are not digitized, significant issues 
concerning security, permanence, authentication, equity, and cost 
remain to be resolved before the American people can put their faith in 
an electronic dissemination system that will serve as one of the 
foundations of their social contract with the Government. 
Unfortunately, the draft report's attention to these and related issues 
is simply too cursory to resolve them.
    As I also stated, LC is a unique national institution of singular 
importance to Congress and the public. As a sister legislative branch 
agency, GPO has a longstanding relationship with LC that we value very 
highly; LC is a selective depository library and by-law distribution 
recipient, and we work together on many issues of importance in the 
field of Government information dissemination. With all due respect, 
however, LC is not an appropriate home for the FDLP. Its mission and 
operations are inconsistent with a large-scale publications/information 
dissemination program. Transferring the FDLP there will increase costs, 
impose additional burdens on LC, and not result in any improvement in 
the public's ability to access Government information.

                             REVOLVING FUND

    Fiscal Year 2000 Financial Performance.--GPO completed fiscal year 
2000 with an under-recovery of $115,000 on $807.5 million in total 
revenues, compared with an under-recovery of $5 million on $765 million 
for fiscal year 1999. The under-recovery was financed by retained 
earnings and did not place GPO in an anti-deficiency position or 
require additional appropriations. During the year, an audit of GPO's 
financial reports and systems for fiscal year 2000 was conducted by 
KPMG LLP, under contract with GAO. The audit resulted in a clean 
opinion for GPO.
    Sales Program.--The primary cause of the under-recovery was in our 
sales program, which is funded entirely by revenues earned on sales of 
publications. The free availability of publications on GPO Access and 
other Government web sites has contributed to reduced sales of printed 
products, although other factors, including reduced agency publishing 
and competition from other sales organizations, both public and 
private, have also contributed to reduced sales. The losses have been 
temporarily financed through our revolving fund and we are taking 
actions to address them. We have made price adjustments and have 
reduced costs where possible through staff attrition and related 
measures.
    We have also developed a plan that includes closing several of 
GPO's retail bookstores nationwide. Most of these stores were 
established in the 1970's. Closing these stores will reduce costs, and 
we project we will be able to retain most store revenues through our 
online, fax, phone, and mail order operations. At the same time, 
localized access to Government information will be preserved through 
Federal depository libraries as well as free Internet availability.
    We have taken steps to initiate closings of three stores: our 
McPherson Square store in Washington, DC (one of three in the 
metropolitan area) and our stores in Boston and San Francisco (both of 
whose leases are about to expire and which are experiencing staff 
declines). We have notified the respective House and Senate delegations 
for these stores about our plans, and we are prepared to seek final 
approval for the closures from the Joint Committee on Printing (JCP), 
which must approve all GPO facility-related changes under the terms of 
a 1982 JCP resolution. Additional store closings are currently under 
consideration.
    Beyond these efforts, we may be compelled to take additional 
measures to reduce the sales program. An additional management tool is 
available to GPO through early-out/buy-out authority provided to us for 
three years by the Legislative Branch Appropriations Act for Fiscal 
Year 1999. That authority is set to expire September 30, 2001, and we 
request an extension for an additional three years because significant 
employee downsizing action in the sales program may become necessary. 
GPO cannot effect any reduction-in-force without the prior approval of 
the JCP, pursuant its 1982 resolution.
    Air Conditioning System.--Our appropriations submission includes a 
request for $6 million for the revolving fund, to be available until 
expended, to cover the cost of necessary improvements to GPO's air 
conditioning and lighting systems.
    Our air conditioning system is in critical need of replacement. An 
energy audit of GPO, concluded in July 2000 by the GAO at the request 
of the JCP, found that

          GPO is in urgent need of upgrading its air conditioning 
        system, which consists of chillers that (1) have outlived their 
        useful lives, (2) use and are leaking coolants that contain 
        chlorofluorocarbons that are harmful to the environment and 
        which can no longer be legally manufactured, (3) are energy 
        inefficient, and (4) are at high risk of failure. (Letter from 
        Bernard L. Ungar, Director, Government Business Operations 
        Issues, GAO, to Chairman William M. Thomas, Joint Committee on 
        Printing, July 24, 2000.) (emphasis added)

    An independent contractor recommended by GAO, Aspen Systems 
Corporation, estimated the cost of a new system best suited to our 
needs to be approximately $4.4 million. GAO said we could save over 
$400,000 annually with the new, more energy efficient chillers. We are 
awaiting final approval for a new air conditioning system from the JCP, 
under the provisions of a 1987 JCP resolution requiring GPO to obtain 
prior approval for all capital improvements valued at more than 
$50,000. On the recommendation of GAO, we also plan to install more 
energy-efficient lighting throughout GPO, at an estimated cost of 
approximately $1.6 million. New, more efficient lighting systems would 
yield annual savings of approximately $800,000.
    We are seeking a direct appropriation to finance both of these 
projects. Without a direct appropriation, financing this extraordinary 
capital expense through the revolving fund--either by direct purchase 
from retained earnings in the fund or by financing it through projected 
energy savings--will require us to reimburse the fund through rate 
adjustments. As this expense is not directly related to the provision 
of printing and information product services, its impact on our rate 
structure will be detrimental to our ability to carry out our mission 
to provide cost-effective and economical products and services. The 
savings from these energy products will help keep down the costs that 
we must recover through our rates.
    We are aware of finance programs that allow Federal agencies to 
undertake energy saving projects without having to pay for the projects 
up front. However, these programs are more expensive than direct 
purchase because agencies must pay a financing fee. GAO itself stated 
that ``the final cost of the new chillers would be higher if a 
financing program was used instead of purchasing the chillers 
outright.'' Accordingly, we believe a direct appropriation is the best 
way to minimize the impact of this cost on the Government. A direct 
appropriation would also be consistent with past practice. The 
installation of our air conditioning system in the early 1970's was 
funded by direct appropriations to the revolving fund. As you will 
recall, the Senate included funding for this system in its 
recommendation for GPO for fiscal year 2000.
    FTE Level.--We are requesting a statutory ceiling on employment of 
3,260 FTE's. This is a decrease of 25 from the previous year, and 
reflects a reduction of 33 FTE's in the sales program with an increase 
of the 8 FTE's requested for the Superintendent of Documents Salaries 
and Expenses programs. As the attached chart shows, total GPO FTE's 
dropped 37 percent between fiscal year 1990 and fiscal year 2000, 35 
percent in past eight years alone. GPO is now at its lowest employment 
point in the past century, principally due to our use of electronic 
information technology.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

                           ADDITIONAL ISSUES

    Legislative Changes.--In addition to an extension of the early-out/
buy-out authority, we are requesting a change to section 303 of Title 
44, regarding the pay of the Public Printer and the Deputy Public 
Printer, in order to maintain pay parity with other comparable 
legislative branch officials as well as appropriate comparability with 
senior congressional staff. We are providing new information on this 
matter to our legislative oversight committees. Changes in the pay 
levels for the Public Printer and Deputy Public Printer have been 
provided through the appropriations process, as they last were in the 
early 1990's.
    Audit Recommendations Status Report.--Consistent with the 
requirement contained in House Report 105-734, accompanying H.R. 4112, 
the Legislative Branch Appropriations Act for Fiscal Year 1999, we have 
submitted the third and final annual report on the status of actions to 
implement the recommendations contained in the management audit of GPO, 
conducted in 1998 by Booz-Allen &amp; Hamilton, Inc.
    The latest report shows that GPO either plans to act, is currently 
acting, or has acted affirmatively on 77 percent of the recommendations 
contained in the Booz-Allen &amp; Hamilton final audit report. These 
include recommendations on planning, program modernization, ensuring 
financial stability, promoting intra-agency communications, and 
improving information technology capabilities.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement, and I would be pleased to answer any questions you 
may have.

                   CONGRESSIONAL PRINTING AND BINDING

    Senator Bennett. Thank you very much, Mr. DiMario. We 
appreciate that. You're talking about the early out and buyout 
authority because of downward trends in headcount or employment 
needs. As you talk about these lower workforce levels, though, 
you are talking about increased money. You need more money to 
make up a shortfall. Can you reconcile these two, give us an 
understanding as to why the need for money is going up, while 
the need for workforce is going down.
    Mr. DiMario. These needs address two separate programs. The 
need for money is primarily because Congress did not give us 
enough money in previous years to do the congressional printing 
work that was required to be done. We, nevertheless, performed 
the work. Under the existing law, we are authorized to go to 
the current fiscal year to use the money appropriated to pay 
for previous fiscal years. And that is what we have been doing. 
We are asking to have the money restored so that we can pay 
back the fiscal year 2000 monies that we need. Last year, you 
authorized us to use surpluses that had been appropriated in 
1997 and 1998 and had not been spent, in part to pay back those 
monies. And we have asked to do that. But even if we do that, 
we come up with a shortfall in the previous fiscal year, and 
we're using current-year monies to fund those obligations. So 
we're asking for the $9.9 million for that unfunded fiscal year 
2000 shortfall.
    We are also asking for $9.5 million to adjust the fiscal 
year 2001 base. So that would bring us back up to the level 
that we should be at in that year, anticipating the workloads 
for 2001. In addition to that, we are asking for $2.9 million 
to cover mandatory pay and price-level increases. We offset 
that, in part, because there is a reduction of $2.7 million in 
workload from fiscal year 2001 due, primarily, to the printing 
of the new 2000 edition of the U.S. Code this year. So those 
two figures are a near wash, the $2.9 million and the $2.7 
million, and that is where our $19.6 million increase comes in.
    The true increase that we're asking, in terms of the 
additional cost to do work, as opposed to funding prior years, 
is $200,000 in Congressional Printing and Binding, so it's well 
within the four-percent guidelines.
    The request in the Superintendent of Documents' Office is 
where we made reference to the need to use the buyout 
authority. That authority is needed for our sales program, 
which is a self-funding operation. We receive no appropriations 
for it whatsoever. Because of our success with GPO Access where 
we put up all of these electronic files, where we now have some 
32 million publications a month being downloaded from the 
system, we have experienced an enormous decline in the sales of 
publications. We went from an $80 million program to a $40 
million program. We are trying to manage our operation with 
that decline in revenue in mind, but our workforce is geared at 
a higher level, and the attrition we have been experiencing has 
not been enough to offset that.
    So by continuing to have the buyout authority, plus the 
early-out authority, we are hoping to manage that reduction 
we're experiencing. We're not getting the revenues in the door. 
Even aggressive marketing programs are not doing it. The Sales 
Program is out of a different side of the house, if you would.
    Senator Bennett. Okay. Could we get a chart that outlines 
all of what you just said?
    Mr. DiMario. Yes, sir.
    Senator Bennett. In other words, how much in 2000 was 
covered by old surpluses? You talk about surpluses back to 
1997. How much was covered by old surpluses? How much was 
covered by the appropriation that you got for 2000? And then 
there was still an overrun beyond that--taking money out of the 
current year to cover that.
    Mr. DiMario. In our prepared statement, we included such a 
chart. Bill can explain it to you.
    Mr. Guy. In fiscal years 1997 and 1998, but primarily in 
1997, the appropriation exceeded requirements. It turned out 
that Congress didn't need as much as what was set aside. That 
situation reversed in 1999 and 2000.
    In the 1950s, Congress realized this could happen, and the 
solution, which was recommended by GAO, was to allow the 
current-year appropriation to be charged for prior-year 
shortfalls as a temporary measure.
    Senator Bennett. This is separate from the revolving fund?
    Mr. Guy. Yes, sir.
    Senator Bennett. What role does the revolving fund play, if 
any?
    Mr. Guy. Temporarily, we finance everything through the 
revolving fund. This appropriation is used to reimburse the 
revolving fund for the cost of congressional work, as other 
agencies reimburse the revolving fund for the cost of their 
work. This appropriation is an annual appropriation, and the 
purpose of it is to support the Congress.
    Senator Bennett. You've got a spike in requirements in 
2000. Is that because of the printing of the U.S. Code?
    Mr. Guy. No, sir.
    Senator Bennett. And then it comes back down in 2001.
    Mr. Guy. Yes.
    Senator Bennett. And you're projecting that 2002 will be 
level--except for the $200,000, essentially level?
    Mr. DiMario. Yes. Now, we also indicate in our statement 
that we anticipate asking next year, again, for the funding of 
the shortfall that we're anticipating this year and that's not 
in this request. We will know better at the end of the year 
what that number is, and we will ask for that shortfall 
funding.
    Senator Bennett. You have a request, which presumably could 
make another bar on the chart for 2002. Where does it come?
    Mr. Guy. That comes from----
    Senator Bennett. No, where on the chart? How high would 
that bar be?
    Mr. Guy. In fiscal year 2002, we are requesting $90.9 
million in total. That additional bar on top of the $81 million 
for fiscal year 2002 requirements would be for the $9.9 million 
shortfall from fiscal year 2000. The reprinting of the United 
States Code is going to be charged to 2001. It is the 2000 
edition of the Code, but it's actually going to be printed this 
year and will be charged to 2001.
    Senator Bennett. So what causes the spike in 2000 if it 
doesn't include the code?
    Mr. Guy. Sir, that was due to workload increases as well as 
COLAs. Looking at the chart, it went from about $80 million in 
fiscal year 1999 to about $85 million in fiscal year 2000.
    Senator Bennett. Yeah, but what I don't follow here--you're 
in 1999 at $80; you go up to $85--in 2000, which is 6-percent, 
7-percent increase. You come back down to $80--in 2001, and yet 
you say the printing of the U.S. Code, a one-time event, is 
included in the 2001 figure.
    Mr. Guy. Yes, sir.
    Senator Bennett. I don't understand. Why the spike in 2000? 
Is there a single event that caused it? Why should there be a 
spike in a year where there is not an unusual event, like the 
printing of the U.S. Code. And then in the year when the 
printing of the U.S. Code is, it comes back down.
    Mr. Guy. That was not due to any one event that I can put 
my finger on, other than general workload in the Congress, 
which does vary somewhat by session of Congress and by 
presidential election year and many other factors.
    Senator Bennett. I can understand that.
    Mr. DiMario. This is essentially an appropriation by the 
Congress for congressional work that simply gets housed in GPO. 
We do not control the volume of work that you're going to 
require in the Congress, in either house.
    Senator Bennett. I understand you can't control it, but 
what I am after here is an ability to forecast it, and nobody 
should be in a better position to forecast it than you, because 
you've lived with it for a long period of time.
    Mr. Mansker. We did have the unusual event of additional 
printing for the impeachment. That was a substantial amount of 
printing.
    Senator Bennett. Can you break it down for me and give me 
some numbers? Not here, obviously.
    Mr. DiMario. Yes, sir, we certainly can.
    [The information follows:]

    The volume of hearings increased from 305,000 pages in fiscal year 
1999 to 344,000 pages in fiscal year 2000. The volume of bills 
increased from 84,000 pages in fiscal year 1999 to 112,000 pages in 
fiscal year 2000. The pages of business and committee calendars 
increased from 22,000 pages in fiscal year to 35,000 pages in fiscal 
year 2000, which is typical of a second session because the calendars 
are cumulative.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

    Mr. Guy. In 2002, we have a workload reduction due to the 
U.S. Code, but we have an offsetting increase due to pay raises 
and mandatory increases which will essentially offset that 
savings from not having to redo the Code.
    Senator Bennett. Well, from that, then, I would assume that 
the cost of doing the Code is roughly the same as a cost-of-
living increase for a year.
    Mr. Guy. Yes, sir.
    Mr. DiMario. It was about $2.7 million for the Code, versus 
$2.9 million for the mandatory pay and price level increases.
    Senator Bennett. So the Code is not really that big a deal.
    Mr. Guy. It is about 3 percent of total fiscal year 2001 
requirements. The Congressional Record and hearings, for 
example, together account for about half of total requirements.
    Mr. DiMario. We can provide the data that supports the 
chart, if it is giving a misleading impression.
    Senator Bennett. No, the chart is very helpful in 
clarifying your verbal statement, in that I can see now that, 
in 1997, the appropriation was higher than you needed. And I'm 
sure you forecast a need as high as $80 million in 1997, but--
or we wouldn't have appropriated it. I mean, we don't 
deliberately appropriate more than you need.
    Mr. DiMario. We attempt to find ``like'' years and do our 
appropriations request based on historical data, because each 
congressional year is not the same. If there's an election 
year, we certainly have, you know, a different work 
requirement. And so we look at those workloads, and then we try 
to project out----
    Senator Bennett. Is it a higher workload in a presidential 
election year, as opposed to a congressional election year?
    Mr. DiMario. I believe so. Charlie would be the best to 
respond--Charlie Cook, who is our congressional printing and 
management officer.
    Senator Bennett. Is that true, that it is higher in a 
presidential year, traditionally?
    Mr. Cook. Traditionally, yes, that is so.
    Senator Bennett. Does anybody have any reason or thoughts 
as to why that is the case, or just that's the way it works 
out?
    Mr. DiMario. I have no explanation.

                          REVENUE TRANSACTIONS

    Senator Bennett. Well, this assumes that all of the cost is 
paid out of appropriations. Is there any revenue? For example, 
how much revenue do you make on the sale of the U.S. Code?
    Mr. Guy. We do sell some copies of it. Revenue totaled $3.5 
million on the sale of the previous 1994 edition.
    Mr. DiMario. But that's sold through the Office of the 
Superintendent of Document's, and those revenues go into that 
self-sustaining sales program. And so they're not included in 
here. In other words, those revenues don't come in and offset 
the appropriation for congressional printing. At the same time, 
we're doing the U.S. Code, we purchase copies of the U.S. Code 
by the Office of Superintendent of Documents from the printing 
side of the house for our sales program to sell. So we're not 
selling those publications, in the sense of making revenue that 
would offset----
    Senator Bennett. But you say you ``purchase''--I assume 
this is a bookkeeping entry.
    Mr. DiMario. Yes, sir, that's what it is, and they get it 
at a rider rate. They buy it, not at the cost of originally 
producing the publication, but at the added cost that it takes 
to run additional paper through the equipment. It's at a 
reduced rate, and then they're able to offer publications for 
sale through the Superintendent of Documents' sales program.
    Senator Bennett. I would understand that you would not try 
to make an artificial profit on an internal transfer within 
GPO, but once again the question arises: Where does the revenue 
show up? Is this number stripped of all revenue, and all the 
revenue shows up someplace else?
    Mr. Guy. Yes, sir.
    Senator Bennett. And is there any additional revenue that 
shows up someplace else that can be applied back to this, or 
are all other accounts exactly even?
    Mr. DiMario. No sir, there is no revenue that can be 
applied back. There is a bylaw distribution from this as a 
requirement--as an example, to distribute a copy of the U.S. 
Code to each Member of the House. Is that correct?
    Mr. Guy. The U.S. Code is only distributed to a very small 
number of House Members.
    Mr. DiMario. But there are none in the Senate.
    Mr. Guy. There are no distributions to Senators, but there 
is a distribution in the House and the Senate to various 
offices that need the United States Code.
    Senator Bennett. But somebody in GPO sells it to the 
outside world, and some revenue is generated.
    Mr. DiMario. Yes, sir, that's the office of the 
Superintendent of Documents for sales purposes.
    Mr. Buckley. We're paying for copies that we sell, and 
we're selling them and getting the revenue back.
    Senator Bennett. Presumably you're selling them for more 
than you're paying for it.
    Mr. DiMario. Yes, sir.
    Mr. Buckley. We attempt to cover our expenses involved in 
selling them, but the Sales Program is not recovering all costs 
from sales revenue at this time.
    Mr. Guy. The Superintendent of Documents can purchase 
copies at the incremental cost, essentially, the cost of 
running the additional copies. That's the charge that goes to 
them and----
    Mr. DiMario. And that is what we call the ``rider rate.''
    Senator Bennett (continuing). They get reimbursed. Let me 
tell you what would be useful to me, and I thank you for 
putting up with my questions here. Going back to my own 
experience as a businessman, I would like to understand all of 
this. And at the moment, I don't. So if you could do a similar 
kind of analysis to this for each component in GPO so that I 
could see appropriations and expenditures for the 
Superintendent of Documents, appropriations and expenditures 
for each different office, and see where the money comes from, 
how much of it comes from appropriations and how much of it 
comes from sales, and then what the expenses are that are 
charged against that, and then we can put it all together and 
see if there's extra money in one pigeon hole that could be 
used to offset shortfalls in another pigeon hole and get an 
understanding of the whole thing. And then we get into the 
revolving fund and the role it plays in this. I've never quite 
understood how your books are kept overall, and this discussion 
has been a little helpful in getting me closer to that 
understanding.
    Mr. DiMario. Each agency of government is able to purchase 
from us, on a prepublication basis, if you would, publications 
at the same rider rate that the Superintendent of Documents 
does. So if they anticipate a need for a publication like the 
U.S. Code, and we tell them it's going to be published, then 
they send us their order, and we sell it to them at the same 
rate. That revenue reimburses the cost of producing those 
additional copies.
    After it's published, if agencies need a publication, they 
buy it just like the public, and that revenue reimburses costs 
in the sales program.
    The bulk of the work that we do for executive agencies is 
based on surcharging the cost of the work. So we have over $500 
million worth of work that we acquire for the executive branch, 
and we charge a surcharge of seven percent. It varies from time 
to time. That money then goes to fund the printing procurement 
program and overhead. So we can put it all together for you.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

                            STAFFING REQUEST

    Senator Bennett. I would appreciate that kind of detail, 
and it would be helpful. You're asking for some additional 
people--is there any possibility of transfer of people for whom 
you're offering an early-out into vacancies so that you don't 
have to do the buyout, or are the skills so completely 
different?
    Mr. DiMario. They are different. These are very skilled 
librarians that we're talking about hiring to do cataloging and 
indexing. We need people who are skilled in doing that kind of 
thing, and they're not skills that we currently have available. 
That is for six of the people. The additional two that makes up 
the eight, they also would be required to have technical skills 
to reach out and bring in the kinds of work that we're talking 
about.

                            NETWORK SECURITY

    Senator Bennett. That is helpful. Have you experienced any 
problem with hackers or any attempt at unauthorized access?
    Mr. DiMario. Yes, sir. We have anti-intrusion programs on 
our GPO access computer systems. We have had attempts in very, 
very large numbers, to get into the system.
    Senator Bennett. What is your definition of a large number?
    Mr. DiMario. In the range of 300,000.
    Senator Bennett. 300,000?
    Mr. DiMario. Huge numbers. That's over a 4-month period of 
time. We have not had any penetrations. We have had one that 
got into an html page, one page. It was not consequential. They 
did not get beyond the firewall. The firewall protection is 
strong. They could alter data on that page. It happens to be a 
public page, and it was just not a problem. I'm not saying we 
are the most secure, but we have a very, very substantial 
system to protect it.
    Senator Bennett. So you've had only one instance where 
someone actually defaced a page?
    Mr. DiMario. Yes, sir, during that time frame.
    Senator Bennett. During that time frame. I see. Well, thank 
you, that is helpful.
    I have no further questions. Thank you very much for 
coming. We will look forward to these data we talked about.
    Mr. DiMario. Thank you, Mr. Chairman.

                     ADDITIONAL SUBMITTED MATERIAL

    Senator Bennett. The subcommittee has received a letter 
from the American Library Association which will be placed in 
the record at this point.
    [The letter follows:]

              Letter From the American Library Association

                                                      May 24, 2001.
The Honorable Robert Bennett,
Chairman, Senate Legislative Branch Appropriations Subcommittee, United 
        States Senate, Washington, D.C.
    Dear Senator Bennett: The American Library Association is pleased 
to submit testimony for the May 16 record on appropriations for the 
Government Printing Office. We support the request of the Public 
Printer for fiscal year 2002 of $126.5 million: $90.9 million for the 
Congressional Printing and Binding Appropriation, $29.6 million for the 
Salaries and Expenses Appropriation of the Superintendent of Documents, 
and $6 million for GPO's revolving fund.
    The American Library Association's 61,000 school, academic and 
public librarians, library trustees and friends of libraries 
particularly would point out the need for funding the Salaries and 
Expenses Appropriation of the Superintendent of Documents, since the 
majority of the appropriation is for the Federal Depository Library 
Program (FDLP), under which congressional and other Government 
publications and information products are disseminated to more than 
1,300 academic, public, Federal, law and other libraries nationwide. 
This account was funded below the requested level in fiscal year 2001, 
which impacted the program. It is critical to fund GPO Access, since 
there is a greatly expanded use of the system.
    The funding shortfall makes it even more critical that the amount 
requested for fiscal year 2002 be funded. We appreciate the opportunity 
to express to the Subcommittee our thanks for past efforts on behalf of 
funding for the Government Printing Office, and we look forward to full 
funding of the GPO account this year.
            Sincerely,
                                           Emily Sheketoff,
                         Executive Director, ALA Washington Office.

RESOLUTION ON SUPERINTENDENT OF DOCUMENTS FISCAL YEAR 2002 SALARIES AND 
                        EXPENSES APPROPRIATIONS

    WHEREAS, Public access to government information is vital to a 
democratic society and the economic well-being of the nation and the 
American public; and
    WHEREAS, The Government Printing Office (GPO) Federal Depository 
Library Program (FDLP) reaches the entire nation through the 
geographically dispersed system of over 1,300 depository libraries and 
is the primary provider of no-fee public access to federal government 
information regardless of format; and
    WHEREAS, Over 200,000 electronic titles are available to the public 
through the award-winning GPO Access system which attracts 26 million 
downloads per month; and
    WHEREAS, In fiscal year 2000, 47 percent of the new titles GPO 
received from government agencies in all three branches and distributed 
to depositories were in print and other tangible formats; and
    WHEREAS, User needs cannot be met by exclusive electronic 
dissemination, thereby requiring GPO to maintain multiple distribution 
systems; and
    WHEREAS, This request ensures current and permanent public access 
to government information through partnership programs with federal 
agencies and depository libraries, electronic government information 
locator services, and bibliographic control of electronic government 
information, as outlined in GPO's ``Managing the FDLP Electronic 
Collection: A Policy and Planning Document''; now, therefore, be it
    RESOLVED, That the American Library Association urge Congress to 
fund fully the Government Printing Office Superintendent of Documents 
Salaries and Expenses appropriation for fiscal year 2002 at the level 
requested by the Public Printer; and be it further
    RESOLVED, That the American Library Association transmit a copy of 
this resolution to the Chairs of the House and Senate Legislative 
Branch Appropriations Subcommittees, other appropriate House and Senate 
committees, and to the Public Printer of the United States.
    Adopted by the Council of the American Library Association, 
Washington, D.C., January 17, 2001 (Council Document #20.2).

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY:
        GENE L. DODARO, CHIEF OPERATING OFFICER
        SALLYANNE HARPER, CHIEF MISSION SUPPORT AND CHIEF FINANCIAL 
            OFFICER
        RICHARD L. BROWN, CONTROLLER
    Senator Bennett. Our next witness is Mr. David Walker, the 
Comptroller General. And I understand, sir, that accompanying 
you are Gene Dodaro, your Chief Operating Officer, Mrs. 
Sallyanne Harper, Chief Financial Officer, and Dick Brown, the 
GAO's Controller. We have seen you all before, and we welcome 
you back, look forward to an open and frank exchange on your 
budget requirements.
    The GAO fiscal 2002 budget request provides for a 
significant increase of 11.2 percent over the amounts enacted 
by Congress for the fiscal year 2001. We understand that half 
of this amount, roughly, is for scheduled cost-of-living 
increases, inflationary increases, and travel and printing 
supplies, et cetera, and contract rate increases, and building 
operations maintenance, information technology programs, and 
the balance of the increase includes the addition of 120 full-
time-equivalent employees, which would bring the total number 
to 3275, and then $5.2 million for new GAO responsibilities 
created by the Truth in Regulating Act.
    So we look forward to your statement in support of this 
significant increase and appreciate whatever you have to tell 
us.

                            OPENING REMARKS

    Mr. Walker. Thank you, Mr. Chairman. It's a pleasure to be 
here again. If I can, let me give you an overview on a few 
things, and then we can go to Q and A.
    First, I want to touch briefly on the results that the 
Congress and the public received from GAO in fiscal year 2000. 
It was a record year in a variety of ways. We set records in 
almost every major category--$23.2 billion in financial 
benefits, a return on investment of $61 for every dollar 
invested in us, 263 congressional hearings, and 78 percent of 
our recommendations were adopted. All of those were at record 
or near-record levels.
    But, in addition to that, we made major progress in making 
ourselves a model agency, in transforming how we do business 
and, frankly, in setting an example for other government 
agencies as to how they can go about becoming more results-
oriented and improving outcomes for the American people. We 
implemented our congressional protocols, a new strategic plan, 
realigned our headquarters, restructured our field offices, 
engaged in a number of human capital initiatives, and 
implemented a number of risks and matrix management practices.
    In 2001, our progress continues. As you know, we issued our 
performance accountability and high risk series. We have also 
included a presidential and congressional transition section on 
our Web site. We're moving to implement our human capital 
legislation. This committee and you, in particular, Mr. 
Chairman, were helpful in getting us this legislation at the 
end of the session. We are realigning our mission support, 
moving to a competency-based performance-appraisal system, and 
engaging in a number of other activities.

                           MANDATORY CHANGES

    With regard to our fiscal year 2002 budget request, you are 
correct that a significant percentage of what we're asking for 
represents mandatories, or nondiscretionary items. The 120 
FTEs, for the record, do not represent an additional request. 
They represent the ability for us to use our full complement. 
Basically, we have had authority for 3,275 FTEs for several 
years, but because we have not received an adequate 
appropriation, we have not been able to staff those positions. 
And so, therefore, what we're seeking is to be able to staff at 
our authorized level, the reason being is that demand continues 
to increase. Supply has been dwindling. Therefore, unless 
something gives, at some point in time we're going to have to 
modify our policies and practices to the point where ultimately 
we may only be able to respond to requests from committees and 
subcommittees, rather than also from individual members. At 
some point in time, something is going to have to give to be 
able to get the supply and demand in balance.
    I think it's important to note that the selected 
enhancements above and beyond the mandatories are for our 
people who represent our most important asset--80 percent of 
our costs, 100 percent of our most important assets. We would 
like to make a number of targeted investments. For example, we 
would like to be able to participate in the tuition 
reimbursement program. We think that is very important. The 
executive branch has it. We don't want to be at a competitive 
disadvantage with the executive branch. We'd like to be able to 
offer the transit subsidy, which the executive branch has to 
offer by Executive order. We're not automatically covered by 
that because we're in the legislative branch. It's not a matter 
of whether ``we want to''; we've got to have funding to be able 
to do that. We'd like to be able to continue to enhance our 
training and enabling technology in order to make us a model 
agency.
    One of the important things we're trying to achieve under 
our strategic plan is being a model agency. We're trying to be 
as good or better than any other agency in this government and, 
frankly, comparable to private-sector enterprises, as well. In 
order for us to be able to do that, we need some targeted 
investments to be able to transform how we do things. The 
benefit of that is that it will not only help us, but, frankly, 
it will help others, because many are looking to us for 
leadership and for an example of the way forward.
    The bottom line, Mr. Chairman, is three key messages. 
Number one, if you look at our request for fiscal year 2002, 
which is about an 11.2 percent increase, that represents 
basically making us whole since our mandated downsizing. In 
other words, if we had gotten our mandatories, and only our 
mandatories, and nothing above our mandatories, since our 
downsizing in the 1990s, we would not be asking for any more 
money than that. So the increase is basically to try to keep us 
whole since our downsizing.

                         PERFORMANCE BUDGETING

    Second, after being in my position now for 2\1/2\ years, I 
hear a lot about performance budgeting. I hear a lot about 
matching resources to results; but candidly, it hasn't happened 
a lot. I'm hoping that we're going to be able to start moving 
in that direction. I stand by our record. We have fantastic 
results. We've got fantastic people. I would hope that, while 
there are overall restraints--and I understand that, and I 
respect that, and I know it's tough for you and others to be 
able to deal with that--I think it is important that there be 
some type of matching of resources to results.
    One of the concerns I have is all too frequently in 
Washington, we're debating the increment up or the increment 
down. The assumption is that the baseline is okay. In many 
cases, I don't think the baseline is okay. I can assure you 
that what we're trying to do is to make sure that we can do 
everything we can to get the most out of whatever resources you 
give us. But in the end, I hope that Congress is going to be 
able to move towards matching resources to results, because, 
quite frankly, I think that is what we need to do. In the 
absence of doing that, it's demoralizing to our employees, it 
doesn't look good in the press, and it doesn't sound good to 
the public, and none of us, I think, like that.

                           LEADING BY EXAMPLE

    Last, just to keep in mind that we are trying to lead by 
example in every area--strategic planning, financial 
management, information technology, human capital, client 
service, and knowledge management. You name it, we're trying to 
lead by example. In many cases, we're already there; in others, 
we're getting there, and we're going to stay there. But to do 
that, in some cases, we need modest investments. If we don't 
get them, then not only does it hurt us, but frankly, it has a 
broad-based ripple effect. To the extent that others are 
looking to us for leadership and for a way forward, then, we 
have to slow down our efforts because of resource constraints. 
Then, it means others aren't going to benefit from that, as 
well.

                           PREPARED STATEMENT

    So, Mr. Chairman, thank you for the opportunity to present 
our case. I think our budget team--Dick Brown and his people--
have done an outstanding job putting together this budget 
request and we're happy to answer any questions you might have.
    [The statement follows:]

                 Prepared Statement of David M. Walker

    Mr. Chairman and Members of the Subcommittee: Good morning! As the 
Comptroller General of the United States, it is a pleasure to appear 
before you today to present the General Accounting Office's (GAO's) 
budget request for fiscal year 2002. I am proud to say that we served 
the Congress and the American people well in fiscal year 2000. Our work 
resulted in substantial financial savings and significant improvements 
to government that will benefit all Americans. I am confident that 
fiscal year 2001 will be just as productive.
    At the outset, I want to thank the Committee for its support in 
helping enact GAO's human capital legislation. This legislation will go 
a long way toward helping us address many of our human capital 
requirements and ensuring that GAO remains prepared to meet the 
Congress' needs in the future. We have issued implementing regulations 
for the early retirement and scientific and technical staff provisions 
and plan to issue authorizing regulations later this year to guide any 
potential future buy-outs and reductions-in-force.
    GAO's fiscal year 2002 budget request is critical to our continuing 
efforts to reorganize and reshape the agency, reengineer our business 
processes, and train and equip our staff with up-to-date technology to 
help meet Congress' current and future needs. Congressional mandates 
and requests continue to represent over 90 percent of our work, and our 
workload and productivity remain at near-record levels. Our budget 
request represents our needs--not wants--to sustain this level of 
effort and support to the Congress.
    Since becoming the Comptroller General at the beginning of fiscal 
year 1999, GAO's appropriations have been insufficient to fund 
mandatory and inflation expenses associated with employee compensation 
and benefits, and make needed investments in critical areas, such as 
technology, training, and performance recognition. We have managed our 
resource shortages by reducing our staffing levels and underfunding 
critical investments. We cannot, and should not, continue this trend.
    The funds we are requesting are essential to helping us remain 
prepared to meet the complex, controversial, and multidimensional 
issues and challenges confronting the Congress now and in the future. 
Our request includes only those funds we need to stabilize at our 
approved 3,275 full-time equivalent staffing level and to incrementally 
increase investments needed in training, technology, performance 
recognition, and other key support items to a level consistent with 
best practices of other comparable government and private sector 
entities.
    Before I begin detailing our fiscal year 2002 budget needs, I would 
like to highlight some of GAO's accomplishments and achievements in 
fiscal year 2000 and the major challenges confronting us.

           A REVIEW OF GAO'S FISCAL YEAR 2000 ACCOMPLISHMENTS

    GAO had a tremendous year in fiscal year 2000. As a result of 
actions taken on our work by the Congress and federal departments and 
agencies, taxpayers benefited from over $23 billion in financial 
savings--a $61 return on every $1 invested in GAO. Our work also 
resulted in significant improvements in government operations and 
services that will benefit all Americans. Among other things, by acting 
on our recommendations, the government improved public health and 
safety, strengthened national security, better protected consumers, and 
improved its financial management and information systems. We also 
contributed critical information to public debates on Social Security 
and Medicare reform and called attention to looming problems, such as 
the security of government computer systems and the knowledge and 
skills needed in the federal workforce in coming years. Other 
indicators of our performance, such as the number of testimonies our 
senior executives provided and recommendations implemented, exceeded 
that of most recent years. I also am pleased to report that we made 
significant progress toward addressing many of the organizational, 
human capital, and information technology challenges that I outlined 
for you at last year's hearing. We had a very busy and productive year.

Taxpayers Benefit from $23 Billion in Financial Savings
    In fiscal year 2000, GAO helped achieve about $23.2 billion in 
direct financial benefits for the American taxpayer. These benefits are 
a result of the Congress or federal departments and agencies 
implementing our recommendations to make government services more 
efficient, improve the budgeting and spending of tax dollars, and 
strengthen the management of federal resources. The estimated financial 
benefits include budget reductions, costs avoided, resources 
reallocated, and revenue enhancements. These results exceeded our 
target of $22 billion and were greater than that of the previous three 
fiscal years, as illustrated in the following graphic.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    Some examples of GAO's work that contributed to these financial 
savings include the following.
  --Helping to Prevent Fraud and Abuse in Medicare.--GAO had long 
        advocated increased funding specifically for activities to 
        prevent fraud and abuse in the Medicare program. In 1996, the 
        Congress passed the Health Insurance Portability and 
        Accountability Act, which provided the additional funding. As a 
        result of these activities, the Medicare program's net savings 
        were about $3 billion in fiscal year 2000.
  --Cutting Costs of the F-22 Aircraft Program.--In a series of reports 
        beginning in the mid-1990s, GAO questioned various aspects of 
        the Air Force's F-22 aircraft acquisition program. We reported 
        that the acquisition strategy was risky and that the program 
        was experiencing cost growth, manufacturing problems with test 
        aircraft, and testing delays. Our analysis helped the Congress 
        reduce the final fiscal year 2000 appropriation request for the 
        F-22 by about $552 million and to identify conditions that 
        should be met before the Department of Defense could begin full 
        production.
  --Supporting Oversight of the Internal Revenue Service (IRS).--GAO 
        continued to support congressional oversight of IRS' 
        operations, including IRS' implementation of the 1998 IRS 
        Restructuring and Reform Act, its budget requests, and 
        administration of various tax functions. For example, our 
        testimony on IRS' broad-based modernization efforts provided an 
        integrated assessment of the challenges IRS continues to face 
        in its tax enforcement and customer service operations and its 
        modernization of performance management, information systems, 
        and business practices. At the same time, our work generated 
        savings and potential reductions in taxpayer burden. Our work 
        on the improved use of information returns in IRS' tax 
        enforcement operations yielded $83 million in savings this 
        year. IRS also agreed to begin tracking information that has 
        the potential of clarifying its notices to taxpayers and easing 
        their task in complying with those notices.
  --Recapturing Excess HUD Funding.--GAO identified funding from 
        several sources in the Department of Housing and Urban 
        Development's budget, including unexpended balances no longer 
        needed, that could be recaptured in fiscal years 1998 and 1999. 
        The Congress rescinded $1.65 billion from the Section 8 housing 
        program's fiscal year 1998 budget authority and rejected $1.3 
        billion of HUD's fiscal year 1999 request for housing 
        assistance for a total reduction of $2.95 billion. 
        Subsequently, GAO and HUD worked together to revise HUD's 
        analysis to show that, by using recaptured funds, HUD had 
        sufficient funding to meet its needs.

Almost 800 Actions Taken To Improve Government Operations or Services
    GAO's recommendations and audit findings also resulted in or 
contributed to many improvements in the effectiveness and efficiency of 
government operations and services during fiscal year 2000. While 
immeasurable in dollar terms, they contributed to improving public 
safety and consumer protection, establishing more effective and 
efficient government operations, and safeguarding the nation's physical 
and information infrastructure. We recorded 788 actions taken in 
response to our recommendations to improve how the federal government 
operates, a number far exceeding that of the preceding 3 years as 
illustrated in the following graphic.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    Examples of GAO's work that resulted in these accomplishments 
follow.
  --Improving Nursing Home Quality of Care.--The Health Care Financing 
        Administration (HCFA) and several states--including California, 
        Maryland, and Michigan--improved their oversight and 
        enforcement of nursing homes' quality of care standards in 
        response to GAO's recommendations highlighting weaknesses in 
        existing processes. Improvements included increased funding for 
        nursing home surveyors, more prompt investigation of complaints 
        alleging serious harm to residents, more immediate enforcement 
        actions for homes with repeated serious problems, a 
        reorganization of HCFA's regional staff to improve consistency 
        in oversight, and increased funding for administrative law 
        judges to reduce the backlog of appealed enforcement actions.
  --Managing Wildfire Prevention.--``Federal Experts Saw Massive 
        Wildfires Coming'' read an August 7, 2000, news headline. The 
        article was referring to GAO's April 1999 report on wildfires. 
        Since then, GAO has used the increased risk of uncontrollable 
        and often catastrophic wildfires as an example of the need for 
        ``strategic budgeting'' to address issues that are not aligned 
        with the current budget and organizational structures of the 
        four major federal land management agencies. Responding to the 
        wildfires that burned over 6.5 million acres of public and 
        private land in 2000, the Congress appropriated an additional 
        $240 million in fiscal year 2001 to reduce hazardous fuels in 
        high-risk locations where wildlands and urban areas meet. GAO 
        testified on the need for the four land management agencies to 
        act quickly to develop a framework to spend funds effectively 
        and to account accurately for what they accomplish with the 
        funds.
  --Improving Human Capital Practices.--Our work on human capital 
        issues helped focus the attention of the executive and 
        legislative branches on the importance of these issues, 
        particularly in managing for results. We helped spur the 
        administration to make human capital a priority management 
        objective in the fiscal year 2001 budget submission, and our 
        framework for human capital self-assessment is being used at 
        other agencies, including the Social Security Administration, 
        Small Business Administration, National Aeronautics and Space 
        Administration, and Environmental Protection Agency. The 
        framework also is used throughout GAO to help guide our 
        research and development work and our congressionally driven 
        examinations of how well agencies are pursuing strategic human 
        capital management in support of their missions and goals. We 
        have designated strategic human capital management as one of 
        the federal government's high risk areas in our 2001 
        Performance and Accountability Series and High-Risk Update.
  --Strengthening Information Security.--GAO has evaluated the security 
        of critical information systems at federal agencies and 
        recommended numerous improvements, most recently at three 
        Treasury agencies, the Department of Energy, Department of 
        Veterans Affairs, and the Environmental Protection Agency. In 
        September 2000, GAO issued a governmentwide perspective on 
        federal information security that covered Inspector General and 
        GAO audit findings reported since July 1999. We concluded that 
        weak security continues to be a widespread problem that places 
        critical and sensitive federal operations at risk of tampering, 
        disruption, and inappropriate disclosure. In October 2000, 
        government information security reform provisions were enacted 
        into law to strengthen information security practices 
        throughout the government.
  --Stabilizing the Balkans.--Despite the presence of two large forces 
        led by the North Atlantic Treaty Organization, the Balkans 
        remain volatile. GAO's work has shown that the international 
        operations in Bosnia and Kosovo face severe obstacles to 
        achieving enduring peace and stability. Most local leaders and 
        members of their respective ethnic groups have not embraced the 
        political and social reconciliation needed to build 
        multiethnic, democratic societies. Our work also has shown that 
        the international community has not provided the resources that 
        the United Nations mission in Kosovo says it needs, 
        particularly for building a civilian police force. If progress 
        is not made with these matters, violence may escalate or armed 
        conflict may result.

Requests for GAO Testimony and Implementation of Recommendations 
        Increased
    In fiscal year 2000, the number of times that GAO's senior 
executives testified before the Congress and the rate at which our 
recommendations were implemented exceeded that of most recent years. 
Because GAO's primary function is to support the Congress in carrying 
out its decision-making and oversight responsibilities, the number of 
times our experts testify before congressional panels each year is an 
indicator of our responsiveness and reflects the impact, importance, 
and value of our work. In fiscal year 2000, GAO officials testified 263 
times before 104 different House and Senate Committees and 
Subcommittees, more than half of all congressional committees and 
subcommittees. Our experts testified on a broad range of issues of 
national importance, including arms control, health care, Social 
Security, human capital, nuclear waste cleanup, wildfire prevention, 
aviation safety and security, international trade, computer security, 
financial management and reform, and budget issues.
    Our assistance to the Congress at public hearings continues to 
remain high, as illustrated below. However, it is clear that the number 
of congressional oversight hearings and other GAO testimony 
opportunities will decline significantly in fiscal year 2001 as a 
result of factors beyond our control. Among these include the slow 
start of the 107th Congress due to the power sharing arrangements in 
the Senate, closer margins and committee leadership changes in the 
House, and delay in filling many Bush Administration policy positions.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    We also exceeded our performance of previous years with respect to 
the rate at which the recommendations we made 4 years ago were 
implemented. We use a 4-year interval because our historical data show 
that agencies often need time to take action on our recommendations. By 
the end of fiscal year 2000, 78 percent of the recommendations we made 
in fiscal year 1996 had been implemented. As illustrated in the graphic 
below, this rate exceeds that of the preceding 3 years. Implemented 
recommendations correct the underlying causes of problems, weaknesses 
in internal controls, failures to comply with laws or regulations, or 
other matters impeding effective and efficient performance.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

Significant Progress Made Addressing Management and Operational Issues
    Last year, I outlined for you a number of major management and 
operational challenges facing GAO. These challenges included human 
capital, information technology, organizational, job processes, and 
communication issues within the agency. I am pleased to report that we 
made significant progress toward addressing many of these issues.
    We continued to enhance our effectiveness and efficiency through a 
variety of means during fiscal year 2000, including issuing a strategic 
plan, establishing congressional protocols, realigning the agency, 
implementing key human capital initiatives, and increasing the use of 
information technology. These efforts to enhance and strengthen GAO and 
its services to the Congress and the American people include the 
following.
  --In the Spring of 2000, we issued our first strategic plan for the 
        21st century based on input from the Congress and supplemented 
        by GAO's own expertise and other outreach efforts. The plan 
        focuses on how we intend to support the Congress in helping to 
        shape a more efficient and effective government. It describes 
        our role and mission in the federal government; the core values 
        that guide our work; the trends, conditions, and external 
        factors underlying our plan; and our goals, objectives, and 
        strategies for serving the Congress. Our intent is to update 
        the strategic plan every 2 years for each Congress.
  --We established a set of congressional protocols to govern our 
        interactions with and ensure our accountability to the 
        Congress. These protocols, which underwent a 9-month pilot 
        test, set out clear, transparent, consistently applied policies 
        and practices for GAO's relations with the Congress to reduce 
        miscommunication and ensure that all requesters are treated 
        equitably. The final protocols were issued in November 2000.
  --We continued our outreach efforts to understand how best to meet 
        congressional needs and assist the Congress in using our 
        resources and services. During each Congress, I and other GAO 
        executives plan to meet with the leadership of the Senate and 
        House, all Committee Chairs and Ranking Minority Members, and 
        Members of our oversight and appropriations committees to 
        obtain feedback on our performance and information needed to 
        update our strategic plan.
  --We issued our first-ever Accountability Report to the Congress 
        discussing our performance and accountability in serving the 
        Congress and the American people in fiscal year 1999. The 
        report reviews our accomplishments in meeting our mission and 
        sustaining our core values of accountability, integrity, and 
        reliability. We also issued a performance plan for fiscal year 
        2001 that contains the performance measures and annual 
        performance targets we will use to gauge progress toward 
        accomplishing our strategic goals and objectives.
  --We also realigned the agency to better support the Congress and 
        prepare ourselves with current and expected resource levels to 
        meet the future challenges outlined in our strategic plan. To 
        align GAO's structure with the goals in our strategic plan, we 
        reorganized both our field and headquarters operations. The 
        changes were primarily designed to better align our resources 
        with our strategic plan, eliminate a layer of managerial 
        hierarchy, reduce the number of organizational units, increase 
        internal and external coordination activities with the Congress 
        and other accountability organizations, clarify the roles and 
        responsibilities of management, increase the number of 
        personnel who perform rather than manage or review work, and 
        increase the critical mass and enhance the flexibility of field 
        resources.
    We also began implementing a range of new and enhanced human 
capital and information technology strategies to position GAO for 
future success. Thanks to the Congress, we now have legislative 
authority that provides us greater flexibility to effectively manage 
our human capital. This legislation, enacted into law in October 2000, 
grants us the authority to establish new senior-level scientific and 
technical positions; offer targeted voluntary early-outs and buy-outs; 
and carry out reductions in force to downsize, realign, or correct 
skills imbalances within our agency. We have issued implementing 
regulations for early-outs and the scientific and technical positions 
and plan to issue buy-out and reductions-in-force authorizing 
regulations later this year.
    Other accomplishments within the human capital area include:
  --Completion of a first-ever electronic knowledge and skills 
        assessment and inventory that is being used to help identify 
        skill gaps and succession planning needs within the agency. In 
        addition, staff completed an employee preference survey that is 
        being used along with the results of the knowledge and skills 
        inventory to meet our institutional work needs while 
        accommodating staff preferences for engagements to the extent 
        possible.
  --Significant recruiting and college relations efforts on the 
        nation's campuses. Aggressive efforts are underway to attract, 
        recruit, and hire high-caliber staff with the skills and 
        abilities needed to assist GAO in achieving our strategic goals 
        and objectives.
  --Revised performance standards for all staff that incorporate GAO's 
        core values and strategic goals, update descriptions of 
        performance to better reflect the current nature of GAO's work, 
        and include key management and performance concepts, such as 
        leadership by example, client service, and measurable results. 
        Also, during fiscal year 2000, we began a major initiative to 
        develop a competency-based performance appraisal system for 
        analysts to reflect prevailing best practices. In fiscal year 
        2001, we will begin updating the performance systems for 
        attorneys and mission support staff to reflect prevailing best 
        practices.
  --Enhanced internal communications that remain a vital tool for 
        change management throughout the agency. Throughout fiscal year 
        2000, I conducted a number of telecasts to all agency staff to 
        discuss GAO's strategic plan and congressional protocols, 
        client service, employee survey results, initiatives to enhance 
        the agency's human capital programs and legislative proposals, 
        work processes, organizational alignment, information 
        technology, and other areas of interest to the staff. Also, to 
        engage our employees more fully in improving the agency's 
        performance, we established the Comptroller General's Employee 
        Advisory Council to discuss current and emerging issues of 
        mutual interest and concern and implemented an employee 
        suggestion program that received more than 800 submissions in 
        its first year of operation.
    We also made significant gains in strengthening and improving our 
operations and processes in fiscal year 2000. We implemented two new 
management strategies: risk management and matrix management. GAO's 
risk management approach allows management to identify and involve key 
stakeholders throughout an engagement to transcend traditional 
organizational boundaries to maximize institutional value and minimize 
related risks. GAO's matrix management approach maximizes our value to 
the Congress by leveraging the knowledge, skills, and experience of all 
employees to ensure the highest quality products and services and to 
help the Congress address the challenging, complex, multidimensional 
problems facing the nation.
    Throughout fiscal year 2000, we also continued to improve our use 
of information technology as a tool for productivity and knowledge 
management. To provide our teams of analysts with a mechanism for 
simplifying and standardizing their work, we launched the Electronic 
Assistance Guide for Leading Engagements--the EAGLE, which is a 
prototype of a comprehensive Web-based guide to conducting GAO 
engagements. We also continued to enhance the capabilities of our 
computer network and successfully made our systems Y2K compliant. In 
addition, we began a number of projects on enabling technologies, 
including software upgrades, the deployment of notebook computers, and 
improved remote access to allow teams to work more efficiently in the 
field. Also, to carry out GAO's responsibilities under the Presidential 
Transition Act of 2000, we developed a separate section on our Internet 
web site with links to key GAO contacts and reports on the major 
executive branch agencies, which was completed at the beginning of 
fiscal year 2001.

              FISCAL YEAR 2001 PLANS AND FUTURE CHALLENGES

    During fiscal year 2001, we will continue to focus our work on the 
major issues facing the Congress, including Social Security solvency, 
education, economic development, Medicare reform, national security, 
international affairs, and government management reforms and computer 
security. Another top priority this year will be working with leaders 
on the Hill to help the Congress strengthen its approach to oversight, 
with an emphasis on looking hard at what government does, how it does 
it, and the long-term consequences of today's policy choices. GAO's 
2001 Performance and Accountability Series and High-Risk Update will 
serve as a solid foundation for congressional oversight. Also, as I 
mentioned earlier, we have several key initiatives in progress to 
improve how we serve the Congress, among them an expanded client 
feedback system; protocols governing our dealings with federal 
agencies; new high-level advisory bodies to gain the expertise of 
business leaders, former Cabinet officials, and other experts; and new 
avenues for sharing our own expertise with other accountability 
organizations.
    We also are preparing to carry out two new responsibilities 
mandated by the previous Congress. We will chair a panel to review the 
government's A-76 process for obtaining services through competitive 
sourcing. Also, if the needed funding is provided, we will review the 
costs and benefits of major regulations under the Truth in Regulating 
Act (Public Law 106-312, Oct. 17, 2000). We have a request pending for 
$2.6 million in supplemental funding for fiscal year 2001 and are 
requesting $5.2 million for fiscal year 2002 to meet the requirements 
created by the Truth in Regulating Act.
    Internally, we will continue to emphasize initiatives to address 
our two major management challenges: human capital and information 
technology. With about 80 percent of our resources devoted to staff 
salary and benefits, the area of human capital presents a major 
challenge. A significant percentage of our workforce is nearing 
retirement age, while marketplace, demographic, economic, and 
technological changes indicate that competition for skilled workers 
will be greater in the future. With our agency realigned to facilitate 
our work for the Congress and new legislative authority in hand to 
manage our workforce more effectively, we are pursuing several 
initiatives to strengthen our human capital. For example, we are 
recruiting diverse, high-caliber staff with the skills and abilities we 
need to achieve our strategic goals and objectives. We will be putting 
into place a competency-based performance appraisal system and using 
the results of our staff knowledge and skills inventory to help us in 
workforce planning. We also have reestablished and are expanding 
training opportunities for our staff-from the senior executives to the 
new hires.
    Another major management challenge is building an integrated and 
reliable information technology (IT) infrastructure that supports the 
achievement of our goals. We are conducting a comprehensive IT review 
to identify opportunities to increase our efficiency, effectiveness, 
and productivity. We also are mapping our business processes to our IT 
architecture and will link future IT investments to our business goals. 
In addition, we plan to continue initiatives to increase our employees' 
productivity, maximize the use of technology, and enhance the Web-based 
knowledge-sharing applications on the desktop. Last, we also must 
heighten the security of our network.

                    FISCAL YEAR 2002 BUDGET REQUEST

    To fully support the Congress as outlined in our strategic plan and 
the additional congressional mandates received since its issuance, we 
are requesting a budget for fiscal year 2002 of about $430.3 million. 
This funding level will allow us to support and staff to our approved 
level of 3,275 full-time equivalent personnel. We will increase our 
emphasis on areas of congressional and public interest and, internally, 
will continue to emphasize initiatives to address our two major 
management challenges: human capital and information technology. Our 
request also includes $5.2 million to carry out new responsibilities 
created by the Truth in Regulating Act. In addition, we are seeking a 
nominal increase in GAO's representation expenses, from $10,000 to 
$12,500, to accommodate our expanded role with both domestic and 
international accountability organizations.
    Additional funding in fiscal year 2002 is being requested for:
  --mandatory pay and benefit costs resulting primarily from federal 
        cost-of-living and locality pay adjustments, based on Office of 
        Management and Budget (OMB) guidance, increased participation 
        in the Federal Employees Retirement System, and an increase in 
        the estimated number of retirees--$17,554,000;
  --uncontrollable inflationary increases in transportation, lodging, 
        postage, printing, supplies, contracts, and other essential 
        mission support services, based on OMB's 2-percent inflation 
        index and other factors--$1,565,000; and
  --uncontrollable contract rate increases in building operations and 
        maintenance and information technology programs--$1,453,000.
    Funding of $8,004,000 for salaries and benefits also is being 
requested to staff and support our approved 3,275 full-time equivalent 
staffing level. We plan to use these resources to enhance our review 
efforts in areas of congressional and public interest and concern, such 
as government computer security, Social Security solvency, education, 
economic development, Medicare reform, and international affairs.
    The additional funds requested also would be used to continue 
initiatives begun in fiscal year 2000 that are critical to supporting 
the Congress and the goals and objectives identified in our strategic 
plan. These initiatives include human capital initiatives and enabling 
technological advances to enhance the performance and productivity of 
our workforce as follows.
  --Human capital initiatives--$3,324,000:
    --Mass transit subsidy allowance comparable to the mandatory 
            benefit provided in the executive branch--$1,500,000;
    --Performance-based recognition and compensation programs--
            $1,014,000;
    --Training and professional development activities to continue 
            efforts begun in fiscal year 2000 to address skill gaps, 
            maximize staff productivity and effectiveness, and update 
            our training curriculum to address organizational, change 
            management, and technical needs of both individuals and the 
            agency--$400,000;
    --Education loan repayments to provide recruitment and retention 
            incentives and benefits comparable to the executive 
            branch--$410,000.
  --Enabling technology initiatives to increase employee productivity, 
        maximize the use of technology, and enhance employee tools 
        available at the desktop, including such initiatives as 
        reengineering business processes, upgrading hardware and 
        software applications, expanding our videoconferencing 
        capabilities, and implementing a best practices network 
        security program--$2,585,000.
    Other efforts include:
  --Enhancing security and removing asbestos within the GAO Building to 
        protect the health and safety of our most important asset--our 
        staff--$2,839,000;
  --Upgrading GAO's computer security facility to ensure our continued 
        ability to conduct effective, comprehensive computer security 
        controls testing of complex, diverse, and interconnected 
        executive branch systems and to attract and retain skilled, 
        technical staff--$750,000;
  --Enhancing the International Organization of Supreme Audit 
        Institution's efforts to combat government related corruption 
        around the world, multi-lateral training efforts with eastern-
        bloc and selected South and Latin American countries, and 
        bilateral assistance to Russia--$250,000; and
  --Contracting for the development of a requirements document to be 
        used along with other legislative branch agencies to jointly 
        procure and share a common financial management system--
        $250,000.
    In addition, as previously mentioned, we are requesting $5.2 
million to provide the annual funding requirement specified in the 
Truth in Regulating Act.

BUDGET REQUEST CRITICAL TO SUSTAINING EXISTING LEVEL OF SERVICE TO THE 
                                CONGRESS

    The resources we are requesting for fiscal year 2002 are critical 
to addressing our human capital and information technology challenges 
and ensuring our ability to effectively meet the increasing 
congressional requests for GAO services. We have reached a point that 
if sufficient funding is not received to address these issues and 
properly support our staff, we will need to take actions that will 
negatively impact our service and responsiveness to the Congress.
    Congressional demand for GAO services continues to increase. For 
example, as illustrated below, the number of engagements begun as a 
result of a congressional request has increased during the past 4 
years. These numbers do not include hundreds of other requests that had 
not yet been started.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    We have worked hard over the past 3 years with available resources 
to significantly increase our productivity levels to successfully meet 
increasing congressional demand. For example, we realigned our 
organization, reengineered many of our business processes, retooled our 
engagement and risk management practices, revised our performance 
appraisal and recognition systems, and updated our information 
technology infrastructure. However, we have reached a point that 
significant additional productivity gains are unlikely without 
sufficient funding to further enhance our human capital and information 
technology programs.
    We are concerned about our ability to continue to increase our 
productivity levels, sustain our return on investment, and meet future 
congressional demands given the recent trend in our funding levels. 
Since becoming the Comptroller General at the beginning of fiscal year 
1999, I have not asked for any increase in our approved 3,275 full-time 
equivalent staffing level. I have only requested the funding necessary 
to properly maintain and support this staffing level and cover 
mandatory expenses, including inflation and compensation costs. 
However, as illustrated in the following graphic, the funding GAO 
received has been significantly less than what we requested and needed 
to support our approved staffing level.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    In order to cover our mandatory expenses during the past 3 years, 
we had to staff well below our approved staffing level, as illustrated 
below, and delayed or made reduced investments in important human 
capital and information technology initiatives. As a result of these 
funding shortfalls and the mandated funding reductions in the mid-
1990s, our training, performance-based recognition and rewards programs 
are not where they need to be. Consequently, we are at a competitive 
disadvantage with the executive branch in some areas, such as 
performance rewards. In addition, we have some management information 
systems that are obsolete and incapable of interfacing within our 
network environment and a variety of software that needs to be upgraded 
to ensure continued vendor maintenance and support. We cannot continue 
down this path. We have reached the point at which investments in these 
critical programs and other areas must be made in order to effectively 
support our staff and provide the high level of service expected and 
required by the Congress.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    The funds we are requesting are critical to addressing our 
succession planning challenges and enhancing the knowledge, skills, and 
abilities of our workforce. A large percentage of our workforce will 
become eligible for retirement within the next 5 years. More than 35 
percent of our analysts and 50 percent of our senior executives will be 
retirement eligible within that time period. We need to aggressively 
continue our efforts to hire new staff, develop existing staff, and 
otherwise build the future GAO. In order to be competitive in 
attracting, hiring, and retaining high caliber and talented staff, we 
need to be able to further enhance our human capital programs. Thus, 
the funding we are requesting for training, performance-based 
recognition and compensation programs, education loan repayments, mass 
transit subsidy allowance, and enabling technology is critical. Without 
such funding, we will not be competitive in attracting and retaining 
the best, brightest, and expertise needed to effectively serve the 
Congress in addressing the complex, controversial, and multidimensional 
issues and challenges it faces each year.
    If the funding trend of the past 3 years is continued, we will need 
to restrict our work to only responding to requests from committees and 
subcommittees, thus severely limiting--and potentially eliminating--
work done for individual members. Such a restriction also would further 
reduce the limited flexibility we have to research and develop 
expertise on emerging issues, thereby limiting our ability to respond 
to the Congress when related issues arise on short notice. For example, 
were it not for the advance research and development work we had done 
on computer security, China, the World Trade Organization, and last 
year's presidential election issues, we would have been unable to be 
responsive to the congressional requests and public debates on these 
real time, event driven issues. We need sufficient funding to build and 
ensure we have the capacity and expertise to address such emerging 
issues on short notice in the future.

                           CONCLUDING REMARKS

    Fiscal year 2000 was a tremendous year of accomplishment and 
achievement for GAO--a year of great service to the Congress and of 
great benefit to the American taxpayer. We have made significant 
progress in addressing many of the areas in need of improvement in GAO 
and need to continue these efforts. The resources we are requesting for 
fiscal year 2002 are critical to sustaining our high-level of 
performance and service to the Congress. We are the nation's and 
possibly the world's leading accountability organization. We need these 
additional resources to continue our efforts to further strengthen GAO 
and be a model organization for the rest of the federal government and 
accountability organizations around the world. In addition, given GAO's 
impressive results and return on investment, it only makes sense for 
GAO to receive resource allocations that are well above average for 
other federal entities. To do otherwise would send a troubling message 
to GAO's employees, the press, and the public.
    We look forward to your continued support and working even more 
closely with you and your staff this year and in fiscal year 2002. This 
concludes my statement. I would be pleased to respond to any questions 
that the Members of the Subcommittee may have.

                            STAFFING LEVELS

    Senator Bennett. Thank you very much. I appreciate your 
candor, and I appreciate your enthusiasm.
    In anticipation of this, I had Mr. Kimmitt, the clerk, draw 
up an analysis of what's happened since the downsizing. As you 
know, I was on this subcommittee--not the chairman, but working 
closely with the chairman--at the time the downsizing was made, 
and we made a pact with GAO, which I have done my best to 
uphold ever since, which was: if you can take a 25-percent cut, 
which we were convinced you could, we would then hold you 
harmless from that point forward. And you weren't here through 
some of those early fights. Dick Brown was and remembers some 
of the difficulty we had with members of the House who wanted 
to come back and do further.
    So I asked Mr. Kimmitt to do a historic analysis, and it is 
oversimplified, but it is kind of interesting. I'll give you a 
copy of this, but here's the FTE Employees in fiscal year 1995. 
And without objection, this will be made a part of the record 
at this point. So anyone reading the record will see the 
document we're reading off of.
    [The information follows:]

  GENERAL ACCOUNTING OFFICE (GAO) FULL TIME EQUIVALENT (FTE) EMPLOYEES
                                 ACTUALS
------------------------------------------------------------------------
                                      FTE       25 Percent
                                   Employees       Cut       Difference
------------------------------------------------------------------------
Fiscal year 1995................        4,342        3,256        1,086
Fiscal year 1996................        3,677        3,256          421
Fiscal year 1997................        3,341        3,256           85
Fiscal year 1998................        3,245        3,256          (11)
Fiscal year 1999................        3,275        3,256           19
Fiscal year 2000................        3,192        3,256          (64)
Fiscal year 2001 (Est.).........        3,155        3,256         (101)
Fiscal year 2002 (Request)......        3,275        3,256           19
------------------------------------------------------------------------

    Senator Bennett. GAO was at 4,342 FTEs. And an exact 
statistical cut would take you to 3,256. So in fiscal year 
1995, there were 1,000 people, roughly, too high, almost 1,100. 
It came down in 1996 and again in 1997, and that's appropriate 
because we said, ``You have 2 years in which to do this.'' So 
it got down to 3,341 in 1997, essentially achieved that. In 
1998, you were 11 under the statistical 3,256. And then, as you 
say, the authorization was set at 3,275, and you hit that, 
which was 19 positions over. Then fiscal 2000 dropped down to 
64 under and dropped down to 101 under. Now you're asking to 
come back to the 3,275, which would put you again 19 over, 
which is essentially full compliance.
    What caused the 64 and the 101 drops in those two years, 
which is what makes your request now look so big if we have to 
catch up the 120 you're talking about? Was it congressional 
appropriations? Was it the uncertainties of retirement? Was it 
some other shift? You came on board about in the middle of 
this. Maybe your personality drove all of those people out. Who 
knows?
    Mr. Walker. I hope you intend that as compliment.
    Senator Bennett. I intend that as a joke.
    Around here, Senators are constantly putting up two charts 
and saying, ``Look, this trend line is going up, and this trend 
is going down, so naturally this triggered that.'' And I've 
long since learned that, very often, there is no correlation 
whatsoever between those two.
    But these, at least, are a first cut at why we find 
ourselves in the position of trying to have this big a jump if 
I'm going to justify this big a jump to the full committee. We 
are fortunate to have the chairman of the full committee as a 
member of the subcommittee, although he couldn't be here today. 
I need some background, so let me throw that at you and have a 
discussion as to where we are.
    Mr. Walker. Well, first, we did not receive our mandatories 
in all the years since 1999. Therefore, if we don't have the 
funding, something has got to give. We either have to cut back 
on training, we have to cut back on travel, we have to cut back 
on enabling technology, or we have to cut back on investments 
in people and not fill authorized slots.
    Senator Bennett. So you're saying this was caused by a 
shortfall in appropriations?
    Mr. Walker. It was caused primarily by the fact that we did 
not receive our mandatories. My personal opinion is that I 
don't measure success by how many people we have and what our 
budget is; I measure it by results. I would rather invest in 
our current people and get the most out of our current people 
than merely fill slots. However, the difficulty that we have 
is, if we don't continue to get our mandatories, this sets a 
trend where we are going to get smaller and smaller every year. 
At the same time, demand from our client, the Congress, is 
going up every year. And you've got a lot of data your staff 
has given you to be able to demonstrate that fact. Therefore, 
that means our backlogs increase, which means that our 
flexibility and our ability to respond in a timely manner can 
be adversely affected.
    Now, we've done a lot to help that through leveraging 
technology, through streamlining how we do things, having more 
people focused on doing the work rather than reviewing the 
work, et cetera, but there's a limit as to how far you can go 
in that regard. So it's basically because we didn't get our 
mandatories. I made the decision that I would rather invest 
more in the people that we have now, rather than merely to fill 
the slots.

                              HIRING RATES

    Senator Bennett. How rapidly can you hire 120 people? Could 
you get up to this level?
    Mr. Walker. We could, Mr. Chairman. The fact of the matter 
is that, as you probably know, we had a virtual hiring freeze 
for a 5-year period. We were out of the market until right 
about the time that I came on as Comptroller General. This 
year, we have a very aggressive recruiting and college-
relations effort. We're going to meet or exceed our goals. We 
have been very fortunate. While many Federal Government 
agencies and departments have had difficulty in attracting and 
retaining people, we are doing a very good job in that regard, 
and we are still seen as an employer of choice. And so I 
believe we could do it if we had the resources to be able to do 
it.

                          EMPLOYMENT SUBSIDIES

    Senator Bennett. Let's talk about the metro subsidy and the 
tuition. I'm assuming that means there is a forgiveness of 
student loans if they come to work for you and pledge to stay 
for so many years.
    Mr. Walker. Right.
    Senator Bennett. Have you got a dollar figure on that?
    Mr. Walker. Well, the dollar figure that we're asking for 
is $410,000. Basically, the way----
    Senator Bennett. That covered both of those programs?
    Mr. Walker. No, $410,000 for the tuition reimbursement, 
$1.5 million, I think, for the transit subsidy.
    Senator Bennett. I'm not challenging you at all, but I'm 
surprised that the transit subsidy is more than the tuition.
    Mr. Walker. Let me tell you why. Because the way the 
transit subsidy works, it's a specified amount that you have to 
provide, and it applies to every individual who's eligible for 
it. Therefore, what we have done is come up with an estimation 
that, if we make it available, how many GAO people would likely 
take it.
    The way the tuition reimbursement works is--some of the 
costs are back-loaded. Basically, the way the statute works is 
that an employee has to work at least 3 years in order to be 
able to get the subsidy. He/she can't receive more than $6,000 
per year. He/she can't receive more than a total of $40,000 
over the period of the subsidy. What I would want to try to do, 
quite frankly, is to structure this in a way that maximizes the 
incentive for people to stay 3 or more years. I would back-load 
some of this. The reason that I would want to do that, Mr. 
Chairman, is because our statistics show that if people stay at 
GAO for at least 3 years, then the odds of us keeping them 
long-term increase exponentially. And so, therefore, we have an 
ability to be able to back-load some of the budgetary costs 
that would be associated with this. That's the primary reason 
why you don't see as much money in that area.
    Senator Bennett. I see. The Governmental Affairs Committee 
probably ought to authorize it.
    Mr. Walker. The law is already on the books. OPM----
    Senator Bennett. Okay, it is already authorized.
    Mr. Walker. OPM has to issue regulations that will cover 
us, but we anticipate they're going to do that shortly, and 
then we'll be able to do it.
    Senator Bennett. All right. So you are already authorized, 
and that means we can appropriate without having the ire of 
certain Senators coming down upon us. But this is a 3-year--
rolling 3-year obligation, so the $410,000 you're talking about 
is for the first year?
    Mr. Walker. That is correct.
    Mrs. Harper. That is correct, and there is a 3-year work 
commitment from the individual to repay that loan.
    Senator Bennett. And that also makes the numbers make a 
little more sense, because you're really talking $1.2 million, 
in terms of the relief that the individuals are looking for.
    Mr. Walker. Right.
    Mrs. Harper. Yes, that's correct.
    Senator Bennett. Okay, good.
    Mr. Walker. And the importance of that, Mr. Chairman, is 
that many people who are choosing public service are facing two 
problems: (1) they don't make as much money in compensation as 
they could in the private sector; and (2) at the same time, 
they have a significant debt load with which they must deal. So 
there are many people whose heart and head will say, ``I would 
like to do public service,'' but their wallet won't let them. 
That is why we're trying to be able to do something here. We 
don't want to be on an un-level playing field with the 
executive branch, which is our concern, because that wouldn't 
help the Congress.
    Senator Bennett. I understand that. If I could wave a magic 
wand, it would be that any institution of higher learning that 
has an endowment above a certain billion-dollar level would 
have to have that show up in their tuition. There are certain 
Ivy League colleges where it would be free.
    Mr. Walker. We know you have a lot of influence, Mr. 
Chairman.

                      WINTER OLYMPICS PREPARATIONS

    Senator Bennett. You recently observed a counter-terrorist 
exercise done with respect to the Salt Lake Winter Olympics. 
Have you got any observations or reactions you can share with 
the committee? And I have a particular interest in that.
    Mr. Dodaro. Our team, as part of looking at counter-
terrorism activities in a broad sense, did observe the exercise 
for the Olympics and found a couple of things. One, we thought 
the plan was good. Also, we thought that the cooperation that 
was shown among the agencies was excellent. So we were pretty 
impressed with the observations to date. Now, we're going to 
continue to track this and monitor this whole issue. It is an 
area that is increasing in terms of demand from the Congress--
looking at counter-terrorism activities and, of course, the 
proposals for homeland defense. So we're watching that very 
carefully, but our initial reaction was a positive one.
    Senator Bennett. Good. Well, the folks in the Secret 
Service and other law-enforcement agencies tell me that the 
Olympics constitute the number one attraction for terrorist 
activities. There is nothing more attractive to a potential 
terrorist than an event that is being watched worldwide by 
somewhere between three and four billion people at any one 
given time. And the days when the Olympics are a sporting event 
are long-since over and are never coming back. Yes, we do 
sporting events at the Olympics, but they have become far more 
than that. And if we're ever going to have the Olympics in the 
United States again, after the Salt Lake Winter Olympics, we 
must recognize, as we have recognized in Salt Lake, and 
previously in Atlanta, that the Olympics cannot be put on 
without massive Federal involvement. And whatever you can do to 
help us see that the Olympics are a non-event, as far as 
terrorist activities are concerned, is effort well spent, and 
we appreciate it.
    Mr. Dodaro. Yes, we're going to stay close to that. As you 
know, Senator, another related issue is critical infrastructure 
protection. We are spending more and more time on that, too, 
both within the Federal Government computer security programs--
and we're asking for some additional money for our own computer 
lab facility--but also public-private partnerships.
    Senator Bennett. And you can expect that I'll be talking to 
you about that when I wear one of the other hats that I wear.
    Mr. Walker. Mr. Chairman, I lived in Atlanta during the 
1996 Olympics, so I know firsthand what you're talking about, 
and your points are well taken.

                        TRUTH IN REGULATING ACT

    Senator Bennett. All right. Just help me understand the 
$5.2 million with respect to the Truth in Regulating Act.
    Mr. Walker. The way that works, Mr. Chairman--as you know--
last year authorizing legislation was enacted passing the Truth 
in Regulating Act, which basically gave the ability for the 
Congress, either a chair or ranking member of a committee, to 
request the Comptroller General, to review certain regulations 
that had been proposed by the executive branch. In order for 
that to become effective, the statute specifically provides 
that there has to be an express appropriation earmarked for 
this activity. The Congress recognized that we were already 
being squeezed with regard to being able to achieve our current 
mission and, since they were interested in us taking on this 
additional responsibility, provided that we needed to receive 
earmarked funding for it. We have a supplemental request for 
this fiscal year of $2.6 million that is currently pending. The 
$5.2 million would represent a full year's appropriation, and 
we will not begin doing this work unless and until we receive 
the appropriation.

                             CAPITOL POLICE

    Senator Bennett. Finally, a thicket we keep getting into on 
this committee is the Capitol Police. And we created a chief 
administrative officer of the capital police in our last bill 
to address a number of deficiencies in their administrative 
operations. And the act requires you, Mr. Walker, to evaluate 
the administrative officer's performance. This was one of the 
most contentious issues between the House and the Senate in the 
conference. We resolved it, as we ultimately resolve everything 
around here, one way or another, but I would appreciate any 
comments you might have on the Capitol Police's progress in 
addressing fiscal management and human-resource management and 
information-technology issues from your perspective.
    Mr. Walker. First, let me assure you, we're on the case, 
Mr. Chairman, and there was coordination with the Chief of 
Police as well as the board, regarding the criteria for the 
type of person they were looking for and the selection process. 
They have hired a chief administrative officer. I have met with 
the chief administrative officer. Gene Dodaro has, as well. We 
have a team that is monitoring their activities. I received a 
first draft of an outline of what will end up being the basis 
for the plan that he is required to produce within a 6-month 
time frame after he's appointed. Unfortunately, he was not 
appointed until the end of February, and so he has been on 
board less than 3 months. The plan is not required to be 
completed until August, and so there are some challenges with 
regard to timing, but I can assure you that we're staying right 
on top of this. We know that this is a matter of interest to 
you, as well as the body as a whole.
    Mr. Dodaro. And actually, we're trying to identify, in a 
constructive way, what needs to be addressed in the plan. In 
fact, our team met with the chief administrative officer 
yesterday to begin sharing some of our thoughts in that regard, 
but it's a little early yet to make any determinations.

                        MERGING OF POLICE FORCES

    Senator Bennett. Let me ask you an unfair question. This 
place is full of unfair questions. One of the suggestions we've 
made--indeed passed the Senate last year, didn't survive 
conference--was for the consolidation of police forces--the 
Capitol Police, the Library of Congress Police, the Government 
Printing Office Police, and, I think, the Supreme Court 
Police--all into a single police force. It struck me that there 
could be some administrative savings in that kind of a 
structure, that there could be a career-path opportunity for, 
particularly, someone at the Government Printing Office Police 
who could start there, and then, with additional training, say, 
``Well, I can now move up to a position that might be 
considered a little more demanding and maybe a little more 
rewarding, with the Capitol Police.'' There could be some, not 
only monetary savings, but administrative efficiencies--that 
you have, instead of four different jurisdictions in a 
particular geographic area, just one.
    As I say, it didn't survive, for a variety of reasons. Do 
you have any reaction to this? And if it is too early, as you 
work with this administrative officer, could you give me some 
advice as to whether you think this is a good idea?
    Mr. Dodaro. I'm not aware of what work we have done on this 
previously.
    Mr. Brown. Yes, we did look at this matter last year. We 
looked at some of the issues surrounding a merger of the 
different police forces. We certainly could go to that next 
step, based on what we've done up to this point, if you want us 
to.
    Mr. Dodaro. We did look at differences in the current 
pension systems and some of the administrative hurdles that 
would have to be addressed should the forces be consolidated. 
But I would think if we were to examine costs and benefits, we 
would also have to look more broadly at: What are the threats? 
What are the levels of services? What are the other issues that 
are intertwined from a law-enforcement protection standpoint, 
as well as administrative efficiency, because I think that 
would be a more holistic way to approach it.
    Senator Bennett. That has to be the primary concern, 
obviously.
    Mr. Walker. I think there's two sides, Mr. Chairman. One 
side is the operational side, which deals with the issues that 
Gene Dodaro just mentioned, and we have not done that yet. 
We'll be prepared to do it if we get a request. On that, I 
think what we can do is--we can lay out the options, talk about 
the pros and cons so that you could make an informed judgment--
you and the Senate could make an informed judgment on the 
issue.
    The other issue, though, is the administrative side. And on 
that, frankly, there's more of an opportunity for government, 
as a whole, to look at shared-service concepts. An important 
issue is whether or not there is an opportunity to have shared-
service arrangements where you don't end up having individual 
self-sustaining operations and where you end up consolidating 
certain activities to provide services to a range of federal 
entities. So there may be an opportunity there, as well, that 
we would be happy to take a look at.

                         CAPITOL VISITOR CENTER

    Senator Bennett. Well, I would appreciate it if you would 
keep this in mind as you fulfill your responsibility with the 
Capitol Police, as we look forward to the visitor center for 
which we have now broken ground. We've probably put grass back 
over it.
    But, nonetheless, we have officially broken ground, and I 
have the shovel to prove it. We are in the process of pushing 
the perimeter farther and farther away from the physical 
Capitol itself. A manifestation of that is the new guard 
station down on the other side of the Russell Garage. This 
morning, for the first time, as I drove in, the policeman waved 
good morning at me there, and the old guard station on C Street 
and Delaware is vacant, and the guard has moved it down there. 
Their perimeter has been pushed out to that point. The entrance 
into the Capitol campus, for trucks and other services, is 
anticipated that it would be pushed farther away. Now it's 
Constitution and Delaware. It will move farther away, and that 
means, I think, it makes more sense in the expanded perimeter 
to have just one law enforcement/anti-terrorist protection 
force instead of the ones that have traditionally grown up in 
the days when the Library of Congress was self-contained and 
the Capitol was self-contained. We didn't think in terms of a 
Capitol Hill campus with perimeter security in a broader area.

                        CRITICAL INFRASTRUCTURES

    Mr. Walker. Well, candidly, Mr. Chairman, I think this 
whole concept of rethinking things, in light of changes that 
have occurred over the past decades in different threats and 
circumstances, has application throughout government. Take for 
example the issue of food safety. There are six agencies 
involved in food safety. Does that make a lot of sense? I can 
give you ten examples of where we've--over the years--created 
independent operating entities or independent programs. And one 
of the things I think there's really a need for the Congress to 
take a look at where we're at, and does it make sense for the 
future. So this is just one example.
    Senator Bennett. A very small one, but I appreciate your 
pointing that out. And critical infrastructure is another 
example where the stove-piping that goes on in the modern world 
in which we live is not only not appropriate, but 
counterproductive towards getting any kind of a solution.
    Mr. Walker. One of the areas we are looking into right now, 
just for your information is--if you look at real property and 
related infrastructure, it's not just a DOD issue, it is a VA 
issue, and it's a civilian agency issue. It's also an overseas 
issue with regard to the State Department.
    We have a lot of footprints in an age of diverse and 
diffuse threats, and that means that we also have a lot of 
excess infrastructure, which costs us money. It costs us money 
because you have to maintain those facilities. You have to 
protect those facilities. But in addition to that, it costs us 
money because their asset-recovery values, in some cases, are 
very, very significant that could otherwise be achieved and 
redeployed. The amounts, we believe, are huge. We're going to 
be doing some work in this area. Obviously, we understand there 
are some political difficulties associated with some of this, 
but the problem is only going to get greater, it's only going 
to get worse. It's not going to get better. It's only going to 
get worse. The excess is only going to get worse, given 
technological advances and things of that nature.
    Senator Bennett. That's the subject for another lunch. I 
look forward to it.
    Thank you very much. We appreciate your testimony, and we 
will do what we can to help solve your problem.
    Mr. Walker. Thank you, Mr. Chairman.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DAN CRIPPEN, DIRECTOR

ACCOMPANIED BY BARRY ANDERSON, DEPUTY DIRECTOR

    Senator Bennett. Our final witness today is Mr. Dan 
Crippen, Director of the Congressional Budget Office, 
accompanied by Mr. Barry Anderson, who is the Deputy Director, 
and we welcome you both here today and appreciate all of the 
efforts you have put forward.
    The Congressional Budget Office is requesting $30.7 million 
for its operations for fiscal 2002, a 7.9 percent increase over 
the amounts appropriated in fiscal 2001. The majority of the 
increase is to support the 4.6 percent cost-of-living increase 
authorized, as well as a request to add four full-time-
equivalent positions, which would bring CBO to its authorized 
level of 232 employees.
    Mr. Crippen, I note for the record CBO is also asking for 
major changes in its legislative authorities. I understand you 
wish to create a CBO education fund using non-appropriated 
receipts, provide direct student-loan repayment for new 
employees, and clarify longstanding administrative provisions 
governing the operations of CBO, such as training and property 
disposal. And we look forward to your explanation of these 
initiatives and how they might improve the operations of CBO. 
With that, Mr. Crippen, we're in your hands.
    Mr. Crippen. Mr. Chairman, thank you. I would like to note 
that also here today are Polly Hodges, who is our long-
suffering budget officer, and Bill Gainer, who runs our 
administrative side.
    Mr. Chairman, I would commend--I know you have more than 
enough to read, but--for nighttime reading, at least--I would 
commend to you our submitted statement. It is, I think, a very 
good statement about what we're trying to do, in terms of 
changing CBO and making some progress and modernizing both the 
facilities and our approach to things.
    Our request, as you've just said, is really quite simple. 
We're asking for an additional $2.3 million, of which $1.7 
million would be for compensation-related items for the current 
workforce; about $400,000 for four additional FTEs; and a 
couple hundred thousand dollars net to develop some needed ADP 
resources, primarily because the House has decided to shut down 
its mainframe. We're one of the few remaining users of that 
mainframe, so we're going to have to migrate that work 
ultimately--we're going to have to contract out for mainframe 
support in the short run, and then we'll migrate that back 
inside. And so that $200,000 net for ADP is largely because of 
the need to move off the House mainframe.

                           MAINFRAME SUPPORT

    Senator Bennett. Let me interrupt you there. You say 
``migrate it out'' or ``migrate it back.'' Where will you go 
out, and where are you going back?
    Mr. Crippen. We're going to the Department of the Interior. 
It has some spare mainframe capacity. I think the facility is 
called the National Business Center. And so we're essentially 
contracting with Interior to support our system in the short 
run. We had hoped and thought that the House would not close 
down its mainframe this soon. So what we're going to do is take 
a 1-year contract out for mainframe support, take that year to 
build--to adapt the system to a PC-server environment, and 
bring it back in. So our need is a matter of timing more than 
anything else.
    Senator Bennett. When you say ``bring it back in,'' you 
mean bring it back into CBO so that you will then be 
independent of the House and the Senate or anybody else?
    Mr. Crippen. Yes. The one thing we are dependent upon the 
House for is space in the old computing facility, which happens 
to be on the sixth floor of our building, and we're on the 
fourth floor. The House has redundant power and air-
conditioning and, obviously, some extra space up there. We have 
a small piece of real estate there now, where we keep some of 
our critical servers because of the redundancy and the 
security. We're going to need to move more of our equipment 
upstairs eventually, and we're now talking to the architect and 
chief administrative officer about doing that.
    Senator Bennett. Pardon me for my ignorance, but which 
building are you in?
    Mr. Crippen. We're in the Ford House Office Building, which 
was House Annex number two--across the freeway, across the 
tracks, on the other side, on the edge of the campus, on the 
outer edge.

                      SAFEGUARDING SENSITIVE DATA

    We're also going to build--we're designing at the moment--
an even more secure facility for our sensitive data that we're 
about to get from the IRS and, hopefully, from the Census 
Bureau. It will be a facility that is not only physically 
secure in the usual sense, with sensors and monitoring, but 
also will have no connections to the outside world. And so 
there's no chance that anyone could figure out a way to get in. 
We will probably have a secure room on our floor, in which the 
monitors and consoles will be, and the server will be upstairs 
in a more physically secure environment.

                             CYBER SECURITY

    Senator Bennett. Have you had any attempts to hack into 
your facilities?
    Mr. Crippen. Not that we know of. No one has gotten far 
enough to show up. I'm assuming somebody has attempted. I have 
a list of all of the things that we have done, which I will 
give you for the record. It's fairly impressive. Until I read 
the answer to your question, I wasn't aware of what we do now 
to protect our existing facilities. And it is a lot, in terms 
of what we check for, for anything inside our system. We have 
an outside contractor who checks all e-mails, for example, 
before they can get into our system. We have special access 
with these key fobs that you may have seen, which change 
passwords every minute. So we have taken a lot of steps to 
protect what we have now, but I felt compelled that, given the 
sensitivity of some of the data we're going to get for our 
long-term modeling efforts, we ought to make it even more 
secure and actually have no physical connection to the outside 
world for that set of data.
    [The statement follows:]

                  Prepared Statement of Dan L. Crippen

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2002 budget request for the Congressional 
Budget Office. The mission of CBO is to provide the Congress with the 
objective, timely, nonpartisan analysis it needs about the economy and 
the budget and to furnish the information and cost estimates required 
for the Congressional budget process. CBO does not make policy 
recommendations; instead, it presents the Congress with options and 
alternatives in a wide range of subject areas having economic and 
budgetary impacts.
    The Congressional Budget Office is requesting $30,680,000 for its 
operations in fiscal year 2002, a 7.9 percent increase over the 
agency's fiscal year 2001 appropriation. The funding increase is 
largely explained by external forces, including a workload that 
continues to grow and a competitive labor market in which we must 
compete for highly skilled employees, and the internal need to replace 
our most mission-critical computer system. Overall, 94 percent of the 
increase would go to pay and benefits, while all other costs would be 
tightly controlled.
    Specifically, we are asking for an 8.7 percent increase in pay and 
benefits, which would fund mandatory pay and benefit increases and add 
four full-time positions; a modest increase in information technology 
spending; and level funding for all other goods and services by 
continuing to reduce administrative costs.
    Our 2002 budget request would:
  --Support an increasing workload, which is expected to include more 
        than 2,800 legislative cost estimates and mandate cost 
        statements (a 30 percent increase from fiscal year 1999); 37 
        studies and other publications; and a heavy schedule of 
        Congressional testimony.
  --Fund our authorized level of 232 full-time-equivalent positions, 
        four more than we could support in fiscal year 2001, to 
        accommodate the growing workload.
  --Provide an annual pay adjustment of 4.6 percent for nonmanagers. 
        This adjustment was requested in anticipation of the expected 
        executive branch proposal, but it is also what we believe is 
        needed to remain competitive in the labor market (and it is 
        consistent with the call for continued parity between civilian 
        and military pay increases). The last two years' cost-of-living 
        adjustments have been important in restoring our 
        competitiveness as a recruiter, and we hope to maintain that 
        competitiveness.
  --Fund promotions and merit increases for nonmanagement staff, as 
        well as performance-based pay for our managers and senior-level 
        employees, who do not receive automatic annual wage 
        adjustments.
  --Allow a modest increase ($115,000) in technology spending to 
        replace BADS, a 20-year-old legacy system now operating on the 
        HIR mainframe (which HIR plans to eliminate at the end of this 
        year). This system, which allows us to track the progress of 
        pending legislation and make 10-year budget projections, is 
        absolutely critical to our mission. We plan to replace this 
        system with a client server application compatible with our 
        current hardware and software environment. The redevelopment is 
        estimated to cost over half a million dollars, but we will 
        offset much of the cost by savings elsewhere within ADP and 
        delays of some software upgrades.
    We are also asking for certain changes in our legislative authority 
to allow us to (1) create a CBO Education Fund using nonappropriated 
funds; (2) pay off some portion of employees' student loans, using 
authority similar to that granted other legislative and executive 
branch agencies; and (3) clarify provisions governing our training 
programs and disposal of surplus property. The legislative language for 
these provisions is included as an appendix.

                              COST SAVINGS

    Price inflation for certain goods and services has been quite high 
in recent years, particularly for subscriptions, communications 
technology, software, and computer support services. To help offset 
that inflation, we have identified a number of operating cost savings. 
In fiscal year 2000, we identified (or realized) nearly $400,000 in 
such annual operating cost reductions. Some examples are:
  --Eliminating software licenses (&lt;nearly-eq&gt;$100,000) and canceling 
        unnecessary journal subscriptions (&lt;nearly-eq&gt;$36,000);
  --Consolidating local phone lines, and reducing long distance and 
        data communications costs (&lt;nearly-eq&gt;$42,000);
  --Reducing printing, mailing, and document storage costs 
        (&lt;nearly-eq&gt;$20,000);
  --Canceling equipment maintenance contracts that were no longer cost-
        effective (&lt;nearly-eq&gt;$10,000); and
  --Cutting the cost of mainframe time-sharing by shifting certain 
        operations to the Library of Congress (&lt;nearly-eq&gt;$100,000).
    We are now working on additional operational changes that will save 
at least another $250,000 annually beginning in fiscal year 2002.

                  ACCOMPLISHMENTS IN FISCAL YEAR 2000

    Fiscal year 2000 saw an increased workload at the Congressional 
Budget Office, as the second session of the 106th Congress produced 
almost 900 legislative proposals that required a CBO federal cost 
estimate. Almost 80 percent of those proposals also required state and 
local, and private-sector mandate estimates for a total of 1,400 
mandated estimates. Overall, the number of cost estimates and unfunded 
mandate estimates increased by 30 percent over the fiscal year 1999 
level.
    In particular, we prepared estimates for a large number of 
proposals related to major health care initiatives, including the 
establishment of a new prescription drug benefit in Medicare, improving 
the long-term financial status of Medicare, and modifying provider 
payment rules established by the Balanced Budget Act of 1997. These 
proposals are large and complex, and analysis of them strained the 
capacity of our health units and reinforced our efforts to add 
resources in this area.
    Other major legislative initiatives in fiscal year 2000 that 
required analysis by CBO included the Agriculture Risk Protection Act 
of 2000 (crop insurance); the Conservation and Reinvestment Act; the 
Floyd D. Spence National Defense Authorization Act for Fiscal Year 
2001; the Water Resources Development Act of 2000; and major education 
initiatives. Education legislation reviewed by CBO during 2000 included 
the Education Opportunities to Protect and Invest in Our Nation's 
Students Act, the Educational Opportunities Act, the Students Results 
Act, the Educational Partnership Act of 1999, and the IDEA Full Funding 
Act of 2000.
    In addition, the agency continued to provide timely responses to 
requests from the Congressional leadership and the budget committees.
    We also devoted resources to the task of analyzing the long-term 
budget outlook and the longer-term budget prospects associated with the 
Social Security and Medicare programs. Our relatively new Long-Term 
Modeling Group (established in 1999) developed the first versions of 
models designed to generate 75-year cost estimates of proposed changes 
to the Social Security program. To strengthen this area, we recently 
convened an advisory group to help us with our modeling efforts.
    We began to examine the concept of the ``New Economy,'' convening a 
conference of experts to examine trends in productivity, the effects of 
new technology on certain industries, and the implications of 
relatively strong productivity growth in 1995 through 1999 for monetary 
and fiscal policies. And we provided analyses in support of 
Congressional consideration of proposals relating to patients' rights, 
increasing the number of people covered by health insurance, military 
health care, national missile defense, federal national disaster 
insurance, and increasing the federal minimum wage.
    The Congress's view of the quality of the agency's assistance in 
the budget process is made clear by the numerous times CBO was asked to 
testify and the many occasions on which it was asked by the Congress to 
provide answers on budget questions in the waning hours of the fiscal 
year 2001 budget process. During the year, CBO officials testified 14 
times for a variety of committees, including several appearances before 
the House and Senate Budget Committees, House and Senate Appropriations 
Committees, House Ways and Means Committee, and other House and Senate 
legislative committees.
    In 2000, we continued to publish our Budget Options report 
detailing hundreds of possible methods for reducing spending or raising 
revenues. The report also included a discussion of major proposals to 
increase spending or cut taxes that have been prompted by the emergence 
of large budget surpluses.

             WORK PRIORITIES FOR FISCAL YEARS 2001 AND 2002

    As always, our emphasis must be on producing the budget 
projections, cost estimates, and other information that the Congress 
relies on to do its work. In particular, issues related to the 
projected budget surpluses have been prominent this year, and Social 
Security and Medicare reforms are expected to continue as priorities 
during this Congress. Tax issues will also likely require significant 
effort as the 2002 budget process unfolds.
    In fiscal year 2001, CBO will produce long-range cost estimates and 
impact analyses of Social Security for both current law and what is 
expected to be a large number of reform proposals. As part of the 
agencywide effort to analyze Social Security reform options, we will 
expand and enhance our actuarial and microsimulation models for 
estimating Social Security over the long term (75 years). Our analytic 
agenda includes integrating analysis of the long-term macroeconomic 
effects and fiscal (budgeting) implications into our long-range models. 
And we will begin development of long-range models for estimating 
Medicare. We anticipate a continuing high level of interest in 
estimating Medicare proposals over both the short and the long terms.
    Other important policy work that will be completed in 2001 includes 
an analysis of the effect of estate and gift taxes on charitable 
giving; a primer on Social Security; an analysis of the California 
electricity crisis; and a study of military operations and maintenance 
accounts.
    Also important to our work this year and next will be our access to 
new data on income, Social Security, and Medicare. That data will 
enhance our long-term modeling efforts but will also put demands on our 
staff and ADP resources as we integrate, process, and safeguard these 
new resources.

  INTERNAL MANAGEMENT STRATEGY, PROGRESS, AND PRIORITIES FOR 2001 AND 
                                  2002

    In addition to focusing directly on its mission, CBO, like any 
effective and highly successful organization, must devote resources to 
attracting talented people, developing their skills, and properly 
equipping them. It must also organize its key work processes to be as 
efficient as possible.
    Enhancing Recruitment and Retention.--During the next two years, we 
will expand on the initiatives undertaken last year to identify, hire, 
and retain a highly talented and diverse workforce by strengthening our 
recruitment efforts, investing more in training and staff development, 
and reconfiguring our space so that it better meets the needs of our 
staff.
  --Strengthen Recruitment Strategy.--Our goal has been to focus our 
        efforts on quickly filling key vacancies, particularly in hard-
        to-attract disciplines, while building a more diverse 
        workforce.
      In 1998 the agency experienced an unusual number of vacancies and 
        was unable to quickly replace the individuals who left. 
        Consequently staffing dropped from 227 full-time-equivalent 
        positions in 1997 to 205 in December 1998. We recovered 
        somewhat in 1999, but still ended the year far short of our 
        staffing needs. We met our mandates, but the shortfall created 
        a hardship for our staff, and it meant that our ability to 
        produce nonstatutory cost estimates and major studies suffered. 
        Early in fiscal year 2000, a CBO task force made significant 
        recommendations on how to build a better recruitment program. 
        As a result, we created a recruitment program that allowed us 
        to fill vacancies more quickly and to reach our fiscal year 
        2000 staffing objective of 225 staff years. Our program 
        included:
    --raising offering salaries for new Ph.D. and Master's candidates 
            and enhancing our internship programs;
    --simplifying our application process and drastically shortening 
            the time from application to interview and job offer;
    --creating a high-quality recruitment brochure for our college 
            recruitment program and strengthening the employment pages 
            on our Web site (www.cbo.gov);
    --developing new systems to track recruitment contacts and job 
            applicants; and
    --more aggressively advertising critical vacancies and beginning 
            the use of recruitment bonuses in hard-to-fill 
            specialities.
    We also expanded the number of schools where we recruit and began 
sending recruitment materials to more institutions with relevant 
programs in economics and public policy, and to a wider variety of 
schools with diverse student populations.
    In fiscal years 2001 and 2002, we will further expand our campus 
visits to include more schools with diverse student populations, 
provide additional training to staff on effective recruitment 
techniques, complete our automation efforts, and implement an expanded 
training and orientation program for new employees.
    Furthermore, to help retain high-performing employees and to be 
more competitive in recruiting, we are providing larger merit pay 
increases to entry-level employees and continuing what we believe is a 
very successful awards program for outstanding performers. The awards 
program benefitted roughly a third of our permanent employees in fiscal 
year 2000.
  --Improve CBO's Training Programs.--Our goals is to improve 
        management and job skills by investing in our people through 
        training, education, and professional development.
      CBO has always invested in the job skills of its employees, but 
        the amount spent on job training and professional development 
        has been far less than that of other high-impact organizations, 
        and much less than recommended by management and training 
        experts. CBO spent less than 0.5 percent of its personnel costs 
        on training in 1999, compared with the 2 to 4 percent typical 
        of high-performing private firms that the agency competes with 
        for staff. In fiscal year 2000, we increased training 
        expenditures by nearly 30 percent (to a level still far short 
        of private-sector standards) while eliminating less cost-
        effective training. We also undertook a more deliberate 
        assessment of needed training and began training managers in 
        leadership and communications skills. To date, we have provided 
        such leadership training to one-third of our managers.
      During the remainder of 2001 and in 2002, we will maintain the 
        higher level of spending on training, education, and 
        professional development and intend to provide management 
        training to the remainder of our senior staff.
  --Modernize and Revitalize the Working Environment.--Our goal is to 
        reconfigure and, where necessary, renovate offices to better 
        use our space and to provide a quality work environment for new 
        employees and those currently in inadequate space.
      Most of CBO's space was configured shortly after the agency's 
        creation 25 years ago in a building designed primarily for file 
        storage, not human occupancy. At that time, there were few 
        desktop computers, many more support staff, less 
        specialization, and a less competitive employment marketplace. 
        Consequently, a significant percentage of our space was 
        configured for clerical staff, and many analysts had work space 
        that was in passageways or was otherwise undesirable. These 
        work spaces adapted poorly to computer technology; and 
        conference space, which is critical to the collaborative nature 
        of our work, was in short supply.
      During fiscal year 2000, in cooperation with staff of the 
        Architect of the Capitol, we developed a range of strategies to 
        address our space problems, and we began to make modest 
        investments in our facilities. By June, we will have completed 
        the reconfiguration of roughly a dozen small office suites and 
        other areas constituting roughly 20 percent of our usable floor 
        space. The result will be about 50 offices renovated, with a 
        net gain of 18 private offices and three additional conference 
        areas. We also reduced the amount of wasted space and greatly 
        reduced the amount of space devoted to storage.
      Because we will still have a significant number of employees in 
        substandard space, we plan to continue our renovation efforts 
        through at least the end of 2002 by that time we hope to have 
        renovated perhaps half of the remaining space. This should 
        allow us to create adequate offices for all our analytical 
        staff, eliminate poorly utilized space, and greatly improve the 
        appearance and livability of our offices.
    Communications Priorities.--The value of CBO's work to the Congress 
and the public derives from the quality, readability, and availability 
of its products. While the demand for CBO's printed products remains 
strong, the use of the electronic versions of the products on the 
agency's Web site is growing significantly year to year. We plan to 
improve both:
  --CBO's Web Site.--Our goals are to respond to the growing demand for 
        electronic products and to enhance the site's functionality and 
        accessibility.
      During fiscal year 2000, the content of CBO's Web site expanded 
        by a third, to nearly 2,700 documents. Activity on our site 
        nearly doubled since last year to a rate of roughly 9 million 
        hits, or more than 1 million page requests per year. And the 
        number of subscribers to our ListServer, which e-mails users 
        when documents in their area of interest have been posted, 
        increased by about 60 percent.
      During the remainder of 2001 and into 2002, we plan a major 
        redesign of our Web site. We will undertake a survey of those 
        who use our material to identify needed improvements. More 
        immediate improvements will include making additional 
        publications from earlier years available on the site and 
        creating versions of important reports with advanced search 
        capabilities. We will also improve the Web site in less obvious 
        ways the ListServer will be enhanced so that customers can have 
        publications in addition to notices e-mailed to them; the site 
        will become more ``visible'' to outside search engines, thus 
        increasing public access to CBO's research; and the search 
        function will be made more user-friendly. Among visible 
        changes, visitors to the site will be able to customize the 
        first screen they see so that it emphasizes the information 
        they are most interested in, publications will be easier to 
        read on screen, and navigation will improve.
  --CBO's Publications and Production Processes.--Our goals are to 
        produce high-quality publications that are easily identified as 
        CBO products and to improve production processes for 
        efficiency.
      As usage of CBO's Web site has increased, we have been able to 
        print fewer copies of reports and reduce inventory costs. For 
        example, printing costs for our three major mandated reports 
        were about one-quarter lower last year than the year before and 
        about half as much as two years earlier. New reproduction 
        technology has improved the quality and timeliness of reports 
        and testimony produced in-house, while lowering our costs. 
        Consequently, for several reports last year, the initial copies 
        produced in-house to meet tight Congressional deadlines were of 
        much higher quality and resembled the final copies from 
        commercial printers. We have improved some of our processes for 
        graphics and now do most of the design and production work in-
        house.
      During 2001, we will continue to modernize the appearance of our 
        publications and achieve a consistent and professional look. We 
        will also improve the production underlying our publications by 
        centralizing the work and streamlining processes. Similarly, by 
        revising additional graphics processes, we will produce more 
        finished graphics in-house, saving additional time and money.
    Technology and Process Redesign.--As noted earlier, highly 
effective organizations must build a skilled staff and then provide 
them with the technology and work processes necessary to support them. 
In exit interviews and focus groups with current staff, technology 
emerges as an area where CBO excels compared to other places people 
have worked. It is also critical to our ability to do the highly 
complex analyses that underlie much of CBO's work.
  --Maintain Our Technological Edge.--Our goal is to continue to 
        provide the best technology systems economically available to 
        support the agency's mission while constantly improving the 
        performance of those systems and employee satisfaction.
      During fiscal year 2000 and the first half of 2001, we upgraded 
        most desktop computers and for the first time achieved an ideal 
        hardware/software configuration for every employee. We also 
        improved our network communications, strengthened network 
        security with a firewall and other changes, added nearly a 
        terabyte of needed data storage, and strengthened system 
        reliability with more redundancy and better disaster recovery 
        capability. We also moved our mission-critical server room to 
        the 6th floor of the Ford House Office Building, which has 
        emergency power and air conditioning and a higher level of 
        physical security.
      In the past few years, we have invested steadily in our 
        technology to the point where, as mentioned earlier, every 
        employee has up-to-date hardware and software, and our internal 
        network and data communications are among the best in 
        government. That level of accomplishment allows us to reduce 
        new hardware and software spending somewhat in fiscal years 
        2001 and 2002 to accommodate major systems development efforts. 
        Thus, in fiscal years 2001 and 2002, we will:
    --migrate our mission-critical Budget Analysis Data System to a new 
            platform;
    --automate or replace older systems for administrative processes, 
            including ones for project tracking, requisition and 
            procurement, invoice tracking, supply distribution, 
            inventory, applicant tracking, and human resource 
            management functions;
    --further develop our intranet as a primary delivery mechanism for 
            internal services and communications;
    --update a limited number of network and desktop software packages 
            and further improve computer system reliability and 
            security; and
    --develop a secure facility to house confidential and sensitive 
            data we expect to utilize in our modeling efforts.
  --Streamline Procurement.--Our goal is to modernize our procurement 
        process so that it is a streamlined, paperless process with 
        greater emphasis on competition.
      During fiscal year 2000, we investigated processes and supporting 
        software used by other organizations and began redesigning our 
        current procurement process. We are now implementing a new 
        automated system for processing purchase requests, issuing 
        purchase orders, and tracking obligations, orders, and payments 
        to vendors.

                               CONCLUSION

    Mr. Chairman, during the last two years we have worked very hard to 
meet the needs of the Congress and to rebuild our staff during a period 
of great competition in the labor market. To do this, we have raised 
starting salaries for new graduates and undertaken a variety of efforts 
to make CBO a more desirable employer for talented economists and 
policy analysts. The budget increase you provided last year remedied 
our earlier financial problems and, along with our extensive efforts to 
reduce our nonpayroll costs, has allowed us to make good progress. 
Nonetheless, we are still having difficulty attracting new Ph.D.s, and 
we must maintain competitive wages for all our analysts in order to 
retain them. Our budget request will allow us to continue our progress 
and meet the goals we have set for ourselves.

                                Appendix

 ADMINISTRATIVE PROVISIONS FOR NEW LEGISLATIVE AUTHORITY--FISCAL YEAR 
                          2002 BUDGET REQUEST

Coverage Under the Training Act
    Sec. 102. (a) The Director of the Congressional Budget Office may, 
by regulation, make applicable such provisions of chapter 41 of title 
5, United States Code, as the Director determines necessary to provide 
hereafter for training of individuals employed by the Congressional 
Budget Office.
    (b) The implementing regulations shall provide for training that, 
in the determination of the Director, is consistent with the training 
provided by agencies subject to chapter 41 of title 5, United States 
Code.
    (c) Any recovery of debt owed to the Congressional Budget Office 
under this section and its implementing regulations shall be credited 
to the appropriations account available for training employees of the 
Office at the time of recovery.

Sale of Surplus Property
    Sec. 103. Section 105(a) of the Legislative Branch Appropriations 
Act, 1996 (2 U.S.C. Sec. 606(a)), is amended by striking ``or 
discarding.'' and inserting ``sale, trade-in, or discarding.'', and by 
adding at the end the following: ``Amounts received for the sale or 
trade-in of personal property shall be credited to funds available for 
the operations of the Congressional Budget Office and be available for 
the costs of acquiring the same or similar property. Such funds shall 
be available for such purposes during the fiscal year in which received 
and the following fiscal year.''

Repayment of Student Loans
    Sec. 104. (a) The Director of the Congressional Budget Office may, 
in order to recruit or retain qualified personnel, establish and 
maintain hereafter a program under which the Office may agree to repay 
(by direct payments on behalf of the employee) all or a portion of any 
student loan previously taken out by such employee.
    (b) The Director may, by regulation, make applicable such 
provisions of section 5379 of title 5, United States Code as the 
Director determines necessary to provide for such program.
    (c) The regulations shall provide the amount paid by the Office may 
not exceed--
          (1) $6,000 for any employee in any calendar year; or
          (2) a total of $40,000 in the case of any employee.
    (d) The Office may not reimburse an employee for any repayments 
made by such employee prior to the Office entering into an agreement 
under this section with such employee.
    (e) Any amount repaid by, or recovered from, an individual under 
this section and its implementing regulations shall be credited to the 
appropriation account available for salaries and expenses of the Office 
at the time of repayment or recovery.

Educational Gift Fund
    Sec. 105. (a) The Director of the Congressional Budget Office may 
establish an educational program of conferences and research 
fellowships designed to advance the learning and capabilities of the 
Congressional Budget Office to assist the Congress through economic or 
financial forecasting, projections, and analyses, and statistical 
studies and modeling.
    (b) The Director may accept, hold, and administer gifts and 
bequests of money for the benefit of the program. Gifts and bequests 
shall be deposited in the Treasury of the United States in a trust fund 
called ``Congressional Budget Office Educational Fund''. For the 
purpose of Federal income, estate, and gift taxes, money accepted under 
this subsection is considered as a gift or bequest to or for the use of 
the United States.
    (c) Sums in the Fund shall be available, without regard to fiscal 
year, for--
          (1) the costs of educational conferences concerning the work 
        of the Office;
          (2) the award of fellowships for the conduct of research in 
        areas within the mission of the Office; and
          (3) the costs of a program providing for study or 
        uncompensated work experience of employees of the Office as 
        provided in subsection (g).
    (d) Under the program, the Director may award fellowships to 
individuals and may accept voluntary services of individuals without 
regard to section 1342 of title 31, United States Code, to conduct 
research in areas within the mission of the Congressional Budget 
Office. The term of each fellow shall be for 1 year, and may be renewed 
for a term of 1 additional year.
    (e) Research fellows under the fellows program shall, for purposes 
of rules of ethics, including those related to conflicts of interest 
and standards of conduct, be considered to be an employees of the House 
of Representatives. For purposes of financial disclosure, such 
individuals shall be considered to be officers or employees of the 
Congress under section 109(13) of the Ethics in Government Act of 1978 
(5 U.S.C. app Sec. 109(13)).
    (f) An individual performing voluntary services under the fellows 
program may receive pay and other benefits, including stipends, 
allowances, travel and subsistence expenses, from a non-partisan, tax-
exempt organization described under section 501(c)(3) of the Internal 
Revenue Code of 1986 (26 U.S.C. Sec. 501(c)(3)).
    (g) The Director may, by regulation, make applicable such 
provisions of section 3396(c) of title 5, United States Code, as the 
Director determines necessary to establish a program providing 
opportunities for employees of the Office to engage in study or 
uncompensated work experience which will contribute to the employee's 
development and effectiveness.

                         EDUCATIONAL GIFT FUND

    Senator Bennett. Let's talk about your educational gift 
fund for a minute. You indicate that this will be funded with 
gifts and bequests to the fund. You're aware, I'm sure, of the 
criticism that has been raised that possibly this could give 
the appearance of some kind of conflict of interest. Just 
explore that with me.
    Mr. Crippen. Yes. I understand the concern. I can't--I'm 
not certain I can--assuage all of those concerns, but one would 
clearly look for foundation-like support that was viewed as 
neutral and non-political, that didn't have an axe to grind in 
Washington, and that didn't take public policy positions.
    Senator Bennett. Give me an example of such a foundation.
    Mr. Crippen. The Ford Foundation, perhaps, but it is 
foundation funding like that that I had in mind, and there are 
a number of ways that we could, I think, help with any concerns 
about appearance. For example, any grant that we might receive 
would come back to you for approval before we accepted it, 
before it was deposited in this fund. So the arrangement would 
be similar to reprogramming, which would have you officially 
sign off on anything that we accepted. So you would get another 
cut at whatever it was that we're doing and what the purpose 
was for the funds--the grant. And so I'm not sure I can assuage 
all of those concerns, but I'm hopeful that I can. What we're 
trying to do, as our material suggests, is create a way to fund 
some things that aren't as traditional for Congress to fund, in 
terms of personnel development and training. We're an academic-
like institution. Our competition in town is the Fed and the 
World Bank, but our primary competition for Ph.D.s is the 
academic world. So if we could do things like accept people and 
give them a half-time schedule for the first 3 months to finish 
their dissertation--the Fed does that--if we could let them go 
outside for 2 or 3 months to another institution and do 
research, or collaborative research with someone--the Fed and 
others do that--we could be more competitive. So it is that 
kind of thing we're trying to do, as well as develop the 
ability to have more educational conferences on pertinent 
issues and the ability to bring in outside experts to help 
inform our assumptions about how the world works, because some 
of those folks have a better sense of the real world than we 
do.
    Senator Bennett. These are all salutary things. Why 
shouldn't the Congress just fund it?
    Mr. Crippen. It's possible that you might want to. Some of 
them, I just assumed, frankly, that you wouldn't want to or 
that some would be difficult to justify, especially in a tight 
budget environment--for instance, giving people a part-time 
schedule to go do something else or 3 months or 6 months off on 
a sabbatical-like arrangement. It is difficult, I understand, 
for you and for us to justify paying someone to not 
specifically do the job for which he or she was hired. So in 
that sense I think there are some things that this grant 
funding may be appropriate for, and certainly there is a 
willingness on the outside to fund them. But they could equally 
be justified for appropriated funds.
    Senator Bennett. My father used to say, ``We legislate at 
the highest level at which we can obtain a majority,'' and I'm 
not sure I could obtain a majority for this view, but my own 
view would be that we should fund this entirely out of the 
Congress and say, ``This is way things are done in this 
particular agency.''
    Mr. Crippen. We will develop a very specific proposal for 
what we have in mind and come back to you so you have a sense 
of that arrangement and the potential cost to the federal 
budget.
    Senator Bennett. Well, I will leave it at that.
    Mr. Crippen. In any event, foundation-like support would 
not be, in our view, a lot of money.
    Senator Bennett. It is not a lot of money, but the 
appearance of some kind of influence could be there, and also 
the sense that someone who funded this might look to CBO for 
recruits for their own staff later on and use the fact that 
they were a funder of it as a leverage to try to pry some of 
your people away. And if we said, no, this was all done by 
federal money----
    Mr. Crippen. Federal funding is certainly a much cleaner 
solution.
    Senator Bennett. All right. I think we have exhausted all 
of our concerns. If we have any more, or other members of the 
subcommittee have them, we'll be in touch with you in writing.
    Mr. Crippen. We'll be happy to respond any way you want.

                     ADDITIONAL COMMITTEE QUESTION

    Senator Bennett. Thank you very much for your testimony. 
Thank you for your public service. I know you could make more 
money, and maybe have more fun, on the outside.
    Mr. Crippen. Well, as we say, some days are better than 
others.
    Senator Bennett. That's true of elected officials, as well. 
Thank you.
    [The following question was not asked at the hearing, but 
was submitted to the Office for response subsequent to the 
hearing:]

            Question Submitted by Senator Robert F. Bennett

              CONGRESSIONAL BUDGET OFFICE EDUCATIONAL FUND

    Question. If the Congress were to provide appropriated funds to 
support the activities envisioned in your proposal to establish a CBO 
educational fund, instead of authorizing CBO to accept private 
donations, what new authority would be required and how much money 
would be needed in the first year.
    Answer. In the first year, CBO could effectively use $350,000 to 
carry out the activities under the new authority. This amount would 
fund six to eight highly specialized educational conferences attended 
by CBO employees and other legislative branch analysts; one highly 
competitive fellowship for an academic economist to perform targeted 
research while in residence at CBO; and one or two CBO employees' 
pursuit of long-term training or developmental work experience expected 
to benefit economic or budget-related work essential to CBO in 
accomplishing its mission. If successful, and deemed cost-effective, 
the program could grow modestly over a five-year period by perhaps 5 
percent per year in financial terms.
    Legislative language that could be used to fund this new authority 
with an appropriation rather than gifts follows.

          (a) The Director of the Congressional Budget Office may 
        establish and hereafter maintain an educational program 
        designed to advance the learning and capabilities of the 
        Congressional Budget Office to assist the Congress through 
        economic or financial forecasting, projections, and analyses, 
        and statistical studies and modeling.
          (b) Educational conferences concerning the work of the 
        Congressional Budget Office may be conducted in non-Government 
        facilities or in Government facilities under either the control 
        of the Congressional Budget Office or other agencies. The 
        Director, from appropriations or other funds available to the 
        agency, may pay all expenses necessary for attendance at 
        educational conferences by invited employees of the 
        Congressional Budget Office, employees of other agencies, or 
        non-Government personnel.
          (c) The Director may award fellowships to individuals and may 
        accept voluntary services of individuals without regard to 
        section 1342 of title 31, United States Code, to conduct 
        research in areas within the mission of the Congressional 
        Budget Office. The term of each fellow shall be for 1 year, and 
        may be renewed for a term of 1 additional year.
          (d) Research fellows under the fellows program shall, for 
        purposes of rules of ethics, including those related to 
        conflicts of interest and standards of conduct, be considered 
        to be employees of the House of Representatives. For purposes 
        of financial disclosure, such individuals shall be considered 
        to be officers or employees of the Congress under section 
        109(13) of the Ethics in Government Act of 1978 (5 U.S.C. app 
        4, Sec. 109(13)).
          (e) The Director may, by regulation, make applicable such 
        provisions of section 3396(c) of title 5, United States Code, 
        as the Director determines necessary to establish a program 
        providing opportunities for employees of the Office to engage 
        in study or work experience that will contribute to the 
        employees' development and effectiveness.

                          SUBCOMMITTEE RECESS

    Senator Bennett. Our next subcommittee meeting will be next 
Wednesday at 10 a.m. in Room 124 of the Dirkson Building. And 
testifying at that hearing will be the Senate Sargeant at Arms, 
the U.S. Capitol Police board, and the Office of Compliance.
    There being no further business, the subcommittee is 
recessed.
    [Whereupon, at 11:25 a.m., Thursday, May 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 16.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        WEDNESDAY, MAY 16, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett, Stevens, and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. JAMES W. ZIGLAR, SERGEANT AT ARMS AND 
            DOORKEEPER
ACCOMPANIED BY:
        LIZ McALHANY, DEPUTY SERGEANT AT ARMS
        RICK EDWARDS, ADMINISTRATIVE ASSISTANT

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Good morning to everyone. The subcommittee 
will come to order. It's a demonstration of the fact that 
people are a little more interested in us than they used to be 
because of the visitor's center. We have a little more 
attention. We require a bigger room.
    We meet today to take testimony from the Sergeant at Arms, 
Mr. James Ziglar, on the Sergeant at Arms fiscal year 2002 
budget request.
    This will be Mr. Ziglar's last appearance here, assuming a 
favorable report out of the Senate on his new assignment. We're 
not too anxious to see you leave, Jim, but I will vote for your 
confirmation in your new opportunity.
    He will then appear again as the chairman of the Capitol 
Police board followed by Chief James Varey.
    Finally, we'll hear from the new executive director of the 
Office of Compliance, Bill Thompson.
    We'll go forward in that order. Jim Ziglar, Sergeant at 
Arms, is requesting $135 million, an increase of $27.9 million 
over the current year. A substantial portion of this requested 
increase is attributable to technology requirements, the 
continued upgrades in the Recording Studio, data networks, and 
technology infrastructure. The total staffing of the Sergeant 
at Arms would increase by 24 employees to a total of 779.
    The additional employees coupled with pay raises for 
existing employees results in $4.3 million or 12 percent 
increase in the salary request.
    Mr. Ziglar, we welcome you here and look forward to what 
you have to tell us.
    Mr. Ziglar. Thank you, Mr. Chairman, and I'm very pleased 
to have the opportunity to be here to present the 2002 funding 
request for the Sergeant at Arms.
    I would like to introduce the two folks with me. To my 
right is Liz McAlhany, who I think most folks in the Senate 
know. Liz is now the new Deputy Sergeant at Arms. She took 
Loretta Symms' place.
    And I'm happy to report that Loretta is doing very well in 
retirement. I called her the other day, and she told me I was 
interfering with her reading a magazine, by calling. She's 
enjoying her retirement, and Liz has done a tremendous job by 
stepping into Loretta's shoes.
    Liz, notwithstanding her young looks, has been in the 
Senate for almost 24 years. She has done a little bit of 
everything in the Senate. She worked for a member, Senator 
Danforth, and she has over the years, among other things, been 
head of what we used to call the computer center--which has 
given her a real good handle on the technology issues--as well 
as head of the customer relations area.
    She was head of customer relations before coming over to be 
administrative assistant. When Loretta left, it was obvious 
that Liz was the right candidate to be the deputy, and she is 
just doing a terrific job. We're very pleased.
    To my left is Rick Edwards, somebody who is newer to the 
Senate. Rick came a couple of years ago. We recruited him out 
of the private sector to take over what we call Central 
Operations, which is one of the bigger management challenges 
we've had at the Sergeant at Arms operations. Rick did a 
terrific job there, and I'll talk a little bit about a couple 
of his accomplishments later.
    When the administrative assistant job opened up, he was the 
logical choice. He now has general management responsibilities 
in the Sergeant at Arms operation. He's doing a great job, and 
we're very pleased with Rick and his performance.
    As you mentioned, Mr. Chairman, it would appear that this 
is my last appearance before this committee, at least in terms 
of the Sergeant at Arms role, and I wanted to, before I launch 
off into some other things about the Sergeant at Arms, tell you 
how much of an honor it has been to serve you and your 
colleagues as Sergeant at Arms of the Senate. It is a unique 
job, certainly historically unique job, and there have been 
fewer Sergeants at Arms in history than there have been 
presidents. So I've been very honored to do that.
    I particularly want to express my appreciation to the many 
loyal, devoted employees in the Sergeant at Arms operation. 
They've been terrific to work with, very responsive, and 
they're dedicated and loyal to the Senate.
    Also, I want to express my appreciation to you and this 
committee for the support you've given the many initiatives 
I've thrown out to you in the last 2\1/2\ years.
    And also, although this is not the Rules Committee, I would 
like to express my appreciation on the record to the Rules 
Committee for their support of our many initiatives.
    We've accomplished a lot, I believe, in the last 2\1/2\ 
years, but none of that would have been possible without the 
support of this committee and the Rules Committee.
    Mr. Chairman, Senator Durbin, how are you, sir? I was just 
expressing my gratitude to you gentlemen and to the Senate for 
the opportunity to serve as Sergeant at Arms. And assuming I 
get confirmed, I won't be doing this testimony any more, but it 
has been a real pleasure and a real honor. And we appreciate 
your support and the committee's support throughout the last 
2\1/2\ years.

                           PREPARED STATEMENT

    Mr. Chairman, I have prepared testimony that I would like 
to have put in the record, if that's possible.
    Senator Bennett. Without objection.
    [The statement follows:]

                 Prepared Statement of James W. Ziglar

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today to present the fiscal year 2002 
funding request for the Office of the Sergeant at Arms and Doorkeeper. 
I am accompanied by: Liz McAlhany, Deputy Sergeant at Arms; and Rick 
Edwards, Administrative Assistant.
    Before discussing our fiscal year 2002 funding request, I would 
like to update the Committee on several of the major initiatives which 
we have undertaken during the past two years. Of course, none of these 
initiatives would have been possible or their implementation successful 
without the continued support of this Committee.
    During my tenure, I have attempted to instill a ``business 
approach'' in the Sergeant at Arms organization. We have looked into 
all facets of our operations and sought opportunities for improvement. 
We have left no stones unturned.
    We began our review with the SAA operating structure. The year 
prior to my arrival, the Sergeant at Arms had 827 FTE's and, in my 
view, too many layers of management. We performed ``Top down, bottom 
up'' reviews of every department and recognized that we could elevate 
performance and reduce our costs by transitioning the work environment 
from one that was hierarchal and redundant to one that is customer 
focused and process driven. We have eliminated two layers of management 
and seventy-two FTE's through consolidation and attrition, saving over 
$3,000,000 in annual salary expenses.
    We elevated expectations and standards of performance, holding our 
staff accountable for their actions. Our compensation plan was 
converted from one of entitlement to merit based. As a result, 
productivity has increased and quality has improved.
    Employee training and development have been key elements in 
changing our culture. We have emphasized leadership, team building, 
quality, and customer service as we increased the number of training 
programs by 25 percent. We developed and employees participated in an 
ongoing program entitled `` SAA C.A.R.E.S.,'' an acronym for Customers 
Always Require Excellent Service. SAA C.A.R.E.S. embraces ``best 
practices'' as we strive to create a work environment that encourages 
zero defects, while making the experience for those we serve as 
pleasant as possible.
    Operationally, we discovered some troubling realities. Policies, 
procedures and precedents were not readily available to those who 
needed them. As a result, we tasked each department to document all 
policies, procedures and precedents, and, now, a complete list of these 
are compiled within my office. Additionally, I was shocked to learn 
that a written, executable plan for continuing operations had not been 
prepared for the Senate should the Senate Chamber, the Capitol Building 
generally or the office buildings become uninhabitable. We have worked 
for the past two years with the U.S. Capitol Police, Architect of the 
Capitol, General Services Administration, and the Secretary of the 
Senate in developing and documenting a viable Continuation of 
Operations Plan (COOP). We anticipate that the plan will be in place 
within the next 60 to 90 days.
    We have made improvements in our operations that have a direct and 
immediate positive impact on the Senate offices we serve. One of the 
best examples involves Senate office mailing expenses. We were able to 
save Senate offices $1.7 million in postage expenses last year by being 
proactive in working with Senate staff in the design and addressing of 
mail. Mailing expenses will continue to decline during 2001. Our team 
members were able to secure, at no charge, surplus mail sorting 
equipment valued at $300,000 from the Department of the Navy. This 
equipment was installed during February of this year and, based on 
March and April performance, we have been able to further reduce 
average mailing costs of letters addressed to constituents by sixteen 
percent. This translates into estimated postage savings to Senate 
offices of an additional $250,000 annually.
    We are performing tasks that in the past were outsourced. A case in 
point is the Legislative Information System, where existing SAA 
employees have taken responsibility for daily maintenance, saving $2 
million annually.
    Financially, we have taken an all encompassing approach, looking at 
both the short term and the long term. When I arrived here, we had no 
executive level process for tracking actual versus budgeted expenses on 
a monthly basis. We now generate monthly financial reports and conduct 
monthly review meetings with each department director to ensure that we 
are upholding our commitments to the Senate community. We have 
instituted an ``evergreen'' budget process that requires those same 
directors to forecast expenses for each of the next five years. The 
evergreen budget is a high level tool for forecasting future needs. It 
is used to identify the systems to be modernized; the cost of 
modernization; the priority for modernization; and the schedule for 
implementation.
    As part of our long range planning process, we are moving to 
actively manage the upgrade or replacement of every major asset, system 
and network. In some cases, capacity utilization will drive 
replacements; in others, expanded service offerings; in yet others, new 
technology may render the existing systems too costly and obsolete. We 
are developing a program for a more systematic and rational cycle to 
avoid large technological and service leaps, which are then followed by 
a standstill period until another critical mass develops and another 
quantum leap in infrastructure improvements is required. We need to do 
a better job of anticipating the Senate's needs. I believe that a well 
developed and well executed asset replacement program is an important 
tool for managers.
    We have adopted a project management approach to presenting our 
proposals to this Committee and to the Committee on Rules and 
Administration. We study the underlying problem, develop a project plan 
that solves the problem, obtain cost estimates and time frames on the 
plan components and make the business case for our recommendations. 
Both this Committee and the Rules Committee should expect that we will 
always come prepared to justify our project initiatives and convey 
their value to the Senate.
    We have reviewed our ongoing operations to find opportunities to 
perform our tasks better, faster and in a less expensive manner. For 
example, we have requested proposals from vendors seeking a better deal 
on existing contracts. We recently signed contracts with our 
correspondence management system vendors which have resulted in annual 
savings of up to thirty percent of our annual maintenance costs. 
Recently, we replaced a highly customized financial system with off-
the-shelf software that has elevated staff productivity while reducing 
maintenance and support costs by $100,000 annually.
    We have taken steps to simplify our acquisition process. Purchase 
orders generated by the SAA cost approximately $100 to process, 
regardless of dollar value. Often, the cost to create a purchase order 
was greater than the item to be purchased. We now use a credit card for 
purchases under $1,500, thereby saving $50,000 annually. Additionally, 
we have consolidated maintenance agreements with our vendors, thereby 
reducing the number of purchase orders that are being generated.
    We are drafting better Requests For Proposals (RFPs), clearly 
defining expectations and holding suppliers accountable for their 
performance. A good example was the recent acquisition of our 
electronic printing equipment where we negotiated one year maintenance 
warranties versus the traditional 90-day warranties, saving 
approximately $145,000. Additionally, price increases for maintenance 
contracts are now tied to the Producer Price Index (PPI). This has 
limited our exposure regarding the amount that vendors can charge for 
their services and is contrasted to the past practice of allowing the 
suppliers to arbitrarily set prices. Furthermore, the past strategy in 
acquiring printing and photocopy equipment was ``lease to buy.'' We 
have opted to purchase this equipment, thereby avoiding interest 
charges and saving over $900,000 during the next five years.
    The Senate's systems and infrastructure have presented, and will 
continue to present, significant challenges. Beginning with the entire 
Y2K effort almost two years ago, and continuing through the end of the 
last fiscal year, we have worked with this Committee to identify 
opportunities that would enable the Senate to make significant 
improvements in its system and services. Since then, we have begun to 
migrate the Senate Recording Studio to an all digital format and will 
complete the first phase of the project during the summer recess.
    We have been working closely with the Senate Committee on Rules and 
Administration, the Appropriations Committee, and a number of Senate 
offices on the major technology project to replace the Senate's 
electronic mail system, cc:Mail. With the exploding number of 
electronic mail messages being sent to and from the Senate, we believe 
this technology upgrade needs to be completed as soon as possible. The 
direction of this project has changed dramatically during this year 
and, once we have completed a thorough test of the proposed 
architecture, we will begin implementing the new system, based on 
Microsoft's products, Exchange and Outlook.
    In the photocopy, printing and graphics area, we made a timely and 
forceful move to replace outdated equipment with an electronic printing 
network that will connect Senate PC's to our copy centers, enabling 
Senate staff to send electronic files much as they send documents to a 
printer located on their desk. Currently, most of our copiers do not 
have networking capabilities and original hard copy documents must be 
physically delivered to the copy centers for duplication. This project 
will create a modern high speed network between all copy centers and 
Senate desktop workstations by connecting the equipment to the Senate 
Data Communications Network, thus reducing labor requirements 
throughout the Senate and the Sergeant at Arms operation. Digital 
electronic printers will replace copiers and enable all reproduced 
printed matter to be originals, eliminating the normal degradation 
associated with photocopy technology. The digital printers will have 
other advanced automated features that will improve quality and 
efficiency, while reducing turnaround time.
    This brings me to a point that I would like to reiterate. Much of 
what we do adds to the productivity of member and committee staff. For 
example, a few of the systems and services that we have deployed or 
will shortly deploy that will greatly increase the productivity of 
office staff include: the electronic printing network already mentioned 
will offer a better quality product with reduced effort on the part of 
office staff; an e-mail filtering system will enable offices to filter 
and categorize hundreds or thousands of e-mail messages based on set 
criteria instead of having to review each individual message to 
determine an appropriate first response; anti-virus software can now be 
updated in a more centrally managed process, over ninety offices having 
taken advantage of this capability enabling office system 
administrators to update all anti-virus software at once; and we have 
developed a process for preparing press releases for posting on member 
office web sites.
    We have elevated the performance of our technology team. A case in 
point is the Senate.gov web site that our employees created. These 
technical professionals received a Federal Design Achievement Award 
from the National Endowments for the Arts, only one of two government 
web sites so recognized. The award noted that:

          The new Senate website humanizes the venerable institution of 
        the U.S. Senate by making its everyday activities and rich 
        history readily accessible to the public. Three objectives 
        guided the designers in creating the site: (1) to provide a 
        gateway to the home pages of individual Senators, (2) to make 
        it easy to find legislative information, and (3) to serve as a 
        library for the vast historical, art, and architectural 
        archives of the Senate.
          The multi-layered site provides a broad range of useful 
        information, from the Senate's calendar of activities to 
        information on the status of current bills and treaties.
          It also provides interesting historical facts . . . and seeks 
        to dispel several myths. And through the virtual tour--the 
        viewer can explore the U.S. Capitol without ever leaving home.

    We have been doing our work with a smaller work force. Seventy-two 
fewer authorized FTE's than when I arrived. Last year, we put in place 
a program to reduce staffing levels and have eliminated much of the fat 
that had existed. We have achieved the objectives of that plan. This 
year, you will note an increase in our request for authorized staffing 
and necessary funding. These increases largely are targeted toward 
specific network and systems maintenance functions which are critical 
to providing the Senate with secure, efficient networks and 
applications. At this point, I would like to ask my Deputy, Liz 
McAlhany, to discuss the details of the major projects that the Senate 
has tasked us to complete, as well as the details and initiatives 
contained in the 2002 budget.
    Thank you, Jim. Mr. Chairman and Members of the Committee, I too 
appreciate the opportunity to appear before you today. The new 
technologies that Jim has referenced are not the only major initiatives 
that we are addressing.
    As Jim noted earlier, the Senate has approved a new electronic mail 
system. This system ultimately will affect every office and committee 
and every Senate employee. This is a major undertaking to replace a 
critical system. E-mail traffic into and out of the Senate has 
increased sixfold in the past two years. Web sites with easy to use 
mailing lists or forwarding capabilities have proliferated and created 
large mail volumes of unpredictable frequency on a wide variety of 
issues. We see no end to this and are prepared to handle greater 
volumes. In January we could process 20,000 messages per hour. Today we 
can process 50,000 messages per hour; in June we will have the capacity 
to process 75,000 messages per hour.
    We have increased the capacity of the computers that first receive 
incoming e-mail and we are developing and testing an e-mail product 
that is designed to filter and categorize incoming messages to Senate 
offices. This system will enable offices to efficiently reply to these 
messages in the manner most appropriate to each office's practices.
    Converting the Senate Recording Studio to a digital format is a 
significant undertaking. The five phase plan begins this year with the 
conversion of the Senate Television to High Definition Television and 
the installation of an audio/video/text browsing system on the 
Intranet. Both projects will be completed this fall. The second year of 
the plan will focus on the studio, news servers for editing playback, 
and the first of three phases of the centralized control facility. This 
facility will enable the studio to meet the requirements of the Senate 
for supporting committee broadcasts and multimedia. The third year will 
be to convert the radio operation to digital technology and complete 
phase two of the centralized control facility. The fourth year of the 
plan will be for the final phase of the centralized control station 
deployment and the design and purchase of equipment for the studio 
control stations and core facility. The fifth year will be for the 
installation of the studio control stations and core facility. Because 
our experience leads us to believe that we have the capability to 
accelerate the project, we are requesting funding in fiscal year 2002 
to cover the second and third years of the five year plan.
    In developing the Budget Request before the Committee, we 
recognized that significant challenges lie ahead. We must complete the 
implementation and delivery of the Recording Studio and printing 
upgrade projects. We must complete the e-mail system on time and within 
our budget. Finally, we must put in place the infrastructure, in 
staffing levels and skills and in equipment, to operate, monitor and 
maintain these increasingly complex systems in a secure and effective 
manner.
    I would like to discuss the philosophy of our budget process and 
then the details of the fiscal year 2002 Budget Request.
    The Fiscal year 2002 Budget Request was constructed from the bottom 
up with every line-item examined in detail. We view the budget as an 
active management tool to help us achieve our broader financial and 
operating goals.
    In order to help us understand and manage our cost structure and 
our operations, we divided the budget into four distinct types of 
costs, a practice that we instituted for the fiscal year 2001 budget: 
General Operations and Maintenance, Mandated Allowances &amp; Allotments, 
Technology Capital Investment and Nondiscretionary Items. Each of these 
budget areas cover a distinct component of the SAA operations.
    Our Budget Request reflects the needs and requests of our Senate 
customers. Members of the Senate, individually and collectively, 
continue to make clear to us that they require a modern technological 
infrastructure to support the operations of their offices. They have 
requested additional network capacity in Washington, D.C. and the state 
offices, an improved messaging infrastructure, enhanced information 
systems and physical security, integration of the Internet e-mail with 
the Correspondence Management Systems, and office productivity tools. 
Our Budget Request includes funding for these and other initiatives to 
satisfy the Senate's requirements.
                    fiscal year 2002 budget request

 OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE--EXECUTIVE SUMMARY
                         [Dollars in thousands]
------------------------------------------------------------------------
                                     TOTALS         Variance Fiscal Year
                             ---------------------- 2002 vs. Fiscal Year
                                                            2001
                                Fiscal     Fiscal  ---------------------
                              Year 2001  Year 2002              Percent
                                Budget    Request     Amount     Incr/
                                                                 (Decr)
------------------------------------------------------------------------
General Operations &amp;
 Maintenance:
    Salaries................    $34,811    $39,082     $4,271       12.3
    Expenses................     19,767     21,544      1,777        9.0
                             -------------------------------------------
      Total General              54,578     60,626      6,048       11.1
       Operations &amp;
       Maintenance..........
                             ===========================================
Mandated Allowances &amp;            42,245     49,952      7,707       18.2
 Allotments.................
Technology Capital                7,710     21,433     13,723      178.0
 Investment.................
Nondiscretionary Items......      2,589      2,975        386       14.9
                             -------------------------------------------
      TOTAL.................    107,122    134,986     27,864       26.0
                             ===========================================
Staffing....................        755        779         24        3.2
------------------------------------------------------------------------

    The total budget request for fiscal year 2002 is $134,986,000, up 
$27,864,000 or 26.0 percent. This significant increase continues the 
programs to upgrade our Recording Studio, data networks and technology 
infrastructure. Funding also is requested to provide improved support 
to state offices in security, equipment and services. This request 
includes the addition of 24 FTE's needed primarily to operate, maintain 
and monitor our state office and D.C. networks and our enterprise-wide 
applications on a round the clock basis.
    We are requesting that funds in the amount of $11,354,000 for the 
Recording Studio digital technology upgrade and relocation remain 
available until expended; and that funds in the amount of $8,654,000 
for the purchase of computer equipment and software for member offices 
and committees remain available for obligation until September 30, 
2004.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Technology Capital Investment and Nondiscretionary Items.
    General operations and maintenance salaries will increase 
$4,271,000 or 12.3 percent to $39,082,000. The increase is to fund 
positions ($1,369,000) that were authorized but not adequately funded 
in the fiscal year 2001 salary appropriation, add 24 new positions 
($1,305,000) in fiscal year 2002, and award a COLA ($1,597,000). 
Staffing will increase from 755 to 779, including 16 in the Technology 
Development Services Division to maintain the data network, new e-mail 
systems, mainframe computer and central servers; to maintain the 
integrity and security of Senate data; and other initiatives.
    General operations and maintenance expenses for existing and new 
services will increase $1,177,000 or 9.0 percent to $21,544,000. The 
increase is to fund support to monitor and maintain the throughput and 
security of our networks ($600,000); software maintenance for the new 
mainframe computer and central servers, and tech support for the 
financial system database ($506,000); higher costs of the Senate 
Information Services program ($387,000); and improved service levels 
for desktop computer help desk and support ($334,000).
    Mandated allowances and allotments for computers, mail systems, 
copiers, telephones and state offices will increase $7,707,000 or 18.2 
percent to $49,952,000. The increase is to fund new mail systems 
($1,950,000); a digital technology upgrade for the RPC and DPC studios 
($1,800,000); increased rents in state offices ($1,246,000); state 
office security enhancements ($1,744,000); and expanded telecom 
services consisting of new phone sets and voice mail services in state 
offices ($850,000).
    Technology capital investment will increase $13,723,000 or 178.0 
percent to $21,433,000. The fiscal year 2002 request funds the 
Recording Studio digital upgrade project ($9,254,000), temporary 
relocation of the Studio during construction of the Capitol Visitor 
Center ($2,100,000); continued upgrades of the state office wide area 
network ($1,550,000) and the Capitol Hill network ($2,025,000); upgrade 
Senate telephone services in D.C. ($1,250,000); begin implementation of 
the operations recovery plan ($500,000); data storage, back up and 
disaster recovery initiatives ($492,000); improve data security 
($300,000); and various other projects.
    Nondiscretionary Items will increase $386,000 or 14.9 percent to 
$2,975,000. The increase is to fund operational support for the 
Financial Management Information system ($470,000), which was partially 
offset by a decrease in Legislative Information System enhancements 
($84,000). Nondiscretionary items support initiatives that are funded 
by the Sergeant at Arms but managed by other entities.
             fiscal year 2002 budget request by department
    The following is a summary of the SAA's fiscal year 2002 budget 
request on an organizational basis.

                         [Dollars in thousands]
------------------------------------------------------------------------
                                     TOTALS         Variance Fiscal Year
                             ---------------------- 2002 vs. Fiscal Year
                                                            2001
         Department             Fiscal     Fiscal  ---------------------
                              Year 2001  Year 2002              Percent
                                Budget    Request     Amount     Incr/
                                                                 (Decr)
------------------------------------------------------------------------
Central Operations..........     $8,925     $9,480       $555        6.2
Technology Development......     19,930     25,807      5,877       29.5
IT Support Services.........     35,433     40,486      5,053       14.3
Office Support..............     23,418     26,484      3,066       13.1
Capitol Division............     14,214     27,302     13,088       92.1
Staff Offices...............      5,202      5,427        225        4.3
                             -------------------------------------------
      TOTAL.................    107,122    134,986     27,864       26.0
------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.

                           CENTRAL OPERATIONS
                         [Dollars in thousands]
------------------------------------------------------------------------
                                     TOTALS         Variance Fiscal Year
                             ---------------------- 2002 vs. Fiscal Year
                                                            2001
     Central Operations         Fiscal     Fiscal  ---------------------
                              Year 2001  Year 2002              Percent
                                Budget    Request     Amount     Incr/
                                                                 (Decr)
------------------------------------------------------------------------
General Operations &amp;
 Maintenance:
    Salaries................     $6,577     $7,037       $460        7.0
    Expenses................      2,348      2,443         95        4.0
                             -------------------------------------------
      Total General               8,925      9,480        555        6.2
       Operations &amp;
       Maintenance..........
                             ===========================================
Mandated Allowances &amp;                 0          0          0        0.0
 Allotments.................
Technology Capital                    0          0          0        0.0
 Investment.................
Nondiscretionary Items......          0          0          0        0.0
                             -------------------------------------------
      TOTAL.................      8,925      9,480        555        6.2
                             ===========================================
Staffing....................        167        164         -3       -1.8
------------------------------------------------------------------------
The Central Operations Department consists of the Printing, Graphics and
  Direct Mail, Parking and ID, and Hair Care Services branches.

    Operations and Maintenance Salaries will increase $460,000 or 7.0 
percent to $7,037,000. The increase is to fund positions ($292,000) 
that were authorized but not adequately funded in the fiscal year 2001 
salary appropriation and award a COLA ($302,000). These increases were 
partially offset by a reduction of three positions ($134,000) in fiscal 
year 2002, two in Fleet Operations as a result of reconfiguring the 
workforce, and one from Printing and Mailing Services, due to 
efficiencies from new equipment. Overall staffing in fiscal year 2002 
will decline by three to 164. Staffing includes 10 positions in Senate 
Hair Care Services in fiscal year 2000 and 11 in fiscal year 2001 and 
fiscal year 2002. The salaries for these positions are paid from a 
revolving fund.
    Operations and Maintenance Expenses will increase $95,000 or 4 
percent to $2,443,000. The increase is to fund the purchase of a new 
truck ($52,000) that will replace a 14 year old vehicle, and the 
maintenance of new equipment in Printing, Graphics and Direct Mail that 
was purchased at the end of fiscal year 2000 and was under warranty in 
fiscal year 2001.

                     TECHNOLOGY DEVELOPMENT SERVICES
                         [Dollars in thousands]
------------------------------------------------------------------------
                                     TOTALS         Variance Fiscal Year
                             ---------------------- 2002 vs. Fiscal Year
                                                            2001
   Technology Development       Fiscal     Fiscal  ---------------------
          Services            Year 2001  Year 2002              Percent
                                Budget    Request     Amount     Incr/
                                                                 (Decr)
------------------------------------------------------------------------
General Operations &amp;
 Maintenance:
    Salaries................     $5,837     $7,709     $1,872       32.1
    Expenses................      8,444      9,621      1,177       13.9
                             -------------------------------------------
      Total General              14,281     17,330      3,049       21.4
       Operations &amp;
       Maintenance..........
                             ===========================================
Mandated Allowances &amp;                 0          0          0        0.0
 Allotments.................
Technology Capital                3,060      5,502      2,442       79.8
 Investment.................
Nondiscretionary Items......      2,589      2,975        386       14.9
                             -------------------------------------------
      TOTAL.................     19,930     25,807      5,877       29.5
                             ===========================================
Staffing....................         94        110         16       17.0
------------------------------------------------------------------------
The Technology Development Services Department consists of the
  Engineering, Enterprise IT Systems, Applications Development, Internet/
  Intranet and Information Security Systems branches.

    Operations and Maintenance Salaries will increase by $1,872,000 or 
32.1 percent to $7,709,000. The increase is to fund positions that were 
authorized but not adequately funded in the fiscal year 2001 salary 
appropriation ($417,000), a COLA ($331,000) and 16 new positions 
($1,124,000). These additional positions are targeted to meet critical 
network operations and security needs as well as support existing or 
enhanced service levels in the applications area. Overall staffing in 
fiscal year 2002 increases to 110 from 94.
    Operations and Maintenance Expenses will increase $1,177,000 or 
13.9 percent to $9,621,000. The increase is for Network Operations 
($193,000), Enterprise Systems Support ($506,000) and Information 
Services ($387,000): (a) Network operations will increase to obtain 
contract resources to maintain and monitor day-to-day operations and 
upgrade equipment; (b) Enterprise Systems Support will increase to fund 
the higher costs of software licenses, maintenance, and a new platform 
for the upgraded mainframe computer; for additional products to support 
the FMIS Web enabling project on the mainframe; and new database 
software for the central servers (Web, e-mail and information 
services); and (c) Information Services will increase to fund higher 
service costs.
    Technology Capital Investment will increase $2,442,000 or 79.8 
percent to $5,502,000. The major projects are continued expansion of 
the upgrades to the State Office Wide Area Network ($1,550,000) and the 
Capitol Hill network and infrastructure ($2,025,000); upgrade Senate 
telephone services in D.C. ($1,250,000); and several Enterprise 
Operations data storage, back up and disaster recovery initiatives 
($492,000).
    Nondiscretionary items will increase $386,000 or 14.9 percent to 
$2,975,000. The increase is due to a $470,000 increase in FMIS 
operational support. This item was partially offset by an $84,000 
decrease in Legislative Information System budget due to a scaling back 
of planned enhancements for fiscal year 2002.

                                               IT SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                           TOTALS          Variance Fiscal Year
                                                                   ----------------------  2002 vs. Fiscal Year
                                                                                                   2001
                        IT Support Services                           Fiscal     Fiscal  -----------------------
                                                                    Year 2001  Year 2002                Percent
                                                                      Budget    Request     Amount       Incr/
                                                                                                        (Decr)
----------------------------------------------------------------------------------------------------------------
General Operations &amp; Maintenance:
    Salaries......................................................     $4,693     $5,318       $625        13.3
    Expenses......................................................      6,456      6,840        384         5.9
                                                                   ---------------------------------------------
      Total General Operations &amp; Maintenance......................     11,149     12,158      1,009         9.1
                                                                   =============================================
Mandated Allowances &amp; Allotments..................................     20,584     25,301      4,717        22.9
Technology Capital Investment.....................................      3,700      3,027       (673)      (18.2)
Nondiscretionary Items............................................          0          0          0         0.0
                                                                   ---------------------------------------------
      TOTAL.......................................................     35,433     40,486      5,053        14.3
                                                                   =============================================
Staffing..........................................................         99        101          2         2.0
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Desktop/LAN Support, IT/Telecom Support, IT Research and
  Deployment, and Equipment Services branches.

    Operations and Maintenance Salaries will increase by $625,000 or 
13.3 percent to $5,318,000. The increase is to fund positions that were 
authorized but not adequately funded in the fiscal year 2001 salary 
appropriation ($295,000), add two positions in fiscal year 2002 
($102,000) and fund a COLA ($228,000). The two additional positions 
will support expanded services in the Office Equipment Division and an 
increase in the number of CMS systems to four from the current two. 
Staffing increases to 101 in fiscal year 2002.
    Operations and Maintenance Expenses will increase $384,000 or 5.9 
percent to $6,840,000. The increase is primarily due to a $334,000 
contractual increase in desktop computer help desk and support costs 
due to higher service standards.
    Mandated Allowances and Allotments will increase by $4,717,000 or 
22.9 percent to $25,301,000. The increase is to fund new Correspondence 
Management Systems (CMS) for Members ($1,950,000); a digital technology 
upgrade for the RPC and DPC studios ($1,800,000); and new 
telecommunications services ($850,000) consisting of new phone sets for 
state offices ($650,000) and three additional voice mailboxes for state 
offices ($200,000).
    Technology Capital Investment will decline $673,000 or 18.2 percent 
to $3,027,000. The fiscal year 2002 request funds support for the new 
e-mail system ($1,777,000); the Internet E-Mail filtering system, to 
filter and categorize incoming e-mails to member offices and forward 
them to the CMS system ($350,000); enhanced security software 
($300,000); and several web-based applications and services ($350,000).

                                             OFFICE SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                           TOTALS          Variance Fiscal Year
                                                                   ----------------------  2002 vs. Fiscal Year
                                                                                                   2001
                      Office Support Services                         Fiscal     Fiscal  -----------------------
                                                                    Year 2001  Year 2002                Percent
                                                                      Budget    Request     Amount       Incr/
                                                                                                        (Decr)
----------------------------------------------------------------------------------------------------------------
General Operations &amp; Maintenance:
    Salaries......................................................     $1,628     $1,786       $158         9.7
    Expenses......................................................        129         47        (82)      (63.6)
                                                                   ---------------------------------------------
Total General Operations &amp; Maintenance............................      1,757      1,833         76         4.3
                                                                   =============================================
Mandated Allowances &amp; Allotments..................................     21,661     24,651      2,990        13.8
Technology Capital Investment.....................................          0          0          0         0.0
Nondiscretionary Items............................................          0          0          0         0.0
                                                                   ---------------------------------------------
      TOTAL.......................................................     23,418     26,484      3,066        13.1
                                                                   =============================================
Staffing..........................................................         30         30          0         0.0
----------------------------------------------------------------------------------------------------------------
The Office Support Services Department consists of the Customer Support, Help and IT Request Processing, and
  State Office Liaison branches.

    Operations and Maintenance Salaries will increase $158,000 or 9.7 
percent to $1,786,000. The increase is to fund positions that were 
authorized but not adequately funded in the fiscal year 2001 salary 
appropriation ($100,000) and a COLA ($57,000). Staffing will remain at 
30 in fiscal year 2002.
    Operations and Maintenance Expenses will decrease by $82,000 or 
63.6 percent to $47,000. This reflects the completion of the office 
profile system.
    Mandated Allowances and Allotments will increase $2,990,000 or 13.8 
percent to $24,651,000. An increase of $1,246,000 is to fund increased 
rents for state offices due to a tighter real estate market. The 
remaining part of the variance consists of $1,744,000 for security 
improvements in state offices. Included in the budget request is 
$8,654,000 of three-year money to fund computer equipment for members, 
leadership, committees, and officers.

                                                CAPITOL DIVISION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                           TOTALS          Variance Fiscal Year
                                                                   ----------------------  2002 vs. Fiscal Year
                                                                                                   2001
                         Capitol Division                             Fiscal     Fiscal  -----------------------
                                                                    Year 2001  Year 2002                Percent
                                                                      Budget    Request     Amount       Incr/
                                                                                                        (Decr)
----------------------------------------------------------------------------------------------------------------
General Operations &amp; Maintenance:
    Salaries......................................................    $11,922    $12,947     $1,025         8.6
    Expenses......................................................      1,492      1,451        (41)       (2.7)
                                                                   ---------------------------------------------
      Total General Operations &amp; Maintenance......................     13,414     14,398        984         7.3
                                                                   =============================================
Mandated Allowances &amp; Allotments..................................          0          0          0         0.0
Technology Capital Investment.....................................        800     12,904     12,104     1,513.0
Nondiscretionary Items............................................          0          0          0         0.0
                                                                   ---------------------------------------------
      TOTAL.......................................................     14,214     27,302     13,088        92.1
                                                                   =============================================
Staffing..........................................................        297        307          9         3.0
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, Program Management and Systems Architecture, Facilities,
  Galleries, Recording Studio, Photo Studio and Post Office.

    Operations and Maintenance Salaries will increase $1,025,000 or 8.6 
percent to $12,947,000. The increase is to fund positions that were 
authorized but not adequately funded in the fiscal year 2001 salary 
appropriation ($271,000), add new positions in fiscal year 2002 
($213,000), and fund a COLA ($541,000).
    Operations and Maintenance Expenses will decrease by $41,000 or 2.7 
percent to $1,451,000. A $100,000 increase for the Recording Studio to 
fund video streaming of committee hearing broadcasts was offset by a 
$142,000 decline in Program Management and Systems Architecture from 
the reduced use of outside consultants.
    Technology Capital Investment will increase to $12,904,000 from 
$800,000 in fiscal year 2001. This is to fund the Digital Technology 
Migration project ($9,254,000), Studio Relocation ($2,100,000) and 
Emergency Response Plan ($150,000) projects for the Recording Studio. 
The studio will be required to move in connection with the construction 
of the Capitol Visitor Center. The Emergency Response initiative, part 
of the Continuation of Operations Plan (COOP), will provide the needed 
equipment to broadcast Senate Floor coverage should the proceedings be 
relocated to another venue. We are requesting that the $11,354,000 for 
the Recording Studio Digital Migration and relocation projects be 
designated as no-year funds. In addition, the Program Management and 
Systems Architecture department has requested $800,000 for continued 
support for the APT system for this Committee; $500,000, to develop and 
implement an emergency preparedness plan; and $100,000, to develop, 
implement and revise the Senate's information security policy and 
procedures.

                                                  STAFF OFFICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                           TOTALS          Variance Fiscal Year
                                                                   ----------------------  2002 vs. Fiscal Year
                                                                                                   2001
                           Staff Offices                              Fiscal     Fiscal  -----------------------
                                                                    Year 2001  Year 2002                Percent
                                                                      Budget    Request     Amount       Incr/
                                                                                                        (Decr)
----------------------------------------------------------------------------------------------------------------
General Operations &amp; Maintenance:
    Salaries......................................................     $4,154     $4,285       $131         3.2
    Expenses......................................................        898      1,142        244        27.2
                                                                   ---------------------------------------------
      Total General Operations &amp; Maintenance......................      5,052      5,427        375         7.4
                                                                   =============================================
Mandated Allowances &amp; Allotments..................................          0          0          0         0.0
Technology Capital Investment.....................................        150          0       (150)     (100.0)
Nondiscretionary Items............................................          0          0          0         0.0
                                                                   ---------------------------------------------
      TOTAL.......................................................      5,202      5,427        225         4.3
                                                                   =============================================
Staffing..........................................................         68         68          0         0.0
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Human Resources, Financial Management and Special
  Projects.

    Operations and Maintenance Salaries will increase $131,000 or 3.2 
percent to $4,285,000. The increase is to fund a COLA. Staffing will 
remain at 68.
    Operations and Maintenance Expenses will increase $244,000 or 27.2 
percent to $1,142,000. The increase is due to the pre-placement and 
return-to-work medical guidelines initiative in Human Resources 
($195,000) and maintenance and enhancements for the budget preparation 
system ($50,000) in Financial Management. The medical guidelines will 
ensure that persons selected to fill physically demanding positions in 
the SAA are capable of doing so and SAA employees returning from 
medical leave are physically able to perform their jobs. We expect that 
our workmen's compensation claims will decrease over time as a result 
of the guidelines.

                                           FISCAL YEAR 2002 CROSSWALK
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                               IT
        Expenditure Type            Central    Technology   Support     Office    Capitol     Staff      TOTAL
                                  Operations  Development   Services   Support    Division   Offices
----------------------------------------------------------------------------------------------------------------
General O&amp;M:
    Salaries....................       7,037       7,709       5,318      1,786     12,947      4,285     39,082
    Expenses....................       2,443       9,621       6,840         47      1,451      1,142     21,544
                                 -------------------------------------------------------------------------------
      Total General O&amp;M.........       9,480      17,330      12,158      1,833     14,398      5,427     60,626
                                 ===============================================================================
Mandated Allowances and                    0           0      25,301     24,651          0          0     49,952
 Allotments.....................
Technology Capital Investment...           0       5,502       3,027          0     12,904          0     21,433
Nondiscretionary Items..........           0       2,975           0          0          0          0      2,975
                                 -------------------------------------------------------------------------------
      TOTAL.....................       9,480      25,807      40,486     26,484     27,302      5,427    134,986
----------------------------------------------------------------------------------------------------------------


                                           FISCAL YEAR 2001 CROSSWALK
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                               IT
        Expenditure Type            Central    Technology   Support     Office    Capitol     Staff      TOTAL
                                  Operations  Development   Services   Support    Division   Offices
----------------------------------------------------------------------------------------------------------------
General O&amp;M:
    Salaries....................       6,577       5,837       4,693      1,628     11,922      4,154     34,811
    Expenses....................       2,348       8,444       6,456        129      1,492        898     19,767
                                 -------------------------------------------------------------------------------
      Total General O&amp;M.........       8,925      14,281      11,149      1,757     13,414      5,052     54,578
                                 ===============================================================================
Mandated Allowances and                    0           0      20,584     21,661          0          0     42,245
 Allotments.....................
Technology Capital Investment...           0       3,060       3,700          0        800        150      7,710
Nondiscretionary Items..........           0       2,589           0          0          0          0      2,589
                                 -------------------------------------------------------------------------------
      TOTAL.....................       8,925      19,930      35,433     23,418     14,214      5,202    107,122
----------------------------------------------------------------------------------------------------------------

    Mr. Ziglar. As I have in the past, I will simply make some 
comments, some of which are from my notes, to expand on that 
testimony, if that's okay.
    Senator Bennett. That's fine. Let me take the opportunity 
to welcome these two to their first experience with the 
committee. And thank you for your willingness to serve.
    I should also note that Carrie Apostolou has joined the 
subcommittee as our chief clerk. We're a little hard on clerks. 
Jay Kimmitt was here and just getting started when he had the 
same experience you did, Mr. Ziglar. Somebody came along with a 
better offer.
    And we're going to miss Jay as we miss Christine Ciccone 
who was the clerk of this committee for a good long time.
    But we wish him well and appreciate the service that he 
performed. We're delighted that Carrie has been willing to take 
this on. We've stolen her from the VA-HUD subcommittee where 
she has served long and well. But we're delighted that she's 
willing to do this for us, and you will see the excellence of 
her preparation today as we ask you very penetrating questions 
to help dig up----
    Mr. Ziglar. And Liz and Rick will be happy to answer them.
    Senator Bennett. While we have made this break, I do 
recognize Senator Durbin who has come in. And, Senator, if you 
have an opening statement, now is the time to do it.
    Senator Durbin. Thank you very much. I just want to say to 
Jim Ziglar thank you for your service to the United States 
Senate. Your new assignment, as I mentioned on the floor, is a 
piece of cake. I think it's one of the most challenging 
assignments in the Federal Government. As I said, you're 
certainly the person for that job.
    You've handled this one with true non-partisanship and 
professionalism, and I thank you for your service to the 
Senate.
    Mr. Ziglar. Thank you, Senator.
    Senator Bennett. Mr. Ziglar, you may now proceed.
    Mr. Ziglar. Senator, I would like to, without trying to 
parse your words, because Jay and I talked just a second before 
we started, neither of us are going to necessarily better 
opportunities. We are going to different opportunities and new 
challenges. Serving the Senate--there's probably no better 
opportunity around--and I think Jay's shaking his head in 
agreement that that's the case.
    As I prepare to leave here I hope that I'm leaving the 
Sergeant at Arms operation in a somewhat better situation, a 
little bit better than the way I found it.
    Over the last couple of years we've attempted to bring a 
more businesslike approach to the way we do business, and I 
hope you saw that, Senator, in the fact that we got the phone 
book to you this year before the hearing.
    Senator Bennett. Duly noted.
    Mr. Ziglar. We've managed over the last couple of years to 
eliminate two layers of management that were just duplicative. 
We've also been able to reduce our FTEs by 10 percent. This was 
done, even though I can tell you that we have been providing a 
greater number of services, and we think and we hope that the 
level of the service we have provided has been better. After 
all, what Sergeant at Arms is all about is service.
    I'm sorry, I really--I'm not going to use the chart so why 
don't you just go ahead and set it out.
    I believe that the reasons that we are more productive are 
because of several things. One, we have implemented an 
accountability and merit pay system in our work force that has 
provided incentives to people to do their job better.
    We, as part of that, for example, changed the leave accrual 
system in a way that would encourage people to not be absent as 
much. And, in fact, it has resulted, for example, in the 
Central Operations area which was the place that we had the 
biggest problem with absenteeism.
    Absenteeism has dropped 40 percent as a result of some of 
the changes we have put in place. We have gotten a much more 
productive, motivated and incentivized, if you will, work force 
as a result of some of those personnel changes that we've made.
    We've taken steps to provide our employees with more 
training and career development. The one thing that I know that 
you know, Senator, having been in the private sector, is that 
if employees see that they have an opportunity to better their 
skills which put them in a better position for promotions and 
raises and things like that, morale goes up.
    What we have attempted to do is expand our training and 
expand our career development steps in the Sergeant at Arms 
operation.
    I have an uncle that you know, Zig Ziglar, who is kind of 
an icon in the training industry. I've followed his philosophy, 
and I've tried to instill that philosophy into the Senate. That 
is, the only thing worse than training somebody and losing them 
is not training somebody and keeping them. And unfortunately we 
lose people, and we have lost some good people, but we're 
training our people, and we're creating a benchmark that I 
think will serve the Senate very well in years to come.
    Then also we have tried to employ technology the best way 
we can to help our employees do their job better.
    Now, let me note here that notwithstanding all the things I 
just said about our reducing our FTEs by about 10 percent since 
I got here, we are asking for an increase in authorization in 
the year 2002. I know that seems a bit inconsistent with what I 
just said. The reasons are fairly simple as to why we're asking 
for it.
    Some of the technologies that we're putting in place to 
help members, committees, others do their job more efficiently 
are less and less labor intensive, things such as the new e-
mail system, the echo-mail system, the Recording Studio in 
terms of the way we will broadcast committee hearings, things 
like that are going to make it easier for the members and the 
committees to do their work. But those things also require us, 
at our end, to provide a bit more monitoring, a bit more 
customer assistance, if you will, and maintenance.
    We also are undertaking an initiative to upgrade our 
approach, understanding and response to some of the challenges 
in the security area in technology. Cyber terrorism, as you 
know, is increasing rather dramatically, and we have to protect 
the Senate from that. We are working very hard at putting in 
place as many security modalities as we possibly can. That 
requires people with different skill sets than we've 
necessarily always had.
    We're also attempting to become less dependent on vendors. 
We spend a lot of money in the Senate on contracts with various 
vendors. Some of it is important, some of it is efficient, some 
of it is not, Senator. And we'll examine that and try to figure 
out where we can save money, do a better job, and provide more 
consistent service by doing it in house.
    A great example of this is the legislative information 
system which we have brought in house in terms of the 
maintenance and continuing operations. We save approximately $2 
million annually by doing it in house instead of doing it 
contracted out.
    As we hopefully decrease the burden on committees and 
members and their staffs, that has somewhat increased the 
burden on the Sergeant at Arms in terms of maintaining and 
operating our systems. In the end, I believe and I hope this is 
true, that we all benefit and ultimately the taxpayer benefits 
from our putting in place these efficiencies.
    I would like to note some of the other initiatives we've 
undertaken, some of which are still ongoing, some of which have 
been completed, and all of which we're happy with and proud of.
    When I first got here, I used to ask, okay, what do we do 
in this situation and that situation, and somebody would say 
the policy is this or precedent is that or the procedure is the 
following. And I'd say, okay, where do you get that? They would 
respond: ``Well, I've been here 30 years, and that's the way 
we've always done it.'' Or this is the precedent, we did this 3 
years ago. I'd say, well, where is this written down?
    A lot of times we'd find things written in one section or 
another division, but there was never a place to go to figure 
out what our policies and procedures were, in fact, whether 
they were consistent with the rules of the Senate as they're 
printed in the Senate manual.
    I undertook about 2 years ago to get everybody together 
over time and compile these policies, procedures, and 
precedents. And I'm happy to report that I have a notebook in 
my office now that I think is pretty close to complete in 
documenting these things that we have done in the past. So that 
when we get an issue about what can you do on the plaza, I 
don't have to kind of just make it up out of whole cloth or 
say, gee, we let the Democrats do it this week, so we let the 
Republicans do it next week.
    We're trying to make it where we have policies that are 
fair and consistent and reflect the values and the rules of the 
Senate. So I've been very pleased with that process. It took 
some time and encountered a little resistance, but we've gotten 
there.
    When I first got here, I also found out that 
notwithstanding what you would do in the executive branch and 
in the private sector, we really didn't have any disaster 
recovery plans, and we didn't have any continuation of 
operation plans around here. For example, what if the Senate 
chamber was destroyed by fire? Or, God forbid, there was some 
kind of biochem attack in the Capitol and the Senate could not 
function in that setting. Do we have a plan to have the Senate 
continue to be functional?
    Well, the truth is we didn't, Senator. We do now. It is the 
design phase of that plan that is just about complete. Well, it 
is complete in draft form. Putting it into executable form is 
going to take another 6 months with all the details. And we 
actually have money in our budget that reflects some of the 
expenditures that are going to be necessary to set the stage 
for our being able to have disaster recovery and continuation 
of operations in the event we have an unfortunate event in the 
Capitol or even in the Senate office buildings.
    That is something that I have considered really as one of 
my highest priorities. It hadn't had much attention before, but 
it is important.
    Another thing that I found when I got here and, again, 
Senator, having been in the private sector, you know that on a 
monthly basis you like to get a revenue and expense report. You 
want to see, well, I budgeted this much, but what have my 
actual expenditures been against the budget, and how am I 
doing? And what is the projection for the rest of the year?
    We didn't have any such thing when I got here. We do now. 
As a management tool, that has been extremely effective in 
terms of did we incorrectly budget in terms of what our real 
needs were, or are we just not managing our flow of cash in 
projects as we should be? It has been a tremendous tool, and 
I'm certain, knowing Liz and Rick and how they use it that they 
will continue it long after I'm gone.
    Something else that I find a lot of pride in--I can't take 
much credit for it, I can't take any credit for it--but that's 
the reduction of mailing expenses for the Senate. We achieved 
these reduction by bringing in some equipment to do better 
sorting of the mail--and by the way we received this equipment, 
valued at about $300,000, from the Navy, that didn't cost us 
anything because they were surplussing it. Plus we have worked 
with the offices to help them better manage their mailing 
lists. We now save about $2 million a year.
    We've reduced our mailing expenses in the aggregate in the 
Senate. This is a very significant change, and my friend Harry 
Green, Senate Postmaster, and Rick Edwards are responsible for 
those initiatives.
    We're in the process of developing a life cycle asset 
replacement program. As you look back over the budgets of the 
Senate, it has been up and down with respect to capital asset 
replacement and expenditures.
    What we would like to do is have a more rational way of 
looking at the equipment that needs to be replaced so we have a 
more consistent budget in terms of our capital investments plus 
the fact that we will hopefully stay more current with the 
state-of-the-art in the technology area.
    Another thing that we have done is adopted and now use 
modern project management methods. Now when we undertake a 
project, we have GANT charts and project goals. We have all the 
steps along the way, and we manage against those goals. And 
that, as you know, is a much better way of doing projects.
    And then finally we've simplified our acquisition process 
to make it faster, cheaper, and more efficient. Frankly, what 
we found out was that for every acquisition we were making it 
cost us about $100 in terms of the paperwork and time to 
generate a purchase order. Quite often the purchases were less 
than $100 so we were spending $100 to buy something for $50 
through our purchasing process.
    We've changed that dramatically now, and we think that 
we're saving at least in hard dollars $50,000 a year, and in 
soft dollars in terms of personnel time and things like that, 
who knows. Rather remarkable number, I suspect.
    The big three technology initiatives that have been ongoing 
for a while now are doing well. First is upgrading the 
Recording Studio from analog to digital which, of course, is 
being required by FCC rules. It's also important that we be in 
a position of broadcasting digitally and also providing digital 
coverage--digital camera coverage of our committee rooms and 
that kind of thing.
    What we're doing is making it possible for the American 
people to see the Congress in action in a more easily 
accessible way by doing some of the things that we're doing. 
That project is going very well. Liz will talk about some of 
the details of that in a few minutes.
    A project that is virtually finished involved the major 
upgrades of the photocopy, printing, and graphics area. This is 
where your offices will see the results most prominently and 
that is our ability to print directly from your computers, our 
ability to reproduce the documents that you folks have produced 
on a much quicker basis and at a much higher quality. It had 
been a very large project, and we've gotten it done. Almost all 
of that equipment is installed or soon will be installed.
    And then finally the granddaddy of them all, the messaging 
infrastructure project. Now, that one has been a bit of a 
challenge. This is sort of like having 10 lawyers in a room. 
You've got the 10 lawyers in the room and you have 15 different 
opinions. We have 100 Senators, all of whose offices have a 
slightly different view of how we ought to do the e-mail system 
and messaging infrastructure system. And we did have to 
struggle to come to some consensus.
    We did come to a consensus on a design. That design is just 
about finished. We're at the proof of concept phase of it. I am 
very pleased because I think we have managed to satisfy the 
legitimate concerns of the offices that were really involved in 
this.
    And I think that once the proof of concept phase is over, 
it's going to prove that this is a good design, and we'll start 
deploying it in the very near future. It will take a while to 
deploy the new system, but we will have a redundancy or run a 
parallel system with the old system. So there will be hopefully 
a seamless migration from the system we're on to the new 
system, which will be a very large--to use a current word, 
robust system in terms of the e-mail.
    Mr. Chairman, I'm going to ask Liz in just a moment to talk 
a little bit about some of the details of some of the projects 
that I know you're interested in, but I wanted to once again 
thank all of the employees of the Sergeant at Arms for their 
loyal dedicated service. I also want to thank you, sir, and the 
Senate.
    Senator Bennett. We're glad to see that the tough Mr. 
Ziglar has an emotional side just like all the rest of us.
    Mr. Ziglar. Thank you, sir.
    Senator Bennett. Liz.

                       STATEMENT OF LIZ MC ALHANY

    Ms. McAlhany. Thank you, Jim.
    Mr. Chairman, Senator Durbin, thank you for the opportunity 
to appear before you today to speak about our fiscal year 2002 
budget request.
    As Jim mentioned, my history in the Senate includes, among 
other positions, several years in my role at directing the 
computer center for the Senate. I've been fortunate in that 
capacity and other positions here to see the many firsts that 
we've introduced in the Senate, from the first PCs to the first 
e-mail system in the Senate, to the introduction of Internet e-
mail, plus our web site.
    And I'm proud to report that the Senate web site won a 
Presidential design award for our graphic presentation in 2000. 
And as the Presidential award cited, the new Senate web site 
humanizes the institution of the Senate by making its everyday 
activities and rich history readily accessible to the public. 
We were 1 of 10 such organizations around the country to win a 
graphic design award. We worked closely with the Secretary of 
the Senate on this. But this is quite a prestigious award, and 
we're proud of the organization.
    Quite honestly, I'm proud and honored to be part of such a 
tremendous organization with strong leaders and our history of 
high quality products.
    As Jim mentioned, we are in the process of implementing 
several major technology initiatives in our 2002 budget. The 
first is our electronic mail system. For 13 years we have used 
cc:Mail, and that has served the Senate well. But it's time to 
move on to new products. We are now planning this major 
migration, as Jim discussed, to the Microsoft products of 
Exchange and Outlook.
    I do want to stress we consider this to be one of the most 
major upgrades we will be introducing into the Senate. We will 
affect every Senator, every committee, every staff member in 
D.C. and in the State offices. It's a major initiative. We 
believe we have strong management focused in on this project, a 
dedicated project team.
    We have some costs we can discuss at the end of this 
project and the time frame. But with the ever increasing volume 
that the Senate is managing with mail now, we know we have to 
have more efficient services to help you answer your 
constituent mail and your Internet mail.
    Just in the last 2 years we've seen the Internet mail 
explode. We are getting six times more mail than we received 2 
years ago on the Internet. We are seeing an average of 6 
million messages a month that we are processing for the Senate 
in bound and outbound. And we have increased our ability to 
manage this mail.
    In January we could manage roughly 20,000 messages an hour. 
Today we can manage 50,000. With some upgrades we planned in 
June, we will be able to manage 75,000, which is approximately 
a million and a half a day. So we're trying to keep pace with 
the mail now.
    I might say that part of the delays, I know there have been 
some concerns about our delays, in delivering mail with the 
older technology we have in place. With cc:Mail there is some 
technology conversion that needs to occur before we can deliver 
this mail to the offices. We are confident that our testing 
should show this this summer, that with the introduction of 
change and some of the products related to that, we should 
always be able to stay current with mail.
    We also do daily monitoring of our Internet services to 
make sure we are providing the best technology solution we can. 
We have daily reports that we receive, and according to our 
reports, we have not had a delay in delivering mail to the 
Senate since February 9th of this year. Of course we did have 
some difficulties in January.
    We recognize the importance of being able to manage your 
electronic mail. We recognize that. Therefore we are currently 
offering a filtering system called echo-mail to senators. It 
has been demonstrated in over 40 offices, and we have a large 
number of offices that are cueing up now, and we are installing 
it now.
    We have found in just a couple of offices and in one week, 
as an example, one Senate office received 25,000 electronic 
mail messages, 65 percent of those were spam mail messages, 
most of them coming from the site vote.com. We are finding that 
this filtering tool will help the offices manage this kind of 
influx of electronic mail messages.
    We will also continue monitoring the marketplace and 
industry to make sure we have the best tools here that can help 
you manage this mail. That is our commitment to you.
    Another major initiative, as Jim mentioned, is upgrading 
the Senate Recording Studio to the digital technology. As 
reminded, this is a 5-year project, and it will cost the Senate 
$25 million in total before this project is complete.
    We are currently completing phase one of the project. We 
are upgrading the Senate TV facility. We should be ready with 
the TV signal by August. So when we return after the August 
recess, the Senate broadcast will be displayed, at least our 
feed will be in a high definition digital format. We also will 
be able to introduce the browser this fall.
    With that capability, the staff will be able to have real 
time access to information on the floor, committee hearings, 
possibly network news. We need to work with the Rules Committee 
to see what services we will put out on the browser system for 
the Senate offices.
    Phase two of this big project begins fiscal year 2002, and 
that is to upgrade of the TV studios that are part of the 
Senate Recording Studio.
    It also is to begin planning for our central control 
facility phase one of that. The central control facility, I 
believe Jim mentioned this, allows us to better manage the 
committee hearings and provide a service where we can manage 
that more centrally, thus saving some resources of the Sergeant 
at Arms and have more committee hearings that we can cover at 
any one point.
    Phase three of this massive initiative begins in fiscal 
year 2003, and that's to convert the radio studios to digital 
format and continue working on the central control facility.
    Phase four and five is what I call implementation years. We 
will complete the central control facility, we'll equip the 
studio, control rooms, and then we'll complete all of this and 
do some internal upgrades in phase five.
    The question one would ask is why are we doing this? As Jim 
mentioned, we are doing it because the broadcasters must 
provide the digital feed by 2006, and we, as the content 
provider, want to continue providing high quality feed to the 
broadcasters.
    We also wanted to continue providing good services through 
the Recording Studio and enhance what we're currently 
providing. We would like to provide the floor proceedings in 
real time, the committee hearings, network news. A benefit of 
this, the outcome of all of this will be that the feed from the 
Senate will be a service to the photographers who are not 
allowed in the Senate chamber now to take photographs. Our feed 
will provide photo quality format for the photographers.
    We have requested in our 2002 budget $9 million for the 
next phase of this as a multi-year funding. And what are our 
major efforts in our fiscal year 2002 budget? We do have 
significant challenges in our projects that will require time 
and resources. This is really a year of implementation for us.
    As Jim mentioned, our highest priority is getting the new 
e-mail system in. We believe we're right on track for that, but 
this has been a challenging project. We would also like to 
complete a filtering system for offices, should they be 
interested in taking advantage of that. We'll complete the 
major upgrade to our copying and printing services. We'll 
complete the Recording Studio.
    And one thing that Jim did not mention but is something 
that we're always attentive to is making sure we provide good 
communications between Washington and the State offices. We 
went through an initiative last year to install 100 T1 circuits 
or broaden the communications bandwidth between Washington and 
the State offices. We have found that has been very successful.
    We have increased the productivity in the State offices. 
Working with our local phone providers, we are now in a process 
of costing out what it would take to provide an additional T1 
circuit to a number of these offices or increase the bandwidth. 
We're hopeful with the second phase of this program next year 
we will be able to and affect positively communications for 80 
percent of the people in the State offices.
    These major upgrades will require additional resources, as 
Jim has noted, therefore I request a number of these resources 
to maintain the network operation side.
    As Jim mentioned, our budget process over 5 years calls for 
a constant plan to review and migrate to current testing and 
proven technology as seamlessly as we possibly can so we do not 
interrupt services to the Senate offices.
    While we see the productivity and efficiency gains for the 
Senate offices, it will require additional resources and a 
commitment to training our existing work force.
    We have presented our fiscal year 2002 budget request in 
four major categories as we did in 2001. These categories are 
general operations, mandated allowances and allotments for the 
members and committees, technology capital investments, and 
non-discretionary items. We believe our budget does reflect the 
needs of the Senate offices.
    The members of the Senate continue to make it very clear to 
us that they require a modern technology infrastructure to 
support their operation. We hope our budget reflects that.
    We're very well aware of our responsibilities to provide a 
secure, strong network and infrastructure and are committed to 
doing so with what we believe is the best option. And that is 
hiring additional staff to maintain our network and our 
infrastructure to ensure the highest level of security.
    We currently have intrusion detection systems and services 
that we use on a regular basis to make sure that our 
infrastructure is secure. And we currently offer current 
versions of antivirus software to make sure that the systems in 
your offices are secure.
    As Jim mentioned, we are trying to rely more on our own 
resources than outsourcing contractors. We do have one area 
this year, another area where we had to depend on contractors 
for our network engineering area, costing the Senate almost 
$900,000 for 9 months. We believe we can hire staff, train them 
on our security options, and have them work with us internally.
    Senator Bennett. Thank you very much.
    Ms. McAlhany. Thank you, Mr. Chairman.
    Senator Bennett. We appreciate it.
    We've been joined by Senator Stevens, and we're always glad 
to welcome. Senator, do you have any comments?
    Senator Stevens. Thank you very much, Mr. Chairman. I'm 
here basically to thank this group. I think you've responded 
very well to the demands that we've placed on you. I don't 
think any committee makes more demands on your services. 
Thirteen subcommittees, 14 bills per year, we're doing a lot, 
particularly a lot of travel and a lot of oversight. We need 
your help to keep going, and I'm grateful to you for having 
provided the help we've asked.
    I have no comments or criticisms at all about what is going 
on. I think you're right to have an increased budget for 
development and assessment of new technology to see what else 
we might adapt to our process.
    Mr. Chairman, I brought the first automatic typewriter to 
the Senate and the first laptop, and it's right after I got off 
the Mayflower with Strom.
    We've come a long way, and I'm really proud that you're 
helping us today move ahead. I do believe we're going to all 
want wireless cells that are capable of not only paging but e-
mail receipt and telephone service that won't cut out every 
time we're 20 feet--we appreciate all you're doing and all I 
can say is keep up. Thank you very much.
    Senator Bennett. Thank you.
    Senator Stevens. Thank you.
    Mr. Ziglar. Thank you, Mr. Chairman. By the way, as long as 
you don't use all those instruments on the floor of the Senate, 
it's okay.
    Senator Stevens. I'm the author of a proposal with Senator 
Byrd that they can't come on.
    Senator Bennett. You've covered most of the items that I've 
wanted to question you about but let me ask you the overall 
budget question. We've asked for extra money for the Recording 
Studio. We've asked for extra money for some of these 
migrations from old technology to new. And all of that is fine.

                            OUT-YEAR BUDGETS

    What can we expect in future years? That is, is this a 
spike that comes as you make the investment now, and then we 
will begin to see the kinds of productivity increases and 
savings that Jim Ziglar spoke about so that the future year 
budget will come down, or is this a new base line that we say, 
okay, we swallow the challenge of this year, this, 
percentagewise, is a very large increase, much bigger than the 
4 percent, 5 percent that we're talking about for the overall 
budget. I see you have a chart for that. Let's look into that.
    Mr. Ziglar. Well, actually, I didn't know you were going to 
ask the question, but as you may recall, it was last year or 
the year before last--I guess it was last year I talked to you 
about this evergreen budgeting process that I've tried to put 
into place in the Sergeant at Arms operation, and we have, in 
fact, done that, where we are every year looking another 5 
years out. And we just keep updating it every year to figure 
out what it's going to cost.
    Senator Bennett. The rolling 5-year plan.
    Mr. Ziglar. Yes, sir. The biggest part of that is what are 
our investments going to be in hard assets, technology, things 
like that. This reflects what we believe, and you know how 
evergreen budgets are, it's a shot in the dark quite often. 
This is what we believe will be the cost factor for technology 
investments going forward.
    As you can see, we've had this spike in the last couple of 
years, and we are getting to the point now where an awful lot 
of these big investments will be done, particularly in the 
Recording Studio, for example, and that we will now be able to 
level this out, adding in there the fact that we are trying to 
develop and are developing an asset replacement, life cycle 
asset replacement program so we can, on a very rational basis, 
come back to you year by year and ask for those upgrades. So we 
don't have these big spikes where we let everything get 
obsolete, then we have to rush to catch up.
    By the time we catch up, we spend a ton of money, and the 
technology has gotten away from us again. So we're trying to 
plan better by using this evergreen budget process, and these 
are our best guesses of what the budget request will be, going 
out 5 years.
    Senator Bennett. So if that holds, the investment in the 
green chart is not quite close enough that my bifocals can--it 
says technology capital improvements in the green, but I don't 
see what it says in the red. Oh, investment, okay.
    Mr. Ziglar. Those are the non-discretionary items that are 
in the budget that we're told to spend.
    Senator Bennett. So indeed if this holds, this means we go 
up with the request for 2002, we get some overall relief as the 
technology kicks in and makes us more productive, but the 
inevitable inexorable increase in operations, maintenance, and 
mandated allowances will eat up those increases in 
productivity. But the top line remains the same.
    Mr. Ziglar. Yes, sir. One of the things that you have to 
remember is that we have a lot of employees, and we have COLAs 
and things like that. So it's going to always go up some.
    What we think we can manage to do is get control of the 
growth of the labor force size in the Sergeant at Arms using 
technology and better efficiencies. So most of that increase, 
you will find, is actually an increase in labor costs on the 
same base.
    Senator Bennett. I accept the idea that it is a projection 
rather than a locked-in firm certainty. Anytime you talk 5 
years, you're dealing with projections. This makes it easier to 
sell the 26 percent increase that you're asking for this year.
    And, of course, it's also easier when the chairman of the 
full committee who makes our subcommittee allocations is 
sitting here saying he thinks it's a good idea. Also makes it 
an easier sell.
    Mr. Ziglar. Mr. Chairman, I do think that this is as honest 
an appraisal of what we think is going to happen, barring some 
unforeseen circumstances we can't see today, going forward in 
terms of what we're going to ask for.

                          ADDITIONAL EMPLOYEES

    Senator Bennett. As I say, you've covered most of the items 
I've wanted to question you about, but let's talk about the 16 
additional FTEs and spend just a moment justifying that 
increase in staffing. This is just in the technology 
development services.
    Mr. Ziglar. Mr. Chairman, Liz knows the details a little 
bit better.
    Ms. McAlhany. Mr. Chairman, if I could, 5 of those 16 are 
needed to maintain our network security. They're in our 
engineering area, and we want to make sure we have our own 
resources monitoring our network and making sure we have the 
most secure network possible.
    This is the one we're using contractors assistance with 
this year. The remaining 11 of those are to basically fully 
fund the--we have a number of people on board in that 
department, and we have not had the opportunity to fully fund 
those positions. So of those 16 to fund we're actually talking 
about adding five more to our work force.
    Now, we have a number of technology projects that we 
discuss that require a number of people in this department to 
monitor the enterprise level. Once we start implementing 
Exchange, we'll need people to monitor that 24 hours a day, 7 
days a week because we'll expect to provide that service to 
you. We'll always be monitoring our mainframe activities as we 
still have them there.
    Our growing number of servers that we have in the computer 
room that we use to deploy more services needs some attention. 
We see taking the five additional, plus the 11 that we have 
loaned to this department, we're trying to get our numbers 
correct here, would be the total count of the 16 for technology 
development.

                           NEW E-MAIL SYSTEM

    Mr. Ziglar. May I add something, Mr. Chairman? The e-mail, 
the messaging infrastructure system is going to require some 
additional folks for a very good reason. The ultimate design 
that we came up with provides that each member's data is 
actually going to be in his or her office. We also will have a 
directory that will be specific to each one of the members.
    This is a fairly sophisticated system. There are simpler 
systems, but the simpler systems do not provide the security 
and privacy and other things that we think and the Senate 
thinks are important, and I agree with them.
    The truth is a lot of the members have very sophisticated 
systems managers in their office who can take care of problems 
that come on the system. Unfortunately, we have a number of 
members who don't. And, as a result of that, we are finding 
ourselves increasingly providing assistance to those systems 
managers in the offices where they're not as sophisticated 
about this.
    That problem is going to grow with the implementation of 
the new messaging infrastructure system because it is complex. 
And until at the member level we have more technical expertise, 
the Sergeant at Arms is going to be coming in behind 
backfilling on problems. And that problem will grow, and this 
is what we're trying to do now is to get that work force at a 
level that we can deal with that.
    Senator Bennett. Okay, fine.
    Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman. In 1966 I came to 
the Senate as an intern working in the office of Senator Paul 
Douglas, in what was then known as the old Senate office 
building. I used to go down to the basement there and sit in a 
room and hammer away on a little typewriter on something called 
dress up plates, tiny little metal slugs that you had to wear 
earphones to cover, tapping away at this typewriter as you put 
the names and addresses on.
    Then I would go to an adjoining room, and we had some Rube 
Goldberg operation with a long paper tape with perforations in 
it where we would try to get these robo-type machines to work 
all night to print out letters. That was my first exposure to 
Senate technology. Things have changed a lot, and they've 
changed dramatically for the better. And I thank you for all 
that you've done.

                           TECHNOLOGY ISSUES

    Having said that, let me raise at least an observation and 
ask you a question. I served for 14 years in the House before 
coming here, and I have a unique living arrangement where I 
live with two members of the House. Senator Schumer and I live 
with two Congressmen. So, among other things, we discuss what 
is going on in technology between the House and the Senate.
    It has been my impression over the last 4 years that the 
House has been much more open-minded. Much more open to new 
technology than the Senate. They have tried a lot of things 
that we have never tried and have put on their approve list a 
lot of opportunities for members that the Senate has never had.
    I'm sure some of that was wasted. I bet you they tried 
things that didn't work out very well. My impression is we've 
taken over time a very conservative approach to new technology 
in the Senate as opposed to the House approach. I'd like your 
thoughts on that.
    I would also like to ask you to comment on the question of 
whether or not ultimately our systems, and I hope this is the 
right word--I am a liberal arts lawyer so forgive me--will be 
able to interface so there may come a day where the House and 
Senate have the same systems that may be able to talk to one 
another. I know that may be a radical notion.
    Senator Bennett. Radical.
    Senator Durbin. Radical notion, unconstitutional, subject 
to Supreme Court challenge. I would think that that is not an 
outrageous idea that we would basically get to the same 
systems. And we don't have them today. I think we're moving 
there with Microsoft and the like.

                        INVESTMENT IN TECHNOLOGY

    The third thing I would like to say in this area--and 
completely exhaust all of my knowledge and observations when it 
comes to technology--is I don't understand the green part of 
that graph because it suggests a substantial ramping up in 
technology capital investment from fiscal year 2001 to it 
appears to be 2002 or 2003. And then a decline in cost for 
capital investment. Then a flat line for 3 or 4 years.
    In this world we live in, I can't imagine how we could say 
that with any amount of credibility where the technology is 
changing so rapidly, and the need to update it and to modernize 
it has reached the point where the venerable Senator Stevens 
starts using words up here about his handheld Palm cell, 
wireless e-mail, so forth and so on.
    I think this is something that never would have been 
mentioned a few months ago, and now it's part of the lexicon of 
most Members of the Senate. I just can't see how you can 
suggest a flat line in capital investment. In fact, a pretty 
substantial decline in investment on technology. I think just 
looking at this honestly, that number is going to continue to 
go up if we're going to continue to modernize. I'd like to have 
your observations.
    Mr. Ziglar. Senator, let me tell you what is not in that 
green part. That does not include the amounts of money that we 
will be spending on senators' offices upgrades. That's part of 
the computer services fund and other places. That green part of 
the budget has to do with Sergeant at Arms operations 
technology upgrades.
    For example, the big item in there, there are two big 
kahunas in there. One is the upgrade of the Senate Recording 
Studio to digital. And that is a big number; that's a big part 
of that. Once we get to that, that will be a fairly flat 
investment scenario after that for a good long time.
    The other one is the e-mail, the messaging infrastructure 
system which will be--hopefully it's a little bit more modular 
than what we have now so that we can make tweaks to it without 
having to replace the whole system going forward.
    So we're going to spend a lot of money on Sergeant at Arms 
technologies that deliver services to you folks.
    What happens with respect to your computers in your 
operations and things like that, those are different parts of 
the budget. Those are in the mandated allowances and things 
like that. So there is still clearly growth in the expenditures 
for those sorts of things. This is simply the Sergeant at Arms 
macro investments, if you will. A good question.
    The other thing is as I mentioned earlier, we have a life 
cycle asset replacement program going in. So that we can manage 
our investments and keep them flat as opposed to having these 
cataclysmic events where we have to spend millions of dollars 
to catch up. We're trying to run it more like a business would 
run its business.
    Senator Durbin. How about the question of interfacing with 
the House of Representatives?

                         INTERFACING WITH HOUSE

    Mr. Ziglar. We have actually had several discussions in the 
last couple of years with the House about becoming more 
compatible with them on a number of areas. There's enormous 
amount of resistance to that, Senator.
    It's interesting. You cross that middle point in the 
rotunda, and there's just not all that much interest in having 
that much interface, although I think it will come over time. 
And we certainly have been talking to them about a unified 
paging system, because we have a very robust system here, and 
they've been talking to us about that.
    Now, I don't know that that's going to happen. But we are 
in discussions with the House. At least there are 
communications now where there never was any.
    The question about whether or not they're more aggressive 
in terms of technology, I think there probably was a time that 
they were. I would grant you that. They have a very different 
e-mail kind of system over there. It's sort of every man for 
himself, if you will.
    However, they are paying very close attention to what we're 
doing over here because they've got to migrate to a new system, 
and they're interested in what we're doing. And I have a 
feeling we may see them copying what we're doing. I think we 
have taken the lead away from the House in that respect, at 
least my competitive instincts have been such that I've wanted 
to.
    Senator Durbin. But when will this transition to Microsoft 
be final or is it likely to happen soon?
    Mr. Ziglar. Proof of concept process should be over in July 
or August, I believe. And at that point we would deploy. The 
deployment could be anywhere from a year to a year and a half. 
But as I mention, we will have parallel systems running at all 
times so there will be a seamless transition to it.
    By the way, Senator, Senator Bennett and I actually talked 
about this a long time ago. He and I both were up here in the 
1960s too. I came here in 1964 to work for Senator Jim 
Eastland, and I remember your boss, Paul Douglas, quite well. 
And I spent many an hour in that dungeon down there in the 
basement too, so I know what you're talking about.
    Senator Durbin. Builds character.
    Mr. Ziglar. Yes.

                            SYSTEMS MANAGERS

    Senator Bennett. One last question, you mentioned the 
systems managers in each Senator's office. We have a systems 
manager in our office without whom we could not function. 
Whenever I do something stupid, I just call him and he comes in 
and waves his magic wand and says a few interesting words, and 
the computer suddenly works again.
    Mr. Ziglar. Explains it to him.
    Senator Bennett. Are we going to need systems managers in 
our State office, or can we continue to contract this function 
out, do you think, long term?
    Ms. McAlhany. If I may, Mr. Chairman, there are a number of 
them now. The larger Senate offices do have administrators 
there. The kind of technology we're trying to put in place 
would allow your D.C. administrator to manage the State offices 
from D.C. It's always helpful to have more technology experts 
in the State, and once we migrate to Outlook and Exchange, that 
would be important. But it is more important to keep that 
resource here and have us give them tools to monitor their 
State networks from Washington.
    Senator Bennett. Thank you very much. We've gone longer 
than is usual, but it has been very informative. And we always 
like to talk about the future. So, again, Mr. Ziglar, we wish 
you the very best. We congratulate you on your service and 
thank you for your determination to make life better not only 
for Members of the Senate but for the staff of the Sergeant at 
Arms for whom you have responsibility.
    Mr. Ziglar. Thank you, Mr. Chairman, it has been a real 
pleasure.
    Senator Bennett. Thank you.
                       U.S. CAPITOL POLICE BOARD

STATEMENT OF JAMES W. ZIGLAR, CHAIRMAN
ACCOMPANIED BY:
        JAMES J. VAREY, CHIEF OF POLICE, U.S. CAPITOL POLICE
        BILL LIVINGOOD, SERGEANT AT ARMS, HOUSE OF REPRESENTATIVES
        ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
        ROBERT HOWE, ASSISTANT CHIEF OF POLICE, U.S. CAPITOL POLICE
        JOHN McWILLIAM, CHIEF ADMINISTRATIVE OFFICE, U.S. CAPITOL 
            POLICE
    Senator Bennett. Our next witnesses are the Capitol Police 
Board and the chairman of the board is Mr. James Ziglar. We'll 
have him joined by Chief James Varey and the other members of 
the board.
    Mr. Livingood from the House, you've heard all of these 
comments about the House now. We won't give you time to defend 
yourself here, but we'll look forward to that.
    And Alan Hantman is, of course, the Architect of the 
Capitol. Chief, would you introduce the fellow officers that 
you've brought with you.
    Mr. Varey. Yes, sir, thank you. I'd like to introduce 
Assistant Chief Robert Howe in charge of our uniform 
operations, and I would like to introduce our new colleague Mr. 
John McWilliam, who is the chief administrative officer for the 
United States Capitol Police.
    Senator Bennett. Thank you, gentlemen. Your budget request 
totals $127.3 million, including a $5 million budget amendment 
submitted on the 10th of May for comparability pay with the 
Park Police and Secret Service Uniform Division.
    So the total request represents $23.5 million or 22.7 
percent increase over the current budget. And this would 
include 49 additional employees.
    So we look forward to your testimony, Mr. Ziglar. Again, 
welcome.
    Mr. Ziglar. Thank you, Mr. Chairman. Again, it's a pleasure 
to be here and I'm pleased to have the opportunity to present 
the Capitol Police budget request for 2002. And I'll do my 
absolute best to keep my emotions under control. I wouldn't 
want these cops to think I'm some kind of a wimp.
    Chief Varey and Chief Howe, John McWilliam have just been 
introduced. I might add Chief Varey came on board since our 
last hearing here, and we have been very pleased with the 
Chief. He's taken some important initiatives at the police 
department, and we'll talk about a couple of those in a minute.
    He had great experience coming in, having been in the 
Secret Service, then as the Deputy Sergeant at Arms in the 
House. He also was very much involved in the strategic planning 
process that we did a couple of years ago that fashions what we 
do in the future. So we're very pleased with Jim, and he's done 
a great job.
    Bobby Howe has been here more years than Carter has little 
liver pills. He remembers all the things we did in the 1960s up 
here, and Bobby knows an awful lot about the police and is an 
invaluable source of information on the history about the 
police.
    John McWilliam is the product of a nationwide search that 
we did for a Chief Administrative Officer. I tell you we got a 
good one. He is doing a terrific job in cleaning up some of the 
problems we've had over there. We had three different panels--a 
full review of all our applicants in this search--and John 
ended up being number one on everybody's list, and there's a 
reason for that.
    I also have with me my two brothers in crime here, Mr. 
Livingood the House Sergeant at Arms.
    Senator Bennett. You might choose another phrase.
    Mr. Ziglar. I realized I said that. And Alan Hantman. I not 
only have two very good colleagues--we've been working together 
very well--I've made a couple of very good friends, and I'm 
going to miss these guys.

                           PREPARED STATEMENT

    Mr. Chairman, we have written testimony that I'd like to 
submit for the record, if that's appropriate.
    Senator Bennett. Without objection.
    [The statement follows:]

                 Prepared Statement of James W. Ziglar

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to present the fiscal year 2002 Budget Request for the 
United States Capitol Police.
    I would like to formally introduce Chief James J. Varey. As you 
know, Chief Varey was sworn in as Chief of Police in May of last year 
after being selected by the members of the U.S. Capitol Police Board. 
Chief Varey has begun his tenure at a challenging time for the 
Department, but his prior working knowledge of the U.S. Capitol Police, 
through his experience as the former Deputy House Sergeant at Arms, as 
well as his prior career with the U.S. Secret Service, have allowed him 
to immediately address a number of critical administrative and 
operational issues. We have every confidence that he will continue to 
provide the leadership and guidance the Department needs.
    The budget submission for the U.S. Capitol Police for fiscal year 
2002 is $127,329,000, which is an increase of 22.7 percent. Of the 
total request, $116,935,000 is for salaries and $10,394,000 is for 
general expenses. Included in the salary component is a pay adjustment 
to achieve comparability with other federal law enforcement agencies in 
the Washington, DC area.
    The United States Capitol Police is mission driven and goal 
oriented. The mission and goals of the Department are organized in a 
strategic plan which guides our operations and directs our efforts to 
secure the Capitol Complex and protect the members of Congress, staff, 
and visitors. Using the Strategic Plan as a guide, we developed our 
fiscal year 2002 budget to ensure the success of this charge. The 
requested funding will support and advance three major goals of the 
strategic plan: prevention of crime, response to incidents, and a 
support structure for our operations.
    Mr. Chairman, we have identified four areas within the budget which 
are of special interest to the Department in meeting our mission and 
achieving our organizational goals. They are training, staffing, 
administrative infrastructure, and telecommunications and support 
services.
    The capability and efficiency of an organization is dependent upon 
the level of training, knowledge, and skills of its personnel. Because 
of the complexity and diversity of its mission, the U.S. Capitol Police 
must provide high-quality training to its personnel with respect to a 
myriad of operational, administrative, and management functions. When 
training is continually deferred, as it has been due to budget 
constraints, mission focus and unity of purpose declines, personnel 
performance wanes, and complacency becomes systemic. We simply cannot 
allow this to continue. Therefore, we have made training a priority 
budget item and have requested increased funding to expand both 
specialized and basic in-service training for sworn and civilian 
personnel.
    The annual budget for the U.S. Capitol Police is primarily driven 
by the staffing level required to provide the Congress, the public, and 
the buildings an adequate level of security in such an open environment 
and also provide for support functions. Since the shootings in 1998 and 
the subsequent report by the multi-agency task force which reviewed 
security and USCP staffing levels, the USCP has sought to incrementally 
increase its FTE level each year until such time as the optimum 
recommended FTE level of 1,694 is achieved. Therefore, in the fiscal 
year 2002 budget request, we are seeking an incremental FTE increase of 
49 in order to continue the security enhancement effort. The fiscal 
year 2002 FTE goal of 1,530 is based on the ability of the Department 
to recruit and train forty-eight officers within a one year period in 
addition to the one hundred officers who are required to replace 
departing personnel. One additional FTE is required for the Chief 
Administrative Officer position.
    As you are aware, the USCP has begun an initiative to strengthen 
the administrative operations of the Department, particularly in the 
areas of human resource management, information technology, and 
financial management. In preparing our budget request to support this 
effort, we used the recommendations contained in the Booz-Allen &amp; 
Hamilton Management Review as a guide. These recommendations were 
ultimately incorporated into the Strategic Plan. As a result of the 
funding provided in the fiscal year 2001 budget, we have made progress 
in administrative operations such as hiring professional staff, 
contracting with the Office of Personnel Management to conduct an 
organizational and workload analysis of the Human Resources Department, 
purchasing new server hardware, acquiring and installing an automated 
fingerprinting identification system, and converting to a new 
accounting system for general expenses and security appropriations 
which is provided through a cross-servicing agreement with the General 
Accounting Office. We are also moving to implement new policies and 
procedures and to adopt a best practices model for administrative 
operations.
    The funding requested in fiscal year 2002 will allow us to build 
upon the progress we have made thus far and ensure the administrative 
functions continue to provide adequate service and support in the 
future. Primarily, funding will provide for the continued improvement 
of the accounting function to include annual financial audits, life 
cycle replacement of personal computers and servers, and 
professionalization of the administrative functions.
    With regard to telecommunications and related support, the USCP 
currently receives funding and technical support from the Senate 
Sergeant at Arms. This includes telephone equipment and service, data 
networks and circuits, radio maintenance, computer help desk and 
service, and publishing and printing services. The funding requested 
will reimburse the Senate Sergeant at Arms for the support provided to 
the USCP that is not otherwise included in the Senate budget request.
    Mr. Chairman, are you can see, we have made progress on addressing 
past deficiencies and setting a course for the future of the United 
States Capitol Police through the implementation of the Strategic Plan. 
The funding requested in fiscal year 2002 will ensure the Department 
can continue to meet its mission while holding to the principle of 
fiscal responsibility.

    Mr. Ziglar. Thank you, sir.
    In my earlier testimony about the Sergeant at Arms budget, 
I talked about and we talked about my impending departure and 
my initiatives over the last 2 years. I can tell you that I'm 
equally proud of what's been accomplished at the police 
department in the last 2\1/2\ years. And the changes, although 
they might not be as apparent to people around the Hill, at the 
police department they have been probably even more significant 
than those that we've tried to make at the Sergeant at Arms 
operation.

                        MANAGEMENT IMPROVEMENTS

    Two years ago the Capitol Police faced major administrative 
and management challenges. We had very serious deficiencies in 
our financial operations, in our human resources department, 
and in our information technology utilization.
    Just to give you an example, 2 years ago we had a 
situation, Mr. Chairman, where we had bills that hadn't been 
paid in a year. We had vendors that had cut off the police 
department from receiving any goods and services. We had a real 
mess.
    I'm happy to report that with the hard work of my 
colleagues on the board and many, many people in the Capitol 
Police force that we have made giant strides in resolving all 
of these problems.

                           STRATEGIC PLANNING

    Two years ago we started a strategic planning process in 
the Capitol Police operation, and it was an internal process 
with some facilitation. And what it did was it yielded a very 
realistic and workable long-term strategic plan. We have now a 
much clearer view and vision of where we need to go with the 
Capitol Police to do the things that the Congress expects us to 
do in providing security for the legislative process as well as 
providing an open environment for visitors who come to the 
Capitol.
    Our actions and budget planning process are driven by the 
goals of that strategic plan. And that strategic plan goes out 
over a number of years. It's not just a 1-year thing, it's a 5 
year plan, and we have goals that we've set for ourselves to 
achieve.
    In the few minutes that I've got here, before I turn this 
to Chief Varey, I'd like to talk about the three areas of the 
budget that are important to the success of the Capitol Police 
in the long term, and that, frankly, are dear to my heart.

                          TRAINING INITIATIVE

    The first is training. As I mentioned earlier, I follow the 
philosophy that the only thing worse than training somebody and 
losing them is not training them and keeping them. I think that 
is a very important philosophy to have in the Capitol Police 
Department.
    We need training at all levels, not just operations. 
Obviously, we understand that the cop on the beat needs to 
understand how to respond to all sorts of different situations 
and training is absolutely critical. But we also need more 
training in the administrative management area and leadership 
training because in an organization like the police department, 
leadership is absolutely critical. If we don't develop those 
leaders that can move up in the ranks as others move on, we're 
going to have a real problem going forward.
    And, frankly, for too many years the Congress has not 
given, in my view, adequate funding for training. So we've just 
simply deferred training, and we keep falling further and 
further behind other law enforcement agencies.
    A bit of an aside in the process of getting ready (if you 
see fit) to confirm me to be the commissioner of immigration 
and naturalization, I've been spending some time studying that 
organization.
    The Border Patrol, which is infinitely larger than the U.S. 
Capitol Police, has a very effective training program. The 
Border Patrol has a retention problem since there are a lot of 
people raiding the Border Patrol to get their men and women 
because they are so well trained.
    But there is a need to train. The Border Patrol certainly 
has a good program, and that's emphasized to me how far we have 
fallen behind in our training for our U.S. Capitol Police.
    We all know that training is critical in law enforcement. 
It's essential to morale. One of the problems in any 
organization I mentioned earlier, if people don't see a way to 
increase their skills to put themselves in line for promotion 
or better pay, their morale goes down.
    And I think we could have a much better morale situation in 
the Capitol Police if we had better training to help these 
folks to understand that they're professionals and we treat 
them as professionals, and we train them as professionals.
    It is absolutely necessary to the kinds of services we 
deliver that our police officers be trained and be trained very 
well.

                          CHELTENHAM FACILITY

    We finally have gotten access, by the way, as you probably 
know, to a facility in Cheltenham, Maryland, that we think will 
do perfectly for our training needs. And it has been a long 
process of getting there, but we have the facility here. We 
have access to the facility, and what we need from this 
committee is funding to actually carry out those training 
programs within that facility. It is a good deal for the 
Congress.
    Second, item----
    Senator Bennett. May I interrupt you and ask you if that 
system is now operational? It was supposed to be by March--oh, 
I'm sorry, 2002.

                                STAFFING

    Mr. Ziglar. 2002. The second area is staffing which, again, 
has been a bit of a controversy. I don't know if controversy is 
the right word, but it has been a bit of a discussion up here. 
In 1998 after the tragic shooting of our two officers, Gibson 
and Chestnut, there was a multi-agency task force that reviewed 
security in the Capitol as well as the U.S. Capitol Police, the 
staffing operations, and things like that.
    That task force recommended that we increase our force size 
to over 2,000. We have taken a hard look at that recommendation 
and quite frankly decided that we could do the job just as well 
as the task force recommended, with an ultimate goal of 1,694 
FTEs.
    We believe that we can do the job at that level, but we're 
not even at that level now. What we are doing is trying to move 
incrementally to get to that level. Even if you authorize 1,694 
FTEs for us today, we couldn't get there by the end of this or 
the fiscal year we're requesting the budget for. But we are 
trying in a very rational, organized way to incrementally move 
to that ultimate, most efficient number.
    In 2002 we're seeking 49 additional FTEs which would bring 
us up to a total of 1,530. So we're still 164 short of that 
ultimate authorized FTE level.
    One of the 49, by the way, is for our new chief 
administrative officer, and I think I can speak for John in 
saying he is very interested in seeing you authorize that 
particular one.

                        STRENGTHENING MANAGEMENT

    The third area that I talked a little bit about earlier is 
the strengthening of the management of the department. I want 
to emphasize that we are moving rapidly to update and improve 
our management and our technology systems in the police 
department. Your continued support in that respect will be very 
much appreciated.
    Mr. Chairman, I want to point out that when I first came 
here, the committee instructed me to try to bring some truth in 
budgeting to the police operation. And in that sense, what I'm 
talking about, of course, is the fact that the Senate Sergeant 
at Arms budget had in it a lot of money that was being used for 
the police department. It was not in the police budget.
    We have successfully moved that money over to the police 
budget. We tweaked it some, but it's there again this year in 
the police budget, and it provides for reimbursement to the 
Senate Sergeant at Arms for services we provide.
    As you know, we do the telephones, and we do a lot of other 
technology sorts of things, maintain the radios for the police, 
and that sort of thing. And it's stuff that we can do quite 
frankly very efficiently as opposed to going outside or having 
the police develop their own expertise in that area.
    But it is an expense item that is now in the police budget, 
and at least we know what the true cost of providing the police 
department is through this mechanism. So we took note of the 
instructions of the committee, and I think we've pretty much 
accomplished what you asked us to do.
    Mr. Chairman, I want to not steal the chief's thunder, but 
I wanted to once again say how honored I have been to be 
Sergeant at Arms, how honored I have been to be associated with 
the Capitol Police. All of the fine officers, employees, both 
sworn officers and the civilian employees of the Capitol Police 
Department are loyal, dedicated. They believe in the Senate, 
they believe in the House, they believe in the Congress. 
They're here to do their job as best that they can, and they do 
a great job.
    I think there's nothing but up in terms of where this 
police department is going in its professionalism and delivery 
of its services. I've been honored to be associated with them 
and honored to be associated with this committee. And I thank 
you very much for your support.
    Senator Bennett. Thank you very much.
    Chief, do you have some additional comments?

                   STATEMENT OF CHIEF JAMES J. VAREY

    Mr. Varey. Yes, sir, I do. Mr. Chairman and members of the 
committee, I'm pleased to appear before you today to present 
the fiscal year 2002 budget request for the United States 
Capitol Police. I'm proud to introduce our new chief 
administrative officers, Mr. John McWilliam, to the position of 
chief administrative officer. This officer is created by the 
Legislative Branch Appropriations Act of fiscal year 2001. Mr. 
McWilliam was selected for this important position as the 
result of an extensive nationwide search.
    Through his prior business and financial operations 
experience at various Federal agencies, Mr. McWilliam brings a 
great deal of experience to the U.S. Capitol Police. He will 
now oversee human resource management, financial management, 
and information technology. I am confident under his leadership 
we will continue to make needed improvements to the 
department's infrastructure.
    Our strategic plan and security enhancement plan have 
become the cornerstone for departmental planning. In his 
testimony, Mr. Ziglar referred to the use of our strategic plan 
to guide the development of this budget request. We continue to 
implement the changes and improvements as outlined in this 
plan.
    We also continue to make improvements to the level of 
security within the Capitol complex in accordance with the 
provisions of the security enhancement plan. Combined, these 
initiatives affect both our operational readiness and our 
administrative infrastructure.

                            ACCOMPLISHMENTS

    I would like to highlight a few of the accomplishments of 
the past year. Operationally we have deployed new x-ray 
screening equipment and metal detectors at every pedestrian 
entrance to the buildings. We have upgraded the video cameras 
throughout the complex.
    We have begun deploying bullet-resistant podiums to enhance 
officer security and officer safety. These podiums will contain 
electronic equipment to increase the level of security. We have 
expanded and upgraded the duress alarm system and improved the 
officers' response times to the alarms.
    We are also in the process of enhancing our capability to 
handle weapons of mass destruction. Administratively, we have 
made improvements in many areas. In particular, we have--we 
have recently transitioned to a new financial management system 
through a cross servicing agreement with the General Accounting 
Office. We have hired professional staff in the areas of human 
resources, financial management, and information technology.
    Specific goals are being developed for these areas, and we 
are making needed improvements using the Booz-Allen-Hamilton 
study as a guide. A more comprehensive list of accomplishments 
is included in our budget justification.
    As you can see, we are making steady progress to improve 
the overall condition of the department. It is also clear that 
many challenges lie ahead, and we will require your continued 
support.

                   THREATS WITHIN THE CAPITOL COMPLEX

    Mr. Chairman, there are constant underlying threats to the 
Congress, our staff, and visitors in the Capitol complex. As 
noted on these charts during fiscal year 2000, there were--we 
failed to put up the charts.
    Senator Bennett. Thank you for putting them a little 
closer.
    Mr. Varey. As noted on these charts during fiscal year 
2000, there were nine assaults on Capitol grounds and 118 in 
the extended jurisdiction zone. There were seven robberies on 
the grounds with 242 in the EJZ. There were three burglaries on 
the grounds, 175 in the EJZ.
    We made 1,107 arrests, including 147 felony arrests, and 
recovered 70 weapons within the Capitol complex.
    Also during fiscal year 2000, the U.S. Capitol Police 
provided 1,287 protective escorts for visiting dignitaries, 
conducted 50 security and protective operations for visiting 
heads of state, provide police services for 1,000 special 
events, including 492 demonstrations, conducted 30,772 canine 
explosive searches, conducted 241 dignitary protective 
operations for Congress, and handled 1,357 threat assessment 
cases against members of Congress.
    Mr. Chairman, these statistics are indicative of the threat 
management responsibilities we carry out on a daily basis. It 
is clear that they're a constant, underlying threat to the 
Capitol complex and all of those who work and visit here.
    Since this issue has such an impact on our budget request 
and justification, I would like to offer to you and members of 
the committee a classified briefing by the FBI and the Capitol 
Police on domestic and international terrorism trends, and the 
threat level posed against the Capitol complex in the United 
States.
    Senator Bennett. We will schedule that.
    Mr. Varey. Yes, sir. This briefing can be provided at your 
convenience either collectively or on an individual basis.
    Senator Bennett. I think Senator Durbin and I can get our 
schedules together so you only have to do it once.
    Mr. Varey. Yes, sir.
    Senator Bennett. The bells have just rung for an 11:15 
vote, which means Senator Durbin and I will probably have to 
leave here in about 10 minutes. Can you file the balance of 
your statement for the record and let me pursue a question or 
two?
    Mr. Varey. Yes, sir.
    [The statement follows:]

               Prepared Statement of Chief James J. Varey

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to present the fiscal year 2002 Budget Request for the 
United States Capitol Police.
    I would like to introduce our new Chief Administrative Officer, Mr. 
John McWilliam. The position of Chief Administrative Officer was 
created by the Legislative Branch Appropriations Act of Fiscal Year 
2001. Mr. McWilliam was selected for this important position as a 
result of an extensive nationwide search. Through his prior business 
and financial operations experience at various federal agencies, Mr. 
McWilliam brings a great deal of experience to the U.S. Capitol Police. 
He will now oversee Human Resources Management, Financial Management, 
and Information Technology. I am confident that under his leadership we 
will continue to make needed improvements to the Department's 
infrastructure.
    Our Strategic Plan and the Security Enhancement Plan have become 
the cornerstones for Departmental planning. In his testimony, Mr. 
Ziglar referred to the use of our Strategic Plan to guide the 
development of this budget request. We continue to implement the 
changes and improvements as outlined in the Plan. We are also 
continuing to make improvements to the level of security within the 
Capitol Complex, in accordance with the provisions of the Security 
Enhancement Plan. Combined, these initiatives affect both our 
operational readiness and administrative infrastructure.
    I would like to highlight a few of the accomplishments of the past 
year. Operationally, we have deployed new x-ray screening equipment and 
metal detectors at every pedestrian entrance to the buildings. We have 
upgraded the video cameras throughout the Complex. We have begun 
deploying bullet resistant podiums to enhance officer safety. These 
podiums will contain electronic equipment to increase the level of 
security. We have expanded and upgraded the duress alarm system and 
improved officer response times to alarms. We are also in the process 
of enhancing our capability to handle weapons of mass destruction 
incidents.
    We have made great improvements in the administrative areas. We 
have recently transitioned to a new financial management system through 
a cross-servicing agreement with the General Accounting Office. We have 
hired professional staff in the areas of human resources, financial 
management, and information technology. Specific goals are being 
developed for these areas and we are making needed improvements using 
the Booz-Allen Hamilton study as a guide. A more comprehensive list of 
accomplishments is included in our budget justification.
    As you can see, we are making steady progress to improve the 
overall condition of the Department. It is also clear that many 
challenges lie ahead and we will require your continued support.
    Mr. Chairman, there is a constant, underlying threat to the 
Congress, our staff and visitors, and the Capitol Complex, as evidenced 
by the following statistics. During fiscal year 2000, the U. S. Capitol 
Police:
  --Conducted 241 dignitary protective operations
  --Recovered 70 weapons within the Capitol Complex
  --Made 1,107 arrests, including 147 felony arrests
  --Conducted 30,772 K-9 explosive searches
  --Handled 1,357 threat assessment cases
  --Provided 1,287 protective escorts for visiting dignitaries
  --Conducted 50 security and protective operations for visiting heads 
        of state and
  --Provided services for 1,000 special events, including 492 
        demonstrations.
    We must make it a priority to continuously improve the capabilities 
of the U.S. Capitol Police to deter, detect, respond to, contain, and 
mitigate a wide range of threats, to include random acts of violence. 
The Department's capability is based on three primary factors: adequate 
staffing, adequate training, and adequate funding.
    With regard to our staffing level, last year our budget request 
included funding to increase our FTE level from 1,511 to 1,611. The 
requested positions were part of the incremental increase of FTEs which 
began as a result of the 1998 Security Review. That review found that 
the USCP was significantly understaffed given the physical environment 
and the complexity of our mission. Therefore, each year we would 
incrementally increase our FTE level until such time as the optimum 
level of 1,694 was achieved. This figure would allow us to fully 
implement a key recommendation of the Security Review to staff all 
building access points with two officers. This level of deployment 
affords greater security to those who work and visit within the Capitol 
Complex and also enhances officer safety.
    I was deeply concerned during our last budget cycle when our FTE 
level was reduced to 1,481, while at the same time, we were given a 
directive to begin staffing each access point with two officers. We 
simply cannot staff at that level without adding additional officers or 
closing building entrances. Currently, we are able to staff each access 
point to the Capitol with at least two officers at all times. However, 
we cannot fully meet the two officers per door policy at all times at 
the House or Senate Office Buildings. Therefore, we have requested an 
increase of 49 FTEs for a total of 1,530 in fiscal year 2002. Our goal 
remains 1,694.
    Adequate staffing is not in itself sufficient. A law enforcement 
agency, like the military, is only as good as its training. Our 
employees must receive intensive, realistic, demanding training that 
closely supports their mission. We must constantly train our officers 
and civilians so they are capable of performing their missions at peak 
efficiency. Over the years, our training has been degraded in order to 
meet operational requirements. If we do not move to reverse this 
situation, we will experience a resulting degradation of our 
operational readiness and effectiveness.
    Therefore, I have made training a priority item in our budget 
request. We have begun a revitalization of the training effort, and 
request your support to expand our efforts.
    Our training requirements are complex and varied. We provide 
security for the most visible symbol of democracy in the world, and we 
do so in a manner that allows the ``Peoples House'' to remain open to 
all visitors. We must provide tactical training that allows our 
officers to respond the entire spectrum of threats, ranging from a lone 
gunman at a building entrance to the use of a weapon of mass 
destruction. We must provide diversity and courtesy training that 
allows our officers to engage and assist the nearly two million 
visitors per year. We must provide training that allows our officers to 
balance security concerns with the people's exercise of their First 
Amendment rights during the nearly 500 demonstrations annually.
    Our training request includes funding to allow each officer to 
receive an additional 40 hours of duty specific, in-service training. 
Unlike other agencies, we must replace officers in training with 
officers working in an overtime capacity in order to maintain police 
services. This requested funding will allow us to pay that overtime to 
support this critical training incentive.
    In addition, we must maintain the proficiency and effectiveness of 
our operational and administrative personnel. This has become a 
significant concern due to the complexity and diversity of our mission. 
Funding is requested for our personnel to complete continuing education 
and certification courses which enable them to maintain mandatory 
certification requirements.
    In addition to training, there are two areas that I would like to 
emphasize.
    As you are aware, the Department currently receives support for 
computers, printing, and telecommunications from the Senate Sergeant at 
Arms. I feel that the management and accountability for these services 
would be better served by having the Department budget for and 
administer these expenses. If approved, we would reimburse the Senate 
Sergeant at Arms for these services. I would like to point out that 
should these amounts not be approved, they will need to be restored to 
the Senate Sergeant at Arms fiscal year 2002 budget.
    Secondly, we have an urgent need to modernize the information 
technology capability of the Department. This budget correlates 
information technology activities with the USCP Strategic Plan, the 
Information Technology Strategic Plan, and the Information Technology 
Modernization Implementation Plan. The Implementation Plan has received 
high marks from the General Accounting Office, and we have now reached 
the point where we need additional funding to continue with the 
improvements in this critical area. The requested increase will allow 
us to continue to address information technology deficiencies and 
update our systems.
    Mr. Chairman, we have recently amended our budget request in order 
to fund an issue which I feel is vitally important not only to the 
continued professional development of the police department, but also 
to the morale of our personnel. This issue involves a pay adjustment 
for our sworn officers to achieve pay comparability with recently 
approved pay scales for U.S. Park Police and the U.S. Secret Service 
Uniformed Division. By providing a fair and competitive pay schedule 
which rewards career development, the U.S. Capitol Police will be able 
to continue to attract and retain professional career oriented 
personnel.
    In closing I would like to thank you and the Members of the 
Committee for the support you have given me over the past year. The 
issues which lay before us are challenging. Our ability to provide 
services and protect the United States Congress, its staff and 
visitors, and these historic buildings is largely determined by our 
levels of training, funding and staffing. With the continuing support 
of this Committee and the Congress, the United States Capitol Police 
will remain strong and up to the challenge.

    Senator Bennett. Thank you, I appreciate that. The Senate 
has a way of getting in the way of things that we need to do 
here.

                           TRAINING FACILITY

    Let me talk to you about your training facility at 
Cheltenham. Included in your request is a $105,000 item for the 
Anacostia training facility. Does this reflect the idea that 
Anacostia will only be needed for about half a year and that 
you will, in fact, be in Cheltenham by March of 2002?
    Mr. Varey. That's correct, sir. As soon as we're able to 
move into Cheltenham, we'll discontinue our liaison with the 
Navy at Anacostia. And that expense will no longer be incurred 
by the Capitol Police.

                             STRATEGIC PLAN

    Senator Bennett. You've talked about the Booz-Allen 
strategic plan and the operations. We would like a list of the 
specific recommendations and where you are on each one, if you 
could provide that.
    Mr. Varey. Yes, we certainly can.
    Senator Bennett. Okay. Is there any updates since the Booz-
Allen-Hamilton report where you've changed the strategic plan?
    Mr. Varey. We're continuing to upgrade the strategic plan 
and are in the process of revising the upgrades at the moment, 
sir.

                           COMPARABILITY PAY

    Senator Bennett. You've got a request in here for 
comparability pay. Do you have any specific data, other than an 
anecdotal evidence here and there about officers leaving 
because of comparability pay? I remember a discussion with the 
metropolitan police, and we tried to get comparability with the 
metropolitan police. And now you're talking about comparability 
with the Park Service and the Secret Service Uniform Division. 
Is there anybody else out there that we're going to hear about 
comparability for at some point in the future?
    Mr. Varey. I would imagine that would be the case from 
other agencies, since the raise that was given to the Park 
Police and the Secret Service seems to have set the standard.
    Our missions are compatible and the benchmark we've been 
using has been the Secret Service and the Park Police because 
of the similarity in mission.
    We are concerned about the fact that we are losing people 
to other agencies. Last year we lost over 100 for the fiscal 
year 2001. We lost over 100 police officers. I've asked Mr. 
McWilliam to go back in and do an assessment as to the reasons 
for those departures. Some I attribute to the fact there was 
rumors of a RIF last June on this police department that came 
because of some budget controversies.
    Senator Bennett. We had that conversation with our friends 
in the House.
    Mr. Varey. Yes, sir, thank you. I'm sure the old philosophy 
of last one in, first one out was in the minds of some of the 
young officers that we recruited that eventually ended up going 
to metropolitan police department, Prince George's County and 
Fairfax County and so forth.
    We have lost a significant amount of people. I can't give 
you the number at the moment. We certainly can provide it at a 
later date.
    Senator Bennett. And any study you can give us as to why 
would be helpful.
    Senator Durbin, do you have some questions?

                              CPR TRAINING

    Senator Durbin. I do. Mr. Chairman, I will make them very 
brief. One would be a request for information, which you may 
not have at hand. I noticed in going through the notes here the 
suggestion that some or all of the Capitol Police are trained 
in CPR; is that correct?
    Mr. Varey. That is correct, sir. We are having problems 
again with training, as we've indicated, in terms of going 
through the recertification process, and we're trying to do 
that right now.
    One of the problems that we've had, as we've noted in our 
remarks, and you'll see in my statement is that in order for us 
to train, we have to pull people off posts and then pay 
somebody overtime to fill that vacancy. With the overtime 
budget being constrained, it's difficult to do that.
    Senator Durbin. If you can give me some indication on that 
level of CPR training with the Capitol Police, I'd appreciate 
it.
    Mr. Varey. Yes, sir.
    Senator Durbin. Are there defibrillators available 
throughout the Capitol complex for use by the police?
    Mr. Varey. Yes, sir, that's a new program we've entered 
into with the attending physician's office. Our people are 
being trained currently with the attending physician's office. 
It is our hope that we will have about 12 within the Capitol 
complex. Some will be in our cruisers and some will be pre-
positioned in the office buildings.

                              NEW OFFICERS

    Senator Durbin. I note you anticipate hiring 148 new 
officers in the next year. I assume some of that is for 
attrition and others for the new spots.
    Mr. Varey. Yes, sir. One hundred of those will be through 
the attrition process and 48 are new FTEs.
    Senator Durbin. Which is around 10 percent of the current 
FTE?
    Mr. Varey. Approximately.
    Senator Durbin. Is that the usual, normal rate, 10 percent 
a year that you've seen in the past? Or, is that high or low?
    Mr. Varey. That kind of fluctuates, sir. Our research 
indicates that next year, for instance, 2002 we'll have 
approximately 160 officers that will be eligible to retire. Out 
of those 160, I believe there's 7 or 8 that are mandatory 
retirements. They will have reached the age of 57. They'll have 
to go.
    Senator Durbin. Are your officers hired after taking a 
competitive exam?
    Mr. Varey. Yes, sir.

                              DEMOGRAPHICS

    Senator Durbin. What I'd like you to provide for me, if you 
will, and we won't have time to get into it at this point is 
some indication of the demographics of those who were tested 
and hired, particularly as it relates to minorities on the 
Capitol Police force.
    I would also appreciate it if you would give me some 
indication about promotions available to minority officers on 
the force as well as historically what has happened. And we can 
speak another time about efforts that are made within the 
Capitol Police force to make certain that there is equal 
opportunity.
    Mr. Varey. Yes, sir.
    Senator Durbin. Thank you, Mr. Chairman.
    Senator Bennett. Thank you, and I would underscore what 
Senator Durbin has just talked about. It would be useful if you 
would not only give us the long history but frankly the short 
history in terms of your own stewardship, if anything has 
changed.
    If you have found any kind of a problem in the previous 
administrations that you've tried to change because you are as 
aware as we are of the publicity that's surrounding this. And I 
realize there has been a new administration, and if you have 
taken steps, I think those ought to be documented as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will now go vote, and I think if we have additional 
questions, we'll submit them to you in writing so that it isn't 
necessary for you to hang around until after the vote is over.
    We will come back to hear testimony from Bill Thompson, the 
executive director of the Office of Compliance.
    Mr. Hantman. Mr. Chairman, if I could, just for the record, 
put a little comment in here that I just wanted to thank Jim 
Ziglar for his wonderful sense of quality, his sense of 
integrity and commitment to excellence for the Congress, for 
the Capitol Police Board, for the Capitol Guide Board that I've 
had the honor of serving on with Jim.
    His good humor, humanity, and friendship will truly be 
missed and I truly hope, Jim we can maintain that friendship 
off Capitol Hill as we go forward. He's been a breath of fresh 
air in here.
    Senator Bennett. Thank you. I truly hope, Jim, we can 
maintain that friendship off Capitol Hill as we go forward. 
He's been a breath of fresh air in here.
    Senator Bennett. Thank you. It's worth delaying our 
departure to hear that. The subcommittee is in recess.
    [The following questions were not asked at the hearing, but 
were submitted to the Board for response subsequent to the 
hearing:]
            Questions Submitted by Senator Robert F. Bennett

    Question. USCP's first financial audit confirmed violations of the 
Anti-Deficiency Act and found material weaknesses in internal controls, 
systems and processes related to payroll activities. Many of the 
underlying financial management and human resource weaknesses cited in 
the financial audit were previously disclosed in the Booz Allen &amp; 
Hamilton's January 1999 management report on USCP's administrative 
operations.
    What Actions have or will be taken to correct these material 
weaknesses?
    Answer. The USCP has taken numerous actions to address the 
deficiencies noted in both the Booz Allen's report and the financial 
audit. We have:
  --Implemented a core accounting system to track financial 
        transactions from the obligation to payment phases. We utilize 
        this system to effect funds control, obligate funds for planned 
        purchases, manage procurement actions, pay obligations and 
        monitor budgets.
  --Implemented a payroll forecasting and reconciliation process to 
        monitor the status of the salary accounts to ensure that the 
        salary appropriation is not exceeded.
  --Initiated the development of a financial management policy and 
        procedures manual and have drafted several core procedures.
  --Re-organized the Financial Management Division to provide for 
        adequate separation of duties and appointed certifying officers 
        within the USCP.
  --Initiated an Investment Review Board to address budget allocation 
        and preparation issues.
  --Developed a policy regarding the maintenance and disposition of 
        time and attendance data.
  --Instituted processes and performance measures which ensure bills 
        are paid in a timely manner. Average payment processing 
        statistics for the month of June indicated that vendor payments 
        were made within 16 days of receipt and travel reimbursements 
        were made within 5 days of receipt.
  --Implemented procedures to ensure that all purchase card orders are 
        tracked and paid in a timely basis.
  --Performed reconciliations covering fiscal year 1999 and fiscal year 
        2000 to bring all accounts up to date with House financial 
        records and instituted routine procedures to perform 
        reconciliations on a monthly basis.
    Question. What actions have been taken to respond to other 
recommendations in the audit report?
    Answer. The USCP has developed a Financial Management Improvement 
Plan that identifies the strategic direction for financial management 
activities within the organization. This plan identifies planned 
actions to address all recommendations and deficiencies noted in the 
audit report as well as other opportunities for improvement and 
streamlining of financial operations. We are currently in the process 
of performing a review and update of the plan.
    Question. What controls have you implemented to ensure that there 
are no current violations of the Anti-Deficiency Act?
    Answer. The USCP takes the status of its appropriated funds very 
seriously and the following fund control procedures have been 
established to carefully monitor the status of those funds:
    Salaries.--The area of greatest concern involves our salary 
appropriations. Since the beginning of fiscal year 2001, biweekly 
salary projections including base salary, benefits and overtime are 
completed, analyzed and distributed to all Bureau Commanders. Any 
unusual transactions or trends are reviewed and discussed for their 
impact on the organization. In addition, overtime allocations were 
delegated to bureau commanders, who remain responsible for not 
exceeding those allocations.
    General Expenses.--In October 2000, the USCP transitioned to the 
GAO's FMS system and utilizes the system to effect funds controls, 
obligate funds for planned purchases, pay obligations and monitor 
budgets. To effectively utilize the system, the following processes 
were instituted:
  --For fiscal year 2001, fund certification authority was formally 
        delegated to the bureau commanders and is in effect.
  --Transaction reports are generated and distributed to each Bureau on 
        a weekly basis.
  --Individual account limits are established in the financial 
        management system to ensure general expense accounts cannot 
        exceed authorized levels.
  --The Financial Management Division has drafted a Financial Policy 
        Manual which will guide financial management, procurement and 
        budget decision making in the future.
    Question. What plans do you have to independently evaluate 
corrective actions to ensure they are properly designed and working 
effectively?
    Answer. The provisions of the 2001 Appropriations Act which 
established the Chief Administrative Officer provided for annual audits 
of the financial statements by an independent public accountant (IPA). 
Part of the reviews incorporated into the audit process include reviews 
of the status and implementations of corrective actions of prior 
identified weaknesses and compliance with laws and regulations. An IPA 
is currently conducting an audit of the fiscal year 2000 financial 
statements.
    Question. Last December, legislation was enacted to establish a 
Chief Administrative Officer within the USCP. The legislation included 
a number of actions the CAO is expected to take in these areas. Please 
provide the Committee an update.
    Answer. The CAO was hired on February 12, 2001, within the 60 days 
required by the legislation. Organizations within the Department were 
aligned to create an Office of Administration headed by the CAO.
    The enacted legislation required the CAO to:
  --Appoint certifying officers--completed
  --Prepare audited annual financial statements independent public 
        accountant hired and audit is on-going
  --Prepare a plan of action for administrative responsibilities--In 
        process and on schedule for submission by August 12, 2001.
    Question. Last year, this Committee proposed merging the police 
forces of the Library of Congress and the Government Printing Office 
with the Capitol Police. We believe the there can be efficiencies 
gained from such a merger. Please provide the Committee with your views 
on such a consolidation.
    Answer. We believe the merger of LOC, GPO and Capitol Police 
uniformed security and physical security operations (i.e., alarms, 
cameras, intrusion detection devices, etc) would provide a more 
coordinated and consistently trained force on the Capitol Hill complex.
    In order to effect such a transition, the USCP would require a year 
to devise an implementation plan for the merger. Significant issues 
which would require attention include:
  --Assessment of the skill levels of the Library and GPO would need to 
        be performed and any necessary training would need to be 
        acquired.
  --Additional funding for training would be required to bring any 
        Library and GPO officers to fully trained status within the 
        USCP.
  --Personnel differences would need to be addressed:
    --Officers would be required to be converted to the USCP pay scale 
            and retirement system or another workable solution would 
            have to be devised.
    --Union issues would need to be addressed. Multiple independent 
            labor committees (within the FOP) among the USCP, LOC and 
            GPO.
    Question. What are the reasons for Officer attrition within the 
USCP?
    Answer. The following chart summarizes the reasons for officer 
attrition by calendar year since 1995:

----------------------------------------------------------------------------------------------------------------
                                                                 Calendar year--
                 Reason                 ----------------------------------------------------------------  Total
                                         2001 \1\    2000     1999     1998     1997     1996     1995
----------------------------------------------------------------------------------------------------------------
Education..............................         0        2        3        0        1        0        0        6
                                        ========================================================================
Other Employment.......................        11       51       24       23       18       17       33      177
    Civilian...........................         1       12        4        4        7        4        7       39
    Law Enforcmt.......................        10       39       20       19       11       13       26      138
                                        ========================================================================
Retirement.............................         6       31       29       26       39       47       42      220
    Disability.........................         0        4        2        2        5        9        2       24
    Optional...........................         5       23       21       15       29       33       24      150
    Mandatory..........................         1        4        6        9        5        5       16       46
                                        ========================================================================
Terminated.............................         0        0        0        1        0        0        2        3
Term Probation.........................         1        0        0        0        0        0        0        1
Deceased...............................         0        1        0        5        2        3        3       14
Personal/Other.........................         5       13       13        5        4       15       10       65
                                        ------------------------------------------------------------------------
      TOTAL............................        23       98       69       60       64       82       90      486
----------------------------------------------------------------------------------------------------------------
\1\ As of July 28, 2001.

    Question. Explain choice of USPP/USSS-UD for bench marking on pay 
comparability. Why have we stopped bench-marking against MPD.
    Answer. The mission of the USCP compares fairly in terms of mission 
requirements and other factors to the U.S. Park Police and the United 
States Secret Service-Uniform Division. In addition, Federal benefits 
from the USCP are fully transferrable to these other agencies. 
Therefore, since fiscal year 1995 we have bench-marked our pay 
comparability against those two organizations.
    Question. What level of CPR training do officers receive?
    Answer. There are currently 70 individuals in the Patrol Division 
who have been trained in CPR and defribulator use. Current plans will 
require that all sworn officers be trained in CPR, and this training 
will become part of the core requirements of the Department.
    Question. Are defribulators available for use? How many and who is 
trained?
    Answer. Three defribulators have been provided to the USCP by the 
Office of the Attending Physician and have been deployed on the street 
since July. The USCP plans to acquire an additional 9 defribulators for 
deployment in our buildings and emergency response fleet.
    Question. Provide information concerning advancement (promotion 
statistics) and recruitment (tested and selected) of minorities. 
Provide information on what has been done over the years to provide 
more opportunities for minorities. Highlight what has been done under 
Chief Varey's tenure.
    Answer. Police Officer Written Examination Results for the current 
and two prior years are as follows:

----------------------------------------------------------------------------------------------------------------
                                       1999              2000              2001              Total
                                ------------------------------------------------------------------------   Pass
                                  Tested   Passed   Tested   Passed   Tested   Passed   Tested   Passed  Percent
----------------------------------------------------------------------------------------------------------------
White Male.....................      796      613      451      354      185      141    1,432    1,108     77.4
White Female...................       82       64       46       37       25       20      153      121     79.1
Black Male.....................      683      301      360      165      140       43    1,183      509     43.0
Black Female...................      184       76      114       55       41       12      339      143     42.2
Hispanic Male..................      108       55       61       41       25        8      194      104     53.6
Hispanic Female................       16        8        8        3        2        1       26       12     46.2
Other Male.....................       87       63       45       26       21        7      153       96     62.7
Other Female...................       15        6        6        2        3        0       24        8     33.3
                                --------------------------------------------------------------------------------
      Total....................    1,971    1,186    1,091      683      442      232    3,504    2,101     60.0
----------------------------------------------------------------------------------------------------------------

    Appointment statistics for the past three calendar years, arranged 
by demographic affiliation are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                      1999     2000   2001 \1\   Total   Percent
----------------------------------------------------------------------------------------------------------------
White Male........................................................      109       78        41      228   (65.3)
White Female......................................................       16        6        10       32    (9.2)
Black Male........................................................       23       15        13       51   (14.6)
Black Female......................................................        8        6         4       18    (5.2)
Hispanic Male.....................................................        4        6         3       13    (3.7)
Hispanic Female...................................................        1        0         0        1    (0.3)
Other Male........................................................        2        4         0        6    (1.7)
Other Female......................................................        0        0         0        0        0
----------------------------------------------------------------------------------------------------------------
\1\ As of July 28, 2001.

    Promotion statistics for the past three calendar years, arranged by 
demographic affiliation are follows:

----------------------------------------------------------------------------------------------------------------
                                                                      1999     2000   2001 \1\   Total   Percent
----------------------------------------------------------------------------------------------------------------
White Male........................................................        5       10         3       18   (52.9)
White Female......................................................        2        0         2        4   (11.8)
Black Male........................................................        2        3         1        6   (17.6)
Black Female......................................................        0        1         1        2    (5.9)
Hispanic Male.....................................................        0        2         0        2    (5.9)
Hispanic Female...................................................        0        0         0        0    (0.0)
Other Male........................................................        0        1         0        1    (2.9)
Other Female......................................................        1        0         0        1    (2.9)
----------------------------------------------------------------------------------------------------------------
\1\ As of July 28, 2001.

    The breakdown of promotions by grade:

----------------------------------------------------------------------------------------------------------------
                                                              1999 Promo to:      2000 Promo to:  2001 Promo to:
                                                         ----------------------------------------       \1\
                                                                                                 ---------------
                                                            Sgt     Lt     Cap.     Sgt     Lt      Sgt     Lt
----------------------------------------------------------------------------------------------------------------
WM......................................................       3       2  ......       7       2       3  ......
WF......................................................       1  ......       1  ......  ......       2  ......
BM......................................................       2  ......  ......       3  ......  ......       1
BF......................................................  ......  ......  ......       1  ......       1  ......
HM......................................................  ......  ......  ......       2  ......  ......  ......
HF......................................................  ......  ......  ......  ......  ......  ......  ......
OM......................................................  ......  ......  ......       1  ......  ......  ......
OF......................................................       1  ......  ......  ......  ......  ......  ......
----------------------------------------------------------------------------------------------------------------
\1\ As of July 28, 2001.

    The examination process is the first in a series of steps used to 
select a suitable candidate for service with the USCP. After successful 
completion of the written examination, background checks, physical and 
psychological examinations, and polygraph tests are used to determine 
the candidate's suitability for employment. Because of limitations of 
the availability of data by demographic affiliation, specific 
information is not readily available to report success rates after the 
initial examination to the hiring phase. In addition, data is not 
readily available to indicate those who decline offers or who choose 
not to continue with the process after the written examination has been 
administered.
    Because the USCP is committed to a fair an impartial process for 
both recruitment and promotions, the entrance exam instruments are 
prepared by an outside consultant/contractor and are independently 
validated by the contractor to be 100 percent job related and non-
discriminatory. Promotional examinations and assessments are 
administered in their entirety by a contractor who conducts preparatory 
courses on how the examination is to be administered and for what the 
candidates should be prepared. In addition, the promotional process is 
managed by a Promotional Process Task Force who not only manages the 
process but accumulates lessons learned for incorporation into the next 
examination process.
    In order to provide opportunities and entice candidates to apply 
for positions with the USCP, between 1999 and 2001 (to date), we 
attended 31 college job fairs and career days, five of which were 
historically black colleges or colleges which maintained an 83 percent 
minority enrollment. We are also reviewing, with the assistance of the 
test administrator, the testing process and the allotted completion 
time frames for the math portion of the exam to determine whether an 
extension of the completion time would offer candidates a better chance 
at raising test scores without jeopardizing the integrity of the 
testing process. Further, we have added more minority officers to our 
recruiting staff as part of the current reorganization and are sending 
more minority officers to job fairs and schools as well as have 
initiated a community outreach program. We are also working to achieve 
balance by transferring more minority officers into speciality 
assignments. Additionally the Chief has instituted an open door policy 
which has provided a forum for minority officers to address issues of 
concern directly to him. A March 2000 report by the Department of 
Justice indicated that as of June 1998, of federal law enforcement 
agencies employing 500 or more full time officers, the USCP employs the 
2nd highest percentage (29.8) of black or African American Federal 
officers with arrest and firearms authority, has the third largest 
representation of female officers (17.9 percent) and maintains an 
overall minority representation percentage of 32.7 percent.
    In addition to these efforts, we have initiated the process of 
contracting for diversity/sensitivity training for all staff. Once all 
current staff have been trained, this type of training will become part 
of the normal yearly in service training requirement for the 
Department. Beginning in fiscal year 2002, the total in-service 
training requirement will be elevated from 40 to 80 hours per year.
    Question. Why has the Board requested a pay comparability increase 
for the salary of sworn employees?
    Answer. Our request involves a pay adjustment for our sworn 
officers to achieve pay comparability with recently approved pay scales 
of the U.S. Park Police and the U.S. Secret Service, Uniformed Division 
(USPP/USSS-UD). By providing fair and competitive pay which rewards 
career development, the USCP will be able to continue to attract and 
retain professional career oriented personnel.
    We have found in terms of compensation is that in all ranks the 
USCP loses parity with USPP/USSS-UD agencies as our officers gain years 
of service. Essentially our most valuable officers, the most 
experienced and those who have contributed to the Department the 
longest, are shortchanged when compared to their peers. With 30 years 
service, the USCP Private falls $6,332 (10.4 percent) behind his peer's 
basic pay with equal service. Additionally, should the USCP retire, his 
annual retirement benefits under the CSRS would result in $3,572 less 
than his USPP/USSS-UD counterpart. The disparity grows as the rank 
increases. A USCP inspector is $15,072 (15.7 percent) behind in salary 
compensation. These disparities are compounded when retirement 
calculations are added to the equation.
    Question. How much was actual spending, by account, in fiscal year 
2000 compared to the appropriation?
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal Year
                      Account                        Fiscal Year 2000    2000 Actual      Variance      Percent
                                                    Appropriation \1\        \2\
----------------------------------------------------------------------------------------------------------------
House Salaries....................................       $46,165,916      $45,366,974        $798,942        1.7
Senate Salaries...................................        47,441,084       47,147,507         293,577        0.6
General Expenses..................................         6,549,000        6,412,016         136,984        2.0
----------------------------------------------------------------------------------------------------------------
\1\ Including transfers.
\2\ Figures as of 9/30/2000.

                          OFFICE OF COMPLIANCE

STATEMENT OF BILL THOMPSON, EXECUTIVE DIRECTOR
ACCOMPANIED BY:
        SUSAN S. ROBFOGEL, CHAIRPERSON, BOARD OF DIRECTORS
        GARY GREEN, GENERAL COUNSEL
        PAMELA TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
        JAMES STEPHENS, DEPUTY EXECUTIVE DIRECTOR FOR THE HOUSE OF 
            REPRESENTATIVES

    Senator Bennett. The subcommittee will come to order. Our 
last witness this morning is Mr. Bill Thompson, Executive 
Director of the Office of Compliance. Mr. Thompson is joining 
us for the first time, having been appointed Executive Director 
in March.
    Mr. Thompson, I understand that you have a long and 
distinguished career in the field of labor relations, both 
public and private sector. And we welcome you here this 
morning.
    We appreciate your patience going through all of the other 
conversations that we had. The Office of Compliance budget 
request totals just over $2 million, an increase of $243,000 or 
13 percent. This includes funding for 15 FTEs and a 3.7 percent 
cost of living increase.
    And the increase will allow for increased funding to pay 
for contracting hearing officers, mediators, and court 
reporters and increased funding for additional health and 
safety contract inspections and experts, funding two positions 
that are currently vacant, as I understand it.
    And we thank you for being here, and we look forward to 
your statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. It's a 
great honor to be here. I'd like to introduce to you a few 
other people. The Chair of our Board, Susan Robfogel is to my 
left. Our General Counsel, Gary Green, is to my right, and 
behind me are the two deputy directors--for the Senate, Pam 
Talkin and for the House, Jim Stephens.
    I'd like to for just a moment turn the mike over to Ms. 
Robfogel. As the Chair of our Board, she has a couple of things 
she'd like to say, with the Chair's permission.
    Senator Bennett. Surely.
    Ms. Robfogel. Mr. Chairman, I'm delighted to be here today. 
I've been Chair for the Board for just about 1 year. This is my 
first appearance before your committee as well, and I'm pleased 
to be here. You've had a long morning this morning, a full 
morning, so I think the appropriate thing would be to go into 
the substance of our request, and if I may, I'd like just a 
moment or two after that.
    Mr. Thompson. Just briefly, Mr. Chairman, the two deputies' 
terms of 5 years are ending in the next several months, and I'd 
like to take this opportunity on behalf of the Chair and 
General Counsel Green to thank Pam Talkin and Jim Stephens for 
a remarkable record of service to the office. They were there 
at the beginning. They have helped implement the Act, and they 
have helped me by orienting me during my transition into the 
office. I thank them very, very much for their service.

                           PREPARED STATEMENT

    I've submitted written comments regarding the budget 
request and would ask that they be entered into the record.
    Senator Bennett. Without objection.
    [The statement follows:]

                  Prepared Statement of Bill Thompson

                         INTRODUCTORY COMMENTS

    Thank you, Mr. Chairman and Members of the Committee for the 
opportunity to appear before you today in support of the fiscal year 
2002 budget request of the Office of Compliance. I was appointed 
Executive Director of the Office of Compliance effective April 2nd of 
this year, and am honored to appear before you for the first time.
    With me today is the Chair of the Board of Directors of the Office 
of Compliance, Susan S. Robfogel. The Board and staff of the Office are 
extremely fortunate to have as Chair a person of Ms. Robfogel's 
caliber. Also here today are Pamela Talkin, Deputy Executive Director 
for the Senate, who has served as the Acting Executive Director prior 
to my arrival; James Stephens, Deputy Executive Director for the House; 
Gary Green, the General Counsel of the Office of Compliance, and Beth 
Hughes-Brown, the Office's Budget Officer. Ms. Talkin and Mr. Stephens 
are approaching the end of their five-year terms. I would like to add 
my deep thanks and appreciation to each of them for the invaluable 
orientation and training they have provided to me as the newcomer among 
the executive appointees of the Office.

                          OFFICE OF COMPLIANCE

    As the Committee is aware, our Office is the administrative agency 
created in 1995 to carry out the Congressional Accountability Act's 
broad mandate to extend the coverage of many nationally mandated 
workplace regulatory schemes to Congress and its instrumentalities. The 
Office of Compliance is responsible for reviewing and processing 
complaints concerning alleged violations of no fewer than eleven 
federal workplace regulatory schemes: Title VII of the Civil Rights Act 
of 1964, the Age Discrimination in Employment Act of 1967, the 
Rehabilitation Act of 1973, Title I of the Americans with Disabilities 
Act of 1990, the Family and Medical Leave Act of 1993, the Fair Labor 
Standards Act of 1938, the Employee Polygraph Protection Act of 1988, 
the Worker Adjustment and Retraining Notification Act, the Occupational 
Safety and Health Act of 1970, Chapter 71 of Title 5 of the U.S. Code 
relating to federal service labor-management relations, and Chapter 43 
of Title 38 of the U.S. Code regarding veterans' appointment and 
reappointment. We also are responsible for any administrative claims of 
retaliation by agencies or employers against employees for the exercise 
of employee rights under these statutes as applied through the CAA.

                           OUR BUDGET HISTORY

    The Office's fiscal year 2001 appropriated budget totals $1.816 
million, approximately 87 percent of the budget request for this year, 
and about 70 percent of our fiscal year 1997 appropriation. A brief 
review of the appropriated budget history of the Office of Compliance 
reveals a generally downward trend, as follows:

Fiscal year:
    1996......................................................$2,500,000
    1997...................................................... 2,609,000
    1998...................................................... 2,479,000
    1999...................................................... 2,086,000
    2000...................................................... 1,992,400
    2001...................................................... 1,816,000

    Some of these budget decreases were, at least in part, requested by 
the Office of Compliance as a direct reflection of fluctuating 
caseload, improved efficiency in operation, and the shedding of start-
up costs, such as completion of a body of regulations mandated to guide 
the administrative process, which had required considerable resources. 
At this juncture, we believe the Office has successfully realized the 
bulk of the savings which could be obtained through streamlining our 
staffing, which has dropped from a fiscal year 1997-98 high of 19 to 
the current 15 authorized FTE's.
    The Office's established culture of doing as much as possible with 
as few dollars and staff as necessary continues to guide us. The Office 
of Compliance is very fortunate to have begun on the right fiscal track 
under the leadership of former Executive Director Ricky Silberman. 
However, we have already wrung out of our spending much of the decrease 
in administrative costs that could be derived from improved 
efficiencies in an operation our size. Nevertheless, our current budget 
request is less than last year's request, reflecting a decrease of over 
$36,000.
    However, at this point the Office of Compliance is experiencing the 
onset of operational stress associated with the continuation of our 
downward fiscal trajectory. Consequently, it is with a measured sense 
of concern for the future that we come before you today.

               OFFICE'S FISCAL YEAR 2002 BUDGET ESTIMATE

    The fiscal year 2002 budget request for the Office seeks a modest 
net increase in funding in the amount of $243,000. When we requested 
this increase, we were concerned that our current appropriation left 
absolutely no room for variance from the relatively low number of new 
cases and hearings we had in fiscal year 2000. This concern has been 
underscored in the first half of the current fiscal year by the fact 
that we have already been required by our statute to commit 
approximately 80 percent of the total budgeted for payments for 
mediators and hearing officers.
    In addition, the OSHA inspection and enforcement efforts of our 
General Counsel and his staff are stretched thin. At this point, due in 
part to our current funding level for contracted safety and health 
experts, the Office is unable to respond to some complaints or requests 
for investigation of alleged safety and health hazards in the 
facilities for which we are responsible in an expeditious manner. 
Therefore, an increase is included in our fiscal year 2002 request to 
enable us to contract with additional experts so we can reduce the time 
it currently takes to make health and safety inspections.
    In the first seven months of this fiscal year, we've had 330 
requests for counseling, as compared to 46 during the same seven months 
in fiscal year 2000, and our case load is again increasing in many 
other areas of our regulatory responsibility. For example, increasing 
numbers of legislative branch employees are making use of the Office's 
unfair labor practice authority and remedies, as collective bargaining 
relationships mature.
    Therefore, the largest items within our requested increase of 
$243,000 include: increased funding to pay contracted hearing officers, 
mediators, and court reporters; increased funding for additional health 
and safety contract inspections and experts; and funding adequate to 
staff our 15 FTE positions, two of which are currently vacant.
    Our goal for the current fiscal year continues to be to keep the 
Office within our fiscal year 2001 appropriation. Together with Chair 
Robfogel and the Board of Directors of the Office, the other statutory 
appointees and I respectfully request that the Committee respond 
favorably to the fiscal year 2002 budget.
    We will be happy to respond to any inquiries from the Chair and the 
Members of the Committee. Thank you.

                      CASE LOAD AND BUDGET REQUEST

    Mr. Thompson. Let me only touch briefly on the central 
theme of our submission. The Office of Compliance is operating 
this current budget year on approximately 70 percent of our 
fiscal year 1997 appropriation.
    In reviewing past budget proposals submitted by the office, 
I learned that much of the downward trend during the past 3 or 
4 fiscal years was not the result of cuts by the Congress but 
was actually requested by the administration of the office. In 
one of those hearings, Executive Director, Ricky Silberman, 
said, and I quote, ``Our budget request is based on really 
taking a hard look at our program and trying to see how we can 
bring those costs down.''
    We have a very lean staff and our people really function as 
utility infielders. They fulfill more than one function. As the 
new Executive Director, together with Ms. Robfogel, I certainly 
say that this policy and this philosophy of budget will 
continue.
    The principal driver of our cost is case load. And at this 
point in our current fiscal year, we're continuing to 
experience a significant increase in the number of contacts, 
the number of requests for inspections, and the number of 
hearings that are requested and counselings.
    For example, as of October 1, 2000, we had 10 pending 
counseling requests. As of yesterday we had 336. A significant 
number of those requests concern group complaints. However, 
under the Act every request for counseling and mediation must 
be processed individually, and there is a major increase in 
that case load.
    Senator Bennett. Can I ask you if that is tied primarily to 
the Capitol Police or is it----
    Mr. Thompson. The largest group is the Capitol Police, yes.
    Senator Bennett. Thank you.
    Mr. Thompson. But we have a significant--even if you take 
away the Capitol Police, we still have a significant increase 
in those numbers.
    Our health and safety responsibilities are also growing 
considerably. That, of course, is generally the responsibility 
of the General Counsel's office, but we are beginning to 
experience some organizational stress in that regard as well, 
in that we are not able to respond to requests for inspection 
in all cases within the time frame that we would like to. So 
that's one of the reasons why we're requesting additional funds 
for the inspections, for per diem or hourly people who could be 
on contract.
    The request for the $243,000 increase is really constructed 
from a zero based budget. It is based on the same review of our 
operation which has taken place each previous year and it will, 
we believe, provide nothing more nor less than the 
appropriation necessary to provide the dispute resolution and 
enforcement services which are necessary for the office to 
fulfill the mission given us by Congress.
    As I said, the case load is the driver, and several years 
ago the cases went down. And at this point, the cases are going 
up significantly. Thank you, Mr. Chairman.
    Senator Bennett. Thank you. You've only been on board a few 
months.
    Mr. Thompson. About 6 weeks.
    Senator Bennett. About 6 weeks, all right, not even 2 
months. Do you have any plans for structural changes in the 
organization at this point? From your testimony, I would gather 
not but----
    Mr. Thompson. I do have an interest in increasing our 
educational activities. We currently have a director of 
education and counseling and her time is split between 
education and other functions. We've heard from user 
populations that the visibility of the office is sometimes an 
issue, not certainly for want of trying because the office has 
a very active process. But I think that we might be able to 
increase our efforts in that regard, and I intend to follow up 
on that idea.

               RESPONSES TO SAFETY AND HEALTH COMPLAINTS

    Senator Bennett. Okay. How long does it take to respond to 
a complaint of an alleged safety or health hazard, and do you 
have a backlog of those complaints?
    Mr. Thompson. I'll ask our General Counsel to respond to 
that.
    Mr. Green. During the course of our past 6 months, Mr. 
Chairman, we've had to defer responding several requests for 
inspection for a matter of months. One request I have in mind 
took us almost 10 months to get to. And several others were 
delayed in the range of 3 to 4 months.
    It's unfortunate, but we do have a very small staff, and 
the requests for inspection have to be analyzed when they come 
in to determine the degree of imminence of danger, the 
seriousness of it, the number of people involved, and we try to 
give priorities as intelligently as we can. Bottom line still 
is there are only so many hands to go around.

                                BACKLOG

    Senator Bennett. Do you have a backlog at the moment? Are 
there any that are hanging as you take those that you have 
initially decided are higher priorities?
    Mr. Green. There's no backlog in the sense of requests that 
have not been investigated. There are investigations going on 
now which may take considerable time to conclude. But there are 
no requests for inspections where the investigations are not 
begun.
    Senator Bennett. So if I understand what you're saying, if 
someone calls you and says we have a very serious problem, a 
sewer has broken and raw sewage is coming out here and we're 
all going to get sick, you would respond to that one 
immediately to check that out to see if indeed it was--I'm 
exaggerating, obviously, but something that you considered a 
significant and immediate hazard you would check immediately. 
Something that you think, well, it may be a problem, but it's 
not an immediate challenge you would put in queue behind the 
first one?
    Mr. Green. That's exactly right.
    Senator Bennett. So that everything does get responded to 
in one way or another virtually immediately?
    Mr. Green. No. There are things that appear serious on the 
surface or at least warranting an investigation which have to 
wait or have had to wait for a matter of months.
    Senator Bennett. An evaluation has been made at least 
immediately?
    Mr. Green. Yes, so that we can make an effort, as best we 
can, to attend to what appears to be the most urgent 
immediately.
    Senator Bennett. Okay.
    Mr. Green. The problem with requests for inspection is that 
ordinarily your superficial impressions are not--or initial 
impressions about the seriousness of the problems--are not 
always borne out.
    We are in the midst of some investigations right now that I 
wish we had started much earlier because the health hazards 
appeared to be more significant to more people than was 
realized at the start.
    Senator Bennett. Are there any where the initial impression 
goes the other way, where you started something and then when 
you got into it you thought, gee, this one could wait while 
we're pursuing something else?
    Mr. Green. Yes, yes, I think so.
    Senator Bennett. That's a micro management that I apologize 
for, and I'll back away from that.

                   SELECTION OF NEW DEPUTY DIRECTORS

    You talk about your deputies fulfilling their 5-year terms. 
How will you select new deputies, and will they also be limited 
to a 5-year term?
    Mr. Thompson. The Chair of the Board, Ms. Robfogel, is 
responsible for the appointment of the appointees, including 
myself, Mr. Green, and the two deputies with the advice and 
consent of the Board of the office. And I would defer to her 
for any further comments.
    Ms. Robfogel. The way our statute is written, anyone 
appointed to one of the statutory appointee positions, 
including the Executive Director, the General Counsel, and the 
two deputy executive directors is limited to one single 5-year 
term. As are each of the Board member positions. There is no 
potential for succeeding oneself.
    Senator Bennett. And how do you choose the deputies? Is 
this an open competition or----
    Ms. Robfogel. Yes, it is. We have advertised publicly, both 
within the governmental advertising facilities, and we have 
also advertised the positions in the Washington Post. And we 
did the same thing when we were recruiting for the Executive 
Director position, and we also utilized the services of an 
executive search firm.
    Senator Bennett. Are the terms staggered, or do they all 
expire at the same time so you get a new Director, a new 
Chairman, and two new deputies all at once?
    Ms. Robfogel. Unfortunately that seems to be the position 
we're in right now. Our new Executive Director came on board 6 
weeks ago. As I told you, I came on as the Chair just about 1 
year ago. The entire Board has been appointed within the last 
year and a half, and we will lose one of our deputy executive 
directors in August and the other in September.
    So there are a lot of new people. Fortunately we have had 
some period of overlap. The statute is written in an 
interesting way.
    Mr. Thompson. It's extremely important that we have had 
some period of overlap.
    Senator Bennett. I would think a little institutional 
memory is always a good idea.
    Ms. Robfogel. I would echo what our Executive Director has 
already said, though, in terms of the yeoman's job that both of 
our deputy directors have done, both in bringing along the 
Board, its Chairman, and now our new Executive Director. They 
have been wonderful.
    Senator Bennett. Well, we might take a look at changing the 
law and staggering--staggering some of the appointments so that 
there is a little bit of institutional memory. If you have any 
thoughts on that, share them with us.
    Ms. Robfogel. Thank you.
    Senator Bennett. We're not the committee that can do that, 
but we know some who are, so we would appreciate that.

                           NEW GROUP OF CASES

    What do you anticipate out of the case load that you've 
described, the majority of which is the Capitol Police. There's 
been some publicity about the Capitol Police. Do you see that 
as a major new challenge, and is it going to move through the 
system like a pig in a python? Is it, in your view, going to 
create a new base line that will require a higher kind of 
funding from here on out?
    Mr. Thompson. I think I would, if I could answer that in a 
slightly broader context, I think where the office is right 
now, there were initially quite a few start-up costs and the 
creation of regulations, et cetera, which cost money. That 
process, while not completed, is largely done.
    And a lot of the extraneous start up and obtaining of 
greater efficiencies has sort of bottomed out at this point in 
an agency as small as ours.
    What has happened is that vector, which is the downward 
costs, has bottomed out. At the same time, we have the 
collective bargaining process taking hold, which means that we 
have collective bargaining agreements, we have unfair labor 
practices being filed. We will be responding to appeals from 
arbitrations and at the same time, because of the union 
presence, we're getting a group organizational presence among 
the employees. We are beginning to see more of these large 
group actions being taken.
    There's currently a case involving the Architect which has 
made it into the District Court which has several hundred 
plaintiffs. We now have the Black Capitol Police Officers 
Association activity. We expect that we're going to see more of 
that kind of thing. It's a natural outgrowth of a robust 
collective bargaining process.
    So while it's impossible to make a firm forecast on case 
load, I think my experience in this area, which is 
considerable, suggests to me--and I think the others will 
agree--that we're going to see more and more significant 
issues.
    Senator Bennett. Thank you very much. I have no further 
questions.
    Ms. Robfogel. Mr. Chairman, if I may, just by way of 
summing up, I think one of the most important things for the 
committee to realize in our request for an increase is that, as 
this statute has matured, the number of requests to our office 
have increased.
    If we are unable to service these complaints on an 
expeditious basis, people do have the option to go outside of 
our office, as they go through the intake procedure in our 
office, after they've gone through mediation with us, they have 
the option of either staying with us and having their cases 
heard by our hearing officers, where the process is totally 
confidential, and there's absolutely no publicity. Or they have 
the option of going to the courts.
    I think one of the reasons our statute was written the way 
it was is so that we could keep as many of these cases and get 
them resolved confidentially and internally. If we don't have 
the money to pay hearing officers and people's cases are 
delayed, I fear that one of the objectives in Congress passing 
the legislation the way it did will be lost.
    So I think that's a very important part of our budgetary 
increase request, as is the part that you yourself touched on a 
little bit before, our need for enough inspectors to be able to 
respond to the health and safety complaints. Because if people 
do not believe their complaints are being looked at 
expeditiously, they're going to look for other avenues to 
complain, and the statute will not work the way we all hope it 
would. Thank you.

                          SUBCOMMITTEE RECESS

    Senator Bennett. Thank you, that's very helpful. No further 
questions. Thank you for your appearance. The subcommittee is 
recessed.
    [Whereupon, at 12 noon, Wednesday, May 16, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         TUESDAY, JUNE 26, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:04 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Bennett, and Stevens.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, FAIA
ACCOMPANIED BY:
        MICHAEL TURNBULL, ASSISTANT ARCHITECT
        JACK BOERTLEIN, DEPUTY BUDGET DIRECTOR
        LARRY STOFFEL, SUPERINTENDENT OF THE SENATE
        AMITA POOLE, ADMINISTRATIVE ASSISTANT

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. The subcommittee will come to order.
    I thank all those who have gathered today. We are kind of 
in limbo in terms of organization of the Senate, and I think 
that may be resolved soon. I hope it is.
    But the Appropriations Committee is traditionally a 
bipartisan effort, and I am happy to be working with my 
colleagues here, Senator Bennett and Senator Stevens, on the 
issues involving the Architect of the Capitol's office.
    Mr. Hantman, I understand, is accompanied by Assistant 
Architect Michael Turnbull; Ms. Amita Poole, Administrative 
Assistant; Larry Stoffel, Senate Superintendent; and Jack 
Boertlein, Deputy Budget Director.

                            BUDGET PROPOSAL

    The Architect of the Capitol budget proposal totals 
approximately $300 million, which includes $199 million for 
ongoing operations and maintenance, and $102 million for the 
capital budget. O&amp;M would increase almost $26 million, or 15 
percent, to accommodate such things as 48 additional staff, pay 
raises, and price level increases, such as the rising cost of 
utilities under the budget request. The capital budget would 
increase $68 million, or 200 percent, over fiscal year 2001 to 
fund 115 projects. Within the capital budget, cyclical 
maintenance makes up about half of the proposed spending with 
the largest project being the Capitol dome preservation. The 
capital budget does not include any additional funds for the 
Capitol Visitor Center, which we will discuss, I am sure, this 
morning. It is expected to be a major project for the Architect 
of the Capitol next year with construction commencing next year 
if the current plan is followed.
    Before I turn to my ranking member, I would like to say to 
my colleagues that my staff did a little research to find out 
if anyone had ever served as chairman of a House Appropriations 
Subcommittee and a Senate Appropriations Subcommittee. The only 
evidence they could find of that having occurred was a fellow 
by the name of Everett McKinley Dirksen from the State of 
Illinois who served as chair of the Ag Subcommittee in the 
House and the D.C. Subcommittee in the Senate. So, we are 
keeping it within the Illinois confines.
    Senator Bennett, your opening statement.

                 STATEMENT OF Senator ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. May I welcome you 
to the chairmanship and tell you that this is a fun 
subcommittee to have the opportunity to chair. I think you will 
enjoy it. These are good people to work with. We welcome you to 
this assignment and pledge to you whatever support we can 
provide to see the long tradition of bipartisanship and 
unanimity within the Senate is continued. Sometimes we do not 
have that degree of unanimity with our friends on the House 
side, but that seems to be the way the founding fathers created 
it.
    I have a number of questions that we need to get into 
because the Architect of the Capitol is something of a 
lightening rod of challenges here on Capitol Hill. But I will 
defer my questions until after we have heard from Mr. Hantman 
and his people.
    Senator Durbin. Senator Stevens, do you have a statement?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. I welcome you also as 
the subcommittee chairman, Senator.
    When I came to the Senate, we were still a new State. Two 
of us arrived at the same time, and Senator Dirksen walked us 
down the aisle. So, we revere your predecessor, and I am glad 
to see you hold this distinction of chairing two subcommittees 
for your State.
    I do not have any questions. I have come to hear the 
statement. I cannot stay very long. I would like to suggest, if 
we can, Mr. Hantman give us a summary of his statement so we 
might proceed on that basis.
    Senator Durbin. Thank you.
    Mr. Hantman, thank you very much for joining us. Your 
statement will be made a part of the record in its entirety. If 
you would like to summarize at this point, please proceed.

                           SUMMARY STATEMENT

    Mr. Hantman. Thank you, Mr. Chairman. I will do that.
    First of all, Mr. Chairman, we have accomplished much over 
these past several years and we continue to build our team to 
better enable us to serve the Congress going forward. But we 
need to support and strengthen our present workforce, supply 
them with the tools and training they require to reduce our 
accident, illness, and lost time rates. We need to bring new 
people with new skills and abilities into our work place to be 
able to better respond to the Congressional Accountability Act 
in areas of fire safety, occupational and environmental safety, 
as dictated by law, in areas of planning and project 
management, information resources management, and energy 
savings.
    We also need pay flexibility to retain and attract senior 
managers, to help plan, implement and oversee our many 
projects. The 1990 pay legislation that specifies titles and 
salaries for senior staff has no relevance to the needs of 
today.

                         CAPITOL VISITOR CENTER

    Mr. Chairman, as you know, we have reached the halfway 
point in the preparation of construction documents for the 
Capitol Visitor Center within schedule. We will, with the 
availability of funding and the approval of the Capitol 
Preservation Commission, go out for competitive bidding during 
the last quarter of this calendar year. I assure you that I am 
personally committed to bringing the project in on schedule and 
budget for the identified scope. We have developed new project 
management techniques and created a dedicated team for this 
project, supported by a nationally recognized construction 
management company, to assure the maintenance of budget and 
schedule on a day-to-day basis.

                          U.S. BOTANIC GARDEN

    Construction work on the U.S. Botanic Garden is nearing 
completion after overcoming significant construction issues 
that have delayed the project. It is a magnificent structure we 
can all be proud of and I would welcome the opportunity to show 
this committee the complexity of the project and the planting 
activities that have begun.

                            RESPONSIBILITIES

    For accountability purposes, we remain committed to 
continuing our successful efforts to implement a full and 
compliant financial management system. Much fire safety work 
has been initiated and accomplished across the Capitol complex, 
and we can give you a building-by-building status report on 
what has been done and what needs to be done going forward.

                        WEST REFRIGERATION PLANT

    An additional important project is the expansion of the 
West Refrigeration Plant. It is currently under design and we 
have forwarded a budget amendment for this request. We will be 
coming back to the committee for full construction funding in 
fiscal year 2003.

                           PREPARED STATEMENT

    Mr. Chairman, once again, I am proud of our accomplishments 
in so many areas, much of which is documented in the statement. 
While there is much left to address in the coming years, we 
look forward to working with you as we successfully face those 
challenges and continue to provide strong support to the 
Congress and build an even stronger and responsive AOC.
    I would be happy to respond to any questions.
    [The statement follows:]

                 Prepared Statement of Alan M. Hantman

                                OVERVIEW

    Thank you for inviting me here today to discuss the priorities that 
drive the budget needs of the Architect of the Capitol organization. I 
have been Architect of the Capitol for four years. I am proud of what 
the AOC has accomplished in that period, and look forward to 
significant additional accomplishments in the years ahead.
    As you know, there is a historic amount of work currently on our 
plate and much more needs to be accomplished over the coming years. 
Many needs have been deferred and our structures continue to age. This, 
combined with new expectations of how our structures must accommodate 
modern safety, security and technological needs, along with the 
increasing demand for space, all serve to drive the funding needs for 
physical improvements.
    As important as these physical improvements are, the most important 
needs addressed by our budget are investments in our human 
infrastructure. It is important that we support and strengthen our 
present workforce and bring people with new skills and abilities into 
our workplaces, to staff key positions to meet the physical challenges 
that confront the Capitol complex. We also need to provide our existing 
workforce with the tools and training they require to continue to not 
only provide, but to continuously improve, our support of the U.S. 
Congress and the American people. We have been working to do this in a 
difficult recruitment atmosphere, where strong competition has existed 
for qualified people in what has been a near full-employment economy.
    Last year I made fire safety the top priority for AOC, and we have 
made significant progress on this multi-year effort (see Appendix A). 
While we are continuing our strong progress on fire safety initiatives, 
this year we are stressing Life Safety issues for our staff. People 
come first. We are a service organization, and without a dedicated and 
safe staff little could be accomplished. We are therefore focusing on 
reducing our accident and illness lost work-time rates, training our 
staff and continuing to build the human infrastructure to support the 
Congress well into the future (see Appendix B). We are continuing to 
hire necessary staff in the area of Life Safety as well as Fire Safety, 
to better support these critical initiatives, and we are requesting 
funding to build and maintain these programs going forward.

                  SUMMARY OF FISCAL YEAR 2002 REQUEST

    Our overall fiscal year 2002 request of $298,957,000 includes 
$196,356,000 for ongoing operations and maintenance and $102,601,000 
for the capital budget to meet fire and life safety, security and 
infrastructure improvements.
    The operations and maintenance budget request reflects a 15.1 
percent increase of $25,749,000. The increase is comprised of: 
$3,446,000 to fund 48 essential positions needed to carry out programs 
required by the Congressional Accountability Act and other needs; 
$8,753,000 for COLAs and other mandatory pay items; $5,141,000 for 
price level increases, the majority of which are to meet the rising 
cost of utilities; and a net increase of $8,409,000 for items related 
to other workload increases.
    The capital budget request includes 115 projects identified for 
funding in fiscal year 2002. Seven projects, which total $66,970,000, 
account for approximately 65 percent of the capital budget request. The 
seven projects are: the Rehabilitation of the Capitol Dome 
($42,500,000); Off-Site Delivery/Screening Center for the U.S. Capitol 
Police ($6,750,000); the new Library of Congress Audio Visual 
Conservation Center, Culpeper, VA ($5,000,000); Renovations to the 
Rayburn Cafeteria ($3,460,000); design and land for a Vehicle 
Maintenance Facility for the U.S. Capitol Police ($3,260,000); design 
to Construct a Garage on the Eastern End of Square 724 ($3,000,000); 
and Elevator Modernizations in the House Office Buildings ($3,000,000). 
(see Appendix J).

                            CAPITAL PROJECTS

    As we look to the future, we believe it important to note that over 
the past year the AOC has accomplished much, as evidenced by progress 
on the following capital projects (see Appendix F):
    The Dirksen Senate Office Building project remains on budget and on 
time, a tribute to how well-managed a project can be when AOC has 
adequate internal resources to properly supervise a project, and when 
Members and staff understand and are actively involved in such 
projects. The Dirksen project will be completed this December, 
providing what is essentially a contemporary building interior with an 
intact historic exterior--at about one-third the cost of constructing a 
new building, and with all work being done in an occupied structure.
    Construction work on the Botanic Garden Conservatory is nearing 
completion after overcoming significant construction issues that have 
delayed the project. Planting activities have begun in the low glass 
houses where construction activity is winding down. We expect to begin 
guided tours in September while the planting continues, and when most 
of the planting has been accomplished, we are planning a formal 
conservatory-wide opening for the first week in December. The 
contiguous privately funded National Garden project is poised to go to 
bid and when completed it will complement the conservatory with its 
outdoor horticultural exhibits and its Interpretive Learning Center for 
children.
    The construction documents for the Capitol Visitor Center are 
proceeding well and will, with the availability of funding and the 
approval of the Capitol Preservation Commission, go out for competitive 
bidding during the last quarter of this calendar year.
    The Master Plan for the Capitol Building will be completed by the 
end of this calendar year, and will provide a roadmap for how to best 
bring this 200-year-old landmark structure up to modern standards, 
while retaining its historic integrity and stateliness. Since this 
Master Plan will be completed well into fiscal year 2002, we anticipate 
requesting approximately $8 million in fiscal year 2003 to begin the 
actual design drawings for work identified therein. Construction 
funding will be requested in successive years.
    Construction work on the Senate Perimeter Security Project is well 
underway. The first phase at the intersection of New Jersey and C 
Street is virtually complete with steel bollards, guard house, traffic 
arm, and granite pylons in place. The second phase at Delaware and D 
Street is under construction. The contract for the Capitol Square 
Perimeter Security Project has been awarded, the construction staging 
area has been established on Capitol Grounds, and phased work is about 
to begin on the east side of the Capitol. In other areas of security 
needs, we continue to work with the U.S. Capitol Police to install 
upgraded building security equipment.
    Much fire safety work has been initiated and accomplished across 
the Capitol complex. We also worked with the Library of Congress and 
the Office of Compliance on an extensive examination of fire safety 
conditions in the Jefferson, Madison and Adams Buildings and have 
developed a, multi-year, building by building plan to address these 
issues (see Appendix A). Timelines have been, or are being, developed 
to address remaining fire safety challenge.

           PERSONNEL NEEDS, WORKLOAD, AND LIFE SAFETY ISSUES

    The AOC injury/illness rate is much too high and must be lowered 
significantly. The well being and safety of our staff is of the highest 
concern. In the context of what impact the work described above has on 
AOC staff and the injury/illness rate, however, it is important to note 
that, in addition to hiring contractors to design and build the larger 
fire safety projects in the Library of Congress, the AOC for the next 
two years must also dedicate 12-15 internal people from AOC's Library 
buildings and grounds workforce full time to address the many smaller 
fire safety projects. This means that they are effectively lost for 
other, more routine but essential projects. This mirrors our situation 
across the Capitol complex. For many years, we have reassigned workers 
to additional tasks while reducing the total number of employees within 
AOC. This is true in all of our jurisdictions. We have now reached a 
point where we cannot continue to assign major additional work to our 
staff and still expect them to accomplish the many other basic day-to-
day tasks that are important to support the mission of the U.S. 
Congress and the proper maintenance of its buildings and grounds.
    Historically, when workloads increase significantly while the 
workforce contracts, the stress of having more to do with fewer people 
often results in an increase in accidents. I believe this is one of the 
major factors behind our high injury rate, although it is not the only 
factor. Over the past decade we have markedly downsized the AOC 
workforce while increasing the workload. Our workforce is down 20 
percent from fiscal year 1993 levels. This downsizing, accompanied by 
an increasing workload, has put our employees under great pressure.
    While it has been possible to increase productivity to an extent, 
while still decreasing staff levels, much of the work accomplished by 
AOC employees is generally not of a nature where technology alone can 
replace human effort and skills. In fact, the implementation of the 
Congressional Accountability Act has increased, not decreased, the 
amount of skilled and properly trained people necessary to complete the 
wide range of tasks we are responsible for.

        CONFINED SPACES--ONE OF 41 MANDATED LIFE SAFETY PROGRAMS

    An example of our changing workplace is illustrated by the fact 
that four years ago, a worker who needed to enter a utility vault to do 
simple maintenance work would remove the manhole cover, climb down into 
the space, do his or her job, climb out, put the cover back into place, 
and go on the next task. Today, a worker who needs to enter a utility 
vault--a confined space, in contemporary safety parlance--would first 
need to obtain and fill out a permit form to notify the permitting 
authority of the plan to enter a confined space. The worker now needs 
to be accompanied by another employee to act as a safety monitor, open 
the confined space, place the appropriate rescue gear and barriers 
outside the confined space, sample the air quality within the space 
before entering it, enter the space in the appropriate manner and with 
appropriate safeguards, maintain communications with the worker 
outside, do the work, exit the space, close the space, remove the 
barriers and rescue equipment, complete the permit, and report back to 
the permitting authority that the employee has completed the task and 
exited the confined space.
    What used to be a half-hour task for one employee has therefore 
become, at a minimum, an hour and a half task for at least two 
employees, plus the additional supervisory/administrative time. While 
this methodology is clearly safer, it also severely impacts 
productivity levels for a staff that has continued to shrink.
    Additionally, all employees who enter confined spaces must receive 
initial training, and regular refresher training. Air sampling 
equipment, rescue gear, and communications gear must be provided and 
maintained. A permitting process must be created, and permits must be 
properly obtained, executed, and filed when embarking on work in 
permitted confined spaces. This point regarding record keeping 
highlights a related need--we must assure that our IT environment is 
available and reliable to our employees so we can carry out critical 
business functions--and that is why we have asked for more resources in 
that area. And, a confined space survey must be completed for the 
entire 14,000,000 square feet of space on the Capitol complex to 
identify and label the areas that may only be entered by persons with 
the proper training, equipment, and using the proper procedures.
    The confined space program is only one of 41 life safety program 
areas that AOC, working with the Public Health Service, must formalize 
and retrain workers to handle properly. More detailed information about 
these matters is in Appendix A. But this single example illustrates an 
important point. Our workplace has become more, not less, labor 
intensive in response to OSHA, EPA and Department of Labor provisions 
while our workforce has been reduced.

                         DAY TO DAY OPERATIONS

    Most of the work we do, most of our daily physical effort, goes to 
support the day-to-day operations of the Congress. For example, last 
year our Senate Superintendent's Service Center received and responded 
to 82,154 telephone calls, that translates to 224 per day, or 1,580 per 
week. The Service Center issued 83 service orders per day or 30,361 
altogether in fiscal year 2000. These service orders ranged from 
routine changing of light bulbs, to construction of custom tables and 
bookshelves, to changing carpets for an entire suite, which 
necessitates removal and replacement of all of an office's furniture 
and contents. The Senate Superintendent's Day Labor Division assisted 
in 35 special events each day during that year for an annual total of 
12,907. The Furniture Division responded to 19 requests per day for a 
total of 6,845 furniture requests for the year.
    Our Senate Superintendent also takes care of office moves and 
custodial work, services subways and elevators, cleans 600 restrooms 
every day, provides restroom supplies, and cleans up after emergencies, 
among his myriad tasks. As much as possible, we try to minimize 
disruptions for the Senate not only with daily tasks but even with 
major projects, like the Renovation Project in the Dirksen Office 
building.

              MAJOR CAPITAL REQUESTS FOR FISCAL YEAR 2002

    The Capitol Dome renovation's second phase, at $42.5 million, is 
our largest Capitol project request this year. This will complete the 
work necessary to make certain that the Capitol Dome, at the beginning 
of the 22nd Century, will remain the most recognizable symbol of 
representative democracy in the world.
    In the Hart Senate Office Building, we're asking for $1.44 million 
to modernize 12 elevators and another $1.1 million for security 
improvements at the Horseshoe Entrance.
    Space is a vital need and a constant concern on Capitol Hill. It 
has been for 201 years. Our budget request contains $3 million to 
prepare construction drawings for a parking Garage at Square 724, 
adjacent to the Capitol Police Headquarters. Our design of that project 
will allow for future construction, if necessary, atop the parking 
structure. $2.1 million is requested for the next phase of 
implementation of our new Financial Management System that also is 
building for the future. We successfully implemented the initial 
standard general ledger module in September of 2000 and now are working 
on implementing procurement, funds control and accounts payable 
modules.

                           STAFFING REQUESTS

    The Congressional Accountability Act, the interpretations of the 
Office of Compliance on how fire codes should be applied to the Capitol 
campus, the aging infrastructure of our priceless and unique historic 
buildings, the changed expectations of the American public, all mean 
that the AOC must continue to change and improve its methods of 
operations, that we have to retrain our workers, hire some key new 
ones, address the tasks at hand in new and safer ways.
    While we contract out many of our major projects and some of our 
technical needs, we still need to have the proper internal resources to 
adequately manage and coordinate this work. We have been working hard 
to hire the fire safety professionals we need to help our Fire Marshal 
and Executive Director of Facilities Management accomplish their tasks. 
We are similarly actively and aggressively recruiting the people we 
need to serve as jurisdictional life safety experts and coordinators, 
and the right construction management professionals for the many major 
tasks that must be successfully accomplished (see Appendix I).
    The 48 additional positions we request this year are people who 
must be put in place to prepare our workforce for the future. They are 
so essential that we have already begun the hiring process, but need 
funding to continue paying these key personnel in successive years 
without having to make further cuts in shop staffing levels in all 
jurisdictions.
    These include five positions to support fire safety programs; eight 
positions to support environmental and life safety programs; five for 
the campus energy savings program required by Section 310 of the 1999 
Legislative Branch Appropriations Act.
    We also need 19 persons to implement high priority programs. These 
positions include the two necessary to support preparation and issuance 
of auditable financial statements. AOC has been working with GAO on 
this, and one of things we have discovered is that AOC has never been 
staffed assure appropriate separation of functions necessary to 
maintain proper internal controls, nor enough staff to prepare and 
reconcile monthly and annual auditable financial statements (see 
Appendix G). Seven more positions are to improve the project delivery 
process. Like most government agencies, AOC has to manage far more 
external contracts and work than in the past, and like most government 
agencies, AOC does not have enough people in place to manage outside 
contractors properly. We are also dead last in the Legislative Branch 
in percentage of our staff dedicated to Intelligence Technology 
efforts.
    We need two more air conditioning mechanics at the Library of 
Congress to safeguard its priceless collections by maintaining proper 
conditions for storage. Three additional workers are needed at the 
Capitol Power Plant. And at the Botanic Garden, which has been closed 
for a number of years, with the Conservatory scheduled to reopen staff 
are required to operate and maintain the facility.
    Like the rest of federal government, AOC is responding to the 
crisis in human capital by requesting these 48 essential positions for 
fiscal year 2002.

                               CONCLUSION

    Once again, I am proud of our accomplishments in so many critical 
areas, much of which is documented in the attached appendices \1\. 
While there is much left to address in the coming years, we look 
forward to working with you as we successfully face those challenges 
and continue to provide strong support to the Congress and build an 
even stronger and responsive AOC.
---------------------------------------------------------------------------
    \1\ Appendices
    Appendix A: Initiatives in Life Safety
    Appendix B: AOC Human Resources Act of 1995 Achievements
    Appendix C: Security Update
    Appendix D: Initiatives Regarding the Congressional Accountability 
Act
    Appendix E: Initiatives in Labor-Management Relations
    Appendix F: Status of Selected Capitol Improvements
    Appendix G: Financial Management System Improvements
    Appendix H: Computer Aided Facilities Management
    Appendix I: Project Management Initiatives
    Appendix J: fiscal year 2002 Budget Request Summary.
---------------------------------------------------------------------------
    I thank you for your support and welcome whatever questions or 
comments you might have.

APPENDIX A--INITIATIVES IN FIRE, OCCUPATIONAL, AND ENVIRONMENTAL SAFETY

                           EXECUTIVE SUMMARY

    The Architect of the Capitol (AOC) has made safety the agency's 
number one priority. In the past year, the AOC has undertaken 
significant steps to strengthen the fire, occupational and 
environmental safety programs. However, much work remains to be done. 
An additional thirteen (13) fiscal year 2002 positions are requested 
and are in the process of being filled now to better enable the AOC to 
develop and implement fire, occupational, and environmental safety 
programs and make necessary facility upgrades to comply with fire and 
building codes.
    In fiscal year 2002, thirty (30) projects totaling over $14.5 
million are requested under the Life Safety Category to address 
identified fire and/or occupational safety deficiencies across the 
Capitol Complex. An additional $362,000 is being requested (see: 
Capitol Buildings Salaries and Expenses Operating Budget Life Safety 
Operations and Maintenance section) to cover needed environmental 
contractor services as well as increases in cost of fire safety and 
occupational safety and health program management.

I. Fire Safety
    The Fire Marshal Division was created in fiscal year 2001 to focus 
on fire safety, life safety, and emergency preparedness program policy, 
coordination, inspection, and oversight. Fire protection engineering 
design responsibilities are being transferred to the re-established 
Fire Protection Engineering Division under the Director of Engineering. 
The AOC is working closely with the Office of Compliance to identify 
fire and building code concerns and raise the Capitol complex buildings 
to modern standards of safety.
    Significant progress has been made and is detailed in Section I.
    As part of our continuing commitment to fire safety program needs, 
the AOC has begun hiring to fill fiscal year 2002 funded vacancies to 
ensure adequate staff is available to perform needed work. Full funding 
of fire related fiscal year 2002 requests is essential to the AOC's 
ability to continue to improve the fire safety posture and programs 
across the Capitol complex.

II. Occupational Health and Safety
    The Life Safety Division was restructured and renamed the Safety 
and Environmental Division in fiscal year 2001 to focus on occupational 
health and safety, recycling, and environmental program policy, 
coordination, inspection, and oversight. When fully staffed, two 
branches will exist--the Safety and Occupational Health Branch and the 
Environmental Branch. Environmental Safety is discussed in Section IV 
below.
    Significant progress has been made and is detailed in Section II.
    As part of our continuing commitment to occupational safety program 
needs, the AOC has begun hiring to fill fiscal year 2002 funded 
vacancies to ensure adequate staff is available to perform needed work. 
Full funding of fiscal year 2002 requests is essential to the AOC's 
ability to continue to improve the occupational safety posture and 
programs across the Capitol complex.

III. Recycling
    Additional emphasis was provided to the AOC Recycling program in 
fiscal year 2001 by creation of a GS-13 Recycling Program Manager 
position to coordinate campus wide recycling effort. The House Office 
Buildings recycling program has made significant improvements including 
hiring a Recycling Program Manager, a Recycling Assistant and a 
recycling team. New recycling containers are being distributed to 
Members offices and training is being provided. The Senate recycling 
program has made significant improvements as well including hiring a 
Recycling Program Manager and working with the Senate Rules Committee 
on proposed changes. More information can be found in Section III.

IV. Environmental Safety
    The AOC is required to comply with Environmental Protection Agency 
Laws and Statutes as enforced by the District of Columbia. The 
development of the Environmental program and the analysis and survey 
requirements of the Environmental Protection Agency and District of 
Columbia laws and regulations has not begun due to difficulties filling 
the environmental engineer vacancy. Filling of the environmental 
engineer position remains a top priority as attention must be given to 
environmental matters. Additional contractor support money has been 
requested to begin the detailed program review and development 
associated with all aspects of the Environmental Program. Full funding 
is requested to ensure compliance with environmental regulations. A 
more detailed discussion can be found in Section IV.

V. Summary
    A brief summary is provided in Section V.

                              INTRODUCTION

    The Architect of the Capitol (AOC) has made safety his number one 
priority. In the past year, the AOC has undertaken significant steps to 
strengthen the fire, occupational and environmental safety programs. 
The AOC has reorganized the Executive Office for Facilities Management 
to allow increased attention and focus on fire safety, life safety, 
occupational health and safety, recycling, and environmental programs. 
Two separate Divisions have been created under the Executive Officer 
for Facilities Management.
    The Fire Marshall Division focuses on fire safety, life safety, and 
emergency preparedness program policy, coordination, inspection, and 
oversight.
    The Safety and Environmental Division focuses on occupational 
health and safety, recycling, and environmental program policy, 
coordination, inspection, and oversight.
    Fire protection engineering design responsibilities have 
transferred to the re-established Fire Protection Engineering Division 
under the Director of Engineering.
    This structure separates policy, oversight, and inspection from 
design and implementation--providing a necessary check and balance 
system and allowing concentration on project design and execution.
    Agency wide, significant resources have been applied to the fire 
safety, occupational health and safety programs. The AOC has 
aggressively addressed fire safety concerns by dedicating resources to 
design of systems, correction of specific deficiencies, renovation and 
construction projects, and implementing National Fire Protection 
Association (NFPA) testing, inspection and maintenance programs. In 
many cases, jurisdictions have redirected resources from customer 
service to address fire safety issues, as a result, customer service 
has suffered temporarily. Fiscal year 2002 will see continued emphasis 
on fire safety as well as increased emphasis on occupational safety and 
environmental program implementation which will further strain limited 
existing resources.
    Because safety is the AOC's top priority, the AOC is hiring now to 
fill fiscal year 2002 safety related vacancies within Fire Marshal and 
Safety and Environmental Divisions and across the jurisdictions. By 
achieving fiscal year 2002 staffing levels as soon as possible, the AOC 
will be better able to identify, address, and correct safety related 
concerns as well as implement new safety related programs across the 
Capitol complex.
    Thirteen (13) fiscal year 2002 positions (9 jurisdictional, 3 
within the Fire Marshal Division and one in the Safety and 
Environmental Division) are being filled to better enable the AOC to 
develop and implement fire, occupational, and environmental safety 
programs and make necessary facility upgrades to comply with fire and 
building codes.
    In fiscal year 2002, thirty (30) projects totaling over $14.5 
million are requested under the Life Safety Category to address 
identified fire and/or occupational safety deficiencies across the 
Capitol complex. An additional $362,000 is being requested (see: 
Capitol Buildings Salaries and Expenses Operating Budget Life Safety 
Operations and Maintenance section) to cover needed environmental 
contractor services as well as increases in cost of fire safety and 
occupational safety and health program management.

I. Fire Safety
    The goals of the Fire Safety Program are to: (1) provide a fire 
safe environment for workers and visitors to the U.S. Capitol complex; 
(2) comply with BOCA 1999 and NFPA-101, 2000 Life Safety Codes wherever 
possible, addressing specific historic issues by developing performance 
based equivalencies when appropriate; and, (3) develop a complex-wide 
emergency preparedness program in conjunction with the Capitol Police 
and the District of Columbia.
    Fire safety combines the aspects of prevention--minimizing clutter, 
properly storing flammable materials, controlling flame and heat 
producing devices, etc.--with protection--fire detection, fire 
suppression, and egress.
    The historic nature of many of the Capitol complex buildings 
creates unique challenges in complying with modern building and fire 
codes. The AOC has met these challenges aggressively and undertaken 
extensive projects to bring our historic buildings into compliance with 
the most current codes. The effort of meeting modern codes, not 
required by the codes themselves unless major renovation is performed, 
demonstrates Congress' leadership and commitment to fire safety. The 
more significant projects will take years to complete because they 
require creative design solutions and major building renovations. The 
vast majority of this work has been contracted. The AOC has established 
an Indefinite Duration Indefinite Quantity (IDIQ) contract with four 
fire protection engineering consultant and design firms. As 
requirements are identified, specific task orders for consultation and 
design are written and issued quickly, avoiding lengthy individual 
contracting efforts. Although significant progress has been made, the 
amount of contract administration, design review, building and fire 
code analysis, jurisdictional and customer coordination, construction 
oversight, and debugging is overwhelming to the AOC's limited staff. 
These aspects of work cannot be contracted. Additionally, fire alarm 
systems must be tested on a weekly, monthly, quarterly, semi-annual, 
and annual basis. All office moves, special events, modifications, and 
renovation projects must be reviewed for fire and building code 
compliance and a rigorous inspection and oversight process developed to 
ensure the progress we are making is not lost as future modifications 
and renovations are performed. The requested resources reflect these 
needs.
    The AOC also is requesting a new emergency preparedness 
coordinator. This function is currently performed as a collateral duty 
of the fire marshal and requires a dedicated effort to establish an 
AOC-wide program to ensure we are able to respond to emergencies and to 
coordinate with the U.S. Capitol Police and the District of Columbia 
Fire &amp; EMS Department.
    Significant Capitol complex-wide accomplishments in the past year 
include:
  --NFPA compliant test, inspection, and maintenance program for 
        sprinkler and alarm systems implemented.
  --Regular DC Fire &amp; EMS Department pre-planning tours conducted.
  --ADA fire alarm system upgrades designs completed.
  --Egress studies completed for each building.
  --General fire protection system description reports completed for 
        each building.
  --Lighted exit signs installed in public areas of all buildings 
        (except isolated areas of Capitol with architectural and/or 
        access issues).
  --Fire pull stations and alarm speakers operational.
  --Fire safety master plan under development.
  --IDIQ contract for fire protection engineering support awarded.
  --Complex-wide Central Fire Protection Monitoring System in design 
        (50 percent).
  --Task orders for egress improvement designs issued.
  --Y2K fire alarm system upgrades complete.
  --And, increased emphasis and attention to fire safety related 
        maintenance including correction of numerous deficiencies.
    Other significant jurisdiction specific progress can be found in 
attachment 1.

II. Occupational Health and Safety
    The goals of the Occupational Health and Safety program are to: (1) 
provide a safe and healthful environment for workers and visitors to 
the U.S. Capitol complex, (2) comply with OSHA standards as required by 
the Congressional Accountability Act, and (3) standardize safety 
program implementation wherever possible.
    To meet these goals, forty-one (41) safety programs must be revised 
or developed, approved, and implemented. The development and 
implementation of these programs began in fiscal year 2001 and will 
continue through fiscal year 2004. The AOC has contracted with the 
Public Health Service to draft AOC-wide safety program policies. This 
effort includes research of regulations, drafting of policy, review of 
proposed policy within the AOC, determining applicability of program 
policies to each work site, and identification and resolution of 
issues. As program policies are drafted, implementation needs will be 
determined for each program. Decisions will be made regarding program 
applicability (employees, work sites, and work practices) within each 
jurisdiction, training needs will be identified, work site specific 
operating procedures will be developed and record-keeping processes 
will be implemented. Implementation will also include identification of 
facilitators (e.g. supporting software) and procurement of equipment as 
needed. The AOC's goal is to standardize implementation across 
jurisdictions as much as possible, ensuring consistency while 
minimizing required effort. The resource most needed for the 
implementation effort is people.
    To effectively implement these programs, the AOC must change 
culture and thought processes about how work is accomplished. Change in 
thinking is required at all levels within the organization. The ``get 
the job done'' approach must be replaced by the ``get the job done--but 
safety first and always'' approach. All work will have to be analyzed 
for hazards and hazards mitigated prior to start of work. More people 
will be required to perform some jobs (e.g. permit required confined 
spaces require one person just to stand watch for the person in the 
space). Implementation will require significant resources--not just in 
the analysis and execution of work but training and record keeping 
requirements will be extensive.
    The Agency has a Memorandum of Understanding with the Public Health 
Service (PHS) to provide safety, occupational health and industrial 
hygiene support services as required. The agency uses PHS services to 
supplement existing resources and to serve as a third party consultant 
on safety, occupational health or industrial hygiene related issues.
    The AOC also has an agreement with the Office of the Attending 
Physician (OAP) to provide medical support. The OAP currently 
coordinates physicals associated with the Medical Surveillance Plan and 
provides consultation services as requested. As safety programs are 
deployed, the number of employees enrolled in medical surveillance is 
anticipated to increase, as is the cost.
    The fiscal year 2002 budget request reflects resources required to 
continue to develop and implement the safety programs (including 
medical surveillance program expansion) while tracking regulatory 
changes and maintaining the current level of safe practices and safety 
services across the AOC.
    Resources identified in the fiscal year 2002 budget include 
increases in jurisdictional as well as the Safety and Environmental 
Division permanent and contractor staffing, survey and analysis costs, 
and general operating funds (see: Capitol Buildings Salaries and 
Expenses Operating Budget Life Safety Operations and Maintenance 
section).
    Significant accomplishments in the past year include:
  --Established Safety committees in all jurisdictions.
  --Drafted Safety Policy statement and policies for Safety, Health, 
        and Environmental Council, and Jurisdiction Occupational Safety 
        and Health Committees.
  --Drafted program policy for 7 safety programs: HAZCOM, PPE, confined 
        space, blood borne pathogens, asbestos, respiratory protection, 
        and fall protection.
  --Completed complex-wide surveys for confined spaces and fall 
        protection.
  --Completed Capitol building asbestos survey, began Dirksen and 
        Rayburn building asbestos surveys.
  --Provided training numerous safety training courses to employees and 
        managers.
  --Conducted job hazard analyses, personal protective equipment 
        assessments, equipment inspections, ergonomic surveys, safety 
        audits, annual asbestos surveys, and some mishap 
        investigations.
    Daily support requirements keep the four safety people currently in 
the Safety and Environmental Division fully employed. Existing staffing 
levels within the Division and across the jurisdictions do not provide 
resources to implement the forthcoming safety programs and therefore, 
the AOC has begun action to hire now to achieve the fiscal year 2002 
staffing levels as soon as possible.

III. Recycling
    The goals of the recycling program are to: (1) provide recycling 
opportunities across the Capitol complex; (2) provide high levels of 
customer service; and, (3) minimize solid waste disposal.
    The Safety and Environmental Division coordinates the Recycling 
program, administers the contract for collection, and provides 
oversight and consultation services. Additional emphasis was provided 
to the AOC Recycling program in fiscal year 2001 by creation of a GS-13 
Recycling Manager position to coordinate campus wide recycling effort. 
Jurisdictional personnel are responsible for the daily coordination and 
pick-up of recycle associated with their buildings.
    The House Office Buildings is in the process of making significant 
modifications to its Office Waste Recycling Program. A Recycling 
Program Manager and Recycling Assistant have been with the program 
since October and January, respectively, and a crew to remove 
recyclables from the offices is in the process of being hired. 
Currently, eight are on board and being trained; twelve additional 
employees, including two supervisors, are planned to complete the 
group. Their uniforms will clearly indicate that they are member of the 
recycling team.
    The modified program for the offices focuses on being more ``user 
friendly'' so that participants may easily separate their recycling 
into the prescribed categories and keep wet waste, such as food and 
Styrofoam, out of the paper. Some of the planned changes include 
updated brochures, staff flexibility in choosing container placement, 
label and container color coding and training. Seminars describing the 
changes have been conducted and implementation of the program has 
begun.
    During the recent moves, large quantities of high grade paper were 
recycled, and binders, folders and other office supplies were collected 
and provided for reuse. The House side of the Capitol will also follow 
this program and are currently reviewing the possibility of having 
separate crews for waste removal and office cleaning activities.
    The Senate filled the Recycling Program Manager position in 
November 2000. In response to a request from the Rules Committee, our 
new staff member has been preparing a report assessing the current 
program and reviewing options for improvement. As included in the 2001 
Senate Appropriations Bill, a major goal is to develop a stronger 
program that leads to less contamination, thereby reducing the amount 
of material being landfilled and generating additional income for the 
Senate. Conducting monthly training seminars to educate the staff on 
how to recycle properly along with preparing short informational 
recycling segments that may be broadcast by the Senate Recording Studio 
on the Senate cable system is also planned.

                                            PAPER RECYCLING SUMMARY TABLE, FISCAL YEAR 2000 (10/1/99-9/30/00)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal year 2000 Tons
                                                                    ---------------------------------------------------------------------------
                               Bldg.                                                                      4                                      Amount
                                                                      1 High    2 Mixed       3      Corrugated  Contaminated \2\     Total/     earned
                                                                       grade   grade \1\  Newspaper     board       (No value)       building
--------------------------------------------------------------------------------------------------------------------------------------------------------
RHOB...............................................................    31.481    110.484    128.905      1.233          825.616      1,097.719   $18,410
CHOB \1\...........................................................     9.905     41.558     41.710      0.895          645.688        739.756     6,000
HSOB \3\...........................................................  ........    162.308      2.560      2.850          522.095        689.813     7,850
                                                                    ------------------------------------------------------------------------------------
      Total........................................................    41.386    314.350    173.175      4.978        1,993.399      2,527.288    32,260
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes all paper collected from the Capitol, House side.
\2\ Recyclables mixed with levels of unacceptable material (e.g. food, Styrofoam Containers) above amounts allowed under our GSA contract. Though no
  funds are received for this category, our contractor does separate and recycle from 75 percent -90 percent of the material. The remainder is
  landfilled at the contractor's expense.
\3\ Includes high grade paper collected from the Capitol, Senate side.

    The General Services Administration (GSA), which administers the 
recycling contract, credits the AOC with the amount earned from 
recycling. In the past, funds received from GSA were deposited in the 
U.S. Treasury. For fiscal year 2000, this procedure was continued for 
the House Office Buildings; receipts attributed to the Senate Office 
Buildings were deposited into a fund for the Senate Health and Fitness 
Facility.
    For more information on GSA's recycling program, refer to the 
website: ncr.gsa.gov/recycle--click on ``recycling data for an 
agency.'' Code for RHOB is 000501; for Cannon 000502; for Hart 011301.

IV. Environmental Safety
    The goals of the environmental program are: (1) to provide a safe 
and healthful environment for workers, visitors, and neighbors at the 
U.S. Capitol complex; (2) to be in compliance with EPA and District of 
Columbia standards as required by law; and, (3) to be a good steward of 
the environment.
    Focus by the Safety and Environmental Division has been on safety 
related actions due to staffing limitations. The development of the 
Environmental Program and the analysis and survey requirements of the 
Environmental Protection Agency laws and regulations has not begun due 
to difficulties filling the environmental engineer vacancy--the demand 
for these individuals is high and the AOC's inability to offer 
relocation compensation further limits the candidate pool. Filling the 
environmental engineer position remains a top priority as attention 
must be given to environmental matters. Non-compliance with 
Environmental laws and regulations can subject the Agency to citations 
and monetary fines. Enforcement by the EPA and the District of Columbia 
thus far has been limited. Announcement in June of 1999 of a response 
deadline for submittal of a CERCLA Preliminary Assessment indicates 
EPA's intention to begin a closer look at Capitol Hill Programs. A 
baseline environmental survey conducted in 1999 identified numerous 
program areas requiring review and development. Issues such as waste 
water discharge permitting, Spill Prevention, Control, and 
Countermeasures Plans, inventory of chemicals and storage areas, and 
secondary containment issues were identified. Additional contractor 
support money has been requested (see: Capitol Buildings Salaries and 
Expenses Operating Budget Life Safety Operations and Maintenance 
section) to begin the detailed program review and development 
associated with all aspects of the Environmental Program.
    Full funding is requested to ensure compliance with environmental 
regulations. Traditionally, compliance with environmental regulations 
has been the most significant cost aspect of meeting life, health, and 
environmental safety needs. As programmatic requirements are defined 
and future compliance needs made more clear, the AOC will request the 
resources necessary to assure that the agency meets environmental 
regulations.

V. Summary
    To meet the AOC Fire Safety, Occupational Health and Safety, 
Recycling, and Environmental goals, resources are required to develop 
and implement programs and policies at the Agency and Jurisdictional 
levels. As mentioned earlier, the AOC is in the process of hiring to 
achieve needed fiscal year 2002 staffing levels as soon as possible. 
Thirteen (13) positions (9 jurisdictional, 3 within the Fire Marshal 
Division and one in the Safety and Environmental Division) are being 
added to better enable the AOC to develop and implement fire, 
occupational, and environmental safety programs and make necessary 
facility upgrades to comply with fire and building codes. Thirty (30) 
projects totaling over $14.5 million are requested under the Life 
Safety Category to address identified fire and/or occupational safety 
deficiencies across the Capitol Complex. An additional $362,000 is 
being requested (see: Capitol Buildings Salaries and Expenses Operating 
Budget Life Safety Operations and Maintenance section) to cover needed 
environmental contractor services as well as increases in cost of fire 
safety and occupational safety and health program management.

    ATTACHMENT I--JURISDICTION SPECIFIC FIRE SAFETY ACCOMPLISHMENTS

                        SENATE OFFICE BUILDINGS

Senate Wide:
    NFPA compliant inspection and maintenance of kitchen hood 
suppression systems implemented.
    Elevator fire service recall upgrades being worked as elevator 
projects are performed.
    ADA Fire alarm system upgrades underway.

----------------------------------------------------------------------------------------------------------------
                                          Percent
              Installation               complete                             Comment
----------------------------------------------------------------------------------------------------------------
Russell: \1\
    Fire alarm system..................        80  Construction in progress for remainder, 2001 completion.
    Sprinkler system...................        80  Construction in progress for remainder, 2001 completion.
    Fire pump..........................       100
    Exit signs.........................       100  In public areas.
    Exit door panic hardware...........        95
    Fire alarm electrical locks........        95
    Committee Room door swings.........        75  Doors to be fabricated.
Dirksen:
    Fire alarm system..................        85  Occupied areas to be complete in 2001. Construction on-going
                                                    through Jan 2003.
    Sprinkler system...................        85  Occupied areas to be complete in 2001. Construction on-going
                                                    through Jan 2003.
    Fire pump..........................       100
    Exit signs.........................       100  In public areas.
    Exit door panic hardware...........       100
    Fire alarm electrical locks........        95
    Committee Room door swings.........        90  Hardware on order.
Hart:
    Fire alarm system..................       100  Interim control panel &amp; duct smoke detectors have being
                                                    installed. New design in fiscal year 2001, construction in
                                                    fiscal year 2003. Sprinkler system 90 mechanical room design
                                                    &amp; construction to be complete.
    Fire pump..........................       100
    Exit signs.........................       100  In public areas.
    Exit door panic hardware...........       100
    Fire alarm electrical locks........        80
    9th floor door swings..............       100  Corrected.
----------------------------------------------------------------------------------------------------------------
\1\ Revolving door designs completed, construction contract awarded.

                     LIBRARY OF CONGRESS BUILDINGS

LOC Wide:
    New kitchen hood suppression systems installed.

----------------------------------------------------------------------------------------------------------------
                                          Percent
              Installation               complete                             Comment
----------------------------------------------------------------------------------------------------------------
Thomas Jefferson Building:
    Fire alarm system..................       100  Tested. Certification scheduled May 2001.
    Sprinkler system...................        95  Everywhere except Main Reading Room and other areas (to have
                                                    performance based analysis of smoke control and other
                                                    measures).
    Fire pump..........................       100
    Exit signs.........................       100  Throughout building.
    Elevator recall....................       100  Programming in fiscal year 2001.
John Adams Building:
    Fire alarm system..................       100  Tested. Certification scheduled for May 2001.
    Sprinkler system...................        98  Telephone &amp; electric closets remain.
    Fire pump..........................       100
    Exit signs.........................        99  Entire building to be completed May 2001.
    Elevator recall....................       100  Programming in fiscal year 2001.
James Madison Building:
    Fire alarm system..................       100  Testing and certification to be completed June 2001.
    Sprinkler system...................        90  Task order issued for remainder design to be completed May
                                                    2001. Construction funds to be requested in fiscal year
                                                    2003.
    Fire pump..........................       100
    Exit signs.........................        99  Entire building to be completed July 2001.
    Elevator recall....................       100  Operational.
    Electric switchgear................        25  Remaining 3 switchgears to be replaced end fiscal year 2001
                                                    and beginning fiscal year 2002.
U.S. CAPITOL:
    Fire alarm system..................        60  Systems in place are tested &amp; certified. Remaining
                                                    installation on-going.
    Sprinkler system...................        25  Construction documents scheduled October 2002.
    Fire pump..........................       100
    Exit signs.........................        35  Main corridors &amp; egress doors installed. Building-wide study
                                                    completed.
    Elevator recall....................        80  Installation on-going.
    Egress Doors.......................        60  9 of 15 completed. Remaining designs completed. Construction
                                                    funds to be requested. Coordination with CVC project
                                                    required.
----------------------------------------------------------------------------------------------------------------

                         HOUSE OFFICE BUILDINGS

House wide:
    Omega sprinkler head replacement completed in all HOB.
    Firefighter telephones installed and operational in all HOB.
    New kitchen hood suppression systems installed (Cannon, Longworth, 
Ford, and Rayburn pizza kitchen, remaining Rayburn kitchen installation 
planned as part of renovation.)
    Door fire rating survey completed, corrections underway.
    Elevator fire service recall upgrades being worked as elevator 
projects are performed.

----------------------------------------------------------------------------------------------------------------
                                          Percent
              Installation               complete                             Comment
----------------------------------------------------------------------------------------------------------------
Cannon: \1\
    Fire alarm system..................        95  Survey task order to be issued May 2001.
    Sprinkler system...................        90  Design to be complete June 2001.
    Exit signs.........................       100  In public areas.
Longworth: \1\
    Fire alarm system..................        95  Basement &amp; sub-basement installed as renovation are
                                                    performed.
    Sprinkler system...................    \2\ 90  Design task order issued for remainder.
    Fire pump..........................       100
    Exit signs.........................       100  In public areas.
Rayburn:
    Fire alarm system..................       100  Smoke detectors installed and certified.
    Sprinkler system...................        20  Garage, sub-basement, and portions of building covered,
                                                    remainder scheduled through 2002.
    Exit signs.........................       100  In public areas.
O'Neill (Intend to abandon occupancy in/
 by fiscal year 2002):
    Fire alarm system..................  ........  Existing system not compliant, scope review May 2001.
    Sprinkler system...................       100
    Exit signs.........................       100
Ford:
    Fire alarm system..................       100  Installed and certified.
    Sprinkler system...................        95  Design task order issued for remainder (elevator shafts,
                                                    machine rooms, etc.); new fire pump test header installed.
    Exit signs.........................       100  In public areas.
----------------------------------------------------------------------------------------------------------------
\1\ Revolving door designs completed.
\2\ Over.

        APPENDIX B--AOC HUMAN RESOURCES ACT OF 1995 ACHIEVEMENTS

                            I. INTRODUCTION

    The United States Congress passed the AOC Human Resources Act of 
1995 in the Fiscal Year 1995 Legislative Branch Appropriations Act, 
Public Law 103-283, approved July 22, 1994. The law required that the 
AOC develop a human resources management program consistent with modern 
practices common to federal and private sector programs.

                   II. HUMAN RESOURCES PROGRAM FOCUS

    The Human Resources Management Division (HRMD) has made the 
following areas priorities: Customer service delivery; Program/policy 
development; Service delivery systems re-engineering; and Personnel 
action and operational processing simplification.
    In order to accomplish these priorities, as well as the daily human 
resource operational requirements, HRMD has, as a team, formed 
relationships across branches and functions to address these new 
challenges. The following information outlines HRMD's progress in the 
last year and identifies new directions for the coming year.

                    III. PROGRAM GUIDANCE COMPLETED

    AOC's Human Resources Management Division has dedicated this past 
year to meeting the needs of AOC customers while providing timely, 
customer-focused programs and services. Human Resources is a proactive 
partner and resource in advancing the AOC mission of being an 
innovative and efficient team committed to service excellence and to 
preserving, maintaining and enhancing the national treasures entrusted 
to our care.
    During 2000, HRMD devoted time and resources to meeting its daily 
operational goals, as well as its strategic goals, for improved 
customer service delivery, development and retooling of programs and 
policies, and re-engineering of program support services and personnel 
action processing. Building upon the accomplishments of the previous 
year, HRMD finished several projects for the agency and its employees 
over the last year.
    In the area of development of programs and policies, HRMD 
accomplished the following:
    Performance Communication and Evaluation System (PCES).--Developed 
and implemented a new performance management system. HRMD rolled out 
the implementation of the PCES by conducting training sessions on the 
new system for all AOC non-bargaining unit employees. Through 
supervisor and employee briefings, the plans are being implemented in 
each jurisdiction. All jurisdictions will be under PCES by June, 2001.
    In support of the new PCES, HRMD developed training objectives and 
provided for an on-site course entitled Performance Coaching and 
Counseling. The training was mandatory for all executives, managers, 
supervisors, foremen and assistants who are PCES rating or reviewing 
officials. The training was designed to assist participants in: 
planning a successful PCES coaching and counseling session; confidently 
selecting and exercising coaching and counseling skills; identifying 
their personal conflict management style, alternate styles, and style 
effect on others; using active listening and effective feedback skills 
to resolve conflict and constructively motivate employees; and, 
discussing overall AOC disciplinary procedures and knowing when and 
where to go for assistance.
    Discipline Process--Awarded a New Hearing Officer Contract.--In an 
effort to eliminate concerns that individual hearing officers were 
being hired specifically by the management structure at the AOC, HRMD 
procured the services of an outside vendor that would provide a number 
of highly qualified individuals to serve as hearing officials in 
discipline appeals. The contractor will provide a pool of at least five 
individuals to serve as hearing officials with the goal of adding yet 
another measure of impartiality to ensure that all AOC employees are 
given fair and just due process.
    Awards Program.--A comprehensive awards program was established 
with provisions for both honorary, monetary, and performance 
recognition. Incorporating the agency's commitment to service 
excellence, professionalism, creativity, and teamwork, AOC's program 
recognizes performance, productivity, and exceptional employee 
contributions and serves as an incentive system toward fulfilling our 
mission. All employees were provided information about the new program 
and received a copy of the new policy. Attendance by fellow AOC 
employees has increased substantially at the quarterly service award 
ceremonies. AOC employees are honored by the recognition and they have 
expressed that they look forward to future ceremonies.
    Transportation Benefit Program.--In January 2001, HRMD assumed 
program responsibility and revamped the AOC Transportation Benefit 
program. AOC employees can receive both a direct benefit and a pretax 
benefit to help offset commuting expenses. The previous $21 Metrochek 
and Bus Token benefit was increased to $44, and employees may elect to 
exclude for federal and state taxes up to an additional $21 of their 
gross income. Over 400 employees participate in the transportation 
benefit program.
    Employee Safety and Protection.--In collaboration with the AOC 
Health and Safety Office, HRMD has been actively addressing employee 
safety and protection in the workplace by assisting with the 
development and implementation of Safety Committees within each 
jurisdiction. We are also working with the Health &amp; Safety Office to 
develop program and policy guidance to address other health and safety 
issues to further support AOC health and safety training initiatives.
    Workers' Compensation Program.--HRMD provided assistance in 
implementing the Architect's plan for making safety a top priority at 
AOC. With a 77 percent hourly (blue collar) workforce, including trades 
that traditionally have among the highest accident rates, HRMD 
initiated an aggressive agenda to strategically work with senior 
management and the Life and Safety Office to focus on cause and 
prevention of work-related injuries and illnesses. Determined to 
implement effective change, HRMD assisted management in developing a 
plan of action for successfully integrating safety in AOC's daily work 
activities. The plan includes:
  --Analyzing injury trends and data to determine appropriate efforts 
        needed to effectively address the Department of Labor's five 
        year plan to reduce occurrences of injuries/illnesses and lost 
        production days.
  --Developing new policies and procedures for using Safety Committees 
        in the jurisdictions to support the advancement of safety, 
        health, and environmental programs. This includes recognizing 
        and reducing hazards in the workplace and performing mishap 
        investigations, as well as development of a back safety 
        awareness program that includes training on proper lifting 
        techniques.
  --Review of the current AOC Personal Protective Equipment (PPE) 
        policies and procedures to ensure they are being properly 
        implemented within OSHA's health and safety standards. We 
        recommended written guidelines to managers and supervisors on 
        enforcing these procedures and an internal system for properly 
        evaluating the program AOC-wide.
    HRMD will continue to develop specific initiatives, in conjunction 
with the AOC Health and Safety Office and with the Attending 
Physician's Office, to systematically address each aspect of workers' 
compensation, to provide for a proactive return to work program, 
improved approaches to deal with repetitive injuries, and to 
aggressively pursue cases of potential fraudulent claims. Additional 
work was completed by developing new methods to perform job safety 
analysis of AOC work stations, targeting areas with the highest 
incident rates, and providing statistical injury data reports to mid-
level managers and front-line supervisors to identify and evaluate 
injury trends in the AOC. Increased support was provided to front-line 
supervisors in the safety, health and workers' compensation process by 
providing comprehensive written guidelines to initiate aggressive 
action to investigate possible fraudulent claims.
    Throughout 2000, HRMD completed a review of 400 workers' 
compensation claims, implemented 18 corrective actions, returned 106 
employees to work in limited duty work assignments, and returned 23 
employees to full duty from the short-term periodic rolls. The OWCP 
staff conducted briefings for managers, supervisors and field 
coordinators on the proper administration of the Federal Employees 
Compensation Act.
    Premium Conversion for FEHB.--In the Fall of 2000, the Architect 
received approval from the Office of Personnel Management to implement 
the federal government's pre-tax option for Federal Health Benefits 
premiums. HR Bulletin 2000-3 was mailed to all employees announcing 
this new benefit option which reduces their taxable income and 
increases their net pay.
    Pilot Alternative Workplace Program.--As part of the agency's 
efforts to assist employees in managing their work and personal life 
activities, HRMD implemented a pilot alternative workplace program. 
This flexibility can permit managers or employees, who are experiencing 
medical difficulties, to work at their place of residence during a 
defined work period. The pilot policy contains specific eligibility 
criteria and procedures for managers and employees alike to follow 
during the alternative workplace assignment.
    AOC HR Manual.--During the past year, the Human Resources 
Management Division completed its review of HR policies, procedures, 
guides and memorandum and issued the first Human Resources Manual for 
all managers and supervisors. The manual contains all current and 
relevant policy and guidance helpful in managing the agency's human 
resources. As part of its efforts to continue its outreach efforts, 
HRMD attended jurisdictional supervisor meetings and distributed the 
manuals to each supervisor. In addition, all AOC employees received a 
memo from the Architect announcing the HR manual and letting them know 
that the policies and procedures are available for their use.
    Payroll Services.--As part of HRMD's continuous improvement 
initiatives and commitment to excellence in customer service delivery, 
a payroll services group was established to increase customer 
satisfaction, provide direct responsive problem resolution, and 
identify system/process procedures impacting AOC's ability to pay all 
employees accurately and timely. The payroll services group has begun 
administrative preparation for the implementation of an automated 
System for Time and Attendance (STAR).
    Staffing and Recruitment.--Due to the high volume of staffing and 
recruiting work in the AOC, HRMD implemented streamlined procedures for 
the Career Staffing Policy in July 2000. The changes provided greater 
efficiency in hiring procedures. HRMD also streamlined audit procedures 
for accretion of duties promotions based on the nature of the action.
    Customer Communications.--As part of HRMD's continuous improvement 
initiatives and commitment to excellence in customer service delivery, 
HR developed a Personnel Action Status Report to inform customers of HR 
progress towards completing requested actions. To further improve 
communications on the status of personnel actions, the HR staff also 
initiated a series of regular meetings with Jurisdictional Managers to 
discuss the on-going status of actions in-process. During these 
meetings management identifies their staffing priorities. In turn, HR 
provides possible recruitment strategies that will result in the timely 
filling of vacancies and the processing of routine staffing actions.
    Retirement and Benefits Form Automation.--HRMD completed an upgrade 
in the processing of retirement and benefits forms. As part of the 
counseling process, staff can better assist employees by completing 
forms on-line and presenting various benefit options using computer 
modules that help employees make better decisions about their financial 
future.
    Benefits Information via Web.--HRMD established a computer site for 
employees to use in accessing various federal benefits related web 
sites. Information is readily accessible and provides employees with 
immediate access to their benefits information to help them make more 
informed decisions. Future plans include providing electronic kiosks to 
jurisdictions whose workforce does not regularly use a computer as part 
of their daily work life.
    Employee Personal Page.--HRMD offered employees the opportunity to 
view their personal payroll and benefits-related information via an 
employee's personal web page. Information for current pay periods, as 
well as previous pay periods, is available via computer. Federal tax 
documents, e.g. W-2, are also available for the past two tax years.
    FEGLI Open Season.--HRMD implemented an open season enrollment for 
Federal Employees' Group Life Insurance. This opportunity was 
communicated to all employees in the Spring of 1999 with more than 300 
employees either enrolling or increasing their life insurance coverage 
which became effective April, 2000.
    Child Equity Implementation.--Implemented procedures for processing 
court orders to ensure that children of employees are covered under the 
Federal Employees Health Benefits program. This new requirement makes 
mandatory self and family coverage for FEHB-eligible employees who do 
not comply with a court or administrative order to provide health 
benefits for their children.
    Human Resources Newsletter.--Publishing a Human Resources 
Newsletter, Employee Matters, as part of the AOC Shoptalk. The 
newsletter provides AOC employees with current Human Resources 
information, program initiatives, upcoming events, training 
information, etc.
    CFC Campaign.--This year's successful campaign reflected a 4 
percent increase in giving and a 44 percent increase in participation. 
Seventy-three AOC employees contributed $18,765.32, coming very close 
to the Agency goal of $18,785.10.
    Employee Guidance.--Additional communication efforts resulted in 
the following:
  --Issuance of the 2000-2001 Adverse Weather Policy to advise 
        employees of procedures for reporting to work during an adverse 
        weather emergency.
  --A ``Tools of the Trade on Work and Leave Status During Adverse 
        Weather Emergencies'' to provide guidance on an employee's work 
        and leave status during adverse weather emergencies in the 
        Washington, DC area.
  --Issuance of the brochure ``Internal Investigation Interviews'' to 
        inform employees of their role in an official Agency 
        investigation.
  --Issuance of the Administrative Hearing Guide for AOC employees to 
        inform employees of the process and procedures for conducting 
        disciplinary hearings.
    Training and Employee Development.--In the training and employee 
development area, HRMD approved and processed approximately 5,479 
individual training requests. Of the approximately 93 training 
opportunities offered to employees during the year, 62 courses 
supported the competencies (i.e. communication skills, interpersonal 
skills, basic leadership skills, self-direction, strategic planning, 
program management, advanced leadership skills, critical thinking 
skills, strategic vision, and external awareness) identified in the AOC 
Leadership Development Program. Following are some of the actual 
courses offered: Coaching Skills For Managers and Supervisors; Team 
Building and Problem Solving; Analyzing and Resolving Conflict; 
Custodial and Laborer Supervisory Training; Effective Communication; 
How to Plan and Conduct Effective Meetings. In addition to supervisory 
training, safety training focused on topics such as: asbestos; truck 
lift safety; confined space; personal protective equipment; blood borne 
pathogens; fall protection. Adult literacy, as well as various 
technical training and computer training opportunities, also were 
offered.
    Enhancing Supervisory Skills Workshop.--With the assistance of a 
training consultant, we developed and administered this workshop for 
all AOC supervisors. The mandatory three-day training session addressed 
numerous topics with a focus on refreshing and enhancing supervisory 
skills. This workshop was the first of what will be a series of 
training opportunities aimed at improving the management and 
supervisory skills of AOC executives, managers, supervisors, foremen 
and assistant foremen. Major components of this workshop included 
segments to: enhance communications with employees; provide basic 
skills and the tools to effectively and promptly address conduct and 
discipline issues; address methods for providing positive reinforcement 
to staff; and, allowed an open discussion and review of pressing 
problems/issues. Additional supervisory core courses were also offered: 
Quality Assurance for Supervisors; Sexual Harassment; EEO; and Violence 
in the Workplace.
    Architect's Mobility Program (AMP).--AOC's AMP program was designed 
to provide career growth opportunities for employees in lower-graded, 
career-limiting positions. Based on a competitive process, 11 AOC 
employees were selected to begin the program in fiscal year 2000. Of 
those participating, two carpentry helper trainees have been promoted 
from WG-2 to WG-5; one electrical helper trainee was promoted from WG-2 
to WG-5; and, one painter helper trainee was promoted from WG-2 to WG-
5.
    Organizational Management and Analysis.--From an organizational 
perspective, HRMD managed the reorganization process for the following:
  --The Office of the Executive Officer was reorganized to provide an 
        agency-wide focus on safety, occupational health, and fire 
        protection. A major aspect of the AOC's strategy is to staff 
        positions in each major organization to coordinate 
        jurisdictional implementation of the various safety and fire 
        protection initiatives.
  --U.S. Senate Restaurants were reorganized to streamline business 
        operations by combining a number of minimally staffed 
        organizational entities and to provide more clarity in 
        reporting relationships between employees, supervisors, and 
        management.
    Records Management.--HRMD completed its records retention schedule 
regarding the information AOC organizations currently maintain about 
the employment and conduct of individual employees. Individual 
supervisors and managers may find it convenient to maintain unofficial 
personnel records containing information about their employees for 
purposes of initiating personnel actions, tracking leave usage, and 
recommending discipline. The information maintained might duplicate 
some of that in the employee's Official Personnel Folder, but may 
include copies of additional material such as employee's counseling, 
incident reports, and supervisory notes. In order to provide 
consistency in the content and manner in which employee information is 
kept, HRMD developed guidelines to govern what documentation may and 
may not be maintained, as well as general information on employees' 
rights to review.

                IV. CURRENT HUMAN RESOURCES INITIATIVES

    The following is a brief summary of current HRMD initiatives:
    Leave Administration.--Guidance and instructions being used by the 
various jurisdictions are being collected in an effort to assess how 
leave is administered across the AOC. We plan to develop standard 
policies and procedures for handling the various aspects of leave 
administration including:
  --Process for requesting and approving leave (annual, sick, without 
        pay, etc.).
  --Process for annotating and documenting tardiness.
  --Process for annotating, documenting and initiating action to 
        address AWOL situations.
    Conduct and Discipline Policy.--HRMD is reviewing the current 
conduct and discipline policy in an effort to streamline the processing 
of disciplinary actions to ensure that AOC employees are afforded due 
process in a timely manner. HRMD will look into the appropriate 
delegation of authority levels as well as developing a more 
comprehensive table of penalties guide.
    A Comprehensive Wage and Pay Administration and Hours of Duty 
Policy.--In addition to current work efforts on the AOC's Pay 
Flexibilities Policy, HRMD is developing a more uniform and 
comprehensive way of addressing wage and pay matters, to cover holiday 
pay, overtime, tours of duty, etc. This effort will standardize pay 
administration and work scheduling across the agency and provide clear 
operating guidelines for AOC supervisors to follow.
    Employee Handbook.--As a follow to the HR Manual provided for all 
AOC managers and supervisors, AOC employees, both current and incoming, 
will soon receive a comprehensive handbook outlining employee 
responsibilities, benefit programs and employment related information, 
etc.
    Customer Communications.--HRMD's Personnel Action Status Report is 
now available for all users of the AOC computer network. Access has 
been provided to jurisdictional personnel to read and print information 
concerning personnel actions in-process. To further improve 
communications on the status of personnel actions, the HR staff also 
conduct regular meetings with Jurisdictional Managers to discuss the 
on-going status of actions in-process. During these meetings management 
identifies their staffing priorities. In turn, HR provides possible 
recruitment strategies that will result in the timely filling of 
vacancies and the processing of routine staffing actions.
    Payroll Services.--The newly formed Payroll Services Group is 
preparing for the implementation of the Automated System for Time and 
Attendance (STAR). A cross jurisdictional work group has formed and is 
benchmarking other federal organizations who have completed the 
transition. Implementation of the web based time and attendance system 
is anticipated in the next several months.
    Organizational Management Analysis.--HRMD is currently managing the 
reorganization process for the following:
  --Finalizing the reorganization of the functions reporting to the 
        Executive Officer for Facilities Management. This 
        organization's focus has been broadened and redirected to place 
        greater emphasis on facilities management along with safety, 
        occupational health, fire prevention, and quality assurance.
  --House Office Buildings, Refrigeration &amp; Air Conditioning Division, 
        and Pipefitting--Plumbing Division have been combined to create 
        a new Mechanical Systems Division. The basis for the merger is 
        the elimination of duplicate workload and streamlining of 
        processes, such as maintaining two inventory processes and 
        duplication of tools and equipment. Further, the merger 
        combines single trade functions to create maintenance mechanics 
        performing multiple trades work.
  --Human Resources Management Information System--Based on program and 
        management needs, research is needed to actively pursue 
        modernization of HR information management systems. The lack of 
        an automated system results in very labor intensive efforts on 
        behalf of Agency managers, administrative staff, the HR staff, 
        and the Information Resources Management staff in completing 
        day-to-day business transactions. An automated system would not 
        only greatly reduce the necessary paperwork, but would also 
        reduce the processing time for personnel actions and would 
        facilitate generation of necessary Agency and Oversight 
        Committees' reports. Such a system would be able to provide 
        for: on-demand, accurate, management reports for program 
        analysis; processing of personnel actions; personnel forms; 
        position classification process; simple, protected, employee 
        access to their personal pay, benefits, retirement, insurance, 
        and other employment related information.
    Our organizational goal is to be more responsive in meeting the 
needs of our AOC customers, and provide timely, cost-effective HR 
services. We envision Human Resources as a proactive partner and 
resource in advancing the AOC mission of being an innovative and 
efficient team dedicated to service excellence and to preserving, 
maintaining and enhancing the national treasures entrusted to our care.

           APPENDIX C--INITIATIVES FOR SECURITY ENHANCEMENTS

                           EXECUTIVE SUMMARY

    The Architect of the Capitol, through its jurisdictional 
superintendents' operations, has been providing ongoing support for the 
U.S. Capitol Police by installing power, conduit, electric locks and 
oversight of the USCP electrical contractors. This work will continue 
until the projected project completion April 1, 2002. To facilitate and 
improve this oversight, as well as to improve coordination on the many 
security issues related to infrastructure projects, the AOC appointed a 
Security Officer, under direction of the Assistant Architect of the 
Capitol, to provide coordination, liaison and technical guidance to the 
AOC relating to the USCP security enhancements and ongoing security 
projects planned or in progress for the Capitol complex.
    In fiscal year 2001, contracts were issued for the installation of 
security bollards and vehicle barriers to provide security for the U.S. 
Senate Office Buildings and staff parking areas, as well as the Capitol 
Square project to install security bollards and vehicle barriers around 
the entire U.S. Capitol grounds, to prevent unauthorized vehicular 
access to the grounds.

I. Senate Perimeter Security
    The Senate Perimeter Security project contract was awarded in 
November 2000, with work commencing in March 2001. This project 
provides for the installation of security barriers, bollards, security 
booths and electronic security systems to provide a secure area for 
parking on C Street from New Jersey Ave NW to 2nd Street NE, and on 
Delaware Avenue from Constitution Avenue to D Street. The work, 
performed in four phases, is projected for completion in January 2002.

II. Portal Security Installation
    Based on the Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999, (Public Law 105-277) security screening 
equipment and support security enhancement systems for USCP personnel 
were planned for installation at all portals used by staff and the 
public. To support this effort, egress studies were performed to 
identify safety issues and the 48 portals identified as requiring 
security systems enhancements. As of March 6, 2001, 25 portals have 
been cleared for installation and work has commenced. AOC is supporting 
the installation of infrastructure (conduit, power, floor boxes) for 
this project.

III. Infrastructure Installation Support
    The USCP have an extensive security enhancement installation 
project in progress. This consists in part of the installation of 
intrusion alarms on building perimeters, card access on restricted 
areas, and video assessment. The AOC is providing support for these 
installations throughout the Capitol complex. This support consists of 
conduit, power, door hardware and lock installation, and support is 
provided as required to support the USCP and/or their security or 
electrical contractor.

IV. Capitol Square Security
    The Capitol Square Security project contract was awarded March 2001 
and work has commenced. This project provides for the installation of 
security barriers, bollards and electronic security systems to provide 
a secure area within the Capitol Grounds from 1st Street NW/SW, 1st 
Street NE/SE, North Drive, and South Drive.

 APPENDIX D--INITIATIVES REGARDING THE CONGRESSIONAL ACCOUNTABILITY ACT

                              INTRODUCTION

    The Congressional Accountability Act of 1995 (CAA) affords all AOC 
employees a process by which to present allegations, including issues 
of unlawful discrimination and retaliation, to the Office of Compliance 
(OC). After the mediation period ends, employees may go directly to 
federal district court without exhausting any administrative remedies. 
In addition, in safety and health and other cases, the law gives the OC 
General Counsel investigatory powers, including the ongoing 
responsibility to conduct periodic, complex-wide inspections to report 
on work practices and working conditions in facilities under the 
jurisdiction of the AOC.

I. Employment Rights Cases
    An employee who wants to charge the AOC with violations of the CAA 
must first request counseling and mediation from the Office of 
Compliance. Anyone who wishes to file such requests need not detail, or 
prove, any allegations during the formal counseling, mediation, or 
before initiating formal litigation. At mediation, the AOC must respond 
to any matters, including discrimination, retaliation issues, or other 
workplace matters, regardless of the legal merits of claims. The CAA 
and the OC procedural rules require that all mediation and formal 
hearing proceedings are strictly confidential.
    After the mediation period, the employee or a designated 
representative may initiate the litigation process by filing a formal 
complaint in the Office of Compliance or a civil action in federal 
district court. (The CAA requires that mediations and any formal 
complaint cases before an OC hearing officer are to be kept 
confidential. By contrast, CAA civil actions in federal court, which 
are subject to court rules, are generally public proceedings.) 
Currently, active cases include four (4) federal appeals and 17 
district court cases. In the two (2) appeals court cases and the 22 
district court cases in which courts have ruled, the courts' decisions 
have been in favor of the AOC, including dismissals or withdrawals of 
employee allegations.

II. Occupational Safety and Health Provisions of the CAA
    Section 215 of the CAA directs the OC General Counsel to inspect 
any area or activity within the jurisdiction of employing offices, 
including all of the facilities within the AOC's jurisdiction with 
respect to compliance with occupational safety and health (OSH) 
standards. In the four years since the enactment of the CAA, the Office 
of Compliance has not issued occupational safety and health (OSH) 
standards, as directed by the law.
    The OC General Counsel conducts inspections of all such locations 
at least once every Congress, but also at any time when an employee or 
an employee representative requests an inspection. These requested 
inspections may be narrowly focused on one location or activity or 
involve facilities and activities across Capitol Hill, such as the 
ongoing fire safety inspections of buildings under AOC jurisdiction, 
which are mentioned in Appendix A.
    The CAA empowers the General Counsel to issue a citation that 
alleges that a violation of Section 215 of the CAA has occurred. The 
issuance of an OC citation by itself does not establish that a 
violation of safety and health standards has in fact occurred. To do 
that, the General Counsel must issue a complaint against the AOC. An 
independent hearing officer would then hear the complaint allegations. 
At that time the OC General Counsel and the AOC would each present 
their positions as to what standards apply and whether the facilities 
or work practices at issue are (or are not) in compliance with the 
applicable standards. The hearing officer would issue a decision, which 
may be appealed to the OC Board of Directors, with review by the 
Federal Circuit Court of Appeals.
    To date, the General Counsel has not issued any complaints 
concerning any safety and health issue. In addition, when the General 
Counsel has issued citations, the AOC has responded promptly to correct 
the condition or, if an immediate correction is not feasible, to 
outline a plan of action to achieve a correction within a reasonable 
period.
    In December 2000, the OC General Counsel reported on the periodic 
inspections of the Capitol Hill complex and other facilities, 
concentrating on fire safety issues. The report notes significant 
improvements and reports additional findings that may need to be 
addressed. In addition, during calendar year 2000, ten (10) requests 
for inspection were filed by employees or unions. In all of these 
cases, the AOC worked closely with the OC General Counsel to address 
any and all safety and health issues that called for a response.
    In those cases where additional funds are required to address 
safety and health issues, the AOC develops plans of correction for the 
future and requests the necessary funds to correct the problems. For 
example, where a citation issued concerning the structural aspects of 
the Capitol Power Plant utility tunnels, the AOC notified the OC of the 
immediate reduction in the time that employees spend in the area, the 
retention of a structural engineering firm to develop repair 
procedures, and of budget requests for the resources needed for a 
permanent fix. Similarly, in the area of fire safety, the AOC has 
developed a multi-faceted plan of action to address the issues that the 
Office of Compliance highlighted in their reports during the last 12 
months. See Appendix A for more detail on these measures to enhance 
fire safety.

         APPENDIX E--INITIATIVES IN LABOR-MANAGEMENT RELATIONS

                              INTRODUCTION

    Provisions under the Congressional Accountability Act, Public Law 
104-1 (CAA), afford all eligible Architect of the Capitol (AOC) 
employees the right to choose an exclusive representative to engage in 
collective bargaining with the AOC. Since the CAA's passage, eight 
different groups of AOC employees have exercised this right. Six unions 
represent laborers, custodians, nonskilled workers and Davis Bacon 
employees in various trades.

I. Formation of Bargaining Units
    In August 1997, the first bargaining unit at the AOC was 
established. Approximately 600 laborers, custodians and other 
occupations were organized by AFSCME Council 26, Local 626, which was 
certified by the Office of Compliance (OC) as the first exclusive 
bargaining agent for AOC employees.
    In November 1998, AFSCME Council 26, Local 626 was certified by the 
Office of Compliance as the exclusive representative for a unit of 
production and maintenance employees at the United States Botanic 
Garden.
    On January 13, 1999, Plumbers Local Union No. 5, United Association 
of Journeymen and Apprentices et al. was certified as the exclusive 
bargaining agent, by the Office of Compliance, for a unit of plumbers 
employed by the AOC's Construction Management Division.
    On August 17, 1999, the International Brotherhood of Electrical 
Workers, Local 26 was certified by the Office of Compliance as the 
exclusive bargaining agent for a unit of electricians employed by the 
AOC's Construction Management Division.
    On October 14, 1999, AFSCME Council 26, Local 626 was certified by 
the Office of Compliance as the exclusive representative of laborers 
and coal loaders at the Capitol Power Plant. This is an addition to the 
existing unit consisting of other laborers and custodial workers in the 
House and Senate Office Buildings and the Capitol.
    On October 16, 1999, Sheet Metal Workers' International 
Association, Local Union No. 100 was certified by the Office of 
Compliance as the exclusive representative of sheet metal workers 
employed by the Construction Management Division of the AOC.
    On November 15, 1999, the Washington, D.C. Regional Council of 
Carpenters, United Brotherhood of Carpenters and Joiners of America was 
certified by the Office of Compliance as the exclusive representative 
of carpenters employed by the Construction Management Division of the 
AOC.
    On May 12, 2000, the Bricklayers &amp; Allied Craftworkers Local No. 1, 
MD, VA &amp; DC (Stonemasons Local No. 1) was certified by the Office of 
Compliance as the exclusive representative of all stonemasons who are 
paid in accordance with the Davis-Bacon Act, and who are employed by 
the Office of the Architect of the Capitol.

II. Union Negotiations (Impact Bargaining)
    During the past four years, the AOC and its labor unions have 
negotiated twenty-one (21) Memoranda of Understanding, covering the 
following subjects: Time Clocks for Capitol Building Employees; 
Official Time and the Number of Designated Union Officials for the 
House, Senate and Capitol Bargaining Unit; Official Time and the Number 
of Designated Union Officials for the U. S. Botanic Gardens; Dues 
Deduction; Architect's Mobility Program; Overtime Assignments at the 
U.S. Botanic Gardens; Ground Rules for Master Contract Negotiations 
(AFSCME, IBEW Local 26 and Plumbers Local Union No. 5); Reassignments 
for House, Senate and Capitol Personnel; Buy-Out, Early Retirement; 
Transfer of Custodial Employees; Uniforms for U.S. Botanic Garden 
Employees; Uniforms for House Office Building Employees; Uniforms for 
Senate Office Building Employees; House Shift Changes; Safety Shoes; 
Transit Subsidy; Hiring Temporary Recycling Workers; and 
Reorganization--U.S. Botanic Gardens 2001.

III. Labor Relations Meetings and Negotiations
    The AOC has initiated or participated in labor-management meetings 
on the average of three to four times per month, during the past year, 
to discuss various issues including performance evaluations, back pay, 
health and safety, pension benefits for employees paid at the Davis-
Bacon prevailing rate and who work with the AOC's Construction 
Management Division, discipline, affirmative employment and grievance 
procedures. On June 1, 2000, the Architect of the Capitol held its 
third reception for all of the labor unions representing AOC employees, 
in a continuing effort to forge more positive working relationships 
with the unions.

IV. Master Contract Negotiations
    Negotiations have commenced with all but two \1\ of the Unions for 
an initial comprehensive Collective Bargaining Agreement.
---------------------------------------------------------------------------
    \1\ Bricklayers and Allied Craftworkers Local No. 1, MD, VA &amp; DC, 
and the Sheet Metal Workers' International Association, Local Union No. 
100.
---------------------------------------------------------------------------
  --Collective bargaining between AFSCME Local 626 and the AOC began on 
        July 21, 1999, to negotiate the first comprehensive master 
        contract agreement between the AOC and a labor organization. 
        Negotiations were postponed during the pending decision of a 
        Negotiability Appeal. Three to four issues remain for 
        completion of the contract.
  --The AOC and Plumbers Local No. 5 began negotiations, for ground 
        rules and a collective bargaining agreement, in November 2000. 
        To date, the AOC and Plumbers Local No. 5 have met to negotiate 
        five times, and have reached agreement on several key issues.
  --The AOC and IBEW Local 26 began negotiations, for ground rules and 
        a collective bargaining agreement, in September 2000. The 
        parties have held nine bargaining sessions and continue to 
        negotiate for an initial contract.
  --The AOC and the Council of Carpenters held their first negotiation 
        meeting on June 21, 2000. The AOC and the Union have met three 
        times since the initial June meeting.
  --Local Union No. 100, Sheet Metal Workers, submitted its initial 
        proposal for a collective bargaining agreement to the AOC. The 
        AOC, in turn, forwarded a response to the Union's proposal. A 
        meeting was held with Union representatives on March 9, 2000, 
        to discuss preliminary issues. No bargaining sessions have been 
        scheduled.
  --To date, no proposal has been received from the Bricklayers &amp; 
        Allied Craftworkers for an initial contract.

V. Allegations of Unfair Labor Practices
    During the past four years, 56 unfair labor practice charges were 
filed by various organizations representing AOC employees. To date, 
four unfair labor practice charges were filed against the various 
unions, on behalf of the AOC. Of the total unfair labor practice 
charges 29 were withdrawn, of which 12 were withdrawn based on 
settlements. One charge is still pending. Further, 30 of the unfair 
labor practice charges were ultimately dismissed due to either lack of 
basis, or insufficiency of evidence.

VI. Other Issues of Importance
    Over the past year, the Office of Compliance has considered and 
decided a Negotiability Appeal filed by AFSCME Local 626, concerning a 
Union proposal that the AOC was required to compensate employees for 
back pay, as authorized by an arbitrator in a grievance arbitration 
proceeding. The AOC contended that the proposal was nonnegotiable since 
the Back Pay Act does not include the AOC in its coverage, and no other 
similar provision in the Congressional Accountability Act would require 
the AOC to provide back pay.
    The Office of Compliance dismissed the Appeal, finding that the 
payment of such compensatory awards would be included as part of the 
Settlement and Judgement Fund administered by the Office of Compliance, 
pursuant to Section 415(b) of the CAA.
    The AOC is establishing an independent Office of Labor Relations &amp; 
Collective Bargaining to report directly to the Architect.
    In February 2001, AFSCME Local 626 elected new officials and 
members to its Executive Board.
    Discussions are underway between AFSCME Local 626 and the AOC 
regarding the agency's affirmative employment program.
    Quarterly updates on labor relations issues are reported in the 
AOC's ``Shop Talk'' publication.

      APPENDIX F--STATUS OF SELECTED CAPITOL IMPROVEMENT PROJECTS

Dirksen Senate Office Building Infrastructure Project
    This project involves the modernization of the building 
infrastructure systems in the Dirksen Senate Office Building while the 
structure continues to be occupied in all areas except those directly 
affected by carefully staged and preplanned construction activity.
    The project includes a new electrical distribution system that will 
improve power quality, capacity and reliability; installation of a new 
telecommunications system; replacement and upgrade of the existing 
emergency generator; new cable trays and data rooms to facilitate 
recabling of the building; replacement of the heating, ventilation and 
air conditioning systems from the ground through the seventh floor to 
provide increased operating efficiency, controllability and 
reliability; new energy efficient lighting and ceiling systems in the 
office spaces as well as the corridors to provide improved lighting 
with decreased energy consumption; modern modular partition walls for 
the offices providing increased efficiencies in space layouts and 
enhanced appearance; expansion of the existing sprinkler system to 
provide building-wide sprinklered protection, including replacement of 
the fire pump for increased safety, property protection and code 
compliance. Additionally, the fire alarm system will be completed 
throughout the facility, the center core public bathrooms will be 
modernized to incorporate current ADA requirements, and revisions are 
being made to the wiring of the Committee Rooms to meet criteria 
established by the U.S. Capitol Police Physical Security Division.
    The center core public restrooms on the 3rd, 4th, 5th and 6th 
floors have been completed and are now ADA compliant; the center core 
restrooms on the 1st and 2nd floors are scheduled to be completed and 
open to the public on July 1, 2001.
    Phase I of the project will modernize the main mechanical and 
electrical systems located on the 7th and sub-basement floor levels. 
This phase will be completed by the end of fiscal year 2003. Phase II 
construction was planned in 14 separate and sequential 10-week phases, 
of which we are currently in the 12th phase. This phase of the project 
is on track to completion, on time and on budget, by the end of the 
year (December 2001). All communication/data closets have been 
completed and are becoming fully functional as Phase II construction 
proceeds through the building.

Senate Perimeter Security Project
    Work is already complete on the first of four phases of 
construction for the Senate Perimeter Security project. The purpose of 
this project is to improve both the security and appearance of areas 
around the Senate office buildings. Unsightly concrete structures--
which were intended to be temporary security measures when put into 
place more than a decade ago--will be replaced by more appropriate and 
effective permanent features. Work began in February 2001 and the 
project is expected to be completed during the winter of 2001/2002. 
Phase II of this project began April 30 and should conclude by July 30. 
This phase will provide a new lift gate, protective bollards, vehicle 
barrier and planter at the intersection of Delaware Avenue and D 
Street. Phase III will be centered at Delaware and Constitution, 2nd 
and C Street, NE. Phase IV will center on Delaware and C Street, 1st 
and C Street, on both the east and west sides. The staging area for the 
entire project is the fenced area along D Street.
    At the same time, similar and complementary work is commencing on 
the Capitol Square Perimeter Project on the grounds immediately 
surrounding the U.S. Capitol. This work will be in full activity about 
the time Phase II of the Senate Perimeter Security Project concludes. 
The staging area for this project, delineated by fencing that closely 
resembles the fencing used along D Street, is located on the West Lawn 
of the Capitol near the northwest corner of the Senate Extension. The 
Capitol Square project will take about two years to conclude, except 
for the portion of the project affected by construction of the Capitol 
Visitor Center, expected to be completed in 2005.

U.S. Botanic Garden Conservatory Renovation
    The contract for the renovation of the U.S. Botanic Garden 
Conservatory was awarded to The Clark Construction Group, Inc., of 
Bethesda, Maryland, in September 1998. The company was issued a Notice 
to Proceed in the same month and extensive work presently underway is 
clearly visible to passers-by. The renovation and reconstruction of the 
1933 Conservatory will totally replace and modernize its building 
systems while retaining its architectural character. The initial award 
is for the renovation of the structure (including the interior 
landscapes) and installation of water treatment, security and 
environmental control systems.
    The staff of the U.S. Botanic Garden will install the plant 
exhibits in each house of the Conservatory. The Conservatory will be 
completed this year and planting for a public re-opening will commence 
as soon as construction work is sufficiently complete to allow 
planting. Upon opening, Members and the public will experience a young 
garden and have the opportunity to see it reach maturity in coming 
years, becoming more lush and beautiful with each passing season.
    Work on the adjacent National Garden, unique because of its private 
funding, is anticipated to begin in earnest this winter.

Library of Congress Book Storage Modules
    Work is nearing completion on the first of a series of book storage 
modules to be built for the Library of Congress on 100 acres of land at 
Ft. Meade, Maryland, under jurisdiction of the Architect. The contract 
for construction of LOC Book Storage Module 1 and an adjacent office 
component, as well as for initial site preparation and development 
work, was awarded on April 12, 1999. The first storage module (of an 
anticipated total of 13) is 8,000 square feet, and the office component 
is 5,000 square feet exclusive of mechanical equipment space. 
Construction began August 3, 1999 and is expected to be completed this 
summer. Future modules, not tied to additional office components, may 
be larger in size.

Capitol Power Plant Modernization
    The request to modify the fiscal year 2002 Budget for the Capitol 
Power Plant was required as the first phase of the West Refrigeration 
Plant Expansion, that is necessary to support the future cooling needs 
of the Capitol complex and replace outdated and worn-out equipment. 
This project must start in spring, 2002, to keep the West Refrigeration 
Plant Expansion on schedule. If the project does not begin in a timely 
fashion, an adequate supply of chilled water cannot be provided.
    The West Refrigeration Plant Expansion's (WRP) schedule, and future 
budget request, are summarized as follows: The design is currently at 
65 percent completion, with final construction documents and cost 
estimates on schedule to be complete in September 2001. Careful 
consideration has been given to the architectural design of the WRP 
Expansion to ensure consistency with the Legacy Plan. The architectural 
design, site improvements, and security enhancements are progressing 
with sensitivity to the residential areas to the north and east, 
monumental buildings to north and west, and the industrial/commercial 
buildings to the south. The 65 percent design cost estimate for the WRP 
Expansion (including building expansion, 12,000 tons of chiller 
capacity installation, pumping auxiliaries, cooling towers, controls, 
architectural treatment, site improvements and security enhancement) is 
$69,200,000, which will be reflected in the 2003 budget request. Future 
budget requests planned for additional chiller capacity in 6,000 ton 
increments are $8,000,000 in fiscal year 2006, $9,200,000 in fiscal 
year 2008 and $8,200,000 in fiscal year 2010. It is critical that this 
project stay on schedule to meet the load demand of the Capitol 
complex.

          APPENDIX G--FINANCIAL MANAGEMENT SYSTEM IMPROVEMENTS

                          I. EXECUTIVE SUMMARY

    The Architect of the Capitol (AOC) has initiated a project to 
implement a new financial management system and to integrate the system 
with other AOC program and administrative systems. The project is 
referred to as the Financial Management System (FMS) Project. The 
successful implementation of FMS is a critical goal for the AOC. The 
new system will provide the AOC with a financial system that is 
auditable, accurate, timely, compliant with federal standards, and 
easily integrated with other systems. In order to lower the risk of 
implementing a new financial system, the FMS implementation will be 
performed in a phased approach. FMS will be implemented in five phases 
as follows:

------------------------------------------------------------------------
Phase                                                         Funding
 No.           Description            Production Date      Requirements
------------------------------------------------------------------------
   1Implement the General        10/1/2000............  \1\ $1,200,000
     Ledger
   2Implement the Budget         03/1/2002............   \1\ 1,475,000
     Execution, Purchasing,                              \2\ 1,356,000
     Accounts Payable and
     Disbursement modules
   3Implement the Contracting    10/1/2002............     \2\ 720,000
     Procurement system
   4Implement the Fixed Assets   10/1/2003............     \2\ 671,000
     module
   5Implement an Inventory       10/1/2003............     \3\ 972,000
     System
------------------------------------------------------------------------
    \1\ Funded.
    \2\ Unfunded.
    \3\ Unfunded (estimate).

    Phase 1 of the FMS project was successfully implemented on schedule 
and within budget on October 1, 2000. Phase 1 implemented the Standard 
General Ledger for the AOC. The AOC is currently working towards the 
implementation of Phase 2 which is scheduled for production operations 
of March 1, 2002. Phase 2 will implement the remaining modules of the 
base system and eliminate all modules of the old system (CAS) except 
for the inventory module.
    A staff of five systems accountants was hired to implement FMS. 
This is the absolute minimum staff required to implement FMS over a 
multi-year period in a phased approach. The implementation of phase 1 
has also resulted in the hiring of two additional accountants in the 
Accounting Office to maintain the general ledger. As additional phases 
of FMS are implemented, the AOC will need to address additional 
staffing requirements.

                            II. INTRODUCTION

    The AOC is pursuing the upgrading and integration of information 
systems and business practices in order to provide a business 
environment that provides timely access to reliable information. 
Currently, most of the AOC's various systems do not share information 
or common data definitions. The implementation of a new Financial 
Management System (FMS) and the integration of other systems with FMS 
will be a major step towards AOC's system integration goal. The FMS 
implementation will also lead to the AOC's first preparation and audit 
of financial statements. These goals are fully consistent with the 
Vision Statement of the Legislative Branch Financial Manager's Council, 
which the agency has adopted. Currently the AOC has implemented the 
Standard General Ledger of FMS and is in process of implementing 
additional modules.
    The successful implementation of FMS is a critical goal for the 
AOC. The new system will provide the AOC with a financial system that 
is timely, accurate, compliant with Federal standards, and easily 
integrated with other systems. AOC requires a system that is compliant 
with federal standards in order to meet the goal of passing a financial 
audit conducted under federal auditing guidelines. A modern system that 
is easily integrated with other systems is required for AOC to be able 
to integrate financial data with the facilities management system 
(CAFM), the Project Information Center system (PIC) and Human Resource 
Systems. The AOC requires more up-to-date and accurate information in 
order to better manage its resources and to be fully accountable to 
Congress regarding expenditure of appropriated funds.
    The new Financial Management System is being implemented in phases. 
The first phase implemented the Standard General Ledger on October 1, 
2000. The second phase is currently underway and will include the 
implementation of the budget execution, purchasing, accounts payable, 
and disbursement modules of the new system and will phase out most of 
the old system. Subsequent phases will include the implementation of a 
contracting procurement module, the implementation of a fixed asset 
module, the implementation of a new Inventory system and the 
integration of the facility management system (CAFM). The human 
resources system will also be enhanced to provide the financial system 
with more detailed labor information for performing cost accounting.
    In order to ensure all the proper steps are taken in the 
implementation of a new system, and to ensure continued support from 
top management, the AOC has organized a steering committee made up of 
executives from various AOC user groups and financial system executives 
from GAO, the LOC and other Legislative Branch agencies. The purpose of 
the committee is to provide advice and feedback regarding the 
implementation of a new financial management system and to provide a 
forum for addressing high level project issues. An internal FMS 
Steering Committee has also been organized to resolve lower level 
issues.
    The Legislative Branch Financial Manager's Council (LBFMC) is 
currently pursuing an initiative to have all Legislative Branch 
agencies eventually implement the same financial management software. 
The AOC's phased approach to implementing FMS through a cross-servicing 
arrangement with another Federal agency is consistent with this LBFMC 
initiative. In addition, the AOC participated in the LBFMC Concept of 
Operations Study and is prepared to participate in the documentation of 
the requirements.
    Pending approval of fiscal year 2002 funding, a pro forma audit of 
the fiscal year 2002 financial statements will be performed. A pro 
forma audit evaluates the sufficiency of the financial statements 
without issuing a formal audit opinion and without performing an in-
depth review of the detailed transactions that make up the balances. 
The pro forma audit will prepare the AOC for the full audit that is 
expected to be performed for fiscal year 2003 (ending Sept. 30, 2003). 
Since the new financial management system is being implemented in a 
phased approach, this is the soonest a full audit will be feasible. 
Funding for a full audit will be requested for fiscal year 2003.
    Implementing a new financial system requires the hiring of 
additional staff that are qualified to perform the new functions being 
provided with the new system. A staff of five systems accountants were 
hired to perform the implementation. The implementation of the general 
ledger in Phase 1 required the Accounting office to hire two additional 
accountants to maintain the general ledger. As the AOC continues 
implementing FMS, additional staffing requirements will need to be 
addressed.

                III. ACCOMPLISHMENTS OVER THE PAST YEAR

Hired staff and organized the Financial Management Systems Office
    The FMS Office currently consists of four Systems Accountants and 
one Supervisory Systems Accountant. This is the absolute minimum number 
of staff required to perform the FMS implementation over a multi-year 
phased approach. A vacancy announcement is currently pending for the 
hiring of an Accounting Technician to assist in data entry and 
reporting tasks.

Implemented Phase 1 of the FMS project
    Phase 1 of the FMS project was successfully implemented on schedule 
and within budget on October 1, 2000. Phase 1 implemented the Standard 
General Ledger for the AOC. Interfaces were developed with the Computer 
Applications Specialists (CAS) accounting system and the NFC payroll 
system. All transactions that occur in these two systems update the FMS 
general ledger on a daily basis. The AOC can now issue financial 
statements in accordance with Standard General Ledger guidelines.
    The implementation of Phase 1 required the Accounting Division to 
pursue the hiring of two additional accountants to maintain the general 
ledger and perform reconciliations. The vacancy announcements have been 
issued and staff members are expected to be hired by May, 2002.

Maintained Production FMS
    The FMS Office successfully maintained the new financial system 
from October 1, 2000 to present, by processing the daily interfaces, 
performing reconciliations, issuing monthly Status of Funds reports, 
preparing ad-hoc reports, and providing support to end users.

Began Phase 2 of the FMS Implementation
    Phase 2 of the FMS project began on October 1, 2000. This phase 
includes the implementation of budget, procurement, receiving, accounts 
payable and disbursement processes in FMS. It also includes an 
interface with the Project Information Center (PIC) system and an 
interface with the CAS inventory system. Phase 2 is currently on 
schedule to begin production operations on March 1, 2002, however it is 
only funded through September 30, 2001. The successful implementation 
of Phase 2 is dependent on receiving sufficient fiscal year 2002 
funding.

             IV. UPCOMING FINANCIAL MANAGEMENT INITIATIVES

Complete the Implementation of Phase 2 of the Financial Management 
        System (FMS)
    Phase 2 is the implementation of the Budget, Purchasing, Accounts 
Payable and Disbursement subsystems of FMS. This phase is currently in 
process. The following tasks will be performed to complete the 
implementation of Phase 2 of FMS:
  --Complete the documentation of user requirements for the 
        procurement, accounting, budgeting and jurisdiction offices
  --Determine the system configuration to meet user requirements
  --Perform a pilot test of the configured system
  --Develop an interface with the Project Information Center (PIC) 
        System
  --Develop an interface with the CAS inventory system
  --Set-up software on PC's for up to 200 users
  --Develop software to convert open obligation data at the detail 
        level
  --Develop end-user reports
  --Develop end-user data entry procedures
  --Train system users and provide production user support.
    Phase 2 is funded through September 2001. The successful 
implementation of Phase 2 on March 1, 2002 is dependent on receiving 
sufficient fiscal year 2002 funding.
    The implementation of Phase 2 is expected to increase workloads in 
the jurisdictions and their staffing requirements. In order to be able 
to take advantage of the new functions being implemented with FMS and 
to keep the data accurate, the right people are needed in the right 
places.

Continue Maintenance of Production FMS
    The FMS Office will continue to maintain the new financial system 
for Phase 1 by processing the daily interfaces, performing 
reconciliations, issuing monthly Status of Funds reports' preparing ad-
hoc reports, and providing support to end users. An annual close for 
fiscal year 2001 will be performed in October 2001. On March 1, 2002, 
the FMS Office will begin maintaining FMS for Phase 2 which includes 
supporting up to 200 new users across all AOC jurisdictions. This also 
will require the FMS office to keep a training plan in place to 
continue to train new users on the system.

Begin Phase 3 of the FMS project--Implementation of a Contracting 
        Procurement module
    Phase 3 will implement the AMS Procurement Desktop (PD) software 
package. Procurement Desktop is a stand-alone procurement system that 
interfaces with the FMS system. The AOC will use the PD package to 
perform contracting activities. The workload in the contracting office 
has increased significantly because of the contracting out of more 
construction projects. Implementing PD will allow the contracting 
office to perform contracting activities more timely and efficiently. 
PD provides robust functionality for keeping track of solicitations, 
contracts, and contract amendments. It provides functionality to allow 
the AOC to load all contract clauses and pick and choose the proper 
clauses for each contract. It also produces the standard federal 
government contract forms. Activities to implement Phase 3 will begin 
in January, 2002 with a production date scheduled for October 1, 2002. 
The implementation of Phase 3 is dependent on receiving sufficient 
fiscal year 2002 funding.

Begin Additional Phases of the FMS Implementation
    Depending on the receipt of sufficient funding for fiscal year 
2003, and the outcome of the LBFMC ``common system'' initiative, the 

FMS phased implementation will proceed as follows:

            Phase 4 Implementation of a Fixed Asset module
    Phase 4 will implement the Fixed Assets module. With the 
implementation of Phase 4 the AOC will have automated records of its 
fixed assets and will be able to record automated depreciation entries 
in the general ledger. Proper accounting of fixed assets is required to 
receive an unqualified audit opinion. Phase 4 is expected to begin 
production operations on October, 2003. The implementation of Phase 4 
is dependent on receiving sufficient fiscal year 2003 funding.
    Phase 4 is expected to increase staffing requirements in order for 
the AOC to properly maintain the fixed asset records.

            Phase 5 Implementation of a new Inventory System
    Phase 5 will implement a new Inventory system that interfaces with 
the core accounting system. The current inventory system needs to be 
replaced because it cannot effectively interface with FMS real-time, 
and it is lacking some basic inventory functionality. A modern, off-
the-shelf, stand-alone inventory product that meets all of the AOC's 
basic inventory needs will be procured and integrated with FMS. With 
the implementation of Phase 5, the AOC will completely eliminate the 
CAS system. Phase 5 is tentatively scheduled for production operations 
on October 1, 2003. The implementation of Phase 5 is dependent on 
receiving sufficient fiscal year 2003 funding.
    In order to properly implement the new inventory system, a Business 
Process Re-engineering analysis needs to be performed. The current 
inventory process needs to be studied and improved prior to 
implementing the new system.
    Phase 5 is expected to increase staffing requirements in order for 
the AOC to properly maintain the inventory records.

            Subsequent Phase--Integration of FMS with the CAFM system
    In order to gather costing data for strategic decision making, CAFM 
will need to receive cost data from FMS related to work orders. It is 
expected that FMS will provide CAFM with inventory costs and labor 
costs by work order. In order for FMS to provide this information, the 
Time and Attendance system and the Inventory system (which will feed 
the data to FMS) need to be enhanced or replaced to allow the entry of 
work order numbers in the originating systems.

            Subsequent Phase--Implementation of a new Time &amp; Attendance 
                    System
    The AOC currently uses the USDA NFC Payroll/Personnel system. The 
time and attendance data is recorded through the NFC's PC-Tare system. 
A new or enhanced Time &amp; Attendance system is required for the AOC to 
record project data and work order data on a daily basis for labor. 
This will eliminate several ``cuff'' systems that track daily labor and 
allow the accumulation of work order cost data in FMS.

             V. FINANCIAL MANAGEMENT SYSTEM BUDGET ANALYSIS


                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal year--
                                                         ------------------------------------------------  Total
                                                           1998    1999    2000    2001    2002    2003
----------------------------------------------------------------------------------------------------------------
Pre FMS.................................................     600  ......  ......  ......  ......  ......     600
FMS Phase 1--General Ledger.............................      50     650     500  ......  ......  ......   1,200
FMS Phase 2--Budget, Purchasing, A/P, Disb..............  ......  ......  ......   1,475   1,356  ......    2,83
FMS Phase 3--Contracting................................  ......  ......  ......  ......     720  ......     720
FMS Phase 4--Fixed Assets...............................  ......  ......  ......  ......  ......     671     671
FMS Phase 5--Inventory..................................  ......  ......  ......  ......  ......     972     972
                                                         -------------------------------------------------------
      Total.............................................     650     650     500   1,475   2,076   1,643   6,994
----------------------------------------------------------------------------------------------------------------

    Scope of Project.--The FMS system will be performed in five phases. 
Phase 1 (funded) will implement the General Ledger module. Phase 2 
(fiscal year 2001 and fiscal year 2002 funding) will implement the 
Budget Execution, Purchasing, Accounts Payable, Disbursements, modules 
and Itemized Purchasing module. Phase 3 (fiscal year 2002 funding) will 
implement the Procurement Desktop system. Phase 4 (fiscal year 2003 
funding) will implement the Fixed Assets module. Phase 5 (fiscal year 
2003 funding) will implement a new Inventory system. Note: Phases 4 and 
5 are dependent on the outcome of the Legislative Branch Financial 
Managers Council (LBFMC) initiative to perform a shared procurement of 
a Legislative Branch financial management system.
    Basis of Estimate.--Estimates include initial software license 
fees, initial hardware fees, and contractor implementation support 
fees. The estimates for Phases 1-4 are based on estimates from the 
Department of Interior (DOI) (cross-servicing agency). The DOI 
estimates were compared to in-house developed estimates and determined 
to be reasonable and accurate for the software fees and support 
required to implement the FMS software and the Procurement Desktop 
software. The estimate for Phase 5 is based only on an in-house 
estimate since the software package to be implemented has not been 
identified at this point. The above estimates do not include costs for 
integrating FMS with the Facilities Management System (CAFM) or the 
cost of implementing a new Time &amp; Attendance system. The cost for the 
FMS/CAFM integration and a new Time &amp; Attendance system may be included 
in a future funding request, once the integration requirements have 
been determined and refined. Also not included in the estimates are the 
recurring operational costs such as software license maintenance fees, 
cross-servicing hardware fees, and contractor technical and functional 
production support. The recurring costs will be included in the Annual 
Operating Budget request.

        APPENDIX H--COMPUTER AIDED FACILITIES MANAGEMENT (CAFM)

                          I. EXECUTIVE SUMMARY

    The Computer Aided Facilities Management system (CAFM) is a five-
year initiative to modernize and establish stronger and more pro-active 
facilities management capabilities using industry standards and 
software. Within the AOC community, CAFM is phasing in several modules 
of traditional industry defined computer aided facilities management 
operations. The CAFM initiative establishes standards for demand 
maintenance/work order processing and preventive maintenance while also 
providing an automated and systematic vehicle for facilities 
management. The AOC CAFM system will assist in establishing both bench 
marking and Executive Information System (EIS) reports to facilitate 
management decisions to better support the needs of Congress. The four 
priorities established by the CAFM Steering Committee called for the 
implementation of the Demand Work Order Module; Facility Projects 
(which has been renamed Work Order Linkage Initiative, or WOLI); the 
Preventive Maintenance Module; and establishing a cost avoidance, 
benefits and savings methodology for the House of Representatives 
Subcommittee on Appropriations. Three of the four priorities have been 
completed. Current fiscal year 2002 initiatives plan for the deployment 
of several areas of Preventive Maintenance within the AOC which 
includes the following: planned/scheduled maintenance; building 
commissioning; fire extinguisher inspection; and facility condition 
assessment.

                II. CAFM INITIATIVES AND ACCOMPLISHMENTS

Fiscal Year 1998
    Procured and installed PC/printer hardware along with SPAN-FM 
software.
    Established a Standards Committee to establish work management 
standards for the demand work order module of CAFM.
    Completed deployment of the demand work order module to the 
following jurisdictions: Senate, Capitol, House, Supreme Court, and the 
Library of Congress.

Fiscal Year 1999
    Completed deployment of the demand work order module to EED, 
Capitol Grounds, High Voltage.
    Implemented custom MS Access reports for demand work order and 
space management.
    Started reviewing requirements for Preventive Maintenance and 
establish PM pilot for Senate, Capitol, and House A/C shops.
    Initiated discussions to interface with FMS for material 
accountability.
    Completed and received approval of a CAFM cost methodology which 
identified key performance indicators in support of the House IG 
request for methodology.

Fiscal Year 2000
    Completed deployment of the demand work order module to Botanic 
Gardens.
    In process of rolling out the Work Order Linkage Initiative (WOLI) 
to all jurisdictions.
    Converted MS Access reports into Brio One software--this package 
was selected as the report writer tool of choice by the IRM and the 
CAFM user communities.
    Testing of new CAFM software and hardware on-going for system 
upgrade and migration.

Fiscal Year 2001
    Power Plant implemented on the demand work order module--All 
jurisdictions up and running on demand work order module
    WOLI deployment completed.
    CAFM Newsletter developed to aid in the dissemination of CAFM news 
to the user community.
    CAFM Web site development--Static page with general information 
awaiting approval and hosting--dynamic link to be developed to provide 
a feed back mechanism to the CAFM community, Superintendents, and AOC 
decision makers.
    Initiate Botanic Garden Building Commissioning.
    Initiate Capitol Life Safety Planned Maintenance Initiative.
    Initiate CAFM EIS and Web Portal.
                    iii. fiscal year 2002 work plan
    Continued CAFM support
  --Demand work order
  --Bench marking
  --Work Order Linkage Initiative
  --Preventive Maintenance
  --Life Safety Planned Maintenance
    Planned Maintenance
  --Senate
  --House
  --Capitol
  --Power Plant
  --Library of Congress
  --Supreme Court
    Materials Management
    PM Materials Catalog
    Interfaces
  --FMS
    Facility Condition Assessment AOC Wide

           IV. SUMMARY OF FISCAL YEAR 2002 CAFM BUDGET ITEMS

Communications Initiative
    Facility Management (FM) Web Portal.--The FM Portal will provide 
the ``front door'' for AOC FM services and operations to internal and 
external customers, employees and AOC management. In 2002 the plan is 
to survey and catalog existing resources and then begin to define the 
scope, content, technology infrastructure, management and support 
model. Cost $25,000.
    EIS Reporting Tools.--In 2002 AOC management will continue to 
define, develop and deploy a mix of query, analysis and reporting tools 
which examine several mission-critical systems for operational, 
financial, human and material resource utilization in the organization. 
Cost $50,000.

Facility Life Cycle Initiative
    Facility Information Commissioning.--Building on work started in 
the Botanic Gardens Conservatory Remodeling during 2001, information 
commissioning principles will be incorporated into standard 
specifications issued by the AOC and will provide orientation and 
training for management in AOC technical and professional services 
departments. This work will be coordinated with planned remodeling and 
new construction projects in order to maximize benefits to the AOC. 
Cost $50,000.
    Asset Inventory and Preventive Maintenance.--Collection of capital 
asset and maintained asset information into the CAFM system and 
development of a CMMS-based preventive maintenance program is one of 
the highest priorities of the AOC. In 2002 the AOC will move beyond the 
infrastructure and standards-development stages and will implement 
computer-based asset management and PM for a significant portion of its 
facilities. However, the extent of its progress is dependent on 
individual jurisdictions funding professional engineering services to 
collect asset information and define appropriate maintenance procedures 
and schedules.
    Jurisdictions should allocate a total of approximately $1,500,000 
for professional engineering services for this effort.
    CAFM consulting cost in support of asset inventory and PM is 
$300,000.
    Facility Condition Assessment.--Facility Condition Assessment (FCA) 
services provide both a comprehensive conditions audit and plant 
capital renewal analysis which support both strategic capital planning 
and tactical operations budgeting. AOC has adopted FCA principles and 
is beginning to implement FCA projects in order to enhance 
significantly its ability to provide best-in-class management of 
congressional facilities.
    Jurisdictions should allocate a total of approximately $820,000 for 
professional engineering services for this effort.
    CAFM consulting cost in support of FCA is $100,000 for fiscal year 
2002.
    Life Safety and Code Compliance.--Through asset management, 
preventive maintenance procedures and scheduling, the CAFM system is 
well suited to support record-keeping and regular inspection tasks 
associated with compliance requirements. In 2002 AOC will continue to 
expand use of the CAFM system in this role throughout its many 
facilities. Cost $150,000.
    CAFM Time sheets.--Building on the discovery and analysis 
activities programmed for 2001, the AOC may begin to implement unified 
time collection. Cost $25,000.
    The CAFM budget requirement for fiscal year 2002 is $700,000. This 
funding is essential to the continued deployment of a computer based 
facility management system which will better capture the true work load 
of work performed in all of the AOC jurisdictions. With the demand work 
order system fully operational, we have visibility of approximately 10 
percent of all work performed AOC wide. With the deployment of the 
preventive maintenance module, CAFM will be able to capture the 
outstanding 80 percent of work. Once the majority of work is captured 
via CAFM, the information can be formatted via reports and the 
Executive Information System to make solid management decisions about 
resources, materials and schedules.

               APPENDIX I--PROJECT MANAGEMENT INITIATIVES

                          I. EXECUTIVE SUMMARY

    The project planning and delivery processes and organization of the 
Architect of the Capitol (AOC) have been under review by independent 
consulting firms. The purposes have been to streamline the processes 
and staff organization as appropriate based upon ``best practices'' 
drawn from the AOC and industry.
    Although the general findings of three separate studies indicated 
that the organization of the AOC and project operations and output are 
effective, several recommendations for improvement have been accepted 
and are being implemented. AOC project managers are now assigned for 
the life of a project, from early scope definition through design, 
construction and early occupancy. AOC standards and guidelines have 
been vastly improved and initial versions of new AOC manuals have been 
published. These address design standards, performance requirements for 
design consultants, and best practices for AOC project managers. The 
use of external design consultants and creative construction 
contracting methods has expanded. A long-term project planning process 
has been launched along with an enhanced project tracking system.
    These and other related initiatives to enhance, consolidate and 
streamline project delivery processes and tools will continue 
throughout 2001 and beyond. They are considered imperative in light of 
the increasing workload required of the AOC staff in preserving and 
enhancing the facilities and infrastructure of the Capitol complex. 
Best practices will be applied to a series of ``pilot'' projects--real 
projects of the AOC such as the Capitol Visitor Center and fire safety 
improvements, which will benefit greatly as a result. Additional 
professional staff will be required to serve as able project managers 
and to function in the new project planning office that will result in 
a greater AOC and client understanding of long range needs, the more 
orderly prioritization of work, and better definition of project scope, 
budget and schedule, agreed to by clients and the AOC prior to the 
commencement of the design process.

   II. INITIAL STUDY FINDINGS AND RECOMMENDATIONS, AND AOC RESPONSES

    The organization of the AOC and project operations and output were 
found to be functioning effectively, especially with respect to quick 
response functions of jurisdictional superintendents. A substantial 
number of ``best practice'' processes and tools were found within all 
divisions of the AOC and especially the design and construction units. 
Capable employees were found at all levels in the AOC--employees who 
are passionate stewards of the historic buildings in the Capitol 
Complex and anxious to improve their abilities to do their jobs.
    Recommendations for improvements related to project identification, 
planning, scope determination, design, procurement and construction. 
The studies concluded that there were many actions that should be taken 
by the AOC top and middle management to enhance, consolidate, and 
streamline the project delivery processes and tools then in use. The 
following were the principal findings and corrective actions 
recommended to the AOC, with AOC responses to date in italics:
    Establish a Formal Long Range Planning System.--The AOC should 
establish a planning operation to manage the development and cyclical 
review of long range (10 years or more), mid-range (5 year) and 
immediate (1 to 2 year) project plans based upon continuous input from 
clients and AOC line staff and technical experts representing all 
architectural and engineering disciplines and other interests such as 
life safety and security. Project definition should be improved with 
more thorough programming. Documentation of scope and budget to reduce 
``scope creep'' should be initiated at project conception.
    The AOC has established the criteria and process for planning as 
well as a related project database with standardized project 
descriptions and categorizations to allow for the sorting and 
consolidation of project data in ways that will enable prioritization 
and enhance decision-making by AOC officials and clients. The long-
range plans will be generated first by building system and component, 
then integrated by building, then jurisdiction, and finally AOC-wide. 
The AOC will manage the planning process and clients will establish and 
modify priorities as appropriate in the process of assessing the impact 
of unanticipated new work and emergency projects on the established 
long and short range plans. The five-year AOC Capital Budget and annual 
budget submissions will be products of this planning process. A new 
core planning staff will have to be established with skills appropriate 
to long-range planning and the preparation of project programs and 
scopes of work.
    Clarify Project Responsibility and Accountability.--An AOC Project 
Manager should be assigned for the life of a project, from early scope 
definition through design, construction and occupancy. For purposes of 
project progress reporting, the Project Manager should report through a 
Program Director to the Assistant Architect of the Capitol (AAOC).
    This has been effected and all project managers assigned during the 
past year were given responsibility for the life of the project. 
Program Directors have been identified. Through these directors and the 
AAOC, project progress has begun to be monitored more effectively, 
leading to more timely actions to resolve problems. New AOC Project 
Manager and Construction Manager Manuals have been developed and 
coordinated with each other, to define the relationships of design 
professionals and construction management staff during construction 
administration phases. Standard tools have been developed to support 
the relationships and standard benchmarks for decisions established. In 
the autumn of 2000, a comprehensive training program was launched to 
explain the new project management responsibilities, methods and tools. 
The best forms and tools from within the agency were collected, 
consolidated and the best made mandatory for staff use. These were 
demonstrated during the training program.
    Improve Project Management Control Systems.--The existing project 
tracking system should be upgraded, the interface improved, proper data 
types tracked to support management functions, and clear lines of 
authority established. The Project Manager should be assigned 
responsibility for maintaining the data on his or her project. Enhanced 
linkages to standards, guidelines, and drawings should be incorporated 
into the new interface.
    A new project tracking system has been designed and implemented. 
The Project Information Center (PIC) is web-based and supports the 
project manager in schedule, scope and budget definition and tracking 
throughout the life of a project. The system is designed to provide 
early reporting of ``out-of-range'' projects and to provide earliest 
notice of impending procurement and construction actions to the 
affected AOC divisions. The new system provides real-time status of 
projects to managers and Superintendents. Custom report formats are 
being designed to draw specific information from the extensive project 
data to suit planning, budget, management, Superintendent and support 
functions, without necessitating conversions to spreadsheets or other 
formats for analysis. This system is in use and is subject to 
continuing improvements.
    Enhance Client Perspective.--Client involvement and approval 
systems should be improved. Firm schedules with due dates and 
milestones should be required within new tracking systems. Leveraging 
the knowledge of the various Superintendents' offices should be 
institutionalized during project initiation processes.
    The Superintendents' strong, front-line relationship with clients 
is widely understood and appreciated, and will be more prominently 
recognized and used to the advantage of all parties in the project 
planning, scoping, design and construction processes. The 
Superintendents and their knowledgeable staff have been given 
additional responsibility for meeting with any client who has requested 
assistance, preparing an initial statement of scope, and determining if 
the client's needs can be satisfied by the issuance of a work order to 
the Superintendent's work forces or if an AOC-wide team needs to be 
assigned to address the client needs as a full project requiring 
further scope definition, design and construction. In either the work 
order or the project delivery process, the Superintendent will remain 
fully involved with the work and with client communication.
    Optimize In-House Design and Construction Supervision.--The AOC 
professional staff members should leverage their time by enforcing new 
published standards and delivery requirements, and by applying their 
institutional knowledge to those areas that are difficult to delineate 
in manuals. This will overcome the tendency of AOC Project Managers, 
acting as stewards of the historic buildings with substantial 
institutional knowledge, to perform too much of the project quality 
control for consulting architects and engineers during design phases, 
by both noting design deficiencies and resolving the problems noted 
rather than allowing consultants to properly resolve such design 
issues.
    AOC project managers have been directed to enforce these new 
standards. Requirements for pre-reviews of consultant submissions by 
project managers will optimize the review efforts by AOC staff. The AOC 
has classified all projects as large, medium or small, and provided 
project managers with guidance as to the design and review phasing and 
deliverables appropriate for each size of project. All projects do not 
require the same number of design stages or the same deliverables for 
review or at project completion. By classifying projects by size and 
complexity during the programming phase, both consultant and AOC staff 
time can be better directed to work appropriate for the project at hand 
as opposed to simply fulfilling requirements for a typical large 
project. The AOC has literally hundreds of small projects, dozens of 
medium sized projects, and a limited number of large projects each 
year. Large projects typically extend through several funding cycles. 
The multiple stages of design and review of the work while bidding 
documents are being prepared are not required for the hundreds of small 
projects that involve room or suite renovations or restorations of 
hearing room rostrums, for example. Classifying project size has also 
begun to reduce the number of meetings held, travel required, reviews 
conducted, and general paperwork involved. Newly-developed standard 
review comment forms and ``Action-Log'' type meeting minutes formats 
have been provided to project managers. Now in use, these streamline 
the process of consolidating discipline comments and highlighting 
needed responses.
    Enhance Consultant Utilization.--The AOC should use consultants 
more comprehensively during the construction phase. Initial consultant 
agreements should encompass enhanced construction administration duties 
to ensure that consultants understand that they will be responsible for 
overseeing the execution of the work that they design--thus encouraging 
the production of better construction documents. AOC requirements 
related to project delivery should be better defined, published and 
disseminated in the form of guidelines, manuals, checklists, and 
electronic tools and systems.
    The AOC has begun to expand its use of external design consultants. 
This means an increase in the use of ``indefinite delivery, indefinite 
quantity'' (IDIQ) professional services contracts and possibly other 
creative architect and engineer selection procedures that are also fair 
and competitive on the basis of professional qualifications. The 
consultants are being assigned to a greater share of responsibility 
during the construction administration phase, which is a substantial 
change in AOC practice.
    Enhance Construction Delivery Methods.--The AOC should continue to 
expand its options for construction delivery to ensure the most 
balanced and efficient use of AOC staff and the timely completion of 
work with minimum disturbance to building occupants and visitors. The 
options will supplement the traditional and dependable quick-response 
teams and maintenance shops of the Superintendents. Additionally, 
construction documents should be reviewed and coordinated against 
refined agency checklists to help reduce document errors. Beyond these 
traditional options, the use of newer Solution Order Contracting (SOC) 
and Job Order Contracting (JOC) methods, should be enhanced.
    The AOC has begun to use SOC contracts with success. For the first 
time the AOC has contracted with an external Construction Manager to 
direct the massive Capitol Visitor Center project and is in the process 
of adding another to direct the significant renovation of the U.S. 
Supreme Court Building. New guidelines and standards have been 
published. Together with new standard forms and tools that have been 
set forth, the AOC is expecting improvement in construction documents 
produced by consultants.

                          III. PILOT PROJECTS

    Best practices are being applied to several important projects of 
the AOC. The continued involvement of consultants in assisting the 
management teams for these projects is beneficial to the projects and 
useful in sustaining momentum toward positive change in the agency and 
especially among the ranks of project managers. The pilots include the 
Renovation of the Conservatory of the United States Botanic Garden, the 
Infrastructure Modifications at the Rayburn House Office Building, the 
Renovation of the Page Dormitory at 501 First Street, and the design 
and construction of the Capitol Visitor Center. Also included are more 
comprehensive master plans for the design and construction of fire 
safety measures throughout the Capitol complex, infrastructure 
modernizations throughout the United States Capitol, and similar 
modernizations in the U.S. Supreme Court Building.

                   APPENDIX J--BUDGET REQUEST SUMMARY

                           EXECUTIVE SUMMARY

    The Architect of the Capitol's fiscal year 2002 budget request is 
$298,957,000. It consists of an operating request of $196,356,000 and a 
capital request of $102,601,000. The full-time equivalent (FTE) 
positions remain the same at 2,012. However, funding is requested to 
fill 48 unfunded positions. The attached graph ``Fiscal Year 2002 
Operating and Capital Budget by Categories'' breaks out the operating 
and capital request by significant categories. The graph ``Fiscal Year 
2002 Operating and Capital Budget'' reflects the history of the 
Architect of the Capitol's budget since fiscal year 1994.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;

                        OPERATING BUDGET REQUEST

    The operating budget request includes an $25,749,000 or 15.1 
percent increase. Thirty-four percent, or $8,753,000 of the increase, 
is due to mandated pay and benefits costs. Fifty percent, or 
$12,905,000 of the increase, is related to work load increases and 
includes $3,446,000 for 48 unfunded positions, $523,000 for project 
delivery, $968,000 for fire and life safety, $860,000 for information 
resources management, $154,000 for financial management, $364,000 for 
energy management, $285,000 for operations, and $292,000 for reopening 
the Botanic Garden. Price level adjustments account for 20 percent, or 
$5,141,000, of the increase and are primarily related to fuel costs. A 
four percent reduction occurred due to the project election year moves 
being removed from the base as nonrecurring.
    Over the past year the AOC has undertaken a review of the agency's 
operations and is in the process of reengineering. As displayed in the 
attached graph ``Full-time Equivalent Employment Budget'' staffing has 
been reduced by more than 16 percent or almost 400 positions since 
1992. During the same period workload has increased, especially in the 
areas of life safety, security initiatives and project oversight. It is 
important to recognize that we have reached the saturation point where 
the amount of work to be done in several areas has taxed our staff 
capacities to the fullest extent. This budget includes requested 
increases for staff in several critical areas. Funding is requested for 
13 positions in the Life Safety Division, 7 positions for project 
delivery, 10 for information resources management and support, 2 
accountants for financial management, 5 for energy management, 5 
positions for general operations at the Capitol Power Plant and Library 
of Congress mainly to supplement the trades staff, and 6 positions for 
the Botanic Garden to support the reopening of the newly renovated 
Conservatory.

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    An increase of $3,517,000 is requested for the Information 
Resources Management Division. As the agency becomes more dependent on 
automated systems in the areas of financial management, and facilities 
maintenance it is critical that the hardware and software resources 
needed to support these systems are available.
    An increase of $362,000 is requested for life safety operations and 
maintenance. These resources are required to provide compliant safety 
and environmental programs and to be proactive in all matters that 
involve fire and life safety, employee safeguards, environmental 
monitoring, and discharge of potentially dangerous materials.
    An increase of $400,000 is requested to support the operation of 
the new financial management system including an ``audit'' of pro forma 
financial statements. Funding of $1,136,000 has been requested in the 
Botanic Garden related to the operation of the newly renovated 
Conservatory.
    Funding of $684,000 has been requested in the Senate Office 
Buildings to continue the lease at Postal Square. Additional funding of 
$210,000 has been requested in the House Office Buildings for fixture 
relamping and also in the Library of Congress for the same purpose at a 
cost of $370,000.
    Based on projections from the Department of Energy a net increase 
of $4,258,000 has been requested to cover rising costs of natural gas, 
fuel oil and water sewer services for the Capitol Power Plant. Other 
price level increases totaling $199,000 have been requested throughout 
the agency.
    The following table indicates operating budget request by 
appropriation.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                          Appropriation                                2001            2002           Change
----------------------------------------------------------------------------------------------------------------
Capitol Buildings...............................................     $39,346,000     $49,139,000     +$9,793,000
Capitol Grounds.................................................       5,127,000       5,878,000        +751,000
Senate Office Buildings.........................................      42,155,000      45,527,000      +3,372,000
House Office Buildings..........................................      32,177,000      34,259,000      +2,082,000
Capitol Power Plant.............................................      38,581,000      45,824,000      +7,243,000
Library Buildings &amp; Grounds.....................................       9,925,000      11,297,000      +1,372,000
Botanic Garden..................................................       3,296,000       4,432,000      +1,136,000
                                                                 -----------------------------------------------
      Total.....................................................     170,607,000     196,356,000     +25,749,000
----------------------------------------------------------------------------------------------------------------

                         CAPITAL BUDGET REQUEST

    The capital budget request is $102,601,000. This is an increase of 
$68,139,000 or 197.7 percent over fiscal year 2001.
    The fiscal year 2002 capital budget request flows from the five-
year capital budget initiative undertaken by the agency. It is grounded 
in a comprehensive and systematic agency-wide planning effort with in-
depth involvement by all of the agency's clients. On the House side, we 
included the Sergeant at Arms, the Chief Administrative Officer and the 
Clerk of the House. On the Senate side we included the Sergeant at Arms 
and the Secretary of the Senate. The U.S. Capitol Police provided a 
detailed outline of their needs, and the Librarian of Congress was also 
extensively involved. During the development process more than 440 
projects were reviewed. Of that number, funding is requested for 115 
projects in fiscal year 2002. Funding requests are projected over the 
next four years for an additional 392 projects.
    Construction funding has only been requested in fiscal year 2002 
for those projects that have been completely designed. Because of the 
agency's current workload, only the most critical projects have been 
requested in fiscal year 2002. The five-year capital budget is 
projecting requests in the fiscal years 2003 through 2006 as follows:

        Fiscal year                                               Amount

2003....................................................    $197,915,000
2004....................................................     181,641,000
2005....................................................     281,937,000
2006....................................................     141,576,000

    All the projects associated with future requests will be reviewed 
and reprioritized before being included in a current fiscal year 
request. However, the magnitude of the future capital project needs is 
evident from this table.
    Attached is a graph ``Fiscal Year 2002 Capital Requests by 
Category'' and a table ``Fiscal Year 2002 Budget Request by Category'' 
that breaks out the amount, number of projects and the percentage of 
each by category. Three projects account for more than 48 percent of 
the request. Those projects are the Capitol Dome ($42,500,000), the 
Library of Congress new Audio Visual Conservation Center at Culpeper, 
Virginia ($5,000,000), and a new Off-Site Delivery/Screening Center for 
the Capitol Police ($6,750,000).

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


                      ARCHITECT OF THE CAPITOL FISCAL YEAR 2002 BUDGET REQUEST BY CATEGORY
----------------------------------------------------------------------------------------------------------------
                                                                            Excluding House office buildings
                              Fiscal year  Percent             Percent -----------------------------------------
          Category                2002        of     No. of      of     Fiscal year  Percent             Percent
                                request    request  projects  projects      2002        of     No. of      of
                                                                          request    request  projects  projects
----------------------------------------------------------------------------------------------------------------
Life safety.................  $14,528,000     14.2       30      26.1    $6,725,000      7.8       23      24.2
ADA.........................        1,240      1.2        9       7.8       870,000      1.0        8       8.4
Security....................    8,546,000      8.3        6       5.2     8,546,000     10.0        6       6.3
Cyclical maintenance/             450,000       .4        1        .9             0        0        0         0
 improvement................
Cyclical maintenance........   53,385,000     52.0       33      28.7    49,515,000     57.8       28      29.5
Technology/management           4,224,000      4.1       12      10.4     4,199,000      4.9       11      11.6
 systems....................
Improvement:
    AOC.....................    2,013,000      2.0       10       8.7     2.013,000      2.3       10      10.5
    Client..................   18,215,000     17.8       14      12.2    13,805,000     16.1        9       9.5
                             -----------------------------------------------------------------------------------
      Total.................  102,601,000    100.0      115     100.0    85,673,000    100.0       95     100.0
----------------------------------------------------------------------------------------------------------------

    In past years, the AOC developed a reinvestment benchmark of 1.7 
percent of the current replacement value of the facilities as a guide 
of the amount of cyclical maintenance funding that should be invested 
into the Capitol complex. This benchmark excludes capital project 
funding relating to the construction of additional facilities, security 
enhancements and technology management improvement that are included in 
the total capital request. For fiscal year 2002 the benchmark of 1.7 
percent would indicate that $63 million should be reinvested in 
cyclical maintenance and renovation projects. As indicated on the 
attached graph titled ``Cyclical Maintenance and Building 
Renovations,'' $77.4 million is being requested for facility 
reinvestment projects in fiscal year 2002. Because the benchmark 
represents an average, the current request is acceptable due to the 
fact it includes a request of $42.5 million for the Capitol Dome 
project. However, as indicated on the graph there will be much larger 
requests in future years.

Architect of the Capitol Benchmark Data--Fiscal Year 2002 Funding Levels

Current Facility Replacement Value......................  $3,811,000,000
                                                          Annual renewal
                                                              percentage

AOC Benchmark (Based on Universities of Illinois, 
    Michigan, and Stanford and the Army Corps of 
    Engineers)..........................................            1.7 
Army Corps of Engineers (Budget Objective)..............            1.75
University Federal Research Cost Recovery (OMB A-21)....            2.0 
Conservative Commercial Depreciation at 40 Years (IRS 
    will accept a faster depreciation rate).............            2.5 
National Research Council of the Academy of Sciences:
    Low Range...........................................            1.5 
    High Range..........................................            3.0 
Fiscal Year 2002 Capital Request (Request $102,601,000 
    Less $25,175,000 Related to Technology/Management 
    Systems, Security, and New Facilities)..............            2.0 

&lt;GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT&gt;


    The following tables summarizes the funding levels presented in the 
five-year capital budget by category and the capital budget request by 
appropriation.

                                                              FIVE YEAR CAPITAL PROJECTIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year      Five Year
                        Category                               2002            2003            2004            2005            2006            Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Life Safety.............................................     $14,528,000     $20,720,000     $33,130,000     $34,850,000        $400,000    $103,628,000
ADA.....................................................       1,240,000       5,805,000       1,966,000       3,456,000       1,560,000      14,027,000
Security................................................       8,546,000      10,432,000       8,108,000      14,600,000       5,175,000      46,861,000
Cyclical Maintenance--Improvement.......................         450,000      11,580,000       1,050,000      27,000,000      17,000,000      57,080,000
Cyclical Maintenance....................................      53,385,000      58,256,000      56,635,000     145,274,000      71,591,000     385,141,000
Technology/Management Systems...........................       4,224,000       4,726,000       2,315,000       1,657,000       1,350,000      14,272,000
Improvement--AOC........................................       2,013,000      57,993,000       1,400,000      11,800,000       2,100,000      75,306,000
Improvement--Client.....................................      18,215,000      28,403,000      77,037,000      43,300,000      42,400,000     209,355,000
                                                         -----------------------------------------------------------------------------------------------
      Total.............................................     102,601,000     197,915,000     181,641,000     281,937,000     141,576,000     905,670,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             CAPITAL BUDGET REQUEST BY APPROPRIATION
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
  Appropriation No. of Fiscal Year 2001     2001 Budget    2002 Request   Change Dollars                                      Major Fiscal Year 2002 Project
                Projects                      Dollars         Dollars
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Capitol Buildings--13 projects..........      $5,278,000     $62,696,000     $57,418,000  Rehabilitate Capitol Dome--$42,500,000. Off-site Delivery Center--$6,750,000. USPC Vehicle Maintenance
                                                                                           Facility--$3,260,000. Financial Management System--$2,076,000. Replace Exit Doors for Emer. Egress &amp;
                                                                                           Security--$782,000.
Capitol Grounds--13 projects............         223,000       1,876,000       1,653,000  Security Improvements, HSOB Horseshoe Entrance, NE--$1,100,000. CAD Database Development--Site
                                                                                           Utilities &amp; Grounds--$320,000.
Senate Office Buildings--7 projects.....      21,678,000       8,024,000     -13,654,000  Construct Garage, Square 724--$3,000,000. Modernize Elevators (12), HSOB--$1,440,000. Interim Control
                                                                                           Room for Televised Hearings--$500,000.
House Office Buildings--2 projects......         501,000      16,928,000      16,427,000  Renovate Rayburn Cafeteria--$3,460,000. Elevator Modernization Program--$3,000,000. Roof Fall
                                                                                           Protection--$2,444,000. Fire Alarm System Upgrades for ADA--$1,514,000.
Capitol Power Plant--5 projects.........         747,000       1,275,000         528,000  Replace Deaerator Heaters--$335,000. Install Dual Low NO&lt;INF&gt;X&lt;/INF&gt; Burners, Boilers 5-7--$200,000.
Library Buildings &amp; Grounds--8 projects.       6,010,000      10,105,000       4,095,000  Audio Visual Center--$5,000,000. Roof Fall Protection, LB&amp;G--$1,778,000. Egress Improvements--
                                                                                           $550,000.
Botanic Garden--1 projects..............          25,000       1,697,000       1,672,000  Conservatory Galleries Design Exhibits--$615,000. Implementation/Contractor Support Conservatory
                                                                                           Courtyards--$400,000.
                                         ------------------------------------------------
      TOTAL.............................      34,462,000     102,601,000      68,139,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Durbin. Thank you, Mr. Hantman.
    In deference to Senator Bennett's leadership on this 
subcommittee and his particular interest in the Architect's 
office, I would like to invite him to open the questions.

                         CAPITOL VISITOR CENTER

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate your confidence and your courtesy.
    Mr. Hantman, the biggest item that everybody is looking at 
at budget time, of course, is the Visitor Center. We need to 
know where we are on that. You say we are halfway through the 
documents. We will be in a position to have the final documents 
done sometime in the fall.
    Mr. Hantman. That is correct.

                                PARKING

    Senator Bennett. Could you talk a little bit about some of 
the side effects of this?
    Let us talk about parking. When the Visitor Center 
construction gets underway, there will undoubtedly be a 
significant impact on both parking challenges and traffic 
patterns. I have a little experience with that. Salt Lake City 
had to do significant infrastructure in preparation for the 
Olympics. And we have no give on the other end. The Olympics 
are going to come, and we have had to do all of the 
infrastructure preparation, recognizing that the date will be 
there.
    I think the same is true with respect to the Visitor 
Center. There cannot be a delay because the Visitor Center has 
to be done in time for the presidential inauguration in January 
of 2005. We cannot have the inauguration take place with a hole 
in the ground, and we ought to have everything done, back in 
place, parking available, landscaping back, and so on. I know 
you understand that.
    Could you tell us what your plans are with respect to 
parking and traffic patterns while the construction is going on 
that will make sure there is no delay and we will meet the 
deadline of the 2005 inauguration?
    Mr. Hantman. As you know, Mr. Chairman, Senator Bennett, 
Senator Stevens, there are many cars impacted by this project. 
First of all, on the East Capitol Drive, there are 80 cars on 
the Senate side, 80 cars on the House side which will be 
permanently lost for parking. They will be part of the Visitor 
Center area. There will also be cars on the North Drive, 
heading towards the west, and parking patterns will have to be 
modified as the construction goes forward.
    We have been working with the Senate Sergeant at Arms for a 
master plan for parking. All of the details certainly have yet 
to be worked out, but we are looking at every project that we 
have and its impact on parking during that time frame so that 
we can play the musical chairs we need to play to make sure 
that everybody has a location going forward. So, again, it is 
not worked out yet, but we have a master plan in mind. We have 
been working with the Senate Sergeant at Arms, talking to the 
Rules Committee about that, and that is one of our first 
priorities that we are working out in concert with our 
construction manager as well.
    Senator Bennett. As you look in that direction, are you 
going to need any more money? Are you going to have to 
construct any more buildings, parking structures, et cetera to 
take care of this? Is this something the subcommittee needs to 
look forward to in terms of additional requests?

                       PARKING GARAGE SQUARE 724

    Mr. Hantman. As you know, Senator Bennett, we had been 
talking for a couple of years about a possible new parking 
garage on site 724, which is just north of the Hart Senate 
Office Building. We wanted to do that before we started doing 
the renovation project on the Russell Legislative Garage.
    We have plans now and we have reviewed preliminary plans 
with the Senate Rules Committee for a parking structure on that 
site. There are currently some 360 or so cars parked on the 
surface. The plans that we are talking about are for a four-
story parking garage, potentially to have a command and control 
center for the Capitol Police on the lowest level. This is an 
option that we are looking into and will be presenting to the 
Rules Committee as well.
    We are requesting some $3 million to do construction 
documents for that project going forward into this fiscal year. 
So, yes, we need to continue presenting that and look at that 
as potentially the first phase of a structure on that block 
front just to the north of the Dirksen and the Hart Senate 
Office Buildings.

                          PROJECT TIME FRAMES

    Senator Bennett. Again, mindful of the time frame we are 
facing, driving for the inauguration, you have a fiscal year 
2002 request for $42.5 million to start on the project of 
restoration of the Capitol dome. Life being what it is, you can 
always anticipate problems. I very much remember what we did 
with respect to the Botanic Gardens. It is now a year and a 
half behind schedule. I am told it is still within budget.
    Mr. Hantman. That is correct.
    Senator Bennett. It is a year and a half behind schedule. 
If you have got Visitor Center challenges, Capitol dome 
challenges, new parking structure challenges, and a series of 
new projects all going on simultaneously, with a firm and 
unbreakable deadline at the back end, is there a possibility 
that we are biting off more than we can chew here and maybe the 
consideration ought to be given to delaying some things until 
after we are sure that it can all come together? The obvious 
candidate for that would be the Capitol dome. I would like you 
to talk about that.
    Mr. Hantman. Senator Bennett, in past hearings you have 
said on multiple occasions, Mr. Hantman, that is a very 
ambitious schedule. And clearly that is what you are saying 
right now. I walk around the campus and I see so many things 
that need to be done. It would be wonderful just to snap your 
fingers and have them taken care of. But you are absolutely 
right. Priorities need to be established.

                          CAPITOL DOME PROJECT

    As far as the dome is concerned, as you know, we have 
successfully completed the first phase. It was a $7.5 million 
emergency appropriation, and we fully documented and we have 
construction drawings that will show what work needs to be done 
for the $42.5 million you have discussed.
    We really do have a choice here, though. As you know, we 
delayed the Capitol dome project for 1 year from last year 
because of the fire safety type of issues that we had to deal 
with. We had a $17 million supplemental for fire safety at that 
point in time. The Compliance Board had talked about an awful 
lot of issues that need to be addressed, and we are working on 
those very assiduously. We are making real progress, but 
clearly more needs to be done in that direction also. So, when 
we delayed the Capitol dome last year, we did it with the idea 
that we would be able to concentrate on other issues.
    I think we have three choices here at this point in time. 
We have the ability to move ahead with that $42.5 million 
project. I can show you a site plan that talks about the 
staging areas and how we would work the Capitol Visitor Center, 
the dome, the perimeter security program and make it work.
    The issue there is, though, there is an awful lot on our 
plate at this point in time. In fact, I had a little study 
commissioned to take a look at what would happen if we put the 
dome project off, what more would we need to do. That study 
came up with $1.6 million worth of work. For instance, the dome 
has not been painted in 12 years now, since 1988 I believe it 
is. So, we would have to paint the dome without removing the 
lead-based paint and getting down to base metal and doing all 
the repair work. We would have to do some removal of lead-based 
paint on the interior side where the tours go up to the dome. 
We would have to repair some pieces of metal, and all that 
would give us is more flexibility to kind of mothball the 
project going forward.
    So, I think we really have a choice over here, and I do not 
think there is really a correct answer. There are really three 
options: proceed with it now; we can put it off for another 
year and see what is happening on the Visitor Center and other 
projects and see if we are in better shape next year; or we can 
put it off for the duration of the Visitor Center project or 
sometime in between and expend that $1.6 million we think it 
would take to kind of mothball the project for a number of 
years.
    As you know, the initial study indicated that, structurally 
speaking, the dome is in fine shape. Our forebearers really 
developed a wonderful design. The problem is in the skin and 
the leaking. Some of the $1.6 million I identified would put 
sealant in those leaks, put a coat of paint on it so we would 
not have further deterioration over there. So, that is really a 
choice, and if this committee chose to suggest that we put off 
the project for another year and see where the Visitor Center 
is going and see what kind of condition we are in, we could 
probably do that and then, at that time, even make a decision 
as to whether we want to do the $1.6 million and put it off for 
another 4 years or 5 years. Perhaps there is another Architect 
down the road who will be coming in in another 6 years, and 
that might be their job.
    The issue is there is no structural, fundamental problem. 
We did this as an emergency project because there is rust. 
There are problems with it. I think with the $1.6 million, we 
could probably go through another 5 or 6 years without doing 
the full work on the Capitol dome. So, the issue is how much 
dislocation we really want to have.
    A real consideration also, Senator, is we are about to 
embark on the Visitor Center, which is going to be digging a 
mighty big hole on the east front. It is going to cause 
dislocation over there. In the best of all possible worlds, the 
dome would be done at the same time so when the Visitor Center 
is finished and the dome is finished, visitors who come here 
would not see scaffolding set up around the dome. And I have 
boards over here, if you would like to see them, of what the 
dome looked like in 1958-1960 when the scaffolding was around 
the dome and they were removing and putting on new lead-based 
paint that we are going to have to be removing now.
    So, yes, it is a long way around to say we do have 
flexibility. We do have a choice.
    Senator Bennett. Well, I am not sure the committee ought to 
be in the position of dictating a decision there. But we have 
two examples in front of us: one, the renovation of the Dirksen 
Building, which has gone very well and on schedule. I am one of 
the beneficiaries of that. I enjoy my corner suite 
tremendously. And then we have the Botanic Gardens, which ran 
into unexpected problems, a year and a half late. I am sure 
nobody deliberately slowed it down. There were some unexpected 
challenges. So, you have got one example of something that has 
gone very well; you have got another example that ran into 
challenges and problems that slowed it down.
    I think that is kind of what we pay you that big salary 
for--to make some recommendations on the basis of reality. It 
would be wonderful for the visitors to come at the inauguration 
in 2005 and have everything shiny and spick and span and 
terrific. It could be disastrous if they come for the inaugural 
in 2005 and everything is behind schedule and we say, if only 
we had put this off.
    So, I appreciate your examination of the alternatives and 
would hope you would come back to the subcommittee with a 
pretty firm recommendation one way or the other that we could 
look at and say this is realistically where we ought to be.

                                STAFFING

    This brings us to the issue of staffing. I tend to agree 
with your opening statement that the statutory requirements 
laid down for specific jobs do not make any sense anymore, and 
that we probably ought to give you a great deal more 
flexibility and simply say you have x number of positions to 
fill, kind of the way we do in our Senate offices where we have 
a budget for staffing and we can determine how much goes to the 
administrative assistant and how much goes to the legislative 
director and so on. And you could have some flexibility of, 
say, up to a certain level, we are going to put money here, 
there, and go after the people you need. I am inclined to 
support giving you that kind of flexibility.
    I have to note, however, that you have reprogrammed over $7 
million out of personnel funds that you were afraid were going 
to lapse after you told the subcommittee you had to have all of 
this personnel the last time. Why the delay in hiring and why 
the fact that you have got excess personnel funds that you now 
are using for other purposes for reprogramming?
    Mr. Hantman. A fair question, Senator. There are a series 
of issues related here. One of them is clearly that, with the 
continuing resolution we lost the first quarter of the year to 
really accelerate our hiring process. We also, frankly, had 
issues within our human resources department in trying to 
accelerate that process and move it along.
    We have hired, I think, 188 people this year, trying to 
fill in the lost numbers of people we had through the buyout a 
couple of years ago and through normal attrition. We have 
another 50 certifications out, sitting in the offices right 
now, and 55 jobs that are almost ready to be filled as well. We 
have had a really accelerated process to bring these people on 
board.
    But clearly as they are brought on for less than the full 
calendar year, their salary has been allocated for the entire 
year. So, those dollars are left for us to reprogram or use for 
other purposes. Much of it has been used for that purpose.

                             CAPITAL BUDGET

    Senator Bennett. One other comment, Mr. Chairman, if I may, 
and I will turn this back to you, again with gratitude for your 
courtesy and consideration.
    Your capital budget. I have a hard time following it. The 
numbers from year to year do not seem to coordinate. We get a 
capital budget request for 1 year and then there is a capital 
budget for the other year, and we cannot really see what has 
happened or a flow from one to the other. They seem to come up 
de novo each time. Without expecting a specific answer now, I 
would appreciate it if you would kind of give us a chart over 
time of where the capital budget has been and where you expect 
that it will be.
    Mr. Hantman. In terms of long-term projections, Senator?
    Senator Bennett. Yes, if we can get our arms around that.
    Mr. Hantman. We will do that.
    [The information follows:]

                                                             FIVE YEAR CAPITAL PLAN HISTORY
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                 TOTAL
                                  FISCAL     FISCAL     FISCAL     FISCAL     FISCAL     FISCAL     FISCAL     FISCAL     FISCAL     FUTURE   ADDITIONAL
                                YEAR 1998  YEAR 1999  YEAR 2000  YEAR 2001  YEAR 2002  YEAR 2003  YEAR 2004  YEAR 2005  YEAR 2006   FUNDING     FUNDING
                                                                                                                                               REQUIRED
--------------------------------------------------------------------------------------------------------------------------------------------------------
FISCAL YEAR 1998 BUDGET            53,971     68,160     94,606     72,726     27,993  .........  .........  .........  .........     36,060     353,516
 REQUEST......................
FISCAL YEAR 1999 BUDGET         .........     87,460    111,936     93,513     62,904     24,433  .........  .........  .........     32,785     413,031
 REQUEST......................
FISCAL YEAR 2000 BUDGET         .........  .........    118,907    149,509     66,257    114,509     41,376  .........  .........     66,205     556,763
 REQUEST......................
FISCAL YEAR 2001 BUDGET         .........  .........  .........     68,739    181,082     81,058    221,570    113,537  .........    120,620     786,606
 REQUEST......................
FISCAL YEAR 2002 BUDGET         .........  .........  .........  .........    102,601    197,915    181,641    281,937    141,576     87,954     993,624
 REQUEST......................
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Mr. Hantman. One other point I wanted to make relative to 
the hiring process, I think there is good news in the fact that 
we have essentially hired 188 people, but 75 of those positions 
have been internal promotions, which is good news I think of 
growing the organization, letting people have a career path. 
But also, when you think about that, those 75 positions also 
have to be filled. So, therefore, the salaries from there are 
left out as well and left to be reprogrammed.

                             WORKER SAFETY

    Senator Bennett. Thank you very much.
    I appreciated your reference in your opening statement to 
worker safety. You have a clear management challenge there. The 
injury rate has a distinction you do not like and we do not 
like. I know you are working on it and appreciate your 
mentioning it.
    The Architect of the Capitol's injury rate is the highest 
in the Federal Government, 17.9 injuries per 100 workers. The 
Federal Government rate--and this is not really apples and 
oranges because many of your people work in situations that are 
perhaps more dangerous than in other Federal agencies. But the 
Federal Government rate is around four.
    So, I appreciate your highlighting that and I think the 
subcommittee will look at that very closely in the future to 
see how you are doing. If we give you the management 
flexibility in terms of salaries that you have asked for, we 
would hope that would translate into sound management practices 
that can begin to bring down some of the injuries and get a 
better level of management expertise throughout the agency as a 
whole.
    Mr. Hantman. Absolutely.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Durbin. Thank you very much, Senator Bennett.
    Senator Stevens, I know you have to leave. If you would 
like to ask at this point.

                         INCREASE IN POSITIONS

    Senator Stevens. I just have one question. I note you want 
to hire 48 new people. What is your turnover rate?
    And your comment about the salary level interests me. Are 
you seeking a change in the salary level options you have 
available?
    Mr. Hantman. For the senior management, Senator, yes.
    But as far as the turnover rate, it is basically about 10 
percent. We have an aging work force, many retirements are 
involved in that. So, in terms of the 48 positions that we are 
talking about, many of them, 13, are related to fire and life 
safety positions that we need to fill, others into the 
planning.
    Senator Stevens. Are they new positions?
    Mr. Hantman. Those are new positions. In fact, we are 
looking for funding for those positions. Over time, Senator, 
whenever we created, for instance, the financial management 
system or our labor management group or our attorney group, we 
have had to take those jobs out of some of the support groups, 
some of the shops that we have had because we have never had an 
increase basically that would allow us to essentially hire FMS 
people or hire IRM people.

                    CONGRESSIONAL ACCOUNTABILITY ACT

    So, these jobs are specifically really designated by the 
Congressional Accountability Act. We have to have people on 
life safety, on fire safety, on issues of energy conservation. 
These are mandated positions that we are looking to fill right 
now. In fact, we are out on the street now for about 30 of 
those positions, and hopefully we will get the funding to 
support that going forward or we will have to make compromises 
in other places in our budget.
    Senator Stevens. I did not think that act required new 
people as much as a job assignment had to include certain 
specifications. You seem to be sort of broadening out a great 
deal in terms of senior management, supervisory positions. Is 
your work force not expanding considerably?
    Mr. Hantman. Senator, there are implications from that act 
that are tremendous. We fundamentally have to change the way we 
do business. For the first time it allowed unions to come in. 
We have six unions we are working with right now and we have to 
hire the people to work with the unions.
    The Accountability Act has issues relative to OSHA 
criteria. The rest of the Nation had to deal with OSHA starting 
back in 1970. We have to play catchup ball and deal with those 
issues right now.
    Relative to ADA, safety working conditions, we have hired 
the Public Health Service to help us write new standards, and 
there are 41 standards that have to deal with protective 
equipment, confined spaces. How people fundamentally do their 
jobs needs to be changed.
    And the fire and life safety crew that we are asking for 
over here are the people who are going to put policies in 
place, train people. We are talking to OSHA about having them 
help us train people. This is a 5-year project going out, on 
the optimistic side, to put all of these 41 different criteria 
in place. If you would like to, I could show you the whole list 
of what we have to do, the new organization that we are putting 
in place that never existed before.
    Senator Stevens. I think it is going to be a tough sell up 
here. In terms of number of people, it is really blossoming 
very quickly into a very much larger workforce than you have 
had before. I would like to have some details on that. I looked 
through your statement. I did not see really where you had 
detailed that.
    What about the pay level? You said in your opening 
statement you were having problems because of the pay level?

                               PAY LEVELS

    Mr. Hantman. For instance, on the financial side, we have 
been looking for a CFO position over a year right now. The 
legislation that was put up in 1990 indicates that we have a 
limitation on what we could pay and advertise for. Other 
agencies are looking for CFO's in the $125,000 to $130,000 
range. The maximum that we could look for before this last COLA 
was $110,000 because that is what the legislation says. In 
fact, the legislation specifies that we have a budget officer 
who is locked into the $110,000 cap. Now it is $113,000. So, we 
have had the advertisement for a CFO/Budget Officer, and 
everybody recognizes that we really need both. We need a budget 
officer and we need a CFO, and we have not been able to find 
somebody to come on in because we are not competitive with 
other agencies. That, in fact, is what is happening. In fact, 
we have people who are GS-15's right now who are earning more 
than their supervisors because their supervisors are locked 
into certain percentages established in that legislation. So, 
we have a fundamental problem in terms of keeping our hierarchy 
established over here and paying people appropriately, trying 
to keep people in financial management systems, in IRM. They 
are being attracted away by other agencies. We cannot compete 
unless we have some level of flexibility.

                         FULL TIME EQUIVALENTS

    Senator Stevens. The red dots on the lower line is the 
actual?
    Mr. Hantman. Exactly. We have had some 2,400 FTE's and we 
have come down to 2,012 FTE's out of our authorized strength. 
The blue line indicates where we are in actual people. We are 
not up to our FTE strength. The 188 people I talked about 
hiring before and if we get these 48 people as well, we will 
still be 60 people below our authorized strength. We just have 
not had the funding to hire them going forward.
    So, in reality we are not exceeding what our needs are or 
what we are authorized to have. In fact, the Comptroller 
General indicated in testimony recently that he was looking for 
another 120 or so people in his agency to bring him up to his 
FTE level because he needs that level of people to get the job 
done. That is really the case in our agency as well, sir.
    Senator Durbin. Thank you, Senator Stevens.
    Mr. Hantman, let me follow up on this. Your chart indicates 
that your high water mark, at least within modern memory, 
fiscal year 1993, was actual employment of 2,357 and the low 
water mark appears to have been somewhere in the range of 1,733 
a couple of years ago. What I am looking for is some kind of 
understanding of what you think is your optimal employment 
level here for this agency.
    Mr. Hantman. We think that a 2,012 person FTE is a 
relatively reasonable level. One of the unknowns that we are 
looking at here, as I was telling Senator Stevens, we have 41 
new policies to establish for safety issues around here. People 
fundamentally need to relearn how to do their jobs. We have 
just had a protective gear program come in, and one for HAZMAT 
type of issues. The first three policies are in place right 
now, and the Public Health Service is issuing the policies at 
the rate of one every couple of months.
    But then we have to train people. We have to make them 
understand how they have to use their protective gear in tough 
situations. We have to make sure that their supervisors have 
the responsibility and recognize that responsibility to make 
sure they wear their protective gear and they do their jobs 
appropriately. This is a sea change in the way things have been 
done in the past.
    Senator Durbin. Can we be confident that at 2,012, we will 
not be sitting here a year from now with another request for 48 
more or 50 more?
    Mr. Hantman. Well, as far as these 41 criteria concerned, 
going forward we do not expect it to be significant numbers, 
but it should be fairly controlled numbers.
    Senator Durbin. I think you have identified a problem which 
we are running into in a lot of different places, and that is 
to attract a level of expertise. We find ourselves bumping up 
against ceilings and caps in terms of salaries. And perhaps we 
are not as competitive as we used to be in terms of what we 
have to offer. I do not think it is unique to the Architect's 
office. I think we are finding that in a lot of areas of the 
Federal Government. Senator Voinovich and I, in Government 
Affairs, have been looking into this human capital challenge 
that we are facing.
    We are on a roll call and I am going to try to cover my 
areas quickly so we do not have to hold you any longer than 
necessary. But I do have a number of areas that do concern me.

                             WORKER SAFETY

    I do not understand this OSHA number. This just does not 
make sense to me. I cannot believe it is four times more 
dangerous to work in the United States Capitol than anywhere 
else in the Federal Government. What is going on here? Why are 
more people getting injured on the job in the U.S. Capitol 
Building under your Architect's office than we find across the 
Federal Government?
    Mr. Hantman. Frankly, Mr. Chairman, the numbers are too 
high, and we are going to work assiduously to lower those 
numbers.
    Senator Durbin. They are not just too high. They are 
astronomic. We are 400 percent over the average for the Federal 
Government. This has been reported in the press, so clearly you 
have been sensitized to it. What is missing here? What are you 
missing in your office in terms of management and employee 
education and work place safety that creates this problem?
    Mr. Hantman. We are putting an organization together right 
now, Senator, to be able to deal with the issues of putting all 
those procedures and standards in place that facilitate 
workplace injury. First of all, our staff is 80 percent shop-
oriented. People do heavy lifting, heavy jobs. To compare us 
with an agency that has people sitting behind a desk possibly 
getting carpal tunnel syndrome really is not appropriate.
    But as far as the injury rate is concerned, we are 
promoting very good reporting criteria.
    Senator Durbin. Whom are you bringing in to consult with if 
it is necessary for employees to wear certain protective 
equipment or back braces? Who is giving you advice on this?
    Mr. Hantman. The Public Health Service is working with us 
on getting all of these policies and procedures in place. We 
are also talking to OSHA about helping us on the training for 
this. So, we have established an entirely new program. I can 
walk you through our organization, which has never existed, 
again, before on Capitol Hill.
    Senator Durbin. Is this number that we are facing in this 
hearing a new phenomenon that has not happened, or has this 
been the level of problems that we have had for a number of 
years?
    Mr. Hantman. This has been floating around 14 or 15 percent 
for a number of years, Senator.
    Senator Durbin. Well, I have to tell you then, I am glad 
you are responding, but I wonder why we have waited. This is 
not only harmful to employees, but it is expensive to the 
Federal Government to have people injured, and to have these 
dramatically different numbers for the Architect's office. I 
have worked in some dangerous work places, and I cannot believe 
this is the most dangerous work place in the Federal 
Government. It is hard to imagine.
    Mr. Hantman. Once again, sir, we have people on the 
grounds, at the power plant, other places who are doing the 
type of jobs that other agencies do not have. No excuses. They 
should not be up that high, and we have an aggressive program 
for cutting it back 10 percent every year going forward from 
here. So, that is a measurable program that we are going to 
have. We have had all the superintendents go out and meet and 
talk with all of their people regarding protective gear and 
equipment. I have personally gone out with our new Safety 
Officer, Sue Adams, to meet with these people and to make sure 
that all of the criteria is met relative to OSHA criteria.
    Senator Durbin. Mr. Hantman, perhaps you can tell me, by 
cutting back at 10 percent a year, how long will it be before 
the Architect of the Capitol reaches the average for the 
Federal Government when it comes to workplace injury?
    Mr. Hantman. We are talking about in 5 years coming down to 
about 10 percent.
    Senator Durbin. That would still be two-and-a-half times 
the average for the Federal Government.
    Mr. Hantman. When you talk about the average for the 
Federal Government, Mr. Chairman, again 80 percent of our 
people do heavy lifting, do work of different kinds.
    Senator Durbin. I think you need to be more aggressive on 
this. I just do not accept this, that we are going to have the 
most dangerous workplace in the Federal Government here. That 
is hard to explain to anybody. I understand that the power 
plant is not the Capitol Building, and there are some heavy 
jobs there. But industry deals with this all the time, and they 
understand that worker injuries not only hurt the workers, but 
hurt their productivity. And that has to be the case for us as 
well.
    Mr. Hantman. Among the 48 people we are talking about, 13 
of them relate to fire and life safety issues that can monitor 
these issues and really make sure that people understand what 
is necessary and that we can, in fact, bring it down.
    Senator Durbin. I am going to work with Senator Bennett. We 
are going to see if there is some language we can put in here 
that is going to move this to a different level. I do not 
accept this notion that in 5 years we will be at 250 percent of 
the average for the Federal Government in terms of worker 
injuries.
    Mr. Hantman. Again, all of those agencies, Senator, had 30 
years to work up to where they are right now. We are going to 
work very aggressively to cut it as quickly as we possibly can.
    Senator Durbin. I think we want to work with you on that.

                               RECYCLING

    One of the most dangerous things you can give to a Senator 
are copies of committee reports, which I took with me on the 
airplane and started reading. There has been a recurring issue 
over recycling in the U.S. Capitol. Again, in this time and 
place, we should be setting an example on recycling, and it 
appears that there are annual admonitions to the Architect's 
office to do something about recycling because it means more 
money for the Federal Government. If we give clean waste to the 
service through the General Services Administration, it means 
that we can make money off of it. If we give them dirty waste, 
then we do not.
    How much progress has been made?
    Mr. Hantman. We have put on board a full-time recycling 
manager. We have set up a revolving fund from the proceeds from 
the recycling program to be used for the Senate Health and 
Fitness Facility.
    Senator Durbin. And what have been the results? In terms of 
revenues since we have been admonishing the Architect's office 
for several years now to do something about recycling, can you 
point to an improvement in the fees that we are recovering as a 
result of your effort?
    Mr. Hantman. We do not have the numbers back that would 
point to that. We have the report that the legislation criteria 
dictate that we bring to the Senate Rules Committee. We are 
ready to meet with them in the next couple of weeks to talk 
about our recommendations and they can select the appropriate 
alternatives, and we will move forward on the program.
    Senator Durbin. But is it working? You have been told for 
at least 2 years, maybe longer, to do something, improve the 
situation. Have you improved the situation? Are we recycling 
more at the U.S. Capitol?
    Mr. Hantman. We are recycling more. I do not know what the 
numbers are.
    Senator Durbin. Why?
    Mr. Hantman. Because the reports go through GSA and they 
come out periodically.
    Senator Durbin. Can the Budget Director help us or someone 
else sitting with you?
    Mr. Boertlein. I do not have the current data on that, sir.
    Mr. Hantman. We will get you the information.
    Senator Durbin. Please do that. I would appreciate that 
very much.
    [The information follows:]

                  U.S. Senate Office Recycling Program

    The Architect of the Capitol manages the U.S. Senate Office 
Recycling program in the Hart, Dirksen, and Russell Senate Office 
Buildings. (The Senate Sergeant at Arms manages the U.S. Senate side of 
the Capitol recycling program.) Centrally located recycling containers 
are provided to Member offices for beverage containers and High Grade 
paper. As the program is currently designed, desk side recycling 
containers are to be used for mixed paper and all trash is to be placed 
in centrally located wet waste containers. However, desk side recycling 
containers are frequently used for trash collection and white paper, 
mixed paper, newspaper, and magazines/mail are all placed into the High 
Grade paper containers. These discrepancies are due to a lack of a 
clearly defined program, inadequate containers, and inadequate staff 
education and training.
    Recycled materials are transported to the Hart Loading dock where 
they are baled and staged for pick up by the recycling contractor. The 
recycling contractor inspects the recycled materials and performs 
sorting, separation, and transport to either a recycled materials 
processing center or a local landfill. Recycled materials frequently do 
not meet recycling contract contamination specifications because of the 
high percentage of non-recyclables such as plastic, food, and 
styrofoam. The Senate Employee Health and Fitness Fund receives 
revenues from recycled materials that are within contamination criteria 
specified in the recycling contract. The recycling contractor receives 
revenues from materials that exceed contamination criteria. A summary 
of the amounts of materials recycled and the revenues generated is 
shown in table 1. Table 2 compares the first half of fiscal year 2001 
with the first half of fiscal year 2000.

                           TABLE 1.--U.S. SENATE AND CAPITOL (U.S. SENATE SIDE) \1\ PAPER RECYCLING SUMMARY (10/1/97-3/31/01)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 Tons (Rounded)
                                                                   --------------------------------------------------------------------------   Amount
                            Fiscal year                                            Mixed                Corrugated  Contaminated                earned
                                                                    High grade   grade \2\   Newspaper     board     (No value)   Total tons
--------------------------------------------------------------------------------------------------------------------------------------------------------
1998..............................................................        0.62      185.60       35.34       16.29       433.29       671.14      $5,178
1999..............................................................        1.59      222.40        0.76           0       379.18       603.93       4,238
2000..............................................................           0      162.31        2.56        2.85       522.09       689.81       7,850
                                                                   -------------------------------------------------------------------------------------
      Total.......................................................        4.09      711.09       39.37       19.14     1,573.43     2,347.12      21,481
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Only high grade paper is collected from the Capitol, Senate side.
\2\ Includes both mixed paper and all paper graded as commercial office mix.


                                        TABLE 2.--DATA COMPARISON FOR FISCAL YEAR 2000 AND 2001 (6 MONTH PERIOD)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 Tons (Rounded)
                                                                   --------------------------------------------------------------------------
                  Fiscal year 1st &amp; 2nd Quarters                                   Mixed                Corrugated                              Dollars
                                                                    High grade   grade \1\   Newspaper     board    Contaminated     Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
2000--Q1 &amp; Q2.....................................................           0       87.35        2.56           0       257.61       347.52      4,1 74
2001--Q1 &amp; Q2.....................................................        1.88      140.78        0.71           0       238.87       382.24      4,2 15
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes both mixed paper and all paper graded as commercial office mix.

    As Table 1 illustrates, there have been moderate increases in the 
amount of high grade and mixed grade paper recycled as well as a 
decrease in contaminated material. At the current rate of collection 
for the first six months of fiscal year 2001 (see Table 2), it is 
estimated that 760 tons of recyclables will be generated for the full 
year compared to 690 tons collected for fiscal year 2000. The amount of 
recycled cardboard will rise due to the new cardboard baler that became 
operational July 1, 2001. It is expected that contamination amounts 
will decrease due to the ability to separate and bale cardboard 
independently from mixed paper.
    The following program improvements have been made within the last 
year:
  --The Senate Recycling Program Manager position was filled in 
        November 2000.
  --An AOC-wide Recycling Program Manager position was created and 
        filled in April 2001. (Note: this position is also responsible 
        for solid and hazardous waste management.)
  --The Senate Employee Health and Fitness Fund was created in February 
        2001 to collect revenue from the Senate Recycling Program.
  --A recycling display and information booth were included in the 
        January 2001 Senate Superintendent's Open House.
  --The Senate Superintendent's Office issued a letter indicating 
        glass, plastic, and aluminum beverage containers could be 
        commingled and provided stickers to relabel the recycling 
        containers.
  --Each Senate Office designated a recycling liaison to interface with 
        the Senate Superintendent's office and to promote recycling 
        within the Member office.
  --Senate Superintendent office inspectors meet monthly with Office 
        Managers on a variety of topics including recycling.
  --A new cardboard baler was installed, operators were trained and the 
        new baler became operational on July 1, 2001.
  --Segregation of cardboard from the U.S. Senate Restaurant facilities 
        began July 2001.
    There are opportunities for the continued improvement of the 
recycling program. As directed by U.S. Senate S. 2603, the Architect of 
the Capitol has been studying improvement options and within the next 
three months will be:
  --Modifying recycling collection carts to provide separation of 
        newspaper, white paper, and mixed paper.
  --Establishing clearly defined recycling separation and staging areas 
        at Hart Loading Dock.
  --Implementing cardboard separation at other high volume generation 
        location.
  --Advertising availability and providing newspaper recycling 
        containers to Member offices.
  --Offering recycling containers at special events to capture 
        recyclable commodities.
  --Obtaining outside consultant review and recommendations of the 
        recycling program--existing and proposed.
  --Improving AOC recycling and baling personnel training and 
        understanding of recycling program.
    Within the next month, the Architect of the Capitol will be 
proposing long term program improvement options to the Senate Rules 
Committee. Improvement options will include an increase in the 
selection, number, and location of containers as well as improved 
recycling awareness and educational opportunities.

                          CAPITOL POWER PLANT

    Senator Durbin. Let me ask you about the power plant. It is 
fascinating. The numbers that have been in this budget for the 
power plant in terms of estimated utility costs really range 
pretty widely here. It looks like a 20 percent difference 
between 2000 and 2001. Do you have an explanation as to why we 
would have such a disparity in the cost of utilities at the 
power plant?
    Mr. Hantman. We are using a lot more gas than we had used 
before. We have an EPA criteria to come in below .43 parts per 
million of particulate matter. In order to do that, we have 
converted two of our boilers to be able to burn not only coal, 
but also gas to bring that down in line. And the cost of gas is 
certainly higher than that of coal.
    Senator Durbin. I understand that. We are facing that all 
over the country, certainly in the Midwest, the increased cost 
of natural gas. But that is a relatively recent phenomenon. It 
has just been this year. If you were looking for a 
supplemental, I could understand it. But there is such a wide 
swing here from 1 year a purchase of coal of $685,000 for 2001; 
the previous year, $2 million. Three times the cost. The 
purchase of oil was $920,000 in 2001, $1.2 million in the 
previous year. I need an explanation.
    I also want to know if there is anything that we have 
imposed on the power plant in terms of their acquisition of 
utilities or energy sources that runs the cost up over the 
regular market price. So, you need to tell me that too. If you 
would look into that with a little more detail, I would 
appreciate it.
    [The information follows:]

                                                      CAPITOL POWER PLANT UTILITY BUDGETS AND COSTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                     Account                      Fiscal Year  Fiscal Year  Fiscal Year      2002         1999         2000         2001         2002
                                                  1999 Budget  2000 Budget  2001 Budget    Request    Obligations  Obligations  Obligations    Request
--------------------------------------------------------------------------------------------------------------------------------------------------------
2303--Annual Gas................................   $1,415,000   $4,982,000   $6,590,000   $7,127,000   $4,786,420   $5,386,535   $6,000,000   $7,127,000
2304--Electrical Energy.........................   21,896,000   22,470,000   22,470,000   23,350,000   20,287,872   20,560,243   21,825,000   23,350,000
2305--Purchase of Steam.........................      248,000      248,000      280,000      300,000      209,728      288,240      340,506      300,000
2306--Purchase of Chilled Water.................      252,000      284,000      288,000      380,000      274,292      316,521      331,330      380,000
2307--Water &amp; Sewer.............................    1,800,000    6,200,000    4,400,000    6,621,000    1,777,580    6,122,568   \1\4,109,0    6,621,000
                                                                                                                                         00
2623--Coal......................................    2,250,000      200,000      685,000    2,431,000      373,162      311,679  \2\ 1,321,0    2,431,000
                                                                                                                                         00
2624--Oil.......................................    1,905,000      800,000      920,000    1,433,000      493,593    1,173,830    2,090,000    1,433,000
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................   29,766,000   35,184,000   35,633,000   41,642,000   28,202,647   34,159,616   36,016,836   41,642,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ This amount includes $1,776,941 for the payment of the 1990 water and sewer bill.
\2\ 6,000 tons in South Coal Yard used $275,000 in fiscal year 2001.

    By law, the payment of water and sewer services are set by the 
District of Columbia through the U.S. Treasury and adjusted in the 
subsequent years for actual costs. In the past several years, the AOC 
has not received the estimate to include in its budget request.
    The Capitol Power Plant is a tri-fuel plant, which burns #2 fuel 
oil, natural gas and coal. Each fuel unit can be converted to a common 
unit of energy. The mix of fuels used varies based on the cost of the 
fuel and the availability of equipment at the plant. Coal is our 
primary fuel and historically is the cheapest fuel. However, the coal 
boilers must be co-fired with gas in order to meet current emission 
standards. We have the flexibility to burn oil or gas in one of three 
large boilers and in one of the 4 smaller boilers.
    The carryover of inventory on coal has some impact on the need to 
purchase coal. In fiscal year 2001, the inventory of coal stored at the 
coal yard and south of I-395, was burned (about 6,000 tons).
    As a result of a consent decree in 1999 and 2000, the AOC was 
prohibited from burning coal during the peak ozone (summer) months. As 
a result gas and oil were used. It should also be pointed out, in 1999 
when the fiscal year 2000 budget was being developed, the AOC had 
planned to move away from coal as its primary fuel which is no longer 
the case.
    Congress has not imposed any regulations on the power plant which 
increases our fuel cost. We procure our fuels through GSA.

                           SENATE RESTAURANT

    Senator Durbin. There was a request in the budget for the 
year 2000 for $750,000 for the Senate dining room, no request 
in the year 2001. What is your request for the next fiscal 
year?
    Mr. Boertlein. This was replacement equipment, sir?
    Senator Durbin. No. It was under the difference between the 
request and recommendation in your budget. In the year 2001, 
you asked for $750,000 in your request for the Senate 
restaurants. In the previous year, you had asked for nothing 
under that same heading. I just was curious. Do you ask each 
year for a supplemental appropriation for the Senate 
restaurant?
    Mr. Boertlein. That is additional funding going to the 
Senate restaurant that supplements the cash receipts.
    Senator Durbin. One year it shows $750,000, the previous 
year no request.
    Mr. Boertlein. I think that, sir, has been in there for the 
last several years at the $750,000 level.
    Senator Durbin. This might have been a typo in my committee 
report. As I said, it is dangerous to hand this to a Senator.
    Mr. Boertlein. For this year, we are lowering that to 
$650,000, but for 2000 and 2001, it was at the $750,000 level. 
Prior to 1999, it was actually at $1,433,000. So, it was cut 
dramatically in 1999.
    Senator Durbin. Educate me, if you will, since I am new in 
this position. Do we run the Senate dining room or does someone 
else manage it?
    Mr. Boertlein. Yes, we do manage that.

                         CAPITOL VISITOR CENTER

    Senator Durbin. I want to, in the closing minute or two 
that we have here, say that the thing that I have learned very 
quickly here is that your office is much more than an 
Architect's office. It is probably more a management office. 
There are some things that trouble me greatly about the 
management of the Architect's office, but I want to be fair to 
you. If you have made progress, I want to give you credit where 
it is due, but if no progress is being made, I am going to be 
very blunt about it.
    I look at the progress on the Dirksen Building renovation, 
and it looks like good work. I was in the middle of this on the 
third floor just a few months ago, and I thought it was handled 
well. I really think we are proud of the outcome and you should 
be, too. Whoever is involved in managing that has done a good 
job.
    But it is certainly frightening to think that we would turn 
over the Capitol Visitor Center to the same people who did the 
Botanic Garden and wonder if they are going to miss it by a 
year and a half or more in terms of the outcome. You talk about 
the complexity of the Botanic Garden. Consider the complexity 
of a project that costs 10 times that amount, that digs under 
the east front of the Capitol and puts in a massive Visitor 
Center, as you have shown me, with a lot of very technical 
requirements involved in it that may even go beyond the Botanic 
Garden.
    As a result, I am anxious to see the Visitor Center go 
forward, but I want to make certain that we do it with the best 
management techniques, that when it is all over, we meet our 
deadline in terms of when it will be completed, at the budget 
level that we have programmed. And that the American people are 
proud that we have done a good job for them. I look at the 
Botanic Garden and worry that we may not be able to do that 
unless we change our management approach to this project.
    Mr. Hantman. We have four major initiatives, Mr. Chairman, 
that will assure that this project is going to be handled in 
quite a different way. One of those initiatives is a dedicated 
project team, which has never happened at the Architect of the 
Capitol before. We are hiring people who are being charged to 
the project specifically. Our project manager we hired away 
from the Pentagon who is doing a $500 million renovation over 
there. These are people who are totally dedicated. A 
procurement person, a budget officer, who are totally dedicated 
to that project.
    We also have hired a nationally recognized construction 
management firm. With the help of the General Services 
Administration, we went out nationally and we hired a 
construction management firm who is going to be responsible for 
budgets and schedules on a day-to-day basis working with us, 
kind of a belt and suspenders type of approach.
    We are also partnering with the General Accounting Office. 
They are sitting in on all our meetings and if there is a 
pothole in the road that they see, they are telling us about 
that so we can get our policies and procedures straight so that 
we can appropriately manage this project.
    And the fourth one, Mr. Chairman, really deals with the 
method of contracting. What we are talking about here is not 
low bid. What we are talking here is best value to the 
Government to make sure that past procedures, past 
accomplishments, and the ability of people to perform is 
paramount in our selecting a contractor to do the actual 
construction.
    These are all major and we can talk about them in greater 
detail.
    Senator Durbin. I will pursue that. I thank you for the 
information you gave me the other day. I want to follow up on 
it to make sure I understand it even more.
    I have to run to a vote.

                     ADDITIONAL COMMITTEE QUESTIONS

    At this point, I would like to make a note for the record 
that Senator Mikulski of Maryland has a continuing interest in 
your operations. I have been requested to submit several 
questions on her behalf. Therefore, without objection, Senator 
Mikulski's questions and your responses thereto will be 
included in today's hearing record.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard J. Durbin

                         MANAGEMENT CHALLENGES

    Question. The Architect's office has had some management and 
operational challenges over the years in such areas as human resources, 
financial management, project management, and adapting to the 
Congressional Accountability Act. You have recently made some personnel 
and organizational changes.
    What are the highest priority management challenges for the year 
ahead and are you confident you have the right people and organization 
in place to address your key challenges?
    Answer. The highest priority management challenges facing the 
Architect of the Capitol are to continue the advancement of our 
organizational and business planning efforts. Through this process, the 
Architect has been working with agency managers in setting 
organizational priorities, developing a process for quantifiable 
objectives and measures, and developing a process for monitoring 
progress. In addition to maintaining a focus on facilities operations 
and maintenance, the cleanliness of the buildings, and on improvements 
to these services, we have set short and long term goals for:
  --Fire, Health, Occupational, and Environmental Safety
  --Improving Employee Support
  --Effective Administration of Current Construction Initiatives
  --Advancing Quality Assurance.
    The continued development of our cadre of managers and supervisors 
so that they can more effectively carry out their responsibilities in 
support of the Congress and this agency is a priority. This includes 
responsive management and development of their human resources; 
advancing the fire and life safety programs of the agency; ensuring 
that employees work safely so as to reduce the number of injuries in 
the workplace; improved communications with employees.
    Adequate space to house our employees is also an issue. We are 
facing a shortage of office space for our staff. We have reviewed 
available space, have re-configured office layouts to make the best use 
of space, and have consolidated organizational units, but even with 
these adjustments, we do not have the necessary space to properly house 
the staff. We are currently looking at other options and will make 
space recommendations in the near future.
    Question. Over the past several years, Congress has passed 
legislation such as the Government Performance and Results Act and the 
Chief Financial Officers Act, with the intent of improving the overall 
management and efficiency of the federal government. Some legislative 
agencies, while not required to, have elected to implement these laws 
because they view them as prudent management practices. Is the AOC 
following these management ``best practices?'' If not, what management 
practices are you following to ensure that your organization is 
efficiently and effectively spending taxpayer dollars?
    Answer. The AOC is in the process of developing goal setting plans 
which will enable it to follow industry ``best practices''. These plans 
are being developed in various areas of the agency.
    The AOC is in the process of hiring a Chief Financial Officer and 
has funds included in the fiscal year 2002 request to hire a CPA firm 
to perform an ``audit'' of pro forma financial statements. While this 
is not a formal audit, it will prepare the AOC for its first true audit 
that is expected for the fiscal year ending September 30, 2003. Because 
the agency's new financial management system is being implemented in a 
phased approach, this is the earliest an actual audit can be performed.

                             WORKER SAFETY

    Question. What types of accidents are recurring routinely and are 
you conducting root cause analysis to determine why? How much is 
included in your budget for worker safety and how does that compare to 
fiscal year 2001? How much is included for worker safety-related 
training? When will you have a strategic plan, including cost 
estimates, in place for addressing worker health and safety issues?
    Answer. The AOC total injury and illness rate is unacceptably high. 
Back injuries represent over 20 percent of all AOC injuries; upper 
extremity injuries (fingers, hands, and arms) are the second 
predominant type of injury; followed by lower extremity injuries (legs, 
ankles, and knees); and head and eye injuries are next. Back, arm leg, 
and knee injuries typically include strains, sprains, twists, and 
twinges. Finger and hand injuries are typically cuts, bruises, and 
dislocations. Head injuries typically consist of bumps, cuts, and 
foreign material in the eye.
    The AOC workforce is almost 80 percent blue collar; many jobs 
entail physical labor. Laborers, custodial workers, electricians, and 
food service preparation workers had the highest numbers of injuries in 
fiscal year 2000. This is consistent with other organization's injury 
experience We must create a ``safety first'' attitude within the AOC.
    Investigations of worker injuries are conducted but the existing 
process does not include root cause analysis or sharing of lessons 
learned across the Agency. Emphasis to date has been on management of 
the injury once it has occurred; we need to focus on prevention. We 
recognize this weakness and are in the process of revising our injury 
and illness investigation process; advancing it to include reporting 
and investigation of near misses, root cause analysis, development of 
corrective measures, and sharing of lessons learned. Investigation 
process training will then be provided to safety committee members, 
safety specialists, and supervisors.
    The AOC capital amounts include the following projects related to 
worker safety in fiscal year 2001 and fiscal year 2002:

Projects relating to Worker Safety

Fiscal year 2001:
    Roof Fall Protection, Capitol Building....................  $555,000
    Roof Fall Protection, Hart Senate Office Building......... 1,678,000
    Roof Fall Protection, Design, House Office Building.......   123,000
    Emergency Shoring &amp; Repairs to Tunnels, Power Plant.......   200,000
    Replace Partition Supports, JMMB..........................   200,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 2,756,000
                    ==============================================================
                    ____________________________________________________
Fiscal year 2002 request:
    Implementation of Safety Programs.........................   450,000
    Upgrade Lawnmower Shop Ventilation........................   230,000
    Renovations to USCP Dignitary Protection..................   210,000
    House Roof Fall Protection................................ 2,444,000
    Tunnel Emergency Shoring &amp; Repairs........................   100,000
    Ventilation in Coal Bunkers...............................    56,000
    Replace Partition Supports, JMMB..........................   300,000
    Replace Compact Stacks Safety, JMMB.......................   300,000
    Library Roof Fall Protection.............................. 1,778,000
    Botanic Garden Administration Building....................   200,000
    Botanic Garden Roof Fall Protection.......................   131,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 6,199,000

    The AOC operating amounts in fiscal year 2001 and fiscal year 2002 
that relates to worker safety are detailed below.
  --Monitoring, Publications, Medical Surveillance &amp; Services, from 
        $234,000 to $350,000;
  --Safety apparel and supplies, from $156,000 to $172,000;
  --Training related to safety, from $312,000 to $350,000;
  --Employee safety items such as gas detectors, respirator, harnesses, 
        cones &amp; barriers, welding masks, etc. are purchased and charged 
        to general supplies accounts;
  --Safety items for temporary project employees are charged to the 
        associated project.
    We have recently developed a high level 5-year Occupational Health 
and Safety (OHS) plan to meet our injury reduction goal (10 percent 
reduction per year for each of the next 5 years) and established the 
following priorities:
  --Hiring required staff (Central &amp; Jurisdictional recruitments are in 
        process),
  --Development of job hazards analysis process and policy (underway) 
        and performance of job hazards analysis for all work (to be 
        completed fiscal year 2002) so that hazards can be identified 
        and eliminated or controlled,
  --Improvement of the injury/illness investigation process (underway) 
        to include root cause analysis and implementation of corrective 
        actions across the Agency to prevent recurrence,
  --Development and inspection and audit process such that we 
        critically evaluate our work and identify and correct 
        deficiencies (to be completed in fiscal year 2002), and
  --Development, Approval, and Implementation of 41 Safety Programs 
        (implementation of the last program will be completed in fiscal 
        year 2005).
    The detailed requirements of safety program implementation have yet 
to be defined. We will submit a 5-year plan with specific project 
funding requests with our fiscal year 2004 budget request.

                         CAPITOL VISITOR CENTER

    Question. Can you give us an update on the Capitol Visitor Center, 
including the current cost estimate and a description of what that 
price includes. What are the biggest challenges you face in completing 
this project on-time and within budget?
    Answer. The AOC Design Team is currently in the Construction 
Document Phase and 50 percent complete documents were submitted to the 
AOC for review at the end of April 2001. Due to the complexities of the 
design, particularly in the interface with the Capitol Building, a 75 
percent Submission has been added to the schedule for AOC review. The 
75 percent Submission is due in the beginning of August 2001, with 100 
percent Documents due in mid November 2001.
    Two separate estimates are currently underway based on the 50 
percent complete construction documents. The AOC is working with the 
Design Team and the Construction Manager to reconcile these estimates 
to ensure that both estimates correctly reflect the project scope and 
design intent. Once the estimates have been reconciled, the AOC will 
consider a range of value-engineering options that can reduce the 
estimated cost without the affecting the quality or efficiency of the 
project. The AOC remains confident that the CVC project can be built 
within the original $265 million budget.
    The cost estimate produced at the end of the Design Development 
Phase was within 2 percent of the $265 million project budget, which by 
standard construction industry practice is ``on budget'' for that stage 
of the process. Two separate estimates--one by the Design Team and the 
other by the Construction Manager--were produced in June 2001 based on 
the 50 percent complete construction documents. The AOC is working with 
the Design Team and the Construction Manager to reconcile these 
estimates to ensure a true ``apples to apples'' comparison and to 
arrive at the most accurate numbers possible. The approximate range of 
total project cost based on the latest drafts of these estimates is 
from $260 to $280 million. It is expected that these estimates will be 
further reduced during the reconciliation process as the scope of the 
project is further refined. In addition, approximately $20 million in 
potential cost savings that can be achieved without sacrifice in 
quality of efficiency have already been identified in the higher of the 
two estimates. The AOC remains confident that the CVC project can be 
built with the original $265 million budget.
    The project remains on schedule. Assuming timely approvals and 
availability of full funding, the CVC will be completed in the summer 
of 2005 with partial completion in support of the inaugural slated for 
January 2005. Pre-construction work is slated to begin this fall with 
tree preservation and utility relocations. On the advice of the 
Construction Manager, the utility pre-construction work has been 
expanded to include all utility relocations that will be necessary 
before heavy construction begins. (The original schedule called for 
much of this work to be done with the heavy construction as part of the 
general construction contract.) Final drawings for the pre-construction 
package are due in July, with utility relocation work anticipated to 
begin in the late fall of this year (2001). Construction documents for 
the general construction contract will be complete by December 2001. 
Procurement will take approximately 6 months, putting the start of the 
heavy construction around June 2002.
    The design for the Capitol Visitor Center calls for a three-story 
underground structure to be built below the East Plaza. The design of 
the CVC has been conceived as an extension of the Capitol, an extension 
that will enhance the experience of the millions of annual Capitol 
visitors, providing them with greater comfort and accessibility, as 
well as new educational opportunities that currently do not exist. In 
addition to food service facilities, restrooms and gift shops, the CVC 
will provide approximately 20,000 square feet of museum quality 
exhibition space and two 250-seat orientation theaters that will be 
designed to inform visitors about the Capitol and provide resources on 
the workings and history of Congress and the legislative process. The 
project also includes a new monumental stair and elevators inside the 
East Front Extension which will significantly improve accessibility for 
visitors to the Crypt, Rotunda, and Gallery Levels of the Capitol 
particularly for those persons with disabilities. In addition, the 
project includes a 450-seat Congressional Auditorium, constituent 
assembly rooms, an underground service tunnel and loading dock, and 
approximately 85,000 square feet of unfinished shell space both of the 
House and Senate sides for future finishing and use by Congress. The 
total square footage for the entire project is approximately 580,000 
square feet.
    The biggest challenges we face in completing this project on-time 
and within budget are: (1) Timely decision making for design, funding 
and construction issues; (2) Project funding and procurement 
procedures; and, (3) Conflict between construction and on-going Capitol 
operations.
    Question. What procedures have been implemented to ensure that 
schedule delays, deliverables or cost overruns are identified early--
for this project and all projects? Has the schedule slipped from the 
original schedule? If so, please explain.
    Answer. To help guard against schedule delays, cost overruns, and 
other problems, the AOC has hired the Gilbane Building Company, a 
nationally recognized firm that has served as an owner's agent on such 
projects as the Air and Space Museum, Union Station, and the Vietnam 
Veterans Memorial. Gilbane was selected through a competitive process 
conducted with the help of the General Services Administration. Gilbane 
has been an integral part of the Project Team since January 2001; their 
input in such areas as logistics, constructibility, and technical 
support has provided valuable insight to the AOC and its consultant 
team. With the recommendation of Gilbane, a 75 percent submission has 
been added to the Construction Document schedule in order to allow for 
more detailed documentation and more thorough review of the work that 
will occur within the East Front Extension. This additional advance 
planning will reduce the potential delays and cost overruns in this 
highly complex part of the CVC project. Based on their extensive 
experience with large construction projects, Gilbane has also 
recommended pulling all of the utility relocation work out of the 
general contract for construction and putting it into an expanded pre-
construction package as a way to reduce the risk to the AOC. (If 
unforeseen conditions are encountered, they impact only the pre-
construction contract and not the much larger general construction 
contract.) Furthermore, this strategy provides an unencumbered site for 
the general contractor, enabling faster mobilization and a more rapid 
start for the major construction. Construction Documents for the single 
pre-construction utility package will be finished in July 2001, with 
construction beginning in the fall. Construction Documents for the 
general construction contract will be complete by December 2001. 
Procurement will take approximately 6 months, putting the commencement 
of the heavy construction around June 2002, the same time that was 
anticipated by the 1999 Revalidation Study. Gilbane is confident that 
there should be no change in the completion date--the facility should 
still be completed in the summer of 2005 with partial completion in 
support of the inaugural in January 2005.
    Question. Do you anticipate additional appropriated funding will be 
needed? When are funds needed in order to meet the current schedule?
    Answer. The project budget is $265 million, of which $100 million 
has already been appropriated. Some portion of the remaining $165 
million will need to be appropriated, depending on how much money is 
available from the Capitol Preservation Fund and how much is raised by 
the Fund for the Capitol Visitor Center and by commemorative coin 
sales. Regarding timing, full funding will need to be in place before a 
bid package for the general construction contract is released in 
December of this year.
    Question. When do you plan to award a construction contract? Do you 
plan to complete and award a single general construction contract? If 
not, what alternatives are under consideration?
    Answer. It is anticipated that major construction contract will be 
awarded around May of 2002. That date is based on a 6 month procurement 
process which should begin in December of this year. As described 
earlier, the AOC plans to complete utility and site preparation work 
prior to the start of the heavy construction. The AOC has also begun 
discussions with Gilbane regarding all available options for procuring 
the general construction contract. The discussions have included 
methods for selecting a contractor or contractors such as best value/
source selection, options for packaging work such as issuing a separate 
foundation/structure contract, and other procedures that are considered 
the best practices within the construction industry.
    Question. What were the results of the 50 percent review of the 
construction documents for completeness, accuracy and reasonableness?
    Answer. The 50 percent documents were submitted on April 27, 2001 
and were reviewed by the AOC staff for design intent. They were 
determined to be appropriately complete, accurate, and reasonable for 
that stage of development in the project. Gilbane is currently 
performing a technical review of the 50 percent submittal. They will 
also perform a ``back check'' to make sure that all changes/comment do 
get incorporated into the documents.

                                STAFFING

    Question. The budget indicates it includes funds for 48 additional 
staff. What is your current on-board staffing, and what are you 
proposing to increase it to next year?
    Answer. The current on-board head count for the AOC is 2,018, 
including part-time, temporary, Davis-Bacon and summer employees. An 
additional 132 are paid from the revolving fund of the Senate 
Restaurant.
    The projection for full-time equivalent (FTE) employment for fiscal 
year 2001 is estimated at 1,781. Each FTE is equivalent to 2,080 work 
hours. It is anticipated that 1,952 FTE will be realized in fiscal year 
2002, which includes an additional 48 positions that funds have been 
requested to fill in fiscal year 2002.
    Question. With the additional staff, will you be at the optimal 
staffing level, or do you project the need for outyear increases? What 
is the basis for this estimate?
    Answer. The increase of 48 positions in the fiscal year 2002 budget 
addresses only the most critical positions of a much longer pending 
list. It is anticipated that outyear increases in staffing will be 
required. AOC managers have requested an additional 180 positions that 
have been deferred. New facilities (such as the reopening of the 
Botanic Garden and the opening of the National Garden), as well as the 
increased staffing requirements relating to compliance with various 
legislation, indicates that additional staff is needed. The impact of 
implementation of new programs, such as 41 safety-related efforts, 
requires human resources funding.
    Question. Has the AOC conducted a human capital study to analyze 
what the optimal staffing level should be?
    Answer. No. As part of our business planning process we are in the 
process of identifying the most effective and optimum staffing levels 
required to provide excellent levels of service to the Congress.

                             BOTANIC GARDEN

    Question. I understand the Botanic Garden is a year-and-a-half 
behind schedule, meaning it will not open until November, 2001. What 
has caused this significant delay, who was responsible, and why weren't 
we informed of the delays early on?
    Answer. The Renovation of the Conservatory of the United States 
Botanic Garden was originally scheduled for construction completion in 
September 2000. The original schedule indicated that plants provided by 
the Contractor would also have been installed at that time. The 
installation of the rest of the plants was to be done by the Botanic 
Garden staff and that was scheduled to continue for another four to six 
months. A formal public opening would have occurred in March 2001, 
although scheduled tours and events would have been available from 
December 2000.
    As the Committee is aware, this project renovates an historic, 
unique and monumental building. Renovation projects, by their nature, 
are subject to delays that are not encountered in new construction. 
Many unforeseen delays have been experienced during the course of this 
project. Delays were due to events such as unknown site conditions, 
including poor subsurface soil and asbestos that were not previously 
known to exist.
    Progressive discovery of unforeseen structural conditions also 
complicated the construction sequence. For example, upon removal of the 
brick enclosure around the roof and trusses, excessive corrosion 
required the addition of brackets to ensure structural integrity of the 
roof, adding time and cost. Application of a state-of-the-art glazing 
system to an existing structure required extensive redesign to maintain 
the historic profiles. The facility was not previously air-conditioned, 
and all new mechanical space is subterranean. Subterranean space did 
not formerly exist. The new mechanical and air conditioning systems, 
installed below grade to maintain the historical look of the existing 
building, required many days of additional on-site coordination 
including adjustments and redesigns to accommodate existing foundations 
and future plantings. When actual components are procured, only then 
can the final coordination occur to fit the configured reconstructed 
spaces within the existing foundations. Working under the existing 
structure in tightly confined spaces also limited the manpower and size 
of equipment normally utilized for this size project.
    During this process, this agency continually urged the contractor 
for greater coordination and more qualified technical supervision. In 
addition, sub-contractor manpower was noticeably deficient in all 
trades. Continued discussion on these issues proved pointless and a 
Cure Notice was issued in February 2001. This action brought about the 
needed changes in management and staffing required for a project of 
this complexity. With this revised staffing in place, substantial 
completion of the construction is scheduled for September, 2001.
    The reality of today's construction market is also a factor that 
cannot be ignored. Sub-contractors are finding it impossible to locate 
qualified tradesmen to staff their jobs. Often times, workers are 
pulled from one job to complete another at the expense of the first 
job. Larger projects are siphoning work force resources, thereby 
creating problems for the smaller projects with less profitable price 
tags.
    In addition to unforeseeable construction conditions and contractor 
management concerns that delayed this project, other design problems 
became apparent during construction. The associate architect engaged in 
the design of the renovation did not respond expeditiously to AOC 
requests for re-design. This office will follow up on these issues and 
proceed with any claim that may be necessary.
    The Botanic Garden Conservatory Renovation Project has included in 
its budget a 10 percent contingency. To date, the changes to the 
project fall within this contingency. It should be noted, however, that 
this office has been placed on notice that the Contractor will pursue 
claims for additional money and time as a result of delays. We intend 
to vigorously defend the Government's rights in these issues and to 
minimize the impact on the project.

                                  RENOVATION OF THE BOTANIC GARDEN CONSERVATORY
                              [Status Reports With Reference to Completion Delays]
----------------------------------------------------------------------------------------------------------------
   Date of Transmittal Letter        Period of Report                            Comments
----------------------------------------------------------------------------------------------------------------
1/11/2000......................  December 1999..........  First mention in report that there were problems and
                                                           completion may be after the contract completion date.
3/6/2000.......................  January 2000...........  Advised that Palm House and other areas would not be
                                                           ready by September 2000.
4/3/2000.......................  N/A....................  Letter to Chairman Bennett forwarding AOC's 4/3/2000
                                                           response to Chairman Taylor's 3/21/2000 letter on
                                                           project status. This letter spelled out some of the
                                                           problems that had been encountered and reiterated
                                                           that the project would not be complete by September
                                                           5, 2000.
5/5/2000.......................  March 2000.............  Advised that we directed Clark Construction to
                                                           complete all areas but Palm House and site work by 12/
                                                           30/2000 and those areas to be completed by 3/31/2001.
5/25/2000......................  April 2000.............  Reiterated dates from previous report.
6/19/2000......................  May 2000...............  Transmittal letter explained changes to shade cloth
                                                           system, fogging system and deletion of the work in
                                                           the two courtyards. Report reiterated dates from the
                                                           previous report.
10/10/2000.....................  September 2000.........  Report advised that contractor had indicated that all
                                                           work may not be done by 3/31/2001.
2/27/2001......................  January 2001...........  Advised that Cure Notice had been issued and planning
                                                           for a September 2001 reopening was underway.
4/30/2001......................  April 2001.............  Report goes thru status and indicates that public
                                                           opening is being targeted for November 2001.
----------------------------------------------------------------------------------------------------------------

    Question. Are you confident you now have the systems in place such 
that these sorts of delays and communication problems will not occur in 
the future?
    Answer. We are moving to implement systems to preclude these sort 
of problems in the future. However, construction delays are an inherent 
potential hazard of the business. In some cases they are unavoidable 
despite every effort taken to avoid them. However, the AOC is, and 
continually will be, striving to improve the management of all 
projects.
    As to lessons learned, the Botanic Garden Renovation Project has 
been selected as one of the AOC case studies in the new Best Practices/
Project Delivery Process. At the completion of the project, a complete 
review of the project will be conducted to determine what went wrong 
and what can be done better. The history of this project confirms the 
need to continue with the new and improved review processes.
    At the Committee's direction, the AOC has implemented the 100 
percent design process for projects so that firm cost estimate is 
available for project construction. The Conservatory project did not 
follow this model because it preceded the 100 percent design process 
requirement.
    The extended design period also had an adverse impact on this 
project, as it would on any construction project. Several years passed 
from the time of the design to the receipt of funds and construction. 
During the interim, various members of the design consultant team were 
replaced; various construction scenarios were mandated, the drawings 
revised accordingly and then changed back; changes in materials and 
technology were incorporated as well as some program changes. These 
issues adversely affected the quality of the final bid documents. The 
schedule for restarting the project was overly optimistic. The time 
necessary to get the project ``back up to speed'' after the interim 
hold was extensive. During this time, construction for the Botanic 
Garden project was not anticipated to be forthcoming, therefore other 
projects were prioritized and commenced. Also, in hindsight, the 
staffing that was placed on the project should have been augmented 
sooner. Finally, the Contractor's management staff was, in our opinion, 
initially not up to the task of this project and this had a major 
impact on the construction process. The Contractor has since added 
experienced personnel to the project and the work is progressing.

                        FIVE-YEAR CAPITAL BUDGET

    Question. Your capital budget is based on a 5-year plan. Last year, 
you provided us with a 5-year budget plan for fiscal year 2001 through 
fiscal year 2005 which totaled $666 million. This year, your budget for 
fiscal year 2001 through fiscal year 2005, including those funds 
appropriated last year, totals almost $800 million. What accounts for 
this very large increase--20 percent--over last year's 5-year estimate?
    Answer. Nine projects account for the most of the increase over 
what was reflected in the fiscal year 2001 budget; however, there were 
some decreases, although relatively minor in nature. All of the 
increases were related to items that were reflected as out-year items 
either in the 2001 budget or the 2002 budget. The shift from equipment 
replacement in the East Refrigeration Plant to the expansion of the 
West Refrigeration plant accounted for $33 million. The inclusion of 
multi-media improvements in both House and Senate committee rooms added 
$19 million. There were eight cyclical maintenance projects in various 
House Office Buildings that added $33 million. Utility tunnel work 
added $15 million. The construction estimate for the proposed garage on 
Square 724 increased by $15.5 million as capacity was maximized, 
renovations to the House East and West Underground garages increased by 
$11 million, and repairs to the Rayburn garage increased by $6.4 
million. The estimate for the LOC's Copyright Deposit Facility 
increased by $12 million. All of these projects contributed to the 
overall increase in the capital budget estimate.
    Question. Should we expect the 5-year plan for fiscal year 2002-
fiscal year 2006 presented in this year's budget will grow 
significantly beyond the current estimate of $906 million?
    Answer. The objective of the 5-year plan is to give the AOC 
oversight committees an idea of the projects, construction and required 
resources that are seen on the horizon. In many cases, the reflected 
cost of those projects that are projected several years out are very 
rough estimates. Until studies are done to identify the scope of the 
problem or schematic designs are completed, we realize that many of 
these numbers are not much more than best guesses. However, as projects 
get close to the budget year and studies, and designs are completed, 
these estimates will become more realistic. There is no doubt that 
additional projects will likely be identified by both the AOC and our 
clients. There is also the dilemma that occurs when a seemingly simple 
solution expands with further scope investigation. The AOC will make 
every effort to provide the best estimates available, although out-year 
estimate increases are likely to occur.
    Question. How meaningful is this 5-year plan when it differs so 
radically from last year's plan?
    Answer. The AOC believes that the 5-plan is useful in providing the 
oversight committees with an idea of future capital requirements. 
Estimating projects, especially renovation projects, that are 3, 4, or 
5 years on the horizon cannot be done to a high level of accuracy. The 
out-year estimates are considered ``place holders'' until studies and 
designs can be completed. The out-year estimates are not intended to 
reflect the final cost of the proposed project. This information is 
intended to form a basis of future workload and resource requirements.
    Question. What major capital projects should we be expecting in the 
out-years?
    Answer. The AOC has identified 45 out-year projects that are 
estimated to each cost $4 million or more. Some of the most significant 
are: Upgrade Building Systems in the Capitol; Upgrade the Cable 
Television System; Construct a Garage on Square 724; Construction of a 
USCP Command Center, Replace Windows and Doors in the RSOB and the 
CHOB; Upgrade HVAC Systems in the RHOB and CHOB; Repairs to the East 
and West House Underground Garages; Utility Tunnel Modernization; 
Expansion of the West Refrigeration Plant; and Construct a Copyright 
Deposit Facility for the Library.

                          FINANCIAL MANAGEMENT

    Question. You are implementing a new financial management system 
and have included $2.1 million in your budget request to complete Phase 
2 and for Phase 3. Could you give us a status report of implementation 
of the new system?
    Answer. The Financial Management System (FMS) project is the 
implementation of a modern federally compliant financial management 
system for the AOC. An FMS office staffed with 5 systems accountants 
was established to implement and maintain the system. The FMS project 
is being performed in a phased approach as follows:

----------------------------------------------------------------------------------------------------------------
Phase          FMS Module           Scheduled Implementation Date            Estimated Funding Required
----------------------------------------------------------------------------------------------------------------
    1General Ledger              10/01/2000.....................  $1,200,000 funded
    2Base System Modules:        03/01/2002.....................  $1,475,000 funded; $1,356,000 fiscal year
         Budget Execution                                          2002 request
         Purchasing
         Accounts Payable
         Disbursements
         Accounts Receivable
    3Contracting                 10/01/2002.....................  $720,000 fiscal year 2002 request
    4Fixed Assets                04/01/2003.....................  $671,000 unfunded
    5Inventory                   10/01/2003.....................  $972,000 unfunded
                                                                 -----------------------------------------------
           Total                 ...............................  $6,394,000 total of 5 phases
----------------------------------------------------------------------------------------------------------------

    The 1st phase of the project (Standard General Ledger) was 
successfully implemented on schedule on October 1, 2000. The FMS 
project is now working on the 2nd phase of the project to implement the 
other base modules of the system. Phase 2 is scheduled to ``go live'' 
on March 1, 2002.
    The FMS system will also be integrated with the following other AOC 
systems:

----------------------------------------------------------------------------------------------------------------
                  System                          Integrated Data             Scheduled Implementation Date
----------------------------------------------------------------------------------------------------------------
National Finance Center Payroll System     Payroll costs by employee     Completed 10/01/2000
 (NFC).                                     and organiza-  tion.
Project Information Center System (PIC)..  Project budgets, and          In process for 3/1/2002
                                            obligations.
Computer Assisted Facilities Management    Work Order costing..........  To be determined (unfunded)
 System (CAFM).
----------------------------------------------------------------------------------------------------------------

    Question. Over the past several years, numerous federal agencies 
have been working towards implementing new financial management 
systems. However, time and time again we hear about these projects 
having cost overruns, schedule delays, and failed implementations. 
These failed system implementation efforts have cost taxpayers billions 
of dollars. What processes have you put in place to ensure this does 
not occur?
    Answer. The FMS Office has and will be implementing various 
processes to ensure the FMS implementation is a success. These 
processes include the following:
  --Working with the General Accounting Office (GAO) to ensure the FMS 
        Office complies with project management best practices.
  --Working with the Legislative Branch Financial Managers Council 
        (LBFMC) for guidance and review of the FMS Implementation Plan 
        and Status Reports.
  --Development of a Configuration Management Plan and Risk Management 
        Plan to identify potential risks and identify alternative 
        solutions.
  --The AOC is currently in the process of hiring a Quality Assurance 
        Specialist to develop a Quality Assurance Plan, and review all 
        FMS testing plans and procedures.
  --Extensive system testing of the FMS software will be performed to 
        ensure functionality will meet AOC needs and comply with 
        Federal standards.
  --A Pilot Test, with AOC configured data will be performed to ensure 
        the expected results are met.
  --User Acceptance Testing will be performed to ensure system users 
        will be able to perform their jobs on a daily basis.
  --The FMS Office is making every effort to maintain costs by not 
        customizing the Commercial-Off-the-Shelf software (COTS). By 
        maintaining the baseline version, AOC will be able to obtain 
        new releases of the software at minimal cost.
    Question. Is the AOC ready for a full-scope financial statement 
audit? If not, when will it be ready and what still needs to be done to 
get ready? Once completed, will the AOC's financial statements conform 
to federal accounting principles? If not, why not?
    Answer. It is anticipated, based on the current FMS implementation 
plan, that the AOC would be ready for a full-scope financial audit at 
the end of fiscal year 2003. This would provide the AOC an entire 
fiscal year on the new system. AOC is planning a financial audit based 
on Generally Accepted Accounting Principles (GAAP), the same standards 
currently utilized by the House of Representatives. Funds are included 
in the fiscal year 2002 request to hire a CPA firm perform an ``audit'' 
of pro forma financial statements. While this is not considered an 
audit, it will prepare the AOC for it first true audit. Because the 
agency's new financial management system is being implemented in a 
phased approach this is the soonest an actual audit can be performed.
    Question. Do you believe AOC should use full-cost accounting for 
its projects, as is typical in private sector construction, to provide 
Congress with a true picture of the full cost of each project? If not, 
why not?
    Answer. Yes, the AOC believes that it should use full-cost 
accounting for its projects. However, such an approach is one that 
would require additional efforts which are well beyond the current, 
limited resources of the AOC. Existing financial policies and 
operations would need to be greatly modified and expanded to foster the 
necessary environment to support such an enhanced, more disciplined 
reporting environment. Additional personnel staffing, mostly in the 
financial area, would also be required to lead the implementation of 
the required cost accounting techniques and methodologies. In addition, 
an agency-wide cost management philosophy, with supporting policies and 
procedures, would be required to begin moving the agency towards the 
type of environment necessary to support such project reporting.
    In addition, AOC supporting systems requirements, for both 
financial and mixed systems, would need to be further refined to 
address such an environment. The implementation of both the CAFM and 
FMS systems by the AOC will help to provide much of the needed base to 
move in such a direction. However, a more focused and concerted effort, 
obviously with the necessary supporting resources and other type of 
support, would be required to completely realize a robust, full-cost 
accounting AOC-wide environment. The AOC's most optimistic projection 
for accomplishing such a worthy goal, assuming the required resources 
are forthcoming, would be at least five to six years in the future.
    Question. What is the status of hiring a chief financial officer--I 
understand the job was advertised in September--what's the problem with 
filling the position?
    Answer. The recruitment of a Chief Financial Officer/Budget 
Officer, which was first posted in August, 2000, has been difficult. 
Existing legislation gave authority and set the salary only for a 
Budget Officer which necessitated its being coupled with the CFO 
position. However, the combination of two executive financial position 
did not work well in the recruitment process. Although the duties of 
each position fall within the financial areas the actual 
responsibilities of each are very diverse and distinct. To complicate 
matters, the legislative pay limitation discouraged potential qualified 
applicants.
    To address this situation, the AOC has reissued a vacancy 
announcement for the position of Chief Financial Officer, at a salary 
level of $120,261-$125,883 in the hope that required pay flexibility 
will be granted. The posting for this position will close on August 3, 
2001. The extensive duties and responsibilities of the Budget Office 
will remain separate with that position.

                        FIRE SAFETY SUPPLEMENTAL

    Question. What is the status of the $17 million in supplemental 
funding for fire safety projects? How much remains to be obligated and 
what is the schedule for obligating the balance? When will all projects 
be completed?
    Answer. All projects within the fiscal year 2000 Emergency Fire 
Supplemental funding, with the exception of one, are scheduled to be 
obligated by fiscal year 2005 with completion in the same fiscal year. 
The remaining project, ``Smoke Detectors and Fire Alarm System, Capitol 
Building'', is scheduled to be obligated through fiscal year 2007. This 
schedule may be accelerated based on space availability. The majority 
of funds, 79 percent of the total amounts appropriated, will be 
obligated by the end of fiscal year 2002. The table below shows the 
status of funds compared to the obligation plan. As of June, 22, 2001, 
the AOC has obligated over 55 percent of the fiscal year 2001 planned 
amount and expects to award the full fiscal year 2001 planned amount by 
the end of the fiscal year.

----------------------------------------------------------------------------------------------------------------
                                                                                                        Fiscal
                                            Fiscal      Current     Fiscal      Fiscal      Fiscal     Year 2005
        Appropriation           Amount     Year 2001     Funds     Year 2002   Year 2003   Year 2004  and Beyond
                                            Planned    Obligated    Planned     Planned     Planned     Planned
----------------------------------------------------------------------------------------------------------------
Total Capitol Buildings.....  $7,039,000  $1,595,120    $685,821  $2,023,480  $1,071,000    $866,000  $1,483,400
Total Senate Office            2,314,000   1,612,330     671,362     701,713           0           0           0
 Buildings..................
Total House Office Buildings   4,213,000   2,890,516   1,587,440   1,218,570           0           0           0
Total Capitol Power Plant...       3,000       3,000       3,000           0           0           0           0
Total Library Buildings &amp;      3,885,000   2,449,769   2,024,705   1,280,231     155,000           0           0
 Grounds....................
Total Botanic Garden........      26,000      21,000           0  ..........  ..........  ..........  ..........
                             -----------------------------------------------------------------------------------
      Total All Items.......  17,480,000   8,571,735   4,972,328   5,223,994   1,226,000     866,000   1,483,400
----------------------------------------------------------------------------------------------------------------


           CAPITOL VISITOR CENTER TEMPORARY VISITOR FACILITY

    Question. The Congress and this subcommittee are concerned that 
visitors to the Capitol during construction of the project receive 
appropriate accommodations. In this regard, please discuss the plans 
for visitors during construction, particularly: The route being planned 
for visitors to access the Capitol, including changes in the tour route 
within the Capitol. Access to the Capitol for persons in need of 
assistance. The location of facilities for visitors including security 
screening, restrooms, tour information, and commencement of the tours. 
The schedule for completing the temporary facility including final 
design decisions, congressional input, procurement of construction 
services, beginning construction, and completion of the facility.
    Answer. The AOC Design Team is also concerned that visitors to the 
Capitol during construction of the CVC receive appropriate 
accommodations. To that end, the team has worked very closely with Ted 
Daniels from the Capitol Guide Service, Insp. Marsha Krug and Capt. 
Michael Preloh of the U.S. Capitol Police to develop a plan for a 
temporary visitor screening facility. These plans have received a 
favorable review from the Capitol Police Board and are undergoing 
further development and review by the appropriate authorities.
    The route that visitors will take to the Capitol during CVC 
construction will be from the west. Tour buses will drop visitors off 
at the circle on First St, SW, where they will queue on the walks at 
the base of the hill on the South-West Drive. Capitol Guides will bring 
groups of approximately 50 people at a time (similar to how it works at 
the Rotunda entrance now) up the walkway along the South-West Drive to 
a temporary ramp that leads up to the lower South Terrace, just west of 
the Cameron Elm. (This new temporary ramp would be built to create an 
accessible route to the South Terrace that is separate from the narrow 
sidewalk used for Members, Staff, and business visitor traffic heading 
for the South Door and Carriageway Door.) From the ramp, the Guides 
will lead visitors to a temporary screening facility which will be 
built on the West Terrace at the door into the connecting corridor 
between the House wing and the center section of the Capitol (next to 
the statue of Jack Swigert). The tour route inside the Capitol will 
need to be modified since construction inside the East Front Extension 
will make that area inaccessible to visitors. The Capitol Guide Service 
and the Capitol Police are working together directly to determine how 
the route will need to be modified.
    Persons in need of assistance will be accommodated with motorized 
carts (similar to those used in airports except that these will be 
equipped so that wheel chairs can be rolled on). These carts are small 
enough that they can be driven on the existing walkways with minimal 
modifications, although construction of a separate temporary cart path 
may be recommended. Individuals will be picked up at the bottom of the 
hill on South-West Drive and will be dropped off at the base of the new 
ramp to be constructed west of the Cameron Elm. The ramp will be 
constructed in accordance with ADA (Americans with Disabilities Act) 
guidelines so that all visitors will be able to make their way up the 
ramp to the South Terrace and around to the new temporary screening 
facility. New accessible ramps will also be constructed between the 
Lower and Upper Terraces and then inside the temporary screening 
facility so that these individuals can easily make their way into the 
Capitol unimpeded.
    The design of the temporary screening facility includes 
accommodations for 3 screening stations. Enough interior space beyond 
those screening stations will be provided for the Guides to comfortably 
assemble approximately two tour groups for orientation before they 
enter the Capitol itself. Also inside this facility will be a small 
office for the Capitol Police, and two offices for the Capitol Guides 
since their current offices will be removed as part of the East Front 
modifications. The current design also calls for a second temporary 
structure to be built on the opposite side at the Senate connecting 
corridor through which visitors will exit the Capitol. Restrooms will 
be provided in the exit facility because the Crypt-level restrooms in 
the East Front will be demolished when that area is under construction.
    The design for the exterior route and the temporary screening 
structures has already received a favorable review from the Capitol 
Police Board. It will be presented to the staff of the Capitol 
Preservation Commission in the next few weeks. Construction Documents 
for these facilities have already begun. We anticipate that 
construction of the facilities will begin in December of this year, 
with completion in April of 2002. Transition from the east side of the 
Capitol to the west is anticipated to occur by June 2002 when the 
general construction of the CVC is slated to begin.
    Question. The subcommittee is equally concerned that the planning 
of this facility incorporate the needs of the Capitol Guide Service. 
How have Capitol Guide Service personnel been incorporated into the 
planning for this facility?
    Answer. The Capitol Guide Service and the Capitol Police have been 
involved throughout the development of this design for temporary 
visitor facilities and both agencies strongly support the proposed 
solution. Four options for the visitor screening facility and more than 
eight options for the visitor access path were considered in the design 
process.

         PROGRESS TOWARD CONSTRUCTION OF CAPITOL VISITOR CENTER

    Question. The report that you issued at the conclusion of the 1999 
revalidation study indicated that construction of the Capitol Visitor 
Center would begin in mid-2001. The subcommittee is interested in when 
construction will commence, the cause and effect of any slippage from 
the anticipated commencement of construction in mid-2001, and the 
impact of any slippage on the facility being operational for the 
January 2005 presidential ceremonies. What is the status of procurement 
planning for this work and when do you expect construction to begin?
    What are the 3 most significant risks today for the successful, 
timely completion of the CVC? What can the CPC do to mitigate these 
risks?
    Answer. When the schedule published in the 1999 Revalidation Study 
referred to construction commencement occurring in mid 2001, it was 
referring to very limited number of pre-construction activities (tree 
preservation and limited utility relocations) which needed to be 
complete before the large general contract for construction could 
begin. At the time it was anticipated that the general construction 
contract would be awarded in January 2002, and that the first six 
months would be devoted primarily to mobilization and additional 
utility relocations. Heavy construction then would begin sometime 
around June 2002, with the CVC being operational in January 2005. On 
the advice of the Gilbane Building Company, the Construction Manager 
hired by the AOC in January 2001, the strategy has shifted. The tree 
preservation pre-construction contract will be awarded in the fall of 
this year as planned; the contract is currently in the process of being 
procured. However, the pre-construction work is being expanded to 
include completion of all utility relocations before the general 
construction contract starts. The advantage of this approach is that it 
helps limit the risk to the AOC. If unforeseen conditions are 
encountered, they impact only the pre-construction contract and not the 
much larger general construction contract. Furthermore, this strategy 
provides an unencumbered site for the general contractor, enabling 
faster mobilization and a more rapid start for the major construction. 
Construction Documents for the single pre-construction utility package 
will be finished in July, with construction beginning in the fall. 
Construction Documents for the general construction contract will be 
complete by this December. Procurement will take approximately 6 
months, putting the commencement of the heavy construction around June 
2002, the same time that was anticipated by the 1999 Revalidation 
Study. We expect no change in the completion date--the facility should 
still be operational in January 2005.
    The three most significant risks today, with the proposed 
mitigation actions, are:
    1. Risk: Timely decision making. Mitigation: Redefine process, 
empower AOC's CVC team to make the maximum number of decisions related 
to administering the design and construction process, create and 
document a hierarchy to the decision process. Establish a subcommittee 
of the CPC Leadership (perhaps a ``Building subcommittee'') to meet 
weekly to help frame solutions to more difficult issues; then establish 
a monthly reporting system to the CPC Leadership staff that reports the 
actions taken to date on the project, as well as any established 
approvals needed in advance of a decision.
    2. Risk: Project Funding and Procurement Procedures. Mitigation: 
Fully fund the CVC project to allow planning and resources to be 
committed to completion. We are planning a streamlined procurement 
process that allows contracts and change orders to be finalized in the 
shortest amount of time, a recommendation that is supported by our 
Construction Manager (Gilbane).
    3. Risk: Conflict between construction and on-going Capitol 
operations. Mitigation: We are planning to phase construction to allow 
Capitol access, which will minimize impact; we are planning a program 
to increase communication with building occupants with our project 
planning and progress, since everyone associated with the Capitol needs 
to understand the construction impact from the project, including 
potential noise and disruption. We plan to centralize communication if 
something must be shut down during construction and to establish who is 
authorized to make the call, establish who to call, and protocol that 
will define and authorize cost and schedule impact with the CVC project 
team.

                      TRAFFIC AND PARKING STUDIES

    Question. The design and engineering obligation plan for the CVC 
Project included funds to perform various studies.
    Has the AOC and their contractors started studying pedestrian 
traffic issues, vehicular traffic issues, and related parking issues, 
and if so, when did this work begin? When does the AOC expect these 
studies to be completed? Are these studies on schedule, and if not, 
why?
    Answer. The AOC has started studying pedestrian traffic issues, 
vehicular traffic issues, and related parking issues. These were 
started March 2001. The pedestrian traffic study has been completed; a 
preliminary vehicular traffic study was completed May 2000, a more 
detailed study will commence later this year, through our Construction 
Manager, to study and recommend vehicular movement related to 
construction activity on the Capitol grounds for the CVC. This study 
will focus on construction vehicles entering and exiting the Capitol 
grounds as it regards Capitol grounds parking and traffic flow. The 
parking study was completed for the Senate side of Capitol grounds, 
with preliminary results discussed with the Senate Sergeant at Arms, 
and the parking study is currently (July 2001) gathering similar 
information for the House side. All of these studies are on schedule 
with the information being prepared well in advance to allow for 
planning alternatives and parking relocation.
    Question. How many parking spaces currently devoted to Members of 
Congress will be lost both temporarily or permanently during and after 
construction of the CVC? What plans are there for parking on the East 
Plaza by Members of Congress during peak work hours during construction 
of the CVC? Have alternative parking arrangements for Members of 
Congress and staff been identified, and if so, what are those 
alternatives?
    Answer. Parking allocation on Capitol Square is arranged by Senate 
and House parking administrators. The AOC does not assign or regulate 
parking, thus we do not know who is affected. Based on preliminary 
plans, approximately 345 parking spaces will be lost temporarily during 
construction of the CVC, of these, 170 spaces will be lost permanently; 
however, not all of the spaces are lost at the same time. Plans are 
being developed with our CVC Construction Manager to show affected 
parking areas and access locations into the Capitol with estimated 
dates throughout the construction period. These plans and alternative 
parking areas have been discussed with the Senate Sergeant at Arms 
office and are currently under development with the House.
    Question. Has the AOC and their contractors considered the impact 
of tour bus drop off locations and routing on both vehicular (including 
Metro buses) and pedestrian traffic patterns on streets surrounding the 
Capitol Campus?
    Answer. It is anticipated that upon completion of the CVC most 
pedestrian traffic will approach the CVC from the east in a similar 
fashion to what happens now with the queues of visitors forming along 
the East Capitol Extension. To help alleviate some of the vehicular 
congestion along First Street the design of the CVC will incorporate 
bus drop off and pick up areas along First Street NE &amp; SE across from 
the Supreme Court and Library of Congress. The AOC Project Team has 
also been meeting with representatives of the Union Station 
Redevelopment Corporation, the Downtown Business Improvement District 
(DBID), the National Park Service, the Washington Metropolitan Transit 
Authority (WMATA), and the District Government in an effort to 
coordinate with on-going, city-wide efforts to address tour bus 
management and to start a downtown circulator bus service for the Mall, 
the downtown business district, and Capitol Hill.
    Question. Has the AOC and their contractors reached any preliminary 
conclusions on how excavated dirt and other construction debris will be 
transported away from Capitol Square? If so, what impacts are there 
expected to be on local traffic, especially during rush hours resulting 
from dirt and debris-hauling trucks? What steps does the AOC plan to 
take to mitigate these potential impacts? For example, will the Capitol 
Police be responsible for directing both construction and non-
construction traffic in and around Capitol Square?
    Answer. As part of the Design Development Phase of the project, the 
Design Team performed a preliminary analysis of how construction 
traffic should be routed. It was determined that most construction 
traffic should enter and exit the site along First Street NE/SE, 
although a limited amount related to the construction of the service 
tunnel will also need to access the site on Constitution Avenue, west 
of the North Entry Drive. Preliminary studies show that there is enough 
street capacity to handle construction traffic on First Street NE/SE, 
Constitution Avenue, and Independence Avenue heading west. Routes to 
the Southwest Freeway and to New York Avenue to the Beltway have been 
identified. Routes to the East were also considered but were dismissed 
because of the anticipated impact on the residential neighborhood of 
Capitol Hill. The Construction Manager is currently in the process of 
refining construction traffic management plans as they continue to work 
out the logistics of the project as a whole. Further study, in 
cooperation with the District Government, will be done to identify any 
changes such as re-signaling, creating turn lanes, etc. that should be 
completed to facilitate construction traffic.
    Question. Please explain the nature of the coordination that is 
occurring between the pedestrian traffic studies and those studies for 
visitor circulation in the Capitol, West Front exiting, perimeter 
security, and design of a temporary screening facility. What is the 
status of these related studies, when did they begin, and are they on 
schedule for completion? Have there been any delays in starting or 
completing any of these related studies that have adversely impacted on 
the pedestrian studies, and if so, what effect have these delays 
caused?
    Answer. The sub-consultants performing pedestrian and vehicular 
traffic studies for the CVC project have participated in Design Team 
coordination meetings as appropriate and preliminary findings have been 
incorporated into the planning of the CVC. An analysis of the 
pedestrian flow within the CVC is will be wrapping up this month. Its 
findings have shown that the Final Design as approved by the CPC in 
October, 2000 has greatly improved circulation in the facility from the 
design that had been proposed at the end of the 1999 Revalidation 
Study. The Construction Manager has been working with the Perimeter 
Security project team to coordinate logistical plans for the 
construction of the CVC as well as with the Capitol Police and Capitol 
Guide Service in developing plans for the temporary screening facility. 
The Capitol Square Traffic (once the CVC is completed) and West Exiting 
studies are also currently underway. All of these studies will be 
complete by the fall.

                     MANAGEMENT OF CAPITAL PROJECTS

    Question. The AOC's fiscal year 2002 budget request includes 
millions of dollars for capital projects, the largest of which is $42.5 
million for repairs to the Capitol Dome.
    Which of the AOC's major projects are being designed and/or built 
by in-house AOC staff and which are being designed and/or build by 
contractors? Does the AOC need to hire additional staff in fiscal year 
2002 to specifically perform any design work required for these 
projects or to administer contracts for new work?
    Answer. None of the AOC's major projects are being designed or 
constructed by in-house staff. Currently, the only project being 
constructed by in-house staff is the Dirksen Renovation Project (Phase 
II). The AOC's current direction and preferred practice is to outsource 
design on all major projects and to award construction to private 
sector general contractors. The AOC will need to bring on additional 
new hires in fiscal year 2002 to help administer consultants and 
contractors for our overall workload, not specifically for major 
projects.
    There is much maintenance, restoration and repair work to be done 
to properly fulfill our stewardship responsibilities for our aging 
buildings and infrastructure. It is important, of course, to prioritize 
this work to first address the issues that impact safety, security and 
the fundamental day-to-day needs of Congress and those who work on or 
visit Capitol Hill. Given the imperative of operational needs, and 
availability of both financial and human resources, it is necessary to 
constantly reevaluate those priorities.
    With this perspective I initiated a study, which was completed in 
March of this year, on the implications of postponing the second phase 
of the Capitol Dome restoration project. The first phase investigations 
had concluded that the cast iron support structure was well designed 
and in good condition. The main issues needing to be addressed related 
to the need for repair and maintenance of the cast iron ``skin'' or 
shell of the Dome and its related railings etc. The study concluded 
that approximately $1.6 million should be invested in the Dome to 
permit us, with proper inspections each year, to postpone the Capitol 
Dome Phase II project for a number of years, if this were deemed 
necessary. If funded, this work could be expedited and completed by the 
summer of 2002.
    Based upon this study and the need to maintain all functions in the 
Capitol with a minimum of disruption during the construction of the 
Capitol Visitor Center and other safety related projects, I have 
determined that it would be prudent to postpone the full Dome 
restoration project until a later time.
    It is therefore requested that $1.6 million for interim Dome work 
be considered in place of the full restoration request of $42.5 
million. It should of course be noted that the full restoration cost 
will escalate over the time period of the delay.
    The scope of work recommended for this interim period is listed 
below. This scope represents the work that can be done now without 
proceeding with a scope of work that approaches the full level of the 
complete project (The full report is available for review as needed).
  --Paint the exterior of the Dome over the present lead-based alkyd 
        system to rejuvenate its appearance, and cover butt joints and 
        corroded areas. It has been 13 years since the most recent 
        painting of the Dome when the proper cycle should be 4-6 years.
  --Paint the interior of the Skirt cast iron members to cover base 
        iron and protect it from further corrosion. The paint on the 
        iron surfaces at the Skirt is severely deteriorated and needs 
        to be re-coated to protect the iron.
  --Reseal the joints, cracks and defect areas to prevent moisture 
        infiltration and corrosion at exposed edges. Many of these 
        defect areas have been sealed over with temporary repairs. 
        (Inspect this work semi-annually and correct deficiencies found 
        until the implementation of Phase II.) Finish paint all 
        surfaces in the Interstitial Space that was primed and 
        intermediate coated in Phase I. This includes cast iron, 
        wrought iron hangers, steel, sheet metal walls at Second 
        Visitors Gallery, the tin canopy, Lantern Level transite walls, 
        wood railings, wood window sash, and stairs. Bare iron at 
        defect locations will require extra surface preparation to 
        remove rust, a full 3 coats of paint, and re-labeling of 
        defects. The finish coat must be added to prevent UV 
        degradation of the epoxy intermediate coat.
  --Seal ledges and joints in the Interstitial Space and Skirt. Delay 
        of the installation of a mechanical ventilation system in the 
        Interstitial Space means continued condensation, which attacks 
        these ledges and joints. The sealant will prevent moisture 
        collection in these areas.
  --Remove any loose chipped paint along the tour route, including 
        chipped plaster in the Bulfinch Stair and paint chips and dust 
        from the following surfaces: the Rotunda stone wall from the 
        Bulfinch stair to the Grand Stair and from the Grand Stair to 
        Roof A, cast iron along the Grand Stair and in the First 
        Visitors Gallery to the Interstitial Space. This is needed to 
        reduce the health risk to those frequenting the space.
  --Repair all defects in secondary members, including: Two locations 
        at ``Y'' bracket broken tab, One broken tab connector at a 
        secondary rib, One cracked tab at the base of the Cupola. These 
        are all location where tension forces acting on the cast iron 
        have caused cracks. The load mechanics that caused the failure 
        are still present and although they are not of immediate 
        concern it is not recommended that they remain for five years 
        un-repaired. For example the tab at the base of the Cupola is 
        cracked three quarters of its length and is still in tension 
        from exterior plate dead load and wind forces.
  --Seal all open joints below the Boiler Plate Level and initiate a 
        semi-annual inspection of all plate joints and gutter patches 
        to ensure the watertight integrity of the exterior shell for 
        the duration of the postponement.
  --Replace temporary wood walkway at Tholos balcony. This wood 
        structure like any home deck is subject to deterioration due to 
        moisture and UV exposure. For safety precautions it should be 
        replaced.
    Question. Please explain the process by which the AOC manages and 
monitors projects of various sizes to ensure adherence to the projects' 
budget, schedule, and quality measures and to identify variances as 
early as possible. Are there currently any staffing shortages in any 
AOC or jurisdiction that could create bottlenecks and lead to schedule 
delays and/or cost overruns on major ongoing projects or newly funded 
projects? What type of workflow analysis has the AOC performed to 
identify possible bottlenecks and what steps has or will the mitigate 
the risk of these bottlenecks having an adverse effect on projects of 
all sizes?
    Answer. In response to concerns about project delivery the AOC 
conducted a year long effort in a ``Best Practices'' program to 
analyze, refine current approaches, and develop new methods for 
producing a seamless effort to our clients. From that effort, the AOC 
now assigns a Project Manager who is responsible and accountable for 
all aspects of each project from its inception to its completion.
    The Project Manager is assisted in this effort by a Construction 
Manager from the Construction Management Division and various task 
leaders in various disciplines. All information is tracked in the 
Project Information Center (PIC) and is monitored by the Program 
Managers who are responsible for similar projects covering a larger 
spectrum of related scopes. In addition, the AOC has recently created 
the position of Special Assistant for Project and Program Management. 
This individual is tasked with monitoring and reviewing current 
projects in either design or construction and keeping the teams focused 
on any schedule, budget, design or construction issue that could hamper 
its successful completion.
    New hires are currently being recruited to assist in workload 
distribution in several disciplines and several more are needed in 
fiscal year 2002, and the out years. Specific projects such as the CVC 
and the Supreme Court Renovation have been developed project specific. 
That is a team that is created out of project funds for the duration of 
the project and that team is solely responsible for that project.
    Attrition and workload are constantly addressed during the year and 
staff resource loading is assessed accordingly. A Facilities Planning 
and Programming Department is being instituted to bring professional 
long range project development into the project planning process. This 
group will focus on out year projects and develop the programs, scopes 
issues, budgets, and staff resource loading needed to address future 
projects.
    Question. Does the AOC have a preferred ratio of project management 
to construction staff for projects of various sizes? If so, what are 
those relationships? How many major projects can a single project 
manager be in charge of before the quality of the management and 
monitoring or the actual construction work begins to suffer?
    Answer. There is no preferred ratio on Project Manager to 
construction staff for projects of various sizes. The workload of a 
Project Manager is assessed on an individual basis considering many 
factors related to that individual's skills and abilities. Some 
projects classified as major may not have the same degree of complexity 
as others and some PM's can handle more of those.
    Supervisors constantly review their staff's workload and discuss 
project concerns. Any signs of problems with the quality of the 
projects whether related to any issue such as stress or workload are 
addressed at the earliest possible moment.
    Question. Please describe the process by which the AOC will keep 
this committee informed of progress of all major projects, including 
possible schedule delays and cost overruns.
    Answer. The AOC will keep the committee informed of the progress on 
all major projects by issuing periodic progress reports.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. I understand that the contract you have with the Employee 
Advocate for six months and is part-time--20 hours a week. The fiscal 
year 2001 Legislative Branch Appropriations bill directed you to fill 
this position for one year.
    What measures will you take to ensure this position is filled for 
twelve continuous months?
    What measures will you take to ensure that, if necessary, the 
resources are made available to have a full-time, or close to full-
time, position available?
    Answer. The contact is renewable for another six months upon 
agreement by both parties. The resources to increase the time devoted 
to this position will be increased as necessary depending on the 
availability of the Employee Advocate.
    Question. I have heard that an employee was recently terminated. 
While a formal hearing was scheduled, the employee advised the AOC that 
the employee would be unable to attend, yet the hearing was held 
anyway. The result was that the employee was terminated, without having 
a formal hearing. What measures are you taking to ensure flexibility so 
that all employees will have a formal hearing before their employment 
is terminated?
    Answer. The employee was afforded the opportunity for a formal 
hearing more than once but chose not to avail himself of the 
opportunity.
    Question. As you may know, I strongly supported the creation of the 
Employee Advocate position because it was clear that employees needed 
an independent resource to provide education about AOC employment 
policies, and to help them navigate the system should they have any 
complaints or concerns.
    What level of oversight are you maintaining over the Employee 
Advocate?
    What criteria led you to determine this level of oversight?
    How do you think this level of oversight will affect the Advocate's 
ability to complete the mission of her position?
    What steps are you taking to ensure that the Advocate can act 
independently and in the best interest of your employees?
    Answer. The Employee Advocate was recommended competitively by an 
experienced consultant. The Employee Advocate is not supervised by the 
Architect of the Capitol, but will provide monthly reports to the 
Architect outlining activities and services provided to AOC employees. 
The level of oversight is intended to assure only that the Employee 
Advocate conducts educational activities within the scope of the 
contract and operative portions of the Senate and Conference reports. 
This level of oversight will not impede her ability to independently 
carry out the activities authorized by these reports and her contract. 
The expectations for the position are generally as follows: The 
Employee Advocate will:
  --serve as an educational resource for non-union employees;
  --provide assistance to non-union employees regarding issues arising 
        in the workplace so long as the issues do not concern 
        disciplinary matters in the post hearing stage in which the 
        Architect's final determination is being awaited;
  --provide informal mediation, facilitation and conciliatory 
        assistance when non-union employees waive the right to 
        confidentiality;
  --provide coaching assistance to non-union employees to empower them 
        to appropriately manage conflict;
  --provide mechanisms to ensure confidentiality, unless otherwise 
        waived; and advise management of employee concerns.
    It is clear that the role of the Employee Advocate will continue to 
evolve. This is not unusual. Typically, someone in such a role will 
conduct something akin to a needs assessment prior to establishing an 
office. That assessment then defines the role. The assessment is 
occurring simultaneously with efforts to provide the service. 
Thereafter, the role generally takes a natural course of development 
within the parameters established.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The subcommittee stands in recess. Thank 
you for your testimony.
    [Whereupon, at 11:44 a.m., Tuesday, June 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


             Material Submitted Subsequent to the Hearings

    [Clerk's Note.--The subcommittee was unable to hold a 
hearing regarding the Secretary of the Senate and the 
subcommittee has received a statement from the Financial Clerk 
which will be placed in the record at this point.]

   Prepared Statement of Timothy S. Wineman, Financial Clerk of the 
       Senate, Office of the Secretary of the Senate, U.S. Senate

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2002.
    Mr. Chairman, the fiscal year 2002 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
Fiscal Year 2002. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$680,587,249 which reflect an increase of $101,656,249 or 17.56 percent 
over the amount appropriated for fiscal year 2001 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2001 are $578,931,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2002 are divided into three 
major categories as follows:

Senate Items............................................    $109,558,149
Senate Contingent Expense Items.........................     508,117,100
Senate Joint Items......................................      62,912,000
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL.............................................     680,587,249

    Specifically, Mr. Chairman, the increase for fiscal year 2002 over 
the fiscal year 2001 enacted levels is a result of: (1) $27,086,471 
increase in administrative expenses and capital assets, primarily 
attributable to the request of the Sergeant at Arms and Doorkeeper of 
the Senate; (2) $23,711,000 increase in the budget estimate for 
Senators' Official Personnel and Office Expense Account to fully fund 
the allowances which are under-funded as a result of the consolidation 
of population categories, increases in the populations of various 
states, and the increase in the Legislative Assistance Allowance 
authorized in the Legislative Branch Appropriations Act, 1993, and the 
$50,000 per Member per year increase in the Administrative and Clerical 
Assistance Allowance authorized by the Legislative Branch 
Appropriations Acts, 1999 and 2000; (3) $14,387,872 for the anticipated 
4.8 percent cost-of-living increase for fiscal year 2002, and the 
annualization costs of the fiscal year 2001 cost-of-living adjustment; 
(4) $13,239,149 increase in agency contributions applicable to the 
cost-of-living adjustments and other personnel increase requests; (5) 
$23,231,757 for personnel adjustments other than the cost-of-living, 
attributable primarily to the budget request of the Capitol Police, the 
budget request for the Sergeant at Arms and Doorkeeper, and the 
increase in committee funding, authorized pursuant to S. Res. 54.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2002.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Library Association, letter from........................    86
Anderson, Barry, Deputy Director, Congressional Budget Office....   113

Bennett, Hon. Robert F., U.S. Senator from Utah:
    Opening statements.......................................1, 69, 125
    Questions submitted by.....................................123, 165
    Statement of.................................................   180
Billington, Dr. James H., The Librarian of Congress, Library of 
  Congress.......................................................     5
    Prepared statement...........................................     8
Boertlein, Jack, Deputy Budget Director, Architect of the Capitol   179
Brown, Richard L., Controller, General Accounting Office.........    89
Buckley, Francis J., Jr., Superintendent of Documents, Government 
  Printing Office................................................    69

Cook, Charles C., Superintendent, Congressional Printing 
  Management Division, Government Printing Office................    69
Crippen, Dan, Director, Congressional Budget Office..............   113
    Prepared statement...........................................   115

DiMario, Michael F., Public Printer, Government Printing Office..    69
    Opening remarks of...........................................    70
    Prepared statement...........................................    71
Dodaro, Gene L., Chief Operating Officer, General Accounting 
  Office.........................................................    89
Durbin, Hon. Richard J., U.S. Senator from Illinois:
    Opening statement............................................   179
    Prepared statement...........................................     1
    Questions submitted by......................................65, 236

Edwards, Rick, Administrative Assistant, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   125

Green, Gary, General Counsel, Office of Compliance...............   171
Guy, William M., Budget Officer, Government Printing Office......    69

Hantman, Alan M., FAIA, Architect of the Capitol:
    Architect of the Capitol.....................................   179
        Prepared statement.......................................   182
    U.S. Capitol Police Board....................................   153
Harper, Sallyanne, Chief Mission Support and Chief Financial 
  Officer, General Accounting Office.............................    89
Howe, Robert, Assistant Chief of Police, U.S. Capitol Police, 
  U.S. Capitol Police Board......................................   153

Johnson, Hon. Tim, U.S. Senator from South Dakota, question 
  submitted by...................................................    66

Livingood, Bill, Sergeant at Arms, House of Representatives, U.S. 
  Capitol Police Board...........................................   153

Mansker, Robert T., Deputy Public Printer, Government Printing 
  Office.........................................................    69
McAlhany, Liz, Deputy Sergeant at Arms, Office of the Sergeant at 
  Arms and Doorkeeper, U.S. Senate...............................   125
    Statement of.................................................   142
McWilliam, John, Chief Administrative Office, U.S. Capitol 
  Police, U.S. Capitol Police Board..............................   153
Mikulski, Hon. Barbara A., U.S. Senator from Maryland, questions 
  submitted by...................................................   250
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................     5
    Prepared statement...........................................    18

Paull, Lindy L., Chief of Staff, Joint Committee on Taxation.....    37
Peters, Marybeth, Register of Copyrights, Copyright Office, 
  Library of Congress, prepared statement........................    21
Poole, Amita, Administrative Assistant, Architect of the Capitol.   179

Reed, Hon. Jack, U.S. Senator from Rhode Island, prepared 
  statement......................................................     3
Robfogel, Susan S., Chairperson, Board of Directors, Office of 
  Compliance.....................................................   171

Saxton, Hon. Jim, U.S. Representative from New York, Chairman, 
  Joint Economic Committee.......................................     1
    Prepared statement...........................................     2
Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.......................................................     5
Sherman, Andrew M., Director, Congressional and Public Affairs, 
  Government Printing Office.....................................    69
Stephens, James, Deputy Executive Director for the House of 
  Representatives, Office of Compliance..........................   171
Stevens, Hon. Ted, U.S. Senator from Alaska, statement of........   180
Stoffel, Larry, Superintendent of the Senate, Architect of the 
  Capitol........................................................   179

Talkin, Pamela, Deputy Executive Director for the Senate, Office 
  of Compliance..................................................   171
Thomas, Hon. William M., U.S. Representative from California, 
  Chairman, Joint Committee on Taxation..........................    37
    Prepared statement...........................................    37
Thompson, Bill, Executive Director, Office of Compliance.........   171
    Prepared statement...........................................   172
Turnbull, Michael, Assistant Architect, Architect of the Capitol.   179

Varey, James J., Chief of Police, U.S. Capitol Police, U.S. 
  Capitol Police Board...........................................   153
    Prepared statement...........................................   160
    Statement of.................................................   158

Walker, David M., Comptroller General, General Accounting Office.    89
    Prepared statement...........................................    91
Webster, John D., Director, Financial Services, Library of 
  Congress.......................................................     5
Wineman, Timothy S., Financial Clerk of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate, prepared statement.......   253

Ziglar, Hon. James W.:
    Chairman, U.S. Capitol Police Board..........................   153
        Prepared statement.......................................   154
    Sergeant at Arms and Doorkeeper, Office of the Sergeant at 
      Arms and Doorkeeper, U.S. Senate...........................   125
        Prepared statement.......................................   127


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional committee questions...................................   236
Budget proposal..................................................   179
Capital:
    Budget.......................................................   223
    Projects.....................................................   183
        Management of............................................   248
    Requests for fiscal year 2002, major.........................   185
Capitol dome project.............................................   221
Capitol Power Plant..............................................   232
Capitol Visitor Center...............................181, 219, 234, 238
    Progress toward construction of..............................   246
    Temporary visitor facility...................................   245
Confined spaces--one of 41 mandated life safety programs.........   184
Congressional Accountability Act.................................   226
Day to day operations............................................   184
Financial management.............................................   243
Fire safety supplemental.........................................   245
Five-year capital budget.........................................   242
Full time equivalents............................................   227
Management challenges............................................   236
Parking..........................................................   219
    Garage square 724............................................   220
Pay levels.......................................................   226
Personnel needs, workload, and life safety issues................   183
Positions, increase in...........................................   225
Project time frames..............................................   220
Recycling........................................................   229
Responsibilities.................................................   181
Senate restaurant................................................   234
Staffing.......................................................222, 240
    Requests.....................................................   185
Summary of fiscal year 2002 request..............................   182
Summary statement................................................   180
Traffic and parking studies......................................   247
U.S. Botanic Garden............................................181, 240
U.S. Senate Office Recycling Program.............................   230
West refrigeration plant.........................................   181
Worker safety.............................................225, 228, 237

                      CONGRESSIONAL BUDGET OFFICE

Accomplishments in fiscal year 2000..............................   116
Additional committee question....................................   122
Congressional Budget Office educational fund.....................   123
Cost savings.....................................................   115
Cyber security...................................................   114
Educational gift fund............................................   121
Internal management strategy, progress, and priorities for 2001 
  and 2002.......................................................   117
Mainframe support................................................   114
Sensitive data, safeguarding.....................................   114
Work priorities for fiscal years 2001 and 2002...................   117

                       GENERAL ACCOUNTING OFFICE

A review of GAO's fiscal year 2000 accomplishments...............    92
Budget request critical to sustaining existing level of service 
  to the Con- 
  gress..........................................................   100
Capitol Police...................................................   108
Capitol Visitor Center...........................................   110
Critical infrastructures.........................................   110
Employment subsidies.............................................   106
Fiscal year 2001 plans and future challenges.....................    99
Fiscal year 2002 budget request..................................    99
Hiring rates.....................................................   105
Leading by example...............................................    91
Mandatory changes................................................    90
Performance budgeting............................................    91
Police forces, merging of........................................   109
Staffing levels..................................................   104
Truth in Regulating Act..........................................   108
Winter Olympics preparations.....................................   107

                       GOVERNMENT PRINTING OFFICE

Additional issues................................................    78
Congressional printing and binding...............................    79
    Appropriation................................................    73
GPO's fiscal year 2002 appropriations request....................    73
Network security.................................................    86
Results of 2000..................................................    71
Revenue transactions.............................................    83
Revolving fund...................................................    77
Salaries and expenses appropriation..............................    75
Staffing request.................................................    85

                      JOINT COMMITTEE ON TAXATION

Anticipated workload of the Joint Committee on Taxation for 
  calendar year 2001.............................................    41
Appropriation request:
    Details of fiscal year 2002..................................    38
    Summary of fiscal year 2002..................................    38
Forecasts........................................................    51
President's tax plan, revenue estimates for......................    53
Review of Joint Committee on Taxation operations during calendar 
  year 2000......................................................    39
Summary..........................................................    48
Tax simplification...............................................    52

                        JOINT ECONOMIC COMMITTEE

Joint Economic Committee research................................     2

                          LIBRARY OF CONGRESS

Additional committee questions...................................    65
American Folklife Center.........................................    32
Authorizing legislation..........................................    16
Budget request...................................................    20
    Major elements of Library's..................................     5
Capitol Police merger............................................    35
Center for Russian Leadership....................................    31
    Development..................................................    17
Collections access, preservation, and security...................    12
Computer security................................................29, 30
Cook class action discrimination case............................    17
Copyright Office.................................................    14
    Budget adjustment............................................     5
CRS:
    Changes made by to adjust....................................    19
    Changing nature of the work of...............................    57
    Computer security incidents..................................    59
    On-demand support for the Congress...........................    62
    Web site, availability of and access to the by congressional 
      State and district offices.................................    58
    Workload.....................................................    61
Digital:
    Futures:
        Initiatives..............................................    11
        Request and base funding.................................    28
    Materials, acquisition and preservation of...................     6
Equipping the CRS research environment to align with how the 
  Congress works.................................................    20
Expert staff.....................................................    20
Federal student loan repayment program...........................    33
Information requests.............................................    56
Law Library......................................................    14
Library buildings and grounds....................................    15
National Digital Program, special appropriation for the..........    27
National Library Service for the Blind and Physically Handicapped    15
Observations.....................................................    18
Productivity.....................................................    56
Quality of life, staff issues....................................    34
Recruitment, incentives for......................................    64
Security issues..................................................    58
The Library of Congress today....................................    10
Tuition assistance...............................................    64

                          OFFICE OF COMPLIANCE

Backlog..........................................................   175
Case load and budget request.....................................   173
Cases, new group of..............................................   177
Deputy Directors, selection of new...............................   176
Introductory comments............................................   172
Office of Compliance.............................................   172
Office's fiscal year 2002 budget estimate........................   173
Our budget history...............................................   172
Safety and health complaints, responses to.......................   175

                       U.S. CAPITOL POLICE BOARD

Accomplishments..................................................   159
Additional committee questions...................................   164
Capitol complex, threats within the..............................   159
Cheltenham facility..............................................   157
CPR training.....................................................   163
Demographics.....................................................   164
Management:
    Improvements.................................................   155
    Strengthening................................................   158
Officers, new....................................................   164
Pay, comparability...............................................   163
Planning, strategic..............................................   156
Staffing.........................................................   157
Strategic plan...................................................   162
Training:
    Facility.....................................................   162
    Initiative...................................................   156

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

E-mail system, new...............................................   148
Employees, additional............................................   147
Fiscal year 2002 budget request..................................   131
    By department................................................   132
House, interfacing with..........................................   150
Out-year budgets.................................................   146
Systems managers.................................................   151
Technology:
    Investment in................................................   149
    Issues.......................................................   149


</pre></body></html>
